<html>
<title> - OUR NATURAL RESOURCES AT RISK: THE SHORT- AND LONG-TERM IMPACTS OF THE DEEPWATER HORIZON OIL SPILL (PART 1 OF 3)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
OUR NATURAL RESOURCES AT RISK: THE SHORT- AND LONG-TERM IMPACTS OF THE 
               DEEPWATER HORIZON OIL SPILL (PART 1 OF 3)

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, June 10, 2010

                               __________

                           Serial No. 111-56

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
56-977                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bfcebf4dbf8eee8eff3fef7ebb5f8f4f6b5">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
Ben Ray Lujan, New Mexico            Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Gregorio Sablan, Northern Marianas   John Fleming, Louisiana
Donna M. Christensen, Virgin         Jason Chaffetz, Utah
    Islands                          Bill Cassidy, Louisiana
Diana DeGette, Colorado              Doc Hastings, Washington, ex 
Ron Kind, Wisconsin                      officio
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Ben Ray Lujan, New Mexico
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 10, 2010..........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina, Prepared statement of.........     4
    Cassidy, Hon. Bill, a Representative in Congress from the 
      State of Louisiana.........................................     3

Statement of Witnesses:
    Barham, Hon. Robert J., Secretary, Louisiana Department of 
      Wildlife and Fisheries.....................................    26
        Prepared statement of....................................    28
        Response to questions submitted for the record...........    31
    Cresson, David, Executive Director and CEO, Coastal 
      Conservation Association Louisiana, Baton Rouge, Louisiana.   106
        Prepared statement of....................................   107
    Fry, Donald Michael, Ph.D., Director for Conservation 
      Advocacy, American Bird Conservancy, Washington, D.C.......    85
        Prepared statement of....................................    87
    Lambert, Captain Ryan, Director, Louisiana Charter Boat 
      Association, Luling, Louisiana.............................   128
        Prepared statement of....................................   130
        Response to questions submitted for the record...........   132
    Lyder, Jane, Deputy Assistant Secretary for Fish and Wildlife 
      and Parks, U.S. Department of the Interior.................    17
        Prepared statement of....................................    19
    McDonough, Joanne, Nature Tourism Specialist, Alabama Gulf 
      Coast Convention & Visitors Bureau and the Mississippi-
      Alabama Sea Grant Consortium, Orange Beach, Alabama........   133
        Prepared statement of....................................   135
    Mitchelmore, Carys L., Ph.D., Associate Professor, University 
      of Maryland Center for Environmental Science, Chesapeake 
      Biological Laboratory, Solomons, Maryland..................    92
        Prepared statement of....................................    94
    Ragen, Timothy J., Ph.D., Executive Director, Marine Mammal 
      Commission.................................................    33
        Prepared statement of....................................    35
        Response to questions submitted for the record...........    40
    Robichaux, Brenda Dardar, Principal Chief, United Houma 
      Nation, Golden Meadow, Louisiana...........................    75
        Prepared statement of....................................    76
    Rolfes, Anne, Founding Director, Louisiana Bucket Brigade, 
      New Orleans, Louisiana.....................................   139
        Prepared statement of....................................   141
    Viles, Aaron, Campaign Director, Gulf Restoration Network, 
      New Orleans, Louisiana.....................................    79
        Prepared statement of....................................    81
    Voisin, Mike, CEO, Motivatit Seafoods, Houma, Louisiana......   101
        Prepared statement of....................................   103
    Westerholm, David, Director, Office of Response and 
      Restoration, National Ocean Service, National Oceanic and 
      Atmospheric Administration, U.S. Department of Commerce....     5
        Prepared statement of....................................     7
        Response to questions submitted for the record...........    14
    Williams, John, Executive Director, Southern Shrimp Alliance, 
      Tarpon Springs, Florida....................................   115
        Prepared statement of....................................   117
        Response to questions submitted for the record...........   123
        Letter to the Environmental Protection Agency and 
          National Oceanic and Atmospheric Administration dated 
          May 5, 2010, submitted for the record..................   121
        Letter to the National Oceanic and Atmospheric 
          Administration dated June 22, 2010, submitted for the 
          record.................................................   127

Additional materials supplied:
    Broussard, Michael, Corsair Charters, Letter submitted for 
      the record.................................................   157
    Fleming, Capt. Laurel, Daphne, Alabama, Letter submitted for 
      the record.................................................   157
    Irving, Lynn, Dauphin Island Kayaks, Letter submitted for the 
      record.....................................................   158
    Johnson, Melissa, Paul Nettles, Cynthia Ramseur, and Leah 
      Bray, South Coast Paddling Company, Letter submitted for 
      the record.................................................   159
    Mitchell, Capt. Bill, Orange Beach, Alabama, Letter submitted 
      for the record.............................................   160
    Nelson, Capt. J. Christopher, Alabama Kayak Adventures, Inc., 
      Letter submitted for the record............................   160
    Reas, Sherrie, Skipper ``J'' Dolphin and Nature Cruises, 
      Letter submitted for the record............................   161
    Singleman, Homer, Volunteer Water Quality Testing, Letter 
      submitted for the record...................................   161
    Wilkinson, Capt. Kathy, Eco-Tours of South Mississippi, LLC, 
      Letter submitted for the record............................   162
                                     



 OVERSIGHT HEARING ON ``OUR NATURAL RESOURCES AT RISK: THE SHORT- AND 
  LONG-TERM IMPACTS OF THE DEEPWATER HORIZON OIL SPILL'' (PART 1 OF 3)

                              ----------                              


                        Thursday, June 10, 2010

                     U.S. House of Representatives

          Subcommittee on Insular Affairs, Oceans and Wildlife

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:04 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Kildee, Christensen, 
DeGette, Sablan, Kind, Capps, Shea-Porter, Lujan, Pierluisi, 
Wittman, Fleming, and Cassidy.
    Also present: Representatives Boustany, Bilirakis, and Cao.

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
                       CONGRESS FROM GUAM

    Ms. Bordallo. Good morning, everybody. The Subcommittee on 
Insular Affairs, Oceans and Wildlife will come to order.
    Today is the first of three hearings that the Subcommittee 
will hold on the Deepwater Horizon oil rig explosion. This is 
in addition to two Full Committee oversight hearings already 
held by Chairman Rahall and two oversight hearings Subcommittee 
Chairman Costa will hold later this month.
    As the Committee with primary jurisdiction over offshore 
oil and gas drilling, we will exercise our oversight 
responsibilities to the fullest extent, and we take these 
responsibilities very, very seriously.
    Before we begin, I would like to express sincere 
condolences to the families of the 11 individuals who lost 
their lives the night of this tragic explosion on behalf of 
myself, Ranking Member Brown and the entire Subcommittee. We 
know that the healing process will be long and difficult, and 
our prayers are with them.
    Today is Day 52 of the Deepwater Horizon oil spill, and I 
suspect that for many of the people in this room, those 52 days 
feel more like 52 years. Yet, in many ways, they also must feel 
like it is a tragedy that has only just begun. Despite the fact 
that BP collected 15,000 barrels in the 24-hour period ending 
midnight Tuesday, an unknown amount of oil continues to flow 
and we have no idea how much oil has actually spilled into the 
Gulf overall.
    Also, while Federal scientists confirmed yesterday that 
there is oil floating beneath the ocean's surface, they still 
do not know the full scope of the plumes, or what their 
existence means for Gulf ecosystems. The only certainty is that 
with the still spewing well head over 5,000 feet deep, and the 
release of record amounts of oil and dispersant, the effects of 
this disaster on the ocean, estuaries, fisheries, wildlife, 
beaches and the people of the Gulf Coast are going to be felt 
long after the well has been completely capped.
    At this moment dead birds, turtles, dolphins and fish are 
washing up on our shore, and brown goo is lapping up on our 
beaches and wetlands. Below the surface, the release of oil and 
dispersant at depth is creating the plumes that I mentioned. 
Previous oil spills have shown that oil stays in these 
ecosystems for decades, damaging highly productive and 
sensitive areas that serve as habitats and nurseries for a 
large variety of species.
    Today we will begin to explore some of the short- and long-
term impacts of the oil spill on trust resources, including 
fisheries, birds and other wildlife, marine mammals, tribal 
resources, protected fish and wildlife habitat, and other 
natural areas. This morning and this afternoon, we will also 
focus on the implications for local communities who depend on 
many of those resources for their livelihoods.
    I thank all the witnesses for being here today during what 
is a very challenging and extremely busy time, and look forward 
to hearing your testimony.
    Before we go into that, I would like to recognize our 
acting Ranking Member, Mr. Cassidy, for his opening remarks.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    Today is the first of three hearings that the Subcommittee will 
hold on the Deepwater Horizon oil rig explosion. This is in addition to 
two Full Committee oversight hearings already held by Chairman Rahall 
and two oversight hearings Subcommittee Chairman Costa will hold later 
this month. As the Committee with primary jurisdiction over offshore 
oil and gas drilling, we will exercise our oversight responsibilities 
to the fullest extent, and we take these responsibilities very, very 
seriously.
    Before we begin, I would like to express sincere condolences to the 
families of the eleven individuals who lost their lives the night of 
this tragic explosion on behalf of myself, Mr. Brown, and the entire 
Subcommittee. We know that the healing process will be long and 
difficult, and our prayers are with them.
    Today is Day 52 of the Deepwater Horizon oil spill. I suspect that 
for many of the people in this room, those 52 days feel more like 52 
years. Yet, in many ways they also must feel like it is a tragedy that 
has only just begun. Despite the fact that BP collected 15,000 barrels 
in the 24-hour period ending midnight Tuesday, an unknown amount of oil 
continues to flow, and we have no idea how much oil has actually 
spilled into the Gulf overall.
    Also, while federal scientists confirmed yesterday that there is 
oil floating beneath the ocean's surface, they still do not know the 
full scope of the plumes or what their existence means for Gulf 
ecosystems. The only certainty is that with the still-spewing well head 
over 5,000 feet deep, and the release of record amounts of oil and 
dispersant, the effects of this disaster on the ocean, estuaries, 
fisheries, wildlife, beaches and the people of the Gulf Coast are going 
to be felt long after the well has been completely capped.
    At this moment, dead birds, turtles, dolphins and fish are washing 
up on shore and brown goo is lapping up on our beaches and wetlands. 
Below the surface, the release of oil and dispersant at depth is 
creating the plumes I mentioned. Previous oil spills have shown that 
oil stays in these ecosystems for decades, damaging highly productive 
and sensitive areas that serve as habitats and nurseries for a large 
variety of species.
    Today we will begin to explore some of these short- and long-term 
impacts of the oil spill on trust resources, including fisheries, birds 
and other wildlife, marine mammals, tribal resources, protected fish 
and wildlife habitat and other natural areas. We also will focus on the 
implications for local communities who depend on many of those 
resources for their livelihoods. I thank all the witnesses for being 
here today during what is a very challenging and extremely busy time, 
and look forward to hearing your testimony.
                                 ______
                                 

 STATEMENT OF THE HONORABLE BILL CASSIDY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Cassidy. Madam Chair, thank you for holding this 
hearing today. I am pleased that my colleagues are committed to 
pursuing solutions to the ongoing oil spill. The people of the 
Gulf Coast, including especially the people of my State of 
Louisiana, have had their lives upended by this disaster, yet 
the actions of this Committee, the Congress and Administration 
will also have a significant impact. Our government has the 
power to mitigate or to terribly worsen the damages caused by 
the spill.
    Madam Chair, this disaster may affect the economy of the 
Gulf for years to come. Now, while most of the Gulf remains 
open for fishing and seafood coming from the Gulf is safe, we 
are already seeing a reduction in demand for Gulf seafood. Now, 
this loss of market share does not just affect fishermen, but 
seafood processors, truckers who take the seafood to market and 
workers from almost every other aspect of the Gulf's commercial 
fishery. And it is not just commercial fishermen who suffer. 
Recreational fishermen, charter boat owners and businesses that 
depend upon recreational fishing also suffer.
    Now, the loss of habitat for fish and wildlife could take 
years to restore. The Gulf is resilient, but if an entire year 
of spawning potential for fish is lost to the spill, and the 
marshes are not able to support the juvenile fish and wildlife 
next year, it may take even our Gulf fisheries longer to 
recover.
    That said, many of the folks who make their living in the 
fisheries live next door to the folks that make their living in 
the offshore oil and gas industry, and these two industries 
have successfully operated side-by-side for years. I met 
yesterday with an oyster processor, and he said in times that 
were slow for fisheries, people would work in offshore oil and 
when times were slow for offshore oil, they would work in the 
fisheries. He is concerned that this one-two punch will be 
impossible for our coastal economy to overcome.
    Now, we all use products from the offshore oil and gas 
industry to fuel our cars, airplanes, for plastics and 
fertilizers, for a wide variety of products that come from 
petrochemicals, so it is important to remember that the United 
States relies on all the natural resources of the Gulf, and not 
just the fish.
    Madam Chair, the spill is a disaster and a tragedy. First 
of all, we must stop the leak of oil. The coastline must be 
protected, and what has been spilled must be cleaned. But the 
national economy and the Louisiana coastal economy need to 
continue to operate. While we can recover from the oil, Gulf 
Coast communities cannot endure the loss of jobs and its 
citizens.
    The Federal Government must not make knee-jerk decisions 
that further cripple the Gulf economy. We must find out what 
went wrong with the Deepwater Horizon and ensure that this 
doesn't happen again, but calls to stop all oil and gas 
production in the Gulf will only cause us to lose more jobs, 
more businesses and more of our economy.
    The Federal Government should take steps to help the people 
affected by the spill now, even before the spill is plugged. 
For example, we need to make sure that Americans know that 
seafood from the Gulf is safe. We need to work together to make 
sure that people affected by this disaster are financially 
compensated in a timely manner.
    Fishermen who have boat and insurance payments and who 
cannot work must be compensated quickly so they do not lose 
their boats and their homes, and those businesses that depend 
upon fishermen must be fairly compensated as well. Otherwise, 
they won't be there when the fisheries reopen. Whole 
communities that rely on the fishing industry could disappear 
if those affected are not compensated fairly and quickly.
    Madam Chair, our response to this disaster needs to be 
guided by facts, not emotion. Not political opportunism, but 
facts. Let us stay focused on the evidence, figure out what 
measures will ensure that the people, the economy and the 
ecosystems of the Gulf will thrive.
    Thank you, Madam Chair, for convening this hearing. I look 
forward to hearing from our witnesses. And I ask one more 
thing. Could I ask unanimous consent to submit a statement for 
Mr. Brown for the record?
    Ms. Bordallo. Hearing no objection, so ordered.
    [The prepared statement of Mr. Brown follows:]

   Statement of The Honorable Henry E. Brown, Jr. Ranking Republican 
      Member, Subcommittee on Insular Affairs, Oceans and Wildlife

    Madam Chairwoman, I want to compliment you for scheduling this 
series of hearings on the short-term and long-term impacts of the 
Deepwater Horizon oil spill.
    It has now been 52 days since the Deepwater Horizon exploded and 
sank some 42 miles off the coast of Louisiana. This spill is an ongoing 
tragedy for the Gulf Coast region, its economy, the Gulf of Mexico 
environment and the millions of people who live there.
    It is heartbreaking to see pictures of Brown pelicans and 
loggerhead sea turtles covered with oil and the growing number of 
wildlife that have perished because of this spill. It was also 
disturbing to learn that two national wildlife refuges, Breton in 
Louisiana and Bon Secour in Alabama have been directly impacted by oil 
and that 33 additional refuges along the Gulf Coast are now at risk.
    While British Petroleum has appropriately stated that it will not 
be bound by the liability limits contained in the Oil Pollution Act of 
1990, we have sadly watched as a number of BP containment strategies 
including Top Hat, Top Kill, Junk Shot and Saw and Suck have all failed 
to stop the spill.
    We have all watched in horror as the impacts of this accident grow 
with each passing day. It is sobering indeed that 78,264 square miles 
or 32 percent of the Gulf of Mexico is closed to fishing.
    We will hear testimony today confirming the fact that commercial 
fishing produces about 1.27 billion pounds of fish and shellfish worth 
in excess of $700 million dollars and that the fishing industry 
generates some 185,000 jobs in the Gulf of Mexico. This oil spill has 
not only potentially killed their livelihood at least in the short-term 
but their way of life. Every effort must be made to fully compensate 
those adversely affected by the oil spill, to expeditiously clean-up 
the effects of the Deepwater Horizon catastrophe and to restore faith 
in the people of the Gulf Coast. None of this can happen, however, 
until this well is permanently capped.
    As a representative of the 1st Congressional District in South 
Carolina, which contains some of the finest beaches in the world, I 
have not been watching this spill as a casual observer. According to 
the Unified Area Command, it looks increasingly likely that oil from 
the Deepwater Horizon will end up in the Loop Current and may adversely 
affect beaches in North and South Carolina.
    I, therefore, have a vested interest in trying to ensure that the 
Gulf Coast region has sufficient supplies of boom, dispersants and 
skimmers and the maximum amount of oil is either burned, contained, or 
sucked up from the Gulf of Mexico. Sadly, we know that once the oil 
comes ashore, it becomes more difficult to deal with it.
    Finally, despite this tragic spill, I remain a strong supporter of 
offshore natural gas development. I would also remind my colleagues 
that the primary reason that an increasing number of wells have been 
drilled in ultra deep water is because this Congress has for decades 
prohibited development in the Arctic National Wildlife Refuge and 
shallower offshore areas around the nation.
    Madam Chairwoman, I look forward to hearing from our distinguished 
witnesses who I am sure will give us their unique prospective on the 
impacts of this tragic oil spill.w
                                 ______
                                 
    Ms. Bordallo. I would now like to thank the Acting Ranking 
Member, Mr. Cassidy from Louisiana, for his opening statement 
and for joining us today for this hearing.
    I would also like to ask unanimous consent that our 
colleague from Louisiana, Congressman Charles Boustany, be 
allowed to join us on the dais for this hearing and Congressman 
Cao. Hearing no objection, so ordered.
    At this time I would like to introduce the first panel of 
witnesses that we have here, and I am going to begin by 
introducing each of you and then you will be giving your 
testimony.
    Mr. David Westerholm, Director, Office of Response and 
Restoration, National Oceanic and Atmospheric Administration 
or, as everyone knows, NOAA; Ms. Jane Lyder, Deputy Assistant 
Secretary for Fish, Wildlife and Parks, U.S. Department of the 
Interior; Mr. Robert J. Barham, Secretary, Louisiana Department 
of Wildlife and Fisheries; and Dr. Timothy J. Ragen, Executive 
Director of the Marine Mammal Commission.
    I welcome you all this morning, and I will begin by 
announcing that we have a red timing light on the table which 
will indicate when five minutes have passed and your time has 
concluded. We would really appreciate your cooperation in 
complying with these limits. We have three full panels at this 
hearing, so we probably will be going well into the afternoon. 
So be assured, though, that your full written statement will be 
included in the record.
    And now I would like to begin by introducing Mr. 
Westerholm. Thank you for being here today. You may begin your 
testimony.

STATEMENT OF DAVID WESTERHOLM, DIRECTOR, OFFICE OF RESPONSE AND 
  RESTORATION, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Mr. Westerholm. Thank you, Madam Chairwoman and Members of 
the Subcommittee, for the opportunity testify on NOAA's role in 
the response to the Deepwater Horizon oil spill. My name again 
is Dave Westerholm, and I am the Director of NOAA's Office of 
Response and Restoration.
    I appreciate this opportunity to discuss the critical roles 
that NOAA serves during oil spills and the importance of our 
contributions to protect and restore the natural resources, 
communities and economies affected by this tragic event.
    Before I discuss NOAA's efforts, however, I would like to 
express my condolences to the families of the 11 people who 
lost their lives in the explosion and sinking of the Deepwater 
Horizon mobile offshore drilling unit. NOAA is deeply concerned 
about the immediate and long-term environmental, economic and 
social impacts to the Gulf Coast from the Deepwater Horizon oil 
spill. Over the past seven weeks, NOAA has provided sustained 
scientific support to the unified command. NOAA is fully 
mobilized and working tirelessly to lessen the impacts on the 
Gulf Coast and will continue to do so until the spill is 
controlled, the oil is cleaned up, the natural resource damages 
are assessed and the restoration is complete.
    My testimony today will discuss NOAA's roles in spill and 
natural resource damage assessment. I will also highlight a few 
of the environmental impacts of this oil spill on sensitive 
resources as we currently understand them. NOAA has three 
critical roles during spills. Our first role is as scientific 
advisor to the Coast Guard or the Federal on-scene coordinator, 
and we provide trajectory projections on the fate and transport 
of oil, we conduct overflights and mapping, we identify 
sensitive environmental resources in areas and conduct 
shoreline surveys and guide cleanups. As part of this process, 
resources from across our agency have been brought to bear from 
satellites to weather, from ocean observing to fisheries, from 
our ships and planes to our incredible scientists.
    We also assess and restore natural resources injured by the 
spill and their loss and human uses through a process called 
the Natural Resource Damage Assessment, or NRDA. Finally, we 
represent the Department of Commerce in spill response decision 
making activities through the national response team.
    Stewardship to protect and restore the nation's natural 
resources is shared among several Federal agencies, states and 
tribal trustees. NOAA, acting on behalf of the Secretary of 
Commerce, is the lead Federal trustee for many of the nation's 
coastal and marine resources. NOAA and other Federal, state and 
tribal trustees are authorized by the Oil Pollution Act or OPA 
to recover damages from the responsible party or parties on 
behalf of the American people and public for injuries to and 
loss/use of trust resources resulting from an oil spill. OPA 
encourages compensation in the form of restoration, and 
appropriate compensation is determined through this NRDA 
process.
    At the outset of the spill, NOAA quickly mobilized staff to 
begin coordinating with Federal and state co-trustees and 
responsible parties to collect a variety of data that were 
critical to help inform the damage assessment. NOAA and co-
trustees continue to collect data in the Gulf of Mexico and 
across five states that will be useful to determine what 
natural resources have been injured, and what human uses have 
been lost due to this oil spill.
    Several technical working groups composed of state and 
Federal natural resource trustees and representatives from BP 
are gathering historical information and developing and 
implementing baseline pre-spill and post-spill impact field 
studies for multiple resource categories. Resources being 
assessed include fish and shellfish, bottom dwelling biota, 
birds, marine mammals, turtles and sensitive habitat such as 
wetlands, seagrass, beaches, mud flats, deep and shallow corals 
and the entire water column, including bottom sediments.
    Shoreline surveys and additional baseline and injury 
assessment plans are now being implemented. Although the 
concept of assessing injuries may sound relatively 
straightforward, understanding complex ecosystems, the services 
these ecosystems provide and injuries caused by oil and 
hazardous substances takes time, often years.
    I would like to talk briefly about the oil spill impacts on 
sensitive habitats, fisheries, marine mammals and sea turtles, 
all of which are of great concern in the Gulf of Mexico. The 
effects of the Deepwater Horizon oil spill on natural resources 
are dependent on multiple factors, including oil composition, 
oil quantity, dispersal techniques, what resources are present 
and exposed and the intensity and duration of contact with 
organisms.
    Ninety-seven percent by weight of the commercial fish and 
shellfish landings from the Gulf of Mexico are species that 
depend on estuaries and adjacent wetlands for some point of 
their life cycle. Landings from the coastal zone in Louisiana 
alone make up nearly one-third of the fish harvested in the 
United States. In such an incredibly productive area, important 
habitat covers nearly every part of the ecosystem.
    In closing, I would like to assure you that we will not 
relent in our efforts to protect, assess and restore the Gulf 
Coast during and after this horrific spill. Thank you for 
allowing me to testify on NOAA's response and damage assessment 
efforts. I am happy to answer any questions you may have.
    [The prepared statement of Mr. Westerholm follows:]

    Statement of David Westerholm, Director, Office of Response and 
 Restoration, National Ocean Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

    Thank you, Chairwoman Bordallo and Members of the Subcommittee, for 
the opportunity to testify on the Department of Commerce's National 
Oceanic and Atmospheric Administration's (NOAA) role in the response to 
the Deepwater Horizon oil spill.
    My name is David Westerholm and I am the Director of NOAA's Office 
of Response and Restoration. I appreciate the opportunity to discuss 
the critical roles NOAA serves during oil spills and the importance of 
our contributions to protect and restore the natural resources, 
communities, and economies affected by this tragic event. Before I 
discuss NOAA's efforts, I would first like to express my condolences to 
the families of the eleven people who lost their lives in the explosion 
and sinking of the Deepwater Horizon platform.
    NOAA's mission is to understand and predict changes in the Earth's 
environment and conserve and manage coastal and marine resources to 
meet our Nation's economic, social, and environmental needs. NOAA is 
also a natural resource trustee and is one of the federal agencies 
responsible for protecting, assessing, and restoring the public's 
coastal natural resources when they are impacted by oil spills, 
hazardous substance releases, and impacts from vessel groundings on 
corals and seagrass beds. As such, the entire agency is deeply 
concerned about the immediate and long-term environmental, economic, 
and social impacts to the Gulf Coast and the Nation as a whole from the 
Deepwater Horizon oil spill. NOAA is fully mobilized and working 
tirelessly to lessen impacts on the Gulf Coast and will continue to do 
so until the spill is controlled, the oil is cleaned up, the natural 
resource damages are assessed, and the restoration is complete.
    My testimony today will discuss NOAA's role in the Deepwater 
Horizon response; natural resource damage assessment; short and long-
term environmental impacts of this oil spill; and community outreach 
efforts.

NOAA'S ROLES DURING OIL SPILLS
    NOAA has three critical roles mandated by the Oil Pollution Act of 
1990 and the National Contingency Plan:
        1.  During the emergency response, NOAA serves as a conduit for 
        scientific information to the Federal On-Scene Coordinator. 
        NOAA provides trajectory predictions for spilled oil, conducts 
        overflight observations of oil on water, identifies highly 
        valued or sensitive environmental areas, and conducts shoreline 
        surveys to determine clean-up priorities.
        2.  As a natural resource trustee, NOAA conducts a joint 
        Natural Resource Damage Assessment (NRDA) with co-trustees to 
        assess and restore natural resources injured by the oil spill. 
        NRDA also assesses the lost uses of those resources, such as 
        recreational fishing, canoeing, and swimming, with the goal of 
        implementing restoration projects to address these injuries.
        3.  Finally, NOAA represents the Department of Commerce in 
        spill response decision-making activities through the National 
        Response Team.

Response
    The U.S. Coast Guard (USCG) is the Federal On-Scene Coordinator and 
has the primary responsibility for managing coastal oil spill response 
and clean-up activities in the coastal zone. During an oil spill, 
NOAA's Scientific Support Coordinators deliver technical and scientific 
support to the USCG. NOAA's Scientific Support Coordinators are located 
around the country in USCG Districts, ready to respond around the clock 
to any emergencies involving the release of oil or hazardous substances 
into the oceans or atmosphere. Currently, NOAA has all of its 
Scientific Support Coordinators located throughout the country working 
on the Deepwater Horizon oil spill.
    With over twenty years of experience and using state-of-the-art 
technology, NOAA continues to serve the Nation by providing its 
expertise and a suite of products and services critical for making 
science-based decisions. Examples include trajectory forecasts on the 
movement and behavior of spilled oil, overflight observations, spot 
weather forecasts, emergency coastal survey and charting capabilities, 
aerial and satellite imagery, and real-time coastal ocean observation 
data. Federal, state, and local entities look to NOAA for assistance, 
experience, local perspective, and scientific knowledge. NOAA's Office 
of Response and Restoration (OR&R) was called upon for scientific 
support 200 times in 2009 for issues related to oil and hazardous 
substance spills.

Natural Resource Damage Assessment (NRDA)
    Stewardship of the Nation's natural resources is shared among 
several federal agencies, states, and tribal trustees. NOAA, acting on 
behalf of the Secretary of Commerce, is the lead federal trustee for 
many of the Nation's coastal and marine resources, and is authorized by 
the Oil Pollution Act of 1990 to recover damages on behalf of the 
public for injuries to trust resources resulting from an oil spill. The 
Oil Pollution Act encourages compensation in the form of restoration 
and appropriate compensation is determined through the NRDA process.
    NRDA in NOAA is conducted by the Damage Assessment, Remediation and 
Restoration Program (DARRP). Established in 1990 after the Exxon Valdez 
oil spill, DARRP is composed of a team of scientists, economists, 
restoration experts, and attorneys to assess and restore injured 
resources. Since the enactment of Oil Pollution Act, NOAA, together 
with other federal, state, and tribal co-trustees have recovered over 
$500 million for restoration of natural resources injured by oil, 
hazardous substances and vessel groundings. NOAA works cooperatively 
with co-trustee agencies and (in the case of a cooperative assessment 
of injuries) the responsible party (or parties) to share data and 
information collected during the spill and during the injury 
assessment. Working cooperatively with the responsible party and co-
trustees can save time and money and can result in restoration being 
implemented faster and more efficiently.

National Response Team
    The National Oil and Hazardous Substances Pollution Contingency 
Plan, more commonly called the National Contingency Plan, is the 
federal government's blueprint for responding to both oil spills and 
hazardous substance releases. The purpose of the National Contingency 
Plan is to develop a national response capability and promote overall 
coordination among the hierarchy of responders and contingency plans. 
NOAA represents the Department of Commerce on the National Response 
Team and works closely with regional response teams and local area 
committees to develop policies on dispersant use, best clean-up 
practices, and communications, and to ensure access to science-related 
resources, data, and expertise.

NOAA'S RESPONSE EFFORTS
    NOAA's experts and ship and aircraft assets have been assisting 
with the response to the Deepwater Horizon oil spill from the 
beginning, providing coordinated scientific services when and where 
they are needed most.
    At 2:24 a.m. (central time) on April 21, 2010, NOAA's OR&R was 
notified by the USCG of an explosion and fire on the Mobile Offshore 
Drilling Unit Deepwater Horizon, approximately 50 miles southeast of 
the Mississippi Delta. The explosion occurred at approximately 10:00 
p.m. on April 20, 2010. Two hours, seventeen minutes after notification 
by the USCG, NOAA provided our first spill forecast predictions to the 
Unified Command in Robert, Louisiana. NOAA's National Weather Service 
Weather Forecast Office in Slidell, Louisiana, received the first 
request for weather support information from the USCG at 9:10 a.m. on 
April 21, 2010, via telephone. The first graphical weather forecast was 
sent at 10:59 a.m. to the USCG District Eight Command Center in New 
Orleans.
    Support from NOAA has not stopped since those first requests for 
information by the USCG. Over the past seven weeks, NOAA has provided 
scientific support, both on scene and through our headquarters and 
regional offices. NOAA's support includes daily trajectories of the 
spilled oil, weather data to support short- and long-range forecasts, 
and hourly localized `spot' forecasts to determine the use of weather 
dependent mitigation techniques such as oil burns and chemical 
dispersion applications. We develop custom navigation products and 
updated charts to help keep mariners out of oil areas. NOAA uses 
satellite imagery and real-time observational data on the tides and 
currents to predict and verify oil spill location and movement. To 
ensure the safety of fishermen and consumer seafood safety, NOAA has 
closed oil-impacted areas to commercial fishing. NOAA scientists are in 
the spill area taking water and seafood samples to determine which 
areas are safe for commercial fishing. NOAA will reopen these areas 
only if it is assured that fish products within the closed area meet 
the Food and Drug Administration (FDA) standards for public health and 
wholesomeness. To that end, NOAA, in conjunction with FDA, is 
continuing to refine a reopening protocol based on both chemical and 
sensory analysis of seafood within the closed area. NOAA's marine 
animal health experts are providing expertise and assistance with 
stranded sea turtles and marine mammals. NOAA is flying multi-spectral 
scanning missions over the spill to determine oil density and 
thickness, and has dedicated ship and aircraft assets to determine the 
influence of the Gulf of Mexico Loop Current on transporting the oil 
outside of the Gulf of Mexico. The influence of the Loop Current and 
the presence of submerged oil plumes are areas of ongoing research that 
NOAA and its federal and academic partners are investigating.

NATURAL RESOURCE IMPACTS FROM THE DEEPWATER HORIZON
    The effects of the Deepwater Horizon oil spill on natural resources 
are dependent on multiple factors including oil composition, oil 
quantity, dispersal techniques, and contact with organisms. Offshore 
oil can impact the upper meter or so of the water column, mixed layer 
deep water, and the sea floor. When the oil moves onshore, the 
shoreline, nearshore waters, and coastal habitats may be impacted.

Shorelines and coastal wetlands in the Gulf of Mexico
    Gulf of Mexico coastal areas contain more than half of the coastal 
wetlands within the contiguous United States (Louisiana alone contains 
approximately 40 percent of the total). These coastal areas play a 
vital role in the reproductive cycle of many fish species, serving as 
important nursery grounds, for example. These coastal areas also serve 
an important role in the protection of human life and property, by 
providing a natural buffer to protect coastal communities from coastal 
storms, for example. The Gulf of Mexico region has been losing coastal 
land at a very high rate over the last 50 years. The effect of the 
Deepwater Horizon oil spill and the dispersants used, on coastal 
wetland loss will be determined by how much oil reaches coastal 
wetlands, and how long the oil persists. Large amounts of oil resting 
on vegetated coastal shorelines could cause the vegetation to become 
stressed and die. This could cause the roots to die, which would weaken 
marsh soils. Weakened marsh soils would then be at risk of accelerated 
erosion from waves and storms. The long-term effects to these habitats 
have yet to be determined.

Fisheries and Fisheries Habitat in the Gulf of Mexico
    Ninety-seven percent (by weight) of the commercial fish and 
shellfish landings from the Gulf of Mexico are species that depend on 
estuaries and the adjacent wetlands at some point in their life cycle. 
Landings from the coastal zone in Louisiana alone make up nearly one-
third (by weight) of the fish harvested in the continental United 
States. In such an incredibly productive area, important habitat covers 
nearly every part of the ecosystem. Some examples of important habitat 
include the open water column, floating sargassum mats, deep-sea soft 
corals, hard coral reefs, rocky hard-bottom substrates, ledges and 
caves, limestone outcroppings, artificial reefs, mangroves, sandy 
bottom, muddy bottom, marshes, submerged aquatic vegetation, bays, 
lagoons and even the sandy beach, which turtles use for laying eggs. In 
federal waters, species that use the surface would be most impacted by 
the early stages of the oil spill. As the crude oil sinks, the bottom-
oriented fish community may be impacted. In general, the 42 reef fish 
species managed by NOAA in the Gulf of Mexico are often found in bottom 
areas with high relief, such as coral reefs, artificial reefs, and 
rocky hardbottom surfaces. If the oil slick reaches the bottom or 
nearshore/inshore areas, a majority of the reef fish species could be 
affected. Some reef fish spawn in spring, and their eggs and larvae are 
usually planktonic, carried by currents rather than through their own 
control. These larvae would not be able to avoid or escape the oil if 
currents brought them together. Sargassum mats are nursery habitat for 
some species, including gray triggerfish and amberjacks. Sargassum mats 
that intersect the oil could affect these species. In state waters, all 
coastal species could be affected if the oil spill reaches nearshore 
waters. In addition, shrimp larvae usually spend the early months of 
their life in inshore waters before migrating toward the ocean. Brown 
shrimp postlarvae migrate from February to April, and white shrimp 
begin their migration from May through November. Additionally, during 
the spring and summer months, several Gulf shark species use coastal 
habitats as nursery areas. If oil were to reach any of the coastal 
areas where these species occur, they could also be affected.

Effects of Oil on Marine Mammals and Sea Turtles
    Oil is a mixture of chemicals, each of which may have different 
effects on marine animals and in combination these chemicals may be 
even more hazardous. In addition, some of the chemicals and methods 
used to clean up oil spills may also have effects on marine animals. 
For example, dispersants are used as a mitigation tool to help prevent 
greater impacts on the shoreline. Decisions to use dispersants must 
consider the potential benefits of decreasing the risk of oiling to 
shoreline habitats that many sensitive species rely upon and the 
potential increase of the risk of dispersants to organisms in the water 
column and on the seafloor. The full effects marine species are exposed 
to depend upon:
        <bullet>  The mixture and types of chemicals that make up the 
        oil or are used to clean up the oil;
        <bullet>  The amount of exposure (dose for internal exposures 
        or time for external exposures);
        <bullet>  The route of exposure (inhaled, ingested, absorbed, 
        or external); and
        <bullet>  The biomedical risk factors of the animal (age, sex, 
        reproductive stage, and health status). For turtles, this will 
        include differing impacts and vulnerabilities at the different 
        life stages such as eggs, post-hatchlings, juveniles, and 
        adults. For cetaceans, this will include neonates, calves, 
        juveniles, and adults.
    Cetaceans, manatees, and sea turtles may be exposed to chemicals in 
oil (or in products used to treat oil spills, such as dispersants) in 
two ways: internally (by eating or swallowing oil, consuming prey 
containing oil based chemicals, or inhaling volatile oil-related 
compounds) and externally (by physically coming into contact with oil 
or dispersants, when swimming or coming ashore).
    Whales, dolphins, manatees, and sea turtles are all air breathers 
and must come to the surface frequently to take a breath of air. In a 
large oil spill, these animals may be exposed to volatile chemicals 
during inhalation. Depending on the size of the spill, marine mammals 
and sea turtles could be exposed to these chemicals for relatively long 
periods of time. Research on dolphins in human care has shown that the 
animals avoid oil on the surface of the water. However, observations of 
wild dolphins have documented the animals swimming, feeding, and 
socializing in oiled water. Several characteristics of sea turtle 
biology and behavior put them at risk, including the lack of avoidance 
behavior of oiled waters, indiscriminate feeding behavior, and large 
pre-dive inhalations. Additionally, sea turtles and their eggs may 
experience oiling impacts on nesting beaches through chemical exposures 
resulting in decreased survival to hatching and developmental defects 
in hatchlings.

NOAA'S NATURAL RESOURCE DAMAGE ASSESSMENT EFFORTS
    Oil spills affect our natural resources in a variety of ways. They 
can directly impact our natural resources, by oiling marine mammals, 
for instance. They can diminish the ecological services an ecosystem 
can provide, such as the loss of critical nursery habitat for shrimp, 
fish, and other wildlife or the loss of floodwater protection resulting 
from an oil spill. Oil spills may also diminish how we use natural 
resources by affecting fishing, boating, beach going, and wildlife 
viewing opportunities.
    At the outset of the Deepwater Horizon oil spill, NOAA quickly 
mobilized staff from its DARRP to begin coordinating with federal and 
state co-trustees and the responsible parties to collect a variety of 
data that are critical to help inform the NRDA. Several technical 
working groups (composed of NOAA, federal and state co-trustees, and 
representatives from one responsible party (BP)) are gathering existing 
scientific information and developing and implementing baseline (pre-
spill) and post-impact field studies for multiple resource categories. 
Resources being assessed include fish and shellfish, bottom-dwelling 
biota, birds, marine mammals, turtles, and sensitive habitats such as 
wetlands, submerged aquatic vegetation, beaches, mudflats, deep and 
shallow corals, and the water column, including bottom sediments. The 
trustees are also collecting and reviewing relevant water column, 
shoreline, wildlife and other data being collected as part of the 
response and by other entities.
    NOAA research ships and contracted ships have been deployed to 
collect chemical and biological samples pre- and post-oiling. 
Additional baseline and injury assessment plans are now being 
implemented. Existing plans will be updated and others developed going 
forward to determine what resources are, have been, or could be exposed 
to oil. The information below provides an update on the cruises and 
data collections efforts for various sensitive resources and habitats. 
The data and information being collected will be used to determine how 
best to restore injured resources and develop the most appropriate 
restoration projects to compensate the public for associated lost 
services.
    While it is still too early in the process to know what the full 
scope of the damage assessment associated with the Deepwater Horizon 
oil spill will be, NOAA and co-trustees are concerned about potential 
short and long-term impacts to fish, shellfish, marine mammals, sea 
turtles, birds, and other sensitive resources, including impacts to 
their habitats, such as wetlands, beaches, bottom sediments, and the 
water column. These areas may include National Estuarine Research 
Reserves and National Marine Sanctuaries that may be impacted by the 
oil spill. The data collected in the Gulf of Mexico and across the five 
Gulf states (Texas, Louisiana, Alabama, Mississippi, and Florida) will 
be used to determine what natural resources have been injured and what 
human uses have been lost due to the spill. The information provided 
below outlines NOAA's cruises and data collection efforts for various 
sensitive resources and habitats.

Water Column
    The purpose of the water column assessment is to document the 
persistence, fate, and transport of the oil in the water column and the 
resulting exposure to fish, shrimp, and other aquatic resources to this 
oil over time. Baseline (pre-oiling) water quality data for the coastal 
areas of the five Gulf states have been, and continue to be, acquired 
by the trustees. This includes water samples collected in near shore 
areas and from long-term monitoring sites from NOAA's Mussel Watch 
program.
    Cruises aboard NOAA vessels, NOAA contracted vessels, and partner 
research vessels began in late April and have continued to gather data 
specific to the water column inside and outside of the oil slick. For 
example, scientists on the M/V Jack Fitz (a NOAA contracted vessel) are 
conducting water column profiling by sampling water at depths up to 800 
meters to the surface for the presence of dissolved aromatic 
hydrocarbons and free oil droplets. During these cruises, water samples 
were collected to analyze for the presence of oil and whether any oil 
recovered matched the Deepwater Horizon oil ``fingerprint.'' These and 
other data will be used to determine the presence of a submerged plume 
and to calibrate a 3D model of the entire oiled area.

Fisheries (Nearshore & Offshore) and Plankton
    In addition to the historical baseline data on fisheries 
assemblages in the Gulf of Mexico, cruises are collecting pre- and 
post-oiling data on fish and plankton resources. An initial cruise on 
the R/V Weatherbird II (a National Science Foundation vessel) in late 
April collected water and biota data from outside the oiled zone. A 
second cruise that started on May 4, 2010, collected data on living 
marine resources at 32 existing Southeast Area Monitoring and 
Assessment Program (SEAMAP) sites off of the Florida panhandle (as 
baseline) and 6 stations in the vicinity of the oiled area. In addition 
to sampling for adult and larval fish and plankton, water samples were 
collected to characterize oil droplet numbers and size in the vicinity 
of the plume. Samples were also taken to assess toxicity, stable 
isotopes, sediments, and bottom-dwelling biota.
    The NOAA ship R/V Gordon Gunter has conducted a survey of fish 
larvae in the Gulf, and has also been deployed to use its sonar 
equipment to map the presence of submerged oil. Water samples will be 
analyzed to confirm sonar readings. Cutting-edge technology developed 
by University of South Florida scientists, called the ``SIPPER,'' will 
be deployed to allow scientists a view of microscopic marine life, such 
as zooplankton, fish eggs and larvae, as well as miniscule droplets of 
oil. NOAA has also chartered the F/V Beau Rivage to collect samples for 
seafood safety and analysis.

Oysters and Other Nearshore Benthic Biota and Habitat
    NOAA's Mussel Watch Program quickly mobilized to sample shellfish, 
water, and sediments at 64 sites in the Gulf of Mexico, ranging from 
the Brazos River in Texas eastward to the Florida Keys, in order to 
establish baseline data before the oil hit the shoreline. These samples 
will be analyzed for 60 oil-related compounds known as polycyclic 
aromatic hydrocarbons (PAH). Oil from the Deepwater Horizon oil spill 
has a unique chemical ``fingerprint'' of constituent PAHs and other 
compounds that will allow Mussel Watch researchers to distinguish 
contamination from this spill from oil coming from other sources. Once 
the oil hits the shoreline, new samples will be taken and tested.

Shoreline Habitats
    NOAA is currently working with other resource trustees to document 
what shoreline habitats (e.g., beaches, mudflats, mangroves, wetlands) 
are, have been, or could be exposed to the oil. Trustees are working to 
assess pre- and post-oiled shorelines, and will document the spatial 
extent and degree of oiling on intertidal shoreline habitats. Aerial 
surveys were conducted, pre-oiling, to provide a base assessment of the 
shoreline. As the oil contacts the shoreline, aerial imagery will also 
be used to identify priority response initiatives and vulnerable 
habitat, to provide up-to-date information on the location of the oil, 
and to support field work to verify degrees of oiling. This information 
will be used to produce maps that will detail the extent of shoreline 
oiling over time. Ground survey teams will build upon these maps to 
create more detailed shoreline maps that will be used to identify 
monitoring stations for any subsequent injury-assessment studies.
    NOAA has been collecting aerial photographs of our Nation's coast 
since the early 1900s. Following an incident such as an oil spill or a 
natural disaster such as a hurricane, these photos provide emergency 
and coastal managers with information needed to develop recovery 
strategies, identify hazards, and locate errant vessels.

Other Resource and Habitat Assessment Efforts
    In addition to the work described above, additional assessment 
efforts are being conducted by the co-trustees to determine what 
resources are, have been, or could be exposed to oil for the following 
categories:
        <bullet>  Submerged Aquatic Vegetation: A work plan to assess 
        potential impacts to this resource and document potential 
        presence of and exposure to petroleum hydrocarbons and 
        dispersants from discharged and dispersed oil is under 
        development.
        <bullet>  Birds: Work plans to assess baseline conditions of 
        pelagic, colonial marsh, and other birds are in place. Bird 
        survey teams continue to survey beaches for birds in Florida, 
        Alabama, and Mississippi. Work plans to assess post-oiling 
        impacts to birds are underway.
        <bullet>  Marine Mammals and Turtles: The trustees continue to 
        conduct marine mammal and turtle aerial surveys by fixed-wing 
        planes and helicopter to document exposure, acute effects, and 
        potential changes in behavior or distribution.
        <bullet>  Deep- and shallow-water corals: Trustees are 
        compiling existing data and information about the deep- and 
        shallow-water coral communities, as well as any information 
        about their sensitivity to dispersed oil. More formal 
        assessment plans to document pre- and post-oiling conditions 
        are being developed, although data collection has already 
        begun. A major ongoing deepwater coral study funded by Minerals 
        Management Service and NOAA's Office of Ocean Exploration and 
        Research is being utilized for an initial Tier 1 NRDA impact 
        assessment of deep coral and chemosynthetic community habitats. 
        This study includes invaluable pre-spill baseline imagery and 
        active in situ experiments.
        <bullet>  Terrestrial Wildlife: Appropriate information about 
        terrestrial wildlife communities - for example, deer, rabbits, 
        quail, and turkeys - and information about their sensitivity to 
        oil is being collected, and a more formal assessment protocol 
        is under development.
        <bullet>  Human Use: NOAA and co-trustees are collecting 
        existing information about human uses, including cultural uses. 
        Field teams are conducting user intercept surveys from 
        Louisiana to Florida. Overflights are being used to gather 
        beach use information along the Gulf Coast.

Sampling and Data Management
    For all the efforts listed above, NOAA, the co-trustees, and the 
responsible party have agreed to a data workflow process so that 
samples collected for analytical chemistry follow the same means of 
tracking, chain of custody, quality assurance/quality control, and data 
delivery into a unified database for analysis. NOAA, in coordination 
with DOI and other federal agencies, is providing geospatial support 
through the Environmental Response Management Application (ERMA). ERMA 
is a web-based Geographic Information System tool designed to assist 
both emergency responders and environmental resource managers who deal 
with events that may adversely impact the environment. ERMA is serving 
as a tool for coordinating information across the response teams and 
providing a common operational picture. Because of the demand for this 
capability, NOAA will soon release a public version of ERMA. The ERMA 
website (http://www.geoplatform.gov/) allows the public timely access 
to information cleared by the Unified Command.

NOAA's Commitment to NRDA and Restoration
    Although the concept of assessing injuries may sound relatively 
straightforward, understanding complex ecosystems, the services these 
ecosystems provide, and the injuries caused by oil and hazardous 
substances takes time--often years. The time of year the resource was 
injured, the type of oil or hazardous substance, the amount and 
duration of the release, and the nature and extent of clean-up are 
among the factors that affect how quickly resources are assessed and 
restoration and recovery occurs. The rigorous scientific studies that 
are necessary to prove injury to resources and services may also take 
years to implement and complete. The NRDA process ensures an objective 
and cost-effective assessment of injuries--and that harm to the 
public's resources is fully addressed.

NOAA'S COMMUNITY OUTREACH EFFORTS
    During a NRDA, there are a number of opportunities where input and 
guidance from citizens and local and regional environmental groups are 
needed. Perhaps the most substantive way communities and environmental 
groups have helped during past damage assessments is by informing the 
trustees about potential restoration projects that address the injured 
resources and services. For example, an environmental group has been 
contracted to implement a restoration project addressing injuries from 
the 2004 Athos I oil spill in the Delaware River. Additionally, for 
past damage assessments, trustees have surveyed and held workshops with 
communities and environmental groups to identify potential restoration 
projects.
    NOAA and co-trustees and responders are already informing citizens 
about the Deepwater Horizon response effort and the damage assessment 
through a variety of mechanisms. Although not an exhaustive list, a few 
examples are highlighted below:
        <bullet>  Representatives from NOAA have participated in 
        multiple public meetings throughout the Gulf region. Two weeks 
        after the oil spill, NOAA met with representatives from nine 
        national environmental groups to inform them about our response 
        and NRDA efforts. NOAA is participating in weekly conference 
        calls organized by the Council on Environmental Quality with 
        these and other local and regional community and environmental 
        groups.
        <bullet>  To support the local communities as they deal with 
        the economic, social, and environmental impacts of the spill, 
        NOAA is working with Gulf of Mexico Sea Grant Programs to host 
        a series of town hall meetings in Louisiana, Mississippi, and 
        Alabama. The meetings are designed to assemble subject-matter 
        experts on the issues of most concern to the public. Within 
        each town hall meeting there will be a series of ``open 
        house,'' issue-specific workstations (e.g., tax issues for 
        fisherman and others that have lost jobs and income). These 
        town hall meetings will allow the public to receive direct 
        information and ask questions. Similar meetings in Florida and 
        Texas will be conducted in the coming weeks.
        <bullet>  NOAA is assisting with outreach to various academic 
        groups in the Gulf, including the Northern Gulf Institute (a 
        NOAA Cooperative Institute), National Estuarine Research 
        Reserves and Sea Grant to ensure that their capabilities can be 
        effectively used in the oil spill response and recovery effort.
        <bullet>  Gulf State Coastal Management Programs, keystone NOAA 
        partners, are contributing to the response by participating in 
        sampling operations, serving on NRDA assessment working groups, 
        staffing state command posts, and providing assistance to local 
        governments. NOAA is acting as an information clearinghouse on 
        issues such as availability of training, assessment protocols, 
        and general information sharing.
        <bullet>  NOAA is working through its Gulf Coast regional 
        offices, state, local, NGO, and academic partners to provide 
        opportunities to volunteer and participate. For example, NOAA 
        helped organize volunteer beach clean-ups to remove pre-spill 
        debris from state beaches, which eliminates obstacles and 
        improves access, thereby helping to facilitate easier oil 
        shoreline cleanup. In Alabama, ten volunteer beach clean-up 
        events were organized and 125 volunteers picked up 4,000 to 
        5,000 pounds of debris from Alabama's beaches.
        <bullet>  To facilitate on-the-ground understanding of the 
        spill, NOAA is awarding grants for rapid response projects to 
        monitor the impacts of the oil spill on Louisiana's coastal 
        marshes and fishery species through the Sea Grant Program.
        <bullet>  In addition, NOAA's Gulf Coast Sea Grant Programs are 
        developing a web site to serve as a central database listing 
        ongoing research activities and identify funding opportunities 
        for oil-spill related research, whether conducted by 
        government, academic, or privately-supported scientists. The 
        intent of this website is to provide a single, comprehensive 
        view of research activities in the Gulf that are being 
        undertaken in connection with the Deepwater Horizon oil spill, 
        to foster coordination of these efforts.

CONCLUSION
    I would like to assure you that we will not relent in our efforts 
to protect the livelihoods of Gulf Coast residents and mitigate the 
environmental impacts of this spill. In the wake of such an event, we 
are reminded of the fragility of our coastal ecosystems and the 
dependence of coastal economies on the health and prosperity of our 
seas. Thank you for allowing me to testify on NOAA's response and 
damage assessment efforts. I am happy to answer any questions you may 
have.
                                 ______
                                 

   Response to questions submitted for the record by David Westerholm

Questions from Congressman Pedro Pierluisi (D-PR)
1.  On May 27, NOAA issued a press release in which the agency stated 
        that its Climate Prediction Center expects an ``active to 
        extremely active'' hurricane season for the Atlantic Basin this 
        year. Specifically, NOAA said there is a 70% probability of 14 
        to 23 ``Named Storms'' and 8 to 14 Hurricanes, 3 to 7 of which 
        could be Major Hurricanes. In light of these estimates, I am 
        concerned that the resulting change in currents and wind 
        patterns might move oil toward the Caribbean islands. Does NOAA 
        consider this a possible or likely scenario? If so, what should 
        the two U.S. jurisdictions in the Caribbean--Puerto Rico and 
        the U.S. Virgin Islands--be doing to prepare for such a 
        scenario and to mitigate any potential damage?
    There is a low probability of oil from the Deepwater Horizon BP oil 
spill impacting Puerto Rico or the Virgin Islands.
    It is possible that oil from the Deepwater Horizon BP oil spill may 
become entrained in the Loop Current. The Loop Current is an area of 
warm water that comes up from the Caribbean, flowing past the Yucatan 
Peninsula and into the Gulf of Mexico. From there, it generally curves 
east across the Gulf and then flows south parallel to the west Florida 
Coast. As it flows between Florida and Cuba it becomes the Florida 
Current and it becomes the Gulf Stream as it travels up the Atlantic 
Coast. While there is potential that a hurricane could change the 
current and wind patterns in the Gulf, because the Loop Current stays 
well north of Puerto Rico and the Virgin Islands, it is unlikely this 
would cause oil impacts to Puerto Rico or the Virgin Islands.
    NOAA is closely monitoring the oil slick and the Loop Current using 
satellite imagery, ocean observations, and aerial observations. There 
are regular overflights to observe the movement of oil near the Loop 
Current. There is a vessel operating continuously off the Dry Tortugas 
surveying for tarballs, and another vessel regularly going into the 
eastern edge of the Loop Current conducting oil and tarball surveys. 
The majority of the oil slick still remains north of the Loop Current. 
To date, there has not been any confirmed oil from the Deepwater 
Horizon BP oil spill in the Florida Straits. If a significant amount of 
surface oil enters the Loop Current and begins to move toward the 
Florida Straits and Eastern Seaboard, NOAA will be able to see it, 
predict the movement, inform states and communities, and help guide 
preparedness, response and cleanup efforts.

Questions from the Ranking Republican Member, Congressman Henry Brown, 
        Jr. (R-SC)
1.  According to recently released Coast Guard logs, the Administration 
        was aware of the catastrophic nature of the Deepwater Horizon 
        spill in the first days after the explosion. Instead of no oil 
        being spilled or less than 1,000 barrels, the logs indicate 
        that between 64,000 to 110,000 barrels could gush out of the 
        well in the event of a complete blowout. Were you aware of this 
        Coast Guard information? If not, how would this have changed 
        your overall strategy for dealing with this spill?
    The 64,000-110,000 barrel per day flow rate estimate was provided 
as a potential ``worst case'' scenario in the case of a total wellhead 
blowout. In the case of the Deepwater Horizon BP oil spill, a full 
wellhead blowout did not occur. While the flow rate estimates have 
changed as new information has become available, from day one the 
federal government has implemented a full-scale response effort 
assuming a worst case scenario.

2.  Concern has been raised by Mr. Williams (from the third panel) 
        about the long-term impact of the dispersants and on the 
        decision to disperse the oil into the water column rather than 
        allow it to rise to the surface. He points out that many fish 
        species are spawning at this time of year and their larvae are 
        also dispersed in the water column potentially causing a long-
        term crash of some fish species. Has your research shown this 
        to be a valid concern? If so, how many year classes are likely 
        to be affected?
    When an oil spill occurs there are no good outcomes. Dispersant use 
is one of a few tools that may be employed to minimize consequences of 
an oil spill. The use of dispersants is an environmental tradeoff. 
Using dispersants decreases the environmental risks to shorelines and 
organisms at the surface. However, the dispersed oil could increase the 
risk to organisms in the water column including fish eggs and larvae. 
Impacts of oil to fish larvae may include death, delayed growth, 
impaired development, and greater vulnerability to predation.
    While it is still too early in the process to know what the full 
scope of the damage assessment associated with the Deepwater Horizon BP 
oil spill will be, and how many year classes of fish will be impacted, 
NOAA and co-trustees are committed to evaluating and monitoring the 
short- and long-term impacts to fish, shellfish, marine mammals, sea 
turtles, birds, and other sensitive resources, including impacts to 
their habitats, such as wetlands, beaches, bottom sediments, and the 
water column. NOAA is examining historical distributions of fish larvae 
in the Gulf of Mexico and comparing the historical distribution with 
the current distribution and projected trajectory for the oil, as a 
tool to assess the possibility for exposure to both oil and 
dispersants. NOAA is also conducting laboratory studies to determine 
the possible impact of oil and dispersants on Gulf fish species. In 
addition, a number of NOAA research vessels are conducting surveys and 
are collecting pre- and post-oiling data on fish larvae in the Gulf. 
Cutting-edge technology developed by University of South Florida 
scientists, called the ``SIPPER,'' will be deployed to allow scientists 
a view of zooplankton, fish eggs, and larvae, as well as miniscule 
droplets of oil.
    There has been research conducted on the effectiveness and effects 
of dispersants and dispersed oil for more than three decades; however, 
important gaps exist. Research is needed to determine the effects of 
oil and dispersants that are suspended in the water column on mid-water 
and pelagic species, as well as on deep-water corals, chemosynthetic 
communities (animal communities living in the deep sea on dissolved 
gases), and benthic habitats. Such studies can provide valuable 
information on the sensitivity and/or resilience of these deepwater 
communities, and can inform future response actions and assessment 
work.

3.  Claims have been made that there are undersea plumes of oil that 
        are moving throughout the Gulf. NOAA has been attempting to use 
        acoustic technology (which are normally used for fish surveys) 
        to determine whether these claims are true. Is this technology 
        working to detect large concentrations of oil and, if so, are 
        these claims accurate?
    NOAA is testing the application of its multibeam and fisheries echo 
sounders for oil detection, tracking, and mapping. Typically used for 
depth soundings and biomass measurements, respectively, the sonars have 
(in limited research) demonstrated a capability to record acoustic 
returns associated with oil in the water column. The NOAA ship Thomas 
Jefferson was detailed to the Gulf of Mexico in early June, and is 
involved in missions to collect water samples for chemical analysis and 
to test the feasibility of using acoustic and flourometric scanning to 
help find potential pockets of subsurface oil clouds. The science team 
onboard the Thomas Jefferson included researchers from NOAA, the 
Environmental Protection Agency, the University of New Hampshire, and 
the Woods Hole Oceanographic Institution. Observations from the initial 
mission include:
        1.  Scientists observed high fluorescence and reduced dissolved 
        oxygen anomalies at around 1,100 meters depth, 7.5 nautical 
        miles southwest of the wellhead. Laboratory analysis of water 
        samples from this area is underway to help determine if this is 
        an indication of subsurface oil.
        2.  Scientists also observed a subtle acoustic anomaly in the 
        same vicinity. Additional analysis of the acoustic data from 
        both NOAA ship Thomas Jefferson and NOAA ship Gordon Gunter 
        will be needed to make further conclusions. Additional field 
        work is also planned to test this method of using acoustic data 
        to locate underwater oil.
        3.  The Moving Vessel Profiler, which allows data to be 
        collected throughout the water column while the vessel was 
        underway, was equipped with a special fluorometer. The 
        fluorometer was tuned to crude oil and was used to collect 
        fluorometric data from the surface down to about 100 meters 
        deep in shallower water from Mobile, Alabama, to Port Fourchon, 
        Louisiana. The samples were taken while the boat was underway, 
        with the instrument moving from the surface to the bottom and 
        back to the surface approximately every 1.5 miles. While there 
        are only limited data with which to compare results, the method 
        has been shown to be an effective way to detect water masses 
        with high fluorometry in the coastal zone. Much of Thomas 
        Jefferson's second mission, currently underway, will be focused 
        on gathering more detailed data in the coastal zone, and 
        collecting supporting data with the conductivity (salinity), 
        temperature, and depth (CTD) instrument and water samples to 
        further refine our understanding of possible submerged oil in 
        the coastal zone. Any information on anomalous masses 
        discovered in the coastal zone will be shared with other 
        researchers and emergency responders.
        4.  Scientists observed several seeps of what appears to be 
        natural gas in an area of known gas seepage, located to the 
        southwest of the spill site.
    Once the water samples from this mission are analyzed, scientists 
will compare those findings with the acoustic and flourometric data to 
determine if the imaging data are useful in helping to find subsea oil 
at low concentrations.
    The NOAA Ship Thomas Jefferson trip report is available at: http://
www.noaa.gov/sciencemissions/PDFs/
tj_deepwaterhorizon_responsemissionreport_june3_11_
2010final.pdf
    The NOAA Ship Gordon Gunter trip report is available at: http://
www.noaa.gov/sciencemissions/PDFs/
gunter_may27tojune4_%20mission_summary.pdf

4.  The Oil Pollution Act of 1990 has a mechanism for a responsible 
        party to reimburse people for lost income and wages. How will 
        those who rely on natural resources for subsistence purposes be 
        made whole?
    The Oil Pollution Act of 1990 (OPA) contains a provision that 
allows for individuals to submit private claims for cost and damages 
for the loss of subsistence use of natural resources. NOAA cannot 
provide specific information on the claims process, as it is outside 
our purview. The U.S. Coast Guard's National Pollution Fund Center has 
posted step-by-step guidance on the OPA claims process, claim forms, 
and information on the types of losses that may become the subject of a 
claim (http://www.uscg.mil/npfc/claims/). Those interested may also 
consult the Deepwater Horizon Response website, http://
www.restorethegulf.gov, for more information on claims for people that 
rely on natural resources for subsistence.
    We understand that BP has also established a claims process, called 
the Gulf Coast Claims Facility, that will be administered by Ken 
Feinberg and will operate independently of BP. The GCCF will handle 
claims for subsistence use losses.

5.  Can communities submit claims for increases in social services 
        which are as a result of the spill?
    NOAA is not in charge of the Oil Pollution Act claims process. The 
U.S. Coast Guard's National Pollution Fund Center's website outlines 
the options available to state and local governments to file a claim 
for costs involved with providing increased or additional social 
services (http://www.uscg.mil/npfc/claims/). Communities may also 
consult the Deepwater Horizon Response website, http://
www.restorethegulf.gov for more information. This website provides 
specific information on what types of claims are permissible and whom 
to contact.

6.  Is the Administration taking any action to let people know that 
        they do not need a lawyer to file claims and that government 
        centers are being set up to help people with claims? Would the 
        Administration support legislation that would cap the amount or 
        percentage of money a lawyer can receive from oil spill claims?
    This question is outside NOAA's area of expertise. NOAA's role in 
the Deepwater Horizon spill is to provide technical and scientific 
support to the National Incident Commander, to conduct a joint natural 
resource damage assessment pursuant to the Oil Pollution Act (OPA) with 
co-trustees to assess and restore natural resources injured by the oil 
spill, and to close oil-impacted areas to fishing in order to protect 
the safety of the food supply. The U.S. Coast Guard's National 
Pollution Fund Center's website provides information on the OPA claims 
process (http://www.uscg.mil/npfc/claims/).

7.  Mr. Cresson has two suggestions for mitigation projects (an 
        artificial reef and a hatchery). Would these projects be 
        considered as ``restoration'' and therefore possibly funded by 
        BP or the Oil Spill Trust Fund?
    NOAA and state and federal co-trustees are conducting a joint 
natural resource damage assessment, as mandated by the Oil Pollution 
Act (OPA) to determine injury to and lost use of public natural 
resources. NOAA and the co-trustees are in the initial phase of this 
process and are currently gathering data on impacts to resources such 
as fish, shellfish, birds, and sea turtles, their associated supporting 
habitats (wetlands, beaches, corals, etc.), and recreational uses 
across the Gulf of Mexico. The trustees will then quantify the total 
losses and develop restoration projects that compensate the public for 
their losses (pursuant to OPA). Looking forward, during the restoration 
planning process, the trustees will consider a variety of restoration 
project alternatives and, guided by the project selection criteria in 
the OPA regulations, will choose those projects that will most feasibly 
compensate the public's losses. The trustees will issue a draft 
restoration plan for public comment that details the projects that were 
selected and those that were not (based on the project selection 
criteria). A final plan will be issued by the trustees detailing the 
selected projects which will then be used to guide restoration. The 
projects suggested by Mr. Cresson, if selected during that process, 
would be submitted as claims for payment by the responsible parties or 
by the Oil Spill Liability Trust Fund.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Westerholm, for your 
detailed explanation of NOAA's role to date in the Deepwater 
Horizon spill response.
    Before we continue with the next witness, I would like to 
ask for unanimous consent that the gentleman from Florida, 
Congressman Gus Bilirakis, be allowed to join us on the dais 
for this hearing. Hearing no objection, so ordered.
    Ms. Lyder, please proceed with your testimony.

 STATEMENT OF JANE LYDER, DEPUTY ASSISTANT SECRETARY FOR FISH 
    AND WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Lyder. Thank you, Madam Chairwoman. Madam Chairwoman 
and Members of the Subcommittee, I appreciate the opportunity 
to be here today to discuss the impacts of the Deepwater 
Horizon oil spill on fish and wildlife and their habitat in the 
Gulf of Mexico and to talk about the Administration's ongoing 
response.
    We at the Interior Department also extend our condolences 
to the families of those who lost their lives, to those who 
were injured in the explosion and the sinking of the Deepwater 
Horizon, and to those people whose livelihoods are being 
devastated by this oil spill.
    I have some photographs that I would like to use to 
illustrate my short statement here. I spent about a month in 
Houma, Louisiana, and I came to really love the area. I wanted 
you to see some of what I saw.
    What you see here is I want to give you an idea of what 
Fish and Wildlife Service, Park Service and USGS employees are 
doing in the Gulf. First, they are helping deploy and maintain 
almost two million feet of containment boom with the goal of 
protecting the most sensitive areas of marsh and other vital 
habitat along the Gulf Coast.
    The next picture is three levels of boom. You have heard a 
lot about boom. In the foreground you see the heavy duty Navy 
boom, then you see the orange beach boom behind that, and then 
the absorbent boom closest to shore to try and catch the oil 
that gets through the other barriers.
    With our state fish and wildlife partners, we are surveying 
for sea turtles, birds, manatees and other wildlife along the 
coasts of Louisiana, Mississippi, Alabama and western Florida, 
and we are conducting natural resource damage assessments that 
will help us hold BP and other parties responsible for damage 
and help fund restoration of the vital ecosystems of the Gulf, 
once the spill has been contained.
    The Gulf of Mexico is one of the world's most ecologically 
rich areas and provides habitat for a great diversity of fish, 
birds, mammals, reptiles and other wildlife. Many species of 
wildlife live along the Gulf Coast and are affected by the oil 
spill.
    We believe 35 national wildlife refugees are potentially at 
risk from this spill. So far, two have been directly impacted--
Breton in Louisiana and Bon Secour in Alabama. Only Breton has 
been closed to the public. These islands are part of Breton, 
and they have booms surrounding them.
    There are 10 National Park System units that are 
potentially at risk from the oil spill. This is Gulf Island's 
National Seashore. Several hundred thousands of acres of 
habitat associated with projects funded through the North 
American Wetlands Conservation Act are being threatened by the 
oil spill.
    Millions of NAWCA grant and partner matching dollars have 
been or are being invested in coastal areas of Texas, 
Louisiana, Mississippi, Alabama and Florida to protect, restore 
and enhance wetlands and wetland associated uplands for 
migratory birds and other wildlife.
    Hundreds of species are currently in their breeding or 
spawning periods, including sea turtles, many local bird 
species such as brown pelicans and least terns, as well as 
various fish and invertebrates that are critical species at the 
base of the ecosystem.
    Oil spills affect wildlife and their habitats in many ways. 
Oil causes harm to wildlife through physical contact, 
ingestion, inhalation and absorption. Floating oil can 
contaminate plankton, algae, fish eggs and larvae. Fish and 
some seabirds can become contaminated by feeding on these 
organisms or by direct contact with the oil.
    Larger animals in the food chain can consume contaminated 
organisms as they feed on these fish and other prey, and this 
can impact an entire ecosystem. We expect wildlife impacts will 
be subtle and chronic and persist for years and could possibly 
have population level impacts.
    We don't know yet what the long-term impact from this oil 
spill will be. We have millions of migratory birds that range 
across the Western Hemisphere that winter in or migrate through 
the area. Many of these birds are currently farther north on 
their breeding grounds in Canada and the northern prairies of 
the United States. However, we expect the oil will persist 
long-term in the food chain, and they will see impacts when 
they return in the fall.
    The Gulf is also a stopover for hundreds of millions of 
neotropical songbirds that rest there and feed during their 
spring and fall migrations. These birds, too, could potentially 
be affected by the spill.
    Assuming substantial quantities of oil enters the coastal 
marshes of Louisiana, Mississippi, Alabama and Florida, we can 
expect very significant impact to the whole coastal ecosystem. 
In addition to severe and long-term impact to marsh vegetation, 
various invertebrates such as crabs and shrimp and many 
vertebrates, including fish, birds, turtles and mammals, will 
be affected.
    The injury suffered by water and wading birds such as the 
brown pelican is potentially the most dramatic. Health effects 
to birds of exposure to oil include death, poisoning, skin 
irritation, matting of feathers and poor temperature 
regulation.
    Longer term effects are less understood, but oil ingestion 
can cause organ damage and damage to an embryo. Damage to the 
immune system can lead to secondary infections that cause 
death. Behavioral changes may affect an animal's ability to 
feed. Long-term consequences can include impaired fitness.
    Oil has the potential to endure in the environment long 
after a spill and has been detected in sediment 30 years after 
a spill. We don't know yet what impact it will have on the 
marsh plants. Impacts associated with the conversion of 
wetlands to open waters, subsidence and sea level rise will 
serve only to weaken what are already fragile coastal wetlands.
    As my friend from NOAA mentioned, efforts are already 
underway to determine the magnitude of the injuries to natural 
resources so that BP and other responsible parties can be held 
accountable. Fish and Wildlife Service and the Park Service are 
working with NOAA as trustees of these resources to understand 
these injuries. A restoration plan will be developed with 
public input that specifies the actions necessary to restore 
the resources and their habitat.
    For the past 18 months, Interior has focused most of our 
new capacities in landscape planning and science, to build what 
we call landscape conservation cooperatives, and we are doing 
this with our partners, our state partners. In this picture we 
have a state employee, we have a Fish and Wildlife Service vet 
and we have the Acting Director of the Fish and Wildlife 
Service, Rowan Gould, all taking part in the response on the 
Gulf.
    The Deepwater Horizon spill is the latest in a series of 
events graphically illustrating our nation's need to 
understand, value and nurture the Gulf of Mexico ecosystem. The 
spill has illuminated the need for additional information and 
has made us all aware that the impacts of this spill are 
graphic, obvious and tragic to our natural resources.
    This Administration is committed to helping the people in 
the communities of the Gulf Coast persevere through this 
disaster, to protect our important places and to learn valuable 
lessons that will help prevent similar spills in the future.
    I would be happy to answer any questions the Subcommittee 
might have.
    [The prepared statement of Ms. Lyder follows:]

   Statement of Jane Lyder, Deputy Assistant Secretary for Fish and 
          Wildlife and Parks, U.S. Department of the Interior

    Chairwoman Bordallo and Members of the Subcommittee, thank you for 
the opportunity to be here today to discuss the impacts of the 
Deepwater Horizon Oil Spill on fish and wildlife and their habitat in 
the Gulf of Mexico, and the Administration's ongoing response. Before I 
begin, I would like to take a moment to express my condolences to the 
families of those who lost their lives, to those who were injured in 
the explosion and sinking of the Deepwater Horizon, and to those whose 
livelihoods are being devastated by this oil spill.
    It has been more than 50 days since BP's Deepwater Horizon offshore 
oil drilling platform exploded and sank 40 miles southeast of the 
Louisiana coast, releasing millions of gallons of crude oil into the 
Gulf of Mexico. The volume of escaped oil continues to grow, expanding 
the area of impact and increasing the impacts to precious natural 
resources throughout the Gulf region.
    Federal authorities have been on scene from the very beginning--
since the first hours of this disaster when it began as a search and 
rescue mission. Our highest priority is stopping the ongoing leak and 
preventing more oil from being released.
    An equally important priority is protecting the resources that are 
or may be affected by this spill. To that end, the U.S. Fish and 
Wildlife Service (FWS), the National Park Service (NPS), and other 
federal agencies are working tirelessly to protect fish and wildlife, 
safeguard vital habitat, and public lands and resources that belong to 
the American people. These professionals are also documenting impacts 
and working to understand the long-term effects of the spill, so that 
we can hold the responsible parties accountable.
    The scope and impacts of this spill are extraordinary. We do not 
know at this time the extent of the impacts, but we believe that in all 
likelihood, they will affect fish and wildlife and plant resources in 
the Gulf - and across the country - for years, if not more likely 
decades, to come.

The Administration's Response
    The Deepwater Horizon incident is being managed under a Unified 
Command System, located in Houma, LA. Operational activities are being 
directed from Incident Commands in Houma, LA, Mobile, AL, St. 
Petersburg, FL, and Houston/Galveston, TX. An additional Command Center 
is being established in Miami, FL. The U.S. Fish and Wildlife Service 
is the lead federal agency for Wildlife Operations, under the command 
of the Incident Commander. A Joint Information Center (JIC) has been 
established in Robert, LA to provide informational support and serve as 
a conduit for ensuring that information is forwarded to the public.
    In addition, Secretary Salazar dispatched me and others from the 
Department's natural resources and science team to Incident Command 
centers, including the Assistant Secretary for Fish and Wildlife and 
Parks, Tom Strickland; the Director of the National Park Service, Jon 
Jarvis; the Acting Director of the U.S. Fish and Wildlife Service, 
Rowan Gould; and the Director of the Bureau of Land Management, Bob 
Abbey and Dr. Marcia McNutt, Director of the U.S. Geological Survey and 
Science Advisor to the Secretary. In total, more than 24,000 federal 
and private personnel are responding to the incident.
    The National Incident Commander and the Federal On Scene 
Coordinator are directing efforts and are accountable for the 
Administration's response. They will ensure that BP, one of the 
responsible parties, is meeting its obligations and pursuing all 
possible contingencies and bringing the right resources to respond to 
this spill. The Administration is working to ensure that all necessary 
and available federal resources are being directed to this crisis.
    All of these leaders, along with personnel from bureaus and offices 
within the Department, work with other federal, state, and local 
officials to monitor and respond to immediate threats to fragile 
habitat; assess and address long-term damage to impacted resources; and 
develop and provide data and information for use by the Unified Command 
in responding to the incident.
    This is the most complex and challenging oil spill our country has 
ever encountered. The source of the spill is 5,000 feet beneath the 
ocean surface where there is no human access and almost all the work is 
being done with remotely operated vehicles. The damaged well is 
continuously discharging large volumes of hydrocarbons into the water 
column. Access to the discharge site is controlled by the technology 
that was used for the drilling, which is owned by the private sector. 
Due to its technical expertise, specialized equipment, and on-site 
presence, BP's involvement in the efforts to stop the leak is vital to 
reaching a solution. The responsible parties are also responsible for 
the cleanup and environmental damage, and BP, one of the responsible 
parties, has assured the Administration that it will pay for the 
response and subsequent restoration efforts.
    As of June 8, 377 FWS personnel, 97 NPS personnel, 45 U.S. 
Geological Survey personnel and the following DOI personnel are 
stationed on the frontlines at National Wildlife Refuges and National 
Park units, involved in key decisions at command centers, and 
participating in air, sea and beach operations to respond to reports of 
injured wildlife and impacted coastal habitat:<star>02
Department of the Interior Deployed Resources - Deepwater Horizon
Source: Department of the Interior Bureau and Office Reports--June 8, 
        2010



              Bureau/Office                    Personnel                           Locations

DOI Office of the Secretary                  38                Washington and Gulf Area
Fish and Wildlife Service                   377                Refuges and Incident Command Posts
Minerals Management Service                 170                Response Centers. Others at District, Regional,
                                                                and Headquarters. Oversight Support Teams.
National Park Service                        97                Parks and Incident Command Posts
USGS                                         45                Regional Offices and Incident Command Posts
TOTALS                                      727                .................................................



    In addition, there is a FWS All Hazard Team located at the Regional 
Spill Response Center, in the FWS Southeast Regional Office in Atlanta, 
GA, providing support. Finally, many more Department of the Interior 
employees are working on the spill from their home duty stations.
    Examples of field operations directly involving FWS, NPS, and USGS 
staff include:
        <bullet>  Helping deploy and maintain almost 2 million feet of 
        containment boom, with the goal of protecting the most 
        sensitive areas of marsh and other vital habitats along the 
        Gulf coast.
        <bullet>  Conducting beach surveys to monitor sea turtle nests 
        and developing protocols for cleanup crews should we discover 
        oiled nests.
        <bullet>  Engaging in multiple over flights to survey for 
        birds, manatees and other wildlife along the coasts of 
        Louisiana, Mississippi, Alabama, and western Florida. These 
        over flights aid in establishing a baseline that will help us 
        document and quantify impacts as they occur and quantify 
        impacts and predict effects into the future.
        <bullet>  Conducting Natural Resource Damage pre-assessments 
        that will help us hold BP and other parties responsible for 
        natural resource damage, and help fund restoration of the vital 
        ecosystems of the Gulf once this spill has been contained.

Impacts to Wildlife and Habitat
    The Gulf of Mexico is one of the world's most ecologically rich 
areas and provides habitat for a great diversity of fish, birds, 
mammals, reptiles and other wildlife. Many species of wildlife, 
including some that are threatened or endangered, live along the Gulf 
Coast and are being affected by the oil spill. The Department of the 
Interior and its bureaus have responsibility for a spectrum of natural 
resources in the Gulf that will be impacted by the oil spill, including 
National Wildlife Refuges, National Park units, migratory birds, and 
threatened and endangered species, such as manatees, and sea turtles.

Short-Term Impacts
    Oil spills affect wildlife and their habitats in many ways. The 
severity of the damage depends on the:
        <bullet>  Type and quantity of oil spilled;
        <bullet>  Condition of the oil on and below the surface, 
        including the length of time it is in the water before it hits 
        land or wildlife encounters it;
        <bullet>  Season and prevailing weather;
        <bullet>  Type of shoreline; and
        <bullet>  Type of waves and tidal energy in the area of the 
        spill.
        <bullet>  Presence of dispersants
    Hundreds of miles of Louisiana shoreline have been directly 
impacted by oil, and last week oil came ashore in neighboring states. 
Many acres of marsh have been impacted by the spill, while additional 
acres have been impacted by sheening, a process whereby oil spreads out 
on the surface of the water. Over 300,000 acres of Louisiana marshland 
are currently being monitored.
    We believe 35 National Wildlife Refuges located in the Gulf are 
potentially at risk from the oil spill. So far, two have been directly 
impacted by oil - Breton (LA) and Bon Secour (AL). Only Breton NWR has 
been closed to the public. Low-level over flights are prohibited there 
to protect nesting brown pelicans and terns. Last week, we also saw 
impacts to the Gulf Shore National Seashore. There are ten National 
Park System units that are potentially at risk from the oil spill. 
Petit Bois Island and Horn Island at Gulf Islands National Seashore 
were the first National Park units to be impacted, with tar balls and 
oil sheen washing up along a two-mile stretch of beach, but the island 
remains open to the public. Teams have been evaluating and responding 
to the situation, but cleanup efforts have been hampered by inclement 
weather. A light scattering of oil appeared this past Monday at Peridio 
Key that clean-up crews addressed and the Fort Pickens and Santa Rosa 
areas continue to receive light oiling, which are being cleaned-up. Tar 
balls have also been observed in Dry Tortugas National Park, but these 
were determined to not be affiliated with the Deepwater Horizon oil 
spill. The affected areas were cleaned over Memorial Day weekend. There 
has been no oil from the Deepwater Horizon incident at other national 
parks in the Gulf, and monitoring continues at all park coastal areas.
    Additionally, coastal habitat associated with projects funded by 
millions of dollars of the North American Wetlands Conservation Act 
(NAWCA) grants are potentially threatened by the oil spill. Significant 
NAWCA grant and partner match dollars have been or are being invested 
in coastal areas of Texas, Louisiana, Mississippi, Alabama and Florida 
Gulf to protect, restore, and enhance wetlands and wetland-associated 
uplands for migratory birds and other wildlife. We are also concerned 
about Coastal Wetlands Planning, Protection and Restoration Act 
(CWPPRA) projects. CWPPRA provides for targeted funds to be used for 
planning and implementing projects that create, protect, restore and 
enhance wetlands in coastal Louisiana and other Gulf states. The CWPPRA 
program receives millions of dollars in federal funding each year to 
fund projects.
    This spill occurred at the peak of the breeding or spawning periods 
of a large number of species in the Gulf, including sea turtles, many 
local bird species such as brown pelicans and least terns, as well as 
various fish and invertebrates that are critical species at the base of 
the ecosystem. As these birds and other wildlife ingest oil, inhale 
fumes, become covered with oil, and consume marine resources that are 
affected by oil, the entire Gulf ecosystem will be impacted throughout 
the food chain, from marine plankton, fish, and shellfish, to birds, 
mammals and other wildlife. Direct mortality will occur. We also expect 
wildlife impacts to be subtle and chronic and persist for years and 
could possibly have population-level impacts.
    Oil causes harm to wildlife through physical contact, ingestion, 
inhalation and absorption. Floating oil can contaminate plankton, which 
includes algae, fish eggs and the larvae of various invertebrates. Fish 
and some seabirds can become contaminated by feeding on these organisms 
as prey, or by direct toxic effects of oil. Larger animals in the food 
chain can consume contaminated organisms as they feed on these fish and 
other prey and die, thus impacting entire ecosystems through a 
cascading effect.
    We share the public's frustrations that BP has been unable to 
protect the Gulf coastline from oil coming ashore. For this reason, we 
are redoubling our efforts to pressure BP to deploy more resources 
where they are needed most.

Long-Term Impacts
    The long-term impacts from the Deepwater Horizon release cannot be 
determined at this point. There are still unanswered questions about 
the amount of oil released and remaining in the Gulf, the effects of 
dispersants used at the surface and at depth, and how this particular 
oil will degrade in the environment. An Environmental Incident Science 
Team, led by the USGS and with personnel from FWS, NPS, and MMS 
representing their bureaus' science and resource-management needs, is 
developing a long-term science plan designed to address these needs as 
we move from the immediate response phase into the longer-term response 
and recovery phase. Even before completion of this plan, we can make 
reasonable inferences based on scientific literature, prior experience, 
and expert judgment.
    We expect to see a high degree of mortality in microscopic and 
macroscopic life (e.g. zooplankton, larval fish and crustaceans) that 
encounter oil and other toxins in the water. We also fully expect 
secondary, tertiary, and top consumers/predators in the food web, such 
as invertebrates, fish, birds, turtles, and mammals, to be negatively 
impacted directly or through cascading effects in the ecosystem.
    We are particularly concerned about the health of birds in the Gulf 
of Mexico, including the millions of migratory birds that range across 
the Western Hemisphere but ultimately winter in or migrate through the 
estuaries, marshes and other coastal areas of the Gulf as they move 
through the central flyway. Birds are a key indicator species of the 
health of the Gulf environment and we have begun the numerous 
investigations necessary to understand the extent and magnitude of the 
impact to bird species in the region.
    Many of the migratory birds that winter along the Gulf Coast are 
currently farther north on their breeding grounds in Canada and the 
northern prairies of the United States. However, we expect the oil to 
persist long-term in the food chain. When these migratory birds return 
to the Gulf Coast in the fall, they will likely be exposed to oil as 
they forage, or possibly face starvation as a result of depleted 
insect, marine and plant life due to oil incursion. These coastal areas 
are also the key stopover sites for hundreds of millions of neotropical 
migratory songbirds that rest and feed in these habitats during both 
their spring and fall migrations. With the likely persistence of this 
oil and its impacts for years to come, myriad bird species will 
potentially be affected.
    Assuming substantial quantities of oil enter the coastal marshes of 
Louisiana, Mississippi, Alabama and Florida, we can expect very 
significant impact to the entire coastal ecosystem of these areas. In 
addition to the severe, and likely long-term, impact to marsh 
vegetation, various invertebrates such as crabs and shrimp and many 
vertebrates including fish, birds, turtles, and some mammals could be 
significantly affected. The injury suffered by water and wading birds 
such as the brown pelican, mottled duck, egrets, ibises, and herons 
will be potentially dramatic. We have all already seen the terrible 
photographs of fully oiled pelicans either dead or struggling to 
survive.
    Health effects to birds of exposure to oil include death, 
poisoning, skin irritation, matting of feathers leading to loss of 
flight and poor temperature regulation. Longer-term effects of oil on 
birds and marine mammals are less understood than are short-term 
impacts, but oil ingestion has been shown to cause suppression of the 
immune system, organ damage, as well as reproductive changes such as 
embryo death in eggs and behavioral changes leading to reproductive 
impairment. Damage to the immune system can lead to secondary 
infections that cause death and behavioral changes may affect an 
animal's ability to find food or avoid predators. Long-term 
consequences can include impaired fitness and reproduction, potentially 
impacting population levels.
    Oil has the potential to endure in the environment long after a 
spill event and has been detected in sediment 30 years after a spill. 
In tidal flats and salt marshes, oil may seep into muddy bottoms and 
persist for an extended period of time, remaining toxic and preventing 
the germination and growth of coastal and marine plants. The effects of 
oil on the vegetation and invertebrates in these systems will 
undoubtedly have long-term impacts on fish and wildlife populations. 
These plants are important to the buffering capacity of marshes and 
wetlands from storm events and provide habitat for birds and other 
animals. Impacts associated with the conversion of wetlands to open 
water, subsidence, and sea level rise will serve to only weaken the 
ability of the coastal wetlands to withstand and recovery from the 
impacts of future storm or spill events.
    Furthermore, any projection of damages may be impacted by the use 
of dispersants in response to this spill. This spill has resulted in 
the use of dispersants in quantities unprecedented in the United States 
(over 1,100,000 gallons), and the first use of dispersants at 
significant depth (over 300,000 gallons). EPA Administrator Lisa 
Jackson has pointed out the following:
        <bullet>  We know that dispersants are less toxic than oil.
        <bullet>  We know that surface use of dispersants decreases the 
        risks to shorelines and organisms at the surface. And we know 
        that dispersants breakdown over weeks rather than remaining for 
        several years as untreated oil might.
        <bullet>  After testing and authorizing dispersant use 
        underwater, we also remain optimistic that we are achieving 
        similar results with the use of less chemicals.
    The dispersants are meant to help breakdown the oil and decrease 
the resulting damage. As the dispersant is used underwater, EPA is 
requiring BP to do constant, scientifically rigorous monitoring so that 
EPA scientists can determine the dispersants' effectiveness and impact 
on the environment, water and air quality, and human health. The 
Administration will continue to closely scrutinize the monitoring 
results and reserve the right to stop the use of subsea dispersants if 
the science indicates that this method has negative impacts on the 
environment that outweighs its benefits.
    The preliminary assessment of wildlife and habitat impacts to date 
from the Deepwater Horizon Oil Spill is only a precursor of major and 
long-lasting ecological impacts to the Gulf of Mexico, and beyond, 
should the Loop Current carry the oil toward the Florida Straits.

Engaging the Public
    The Administration is undertaking a variety of activities to engage 
the general public and local communities and to disseminate and receive 
information about the environmental impacts of the Deepwater Horizon 
oil spill.
    Secretary of the Interior Salazar, as well as other Administration 
leaders, is meeting regularly with national, state and locally elected 
officials to share information and receive input. In addition, 
Administration representatives are meeting with communities at town 
hall meetings and in other forums. For example, this week, 
representatives from the U.S. Coast Guard, U.S. Fish & Wildlife 
Service, the Environmental Protection Agency and other state and 
partner agencies responding to the Deepwater Horizon incident, will 
host two Open House Expos in Plaquemines Parish, Louisiana. The Open 
House Expos will offer Plaquemines residents the opportunity to engage 
one-on-one with experts about the techniques, strategies and materials 
being used in the spill response. Officials have also participated in 
teleconference briefings for congressional staff, frequently held press 
announcements and briefings for the media, and provided other periodic 
briefings for nongovernmental organizations and other partners.
    The Administration is utilizing new media to reach interested 
members of the public. As of June 9, there were: 32,148 Facebook 
followers, 7,218 Twitter followers, 2.3 million views on YouTube of 
more than 55 posted videos, 136,682 views of the photographs posted on 
Flickr, and over 78 million hits on the primary website set-up for the 
incident, www.deepwaterhorizonresponse.com/. All information is being 
coordinated through the JIC, which is staffed with representatives from 
federal agencies and others.
    A number of incident ``hotlines'' were established early in the 
Administration's response to the oil spill to encourage information 
sharing directly with the public. For example, there is an 
environmental hotline with community information (866-448-5816), an 
assistance hotline to make requests for booms and offering vessels of 
opportunity (281-366-5511), a wildlife distress hotline (866-557-1401), 
a claims hotline (800-440-0858) and a volunteering hotline (866-647-
2338). Contacts have also been set-up to receive technical response 
suggestions and forward them to the Unified Command if they are useful.
    Looking forward, the Department of the Interior, in conjunction 
with the Department of Homeland Security, has launched an investigation 
into the causes of the Deepwater Horizon offshore oil drilling platform 
explosion, and is holding public hearings, calling witnesses, and 
taking any other steps needed to determine the cause of the spill. In 
addition, the 30-day safety review that President Obama ordered the 
Department of the Interior to undertake has been presented to the 
President and has helped us understand what safety measures should be 
immediately implemented.
    In mid-May, the National Academy of Engineering agreed to the 
Secretary of the Interior's request to review the Deepwater Horizon 
spill. This highly respected organization is a part of the National 
Academy of Sciences (NAS), and will bring a fresh set of eyes to this 
tragedy. The National Academy of Engineering will conduct a rigorous, 
independent, science-based analysis of the causes of this oil spill. 
The NAS has carried out similar independent investigations into events 
like the space shuttle Challenger accident.

Restoring Natural Resources
    In order to restore natural resources in the Gulf of Mexico injured 
by the Deepwater Horizon oil spill, the Administration's efforts must 
initially focus on stopping the release of oil from the well and 
containing the oil to mitigate impacts to trust resources along our 
fragile coastline. We must also direct our efforts towards determining 
the magnitude of the injuries to natural resources so that BP and other 
responsible parties can be held accountable for restoring them.
    Preparation for determining the extent of the injuries to natural 
and cultural resources is already underway, as natural and cultural 
resource experts in the FWS, NPS and other federal agencies are 
actively collecting baseline sediment, water and photographic data, 
conducting beach surveys on public lands, surveying the coasts for 
injured birds, manatees and other wildlife, and conducting Natural 
Resource Damage pre-assessments. FWS and NPS, along with other 
Interior, state, tribal and federal partners, will act as ``trustees'' 
for natural resources injured by the oil spill. FWS has responsibility 
for National Wildlife Refuges, threatened and endangered species, 
migratory birds, anadromous fish, and other natural resources that fall 
under the jurisdiction of FWS. NPS has responsibility for National Park 
units and the natural and cultural resources and habitats protected 
within their boundaries including wildlife, seagrass beds, coral reefs, 
mangroves, salt marshes and shipwrecks and other historic features. As 
trustees, we will identify the natural and cultural resources injured, 
determine the extent of the injuries, recover damages from the 
responsible parties, and plan and carry out natural resource 
restoration activities. Even though some assessment work has begun, 
natural resource trustee agencies will not be able to determine the 
magnitude of the resource injuries until the oil spill is stopped and 
the effects are understood.
    Once the magnitude of the resource damage is determined, the 
trustees will pursue a claim against BP and other responsible parties 
of the Government's conclusions as to the full costs of the 
restoration, for the loss of natural resources and natural resource 
services to the general public, and for the cost of the response and 
assessment activities. In testimony before the House Energy and 
Commerce Committee on May 25, the Department of Justice reiterated the 
Administration's commitment to explore all legal avenues to ensure that 
those responsible for this disaster pay for all of the devastation that 
they have caused.
    The Oil Pollution Act of 1990 (OPA) was passed in the wake of the 
Exxon Valdez disaster to provide specific legal authority for dealing 
with the consequences of oil spills. OPA assigns responsibility for 
cleaning up such spills. It also provides a liability scheme for 
payment of damages, ranging from the immediate and ongoing economic 
harm that individuals and communities suffer to the potentially 
devastating and long-term harm done to precious natural resources.
    Although OPA is the primary federal vehicle for addressing 
liability for response costs and damages resulting from oil spills, it 
is not the only legal vehicle for seeking compensation for incidents 
such as those now unfolding in the Gulf. OPA expressly preserves state 
and other federal mechanisms for pursuing damages for injuries caused 
by such incidents and for assessing penalties for the underlying 
conduct that may cause such disasters. For example, the National Park 
System Resource Protection Act (16 U.S.C.19jj) establishes additional 
authority for addressing natural and cultural resources for which the 
National Park Service is trustee.
    After the claim is resolved, whether by settlement or litigation, 
the trustees will develop a final restoration plan with public input 
that specifies the actions necessary to restore the injured resources. 
The trustees will then monitor the restoration projects to gauge 
progress, performance and success of the restoration actions as well as 
the need for any interim corrective action.
    The Secretary of the Interior has made absolutely clear in meetings 
with BP executives that BP, as a responsible party, will be held fully 
accountable for paying costs associated with this spill. In a letter to 
Secretary Salazar and Homeland Security Secretary Janet Napolitano, BP 
has confirmed that it will pay all damages regardless of whether the 
statutory liability cap contained in the OPA applies. While the 
investigations into the cause of this disaster are still underway, the 
Administration will ensure that those found responsible will be held 
accountable for their actions.

Looking Forward
    The Administration believes the visible natural resource impacts to 
date, particularly to fisheries and wildlife, are only the start of 
what will be a major and long-lasting ecological disaster. Science 
underpins everything we do in conserving fish and wildlife and other 
natural resources. It broadens and deepens our understanding of natural 
processes and ecosystems, and in so doing it enables us to be more 
effective, judiciously allocate our budget and assets, make sound 
decisions, and better meet our stewardship responsibilities in serving 
the American people.
    For the past 18 months, the Department of the Interior has focused 
most of our new capacities in landscape planning and science to build 
what we call Landscape Conservation Cooperatives, or LCCs. These LCCs 
are designed to help us and our conservation partners develop and apply 
up-to-date scientific theory and practical approaches to helping fish 
and wildlife adapt to the adverse effects of large-scale ecological 
disruptions, such as climate change and now the Deepwater Horizon oil 
spill.
    In addition, other areas within FWS such as the migratory bird and 
habitat conservation programs have a significant role in assessing the 
oil spill's impacts and developing monitoring programs and protocols. 
Our National Wildlife Refuge System has moved forward to develop 
unified, integrated systems to monitor resources on refuges, inventory 
those resources, and make that information available for analysis by 
our own scientists and their counterparts in other agencies, 
nongovernmental organizations, universities, and the public. Inventory 
and vital signs monitoring programs currently in place in National Park 
units will contribute to analyses and assessment of impacts as well. 
Additional efforts by the Department are currently underway to develop 
long-term integrated science plans for the marine and coastal 
ecosystems of the Gulf of Mexico.
    Addressing the environmental impacts of this oil spill is going to 
be very challenging. Fortunately, we are in a better position now that 
we have begun to bring partners together to develop science capacity 
through the LCCs surrounding the Gulf Coast. As with our work on 
climate change, the BP Deepwater Horizon oil spill disaster will 
require the cooperation and shared resources of many partners to come 
together, bring ideas, and analyze, address, and mitigate impacts to 
fish and wildlife and other natural resources using science. When it 
comes to the long-term restoration efforts, the LCCs now being 
established will play a key role in helping us determine when and how 
that restoration will occur along the Gulf Coast.
    Through these conservation partnerships we plan to bring together 
the scientific capabilities, ideas, resources, and the ability to 
leverage resources to address challenges posed by the oil spill and 
reduce its effects on fish and wildlife, National Wildlife Refuges, 
National Park units, commercial fishing, ecosystem functions, and other 
important resources in the Gulf.
    Dealing with the more immediate challenges presented by BP's 
offshore platform disaster will require better coordination of science, 
planning, and operations to address the ongoing impacts to the Gulf of 
Mexico and the likely broader effects that may occur outside this area.

Conclusion
    The Deepwater Horizon Oil Spill is the latest in the series of 
events graphically illustrating our Nation's need to understand, value, 
and nurture the Gulf of Mexico ecosystem. The spill has illuminated the 
need for additional information about wildlife, fisheries, and habitats 
as we try to quantify the damage, and understand the cumulative effects 
of the catastrophic stressors acting on the Gulf Coast system. The 
immediate impacts of the spill are graphic, obvious, and tragic to our 
natural resources and the people who cherish and make their livelihood 
from the Gulf. The deepwater location of this spill, in combination 
with the volume of oil discharged and oceanographic and weather 
influences introduce major uncertainty into defining the full range of 
foreseeable impacts.
    We must bring to bear our best scientists and our best science, to 
understand the Gulf's resources at risk, the impact of oil on the 
health of those resources, and the future trajectories of critically 
important resources to Gulf Coast communities and our nation as a 
whole. We must better understand, and predict the future paths of the 
fisheries, the migratory birds, the endangered species, and the local 
and national economies associated with these resources.
    This Administration is committed to helping the people and 
communities of the Gulf Coast region persevere through this disaster, 
to protecting our important places, and to learning valuable lessons 
that will help prevent similar spills in the future.
                                 ______
                                 

 [NOTE: Ms. Lyder's responses to questions were not received by the 
        time this hearing went to print.]

    Ms. Bordallo. Thank you very much, Ms. Lyder, for 
describing the efforts of the U.S. Fish and Wildlife Service 
and the National Park Service to respond to the impacts of the 
oil spill on protected wildlife and their habitats.
    I know you have spent many weeks, as you said, in the Gulf 
already and appreciate the time that you took to be here today.
    Mr. Barham, thank you for being here today despite the 
demands on your time and attention in Louisiana. Please begin 
your testimony.

           STATEMENT OF ROBERT J. BARHAM, SECRETARY, 
         LOUISIANA DEPARTMENT OF FISHERIES AND WILDLIFE

    Mr. Barham. Madam Chairman, Members and distinguished 
guests, along with Assistant Secretary Randy Pausina of 
Wildlife and Fisheries it is an honor to represent the 
Department here before you today. Under the leadership of 
Governor Bobby Jindal and our team, we have lived the Deepwater 
event literally 24 hours a day, seven days a week, since April 
20.
    Our first thoughts were with and will remain with the 
families who tragically lost their loved ones in this event. 
From an environmental standpoint, this could not have occurred 
at a worse place. Louisiana's estuarine environment, its 
marshes and its sea coast is America's wetlands.
    Alaska and Louisiana produce more than half of the seafood 
consumed in the United State, Louisiana producing over 25 
percent of the seafood daily consumed from the tables of 
America. We lead America in the production of oysters, shrimp 
and blue crabs, so it is a wonderfully rich environment that is 
imperiled by this event.
    Unfortunately, associated with this uncontrolled oil spill, 
BP conducted an experiment that had never been done before. 
They decided to use subsea dispersants. Subsea dispersants have 
no scientific background where you can assess the impact of the 
use of those dispersants. At pressures up to 16 atmospheres and 
very cold temperatures, we just don't know what will occur with 
the injection of those dispersants.
    It is not like oil that comes to the surface. As bad as it 
is, we have a whole lot more experience dealing with oil on the 
surface than we do in the subsea, where we have literally no 
experience. One has to suspect their position was that out of 
sight/out of mind would be their best course of action. If it 
didn't appear on a satellite photograph, a lot of folks would 
say well, it doesn't look like it was that bad to me.
    But we all know now that there is a cloud of dispersant and 
oil spread across the coast. Surface dispersants travel 
primarily by the wind. Subsea dispersants don't move that way. 
They move through unpredictable and varying currents that move 
across the Gulf, so what we are facing is we have an unknown 
quantity in the water column and we will not know for years 
what the impact will be on the food chain that affects the 
entire ecosystem and the productive capability of Louisiana's 
marshes.
    This event will not end the day that the oil stops flowing. 
It will not end literally, as the Chairman pointed out, perhaps 
for years or decades, and we pray not for centuries, that we 
will be looking at this. LSU tells us that the transfer rate 
for neutrally buoyant particles at 5,000 feet to the surface is 
potentially up to 300 years. That is a frightening scenario. It 
will be long after all of us are gone that people will be 
studying this event.
    One of the great challenges we have is Louisiana seafood is 
considered to be the finest in the country. It is safe, secure 
and of high quality. We have to maintain that. We are doing 
closures and openings every day, but it is a challenge. One of 
the real challenges is we can't develop a chemical profile to 
test for Corexit associated with the oil.
    Madam Chair, we have asked the EPA. We have asked BP. We 
have asked NALCO that produces Corexit to give us the 
components and the percentages of those components so that we 
can develop a test, a chemical profile, so we can test for that 
material in the tissue that we are collecting. As I speak to 
you today, we have not received that information yet, 50 some 
days into this event. If the government has its boot on the 
neck of BP, it is time to exert some additional pressure.
    We have all seen the horrific photographs of our birds that 
are on the coast, the sea turtles that are washing ashore and 
the dolphins. It is literally heart wrenching to watch what is 
going on on the coast.
    There is a bitter irony because, in the last year, the 
brown pelican was just delisted as an endangered species. It 
was a wonderful testimony to conservation efforts that brought 
this majestic bird back from the brink of extinction. The 
pelican is our state bird. It is very special to all of us, and 
our biologists are working tirelessly to preserve this 
creature, along with the others.
    What I can promise you, Members and Madam Chair, is that 
the Department of Wildlife and Fisheries in Louisiana will work 
tirelessly to ensure that this American treasure, the wetlands 
of America, are preserved and that all of us will continue to 
be able to refer to Louisiana as the sportsmen's paradise.
    We will work as long and as hard as it takes to win this 
fight, one we cannot lose. Thank you.
    [The prepared statement of Mr. Barham follows:]

         Statement of The Honorable Robert Barham, Secretary, 
             Louisiana Department of Wildlife and Fisheries

    Mr. Chairman and distinguished committee members, thank you for the 
invitation to appear today to discuss an issue important to my state, 
but equally important to the Gulf Coast region and the nation. I am 
Robert Barham, Secretary for the Louisiana Department of Wildlife and 
Fisheries.
    My state is blessed with abundant and diverse natural resources. 
Louisianans cherish these resources but we have never been an ``either/
or'' state. We have long been a major fisheries producer as well as 
major energy producer. Louisiana accounts for one quarter of the 
commercial fisheries production of the lower 48 and at the same time a 
third of the nation's natural gas and oil supply is either produced in 
Louisiana, produced off our coast, or moves through our state. 
Louisiana is also known worldwide as the Sportsman's Paradise. Our 
coastal marshes and wetlands are the most important waterfowl wintering 
area in North America providing habitat for about 2 million migratory 
waterfowl. They are also home to some of the largest alligator, river 
otter, and water bird populations in the country.
    The fishing industry and oil and gas industry have had a mutually 
beneficial coexistence in my state for many decades and we recognize 
that Louisiana's role as a major energy producer is vital to our 
national security but the recent Deepwater Horizon incident brings home 
the unfortunate ecological consequences which can result from energy 
production.

What's at Risk
    Commercial and recreational fishing is a way of life in coastal 
Louisiana. All of our coastal communities had their beginnings as 
fishing villages and fishing is still a major economic engine in those 
communities. The cultural identity of these communities is also largely 
defined by fishing.

Commercial Fisheries
    Louisiana is second only to Alaska in terms of commercial fisheries 
production and home to 3 of the top 7 commercial fishing ports in the 
country. About 1 billion pounds of fisheries products worth over $272 
million are produced annually. In recent years Louisiana landed 
significant portions of the total U.S. commercial harvest of many 
species, including, 35% of the shrimp, 36% of the oysters, 56% of the 
Gulf menhaden and 27% of the blue crab, 55% of the black drum, 23% of 
all snapper species, and 20% of the yellowfin tuna. Nearly 13 thousand 
commercial fishermen and over 1,500 seafood dealers/processors and 
brokers register each year to provide this nation with fresh seafood.

Recreational Fisheries
    Louisiana's recreational harvest is second only to Florida among 
the states surveyed by the NOAA Fisheries recreational survey. 
Louisiana-based recreational anglers caught high proportions of the 
total U.S. recreational harvest of many species, including, 57% of the 
black drum, 56% of the red drum, 28% of the sheepshead, 29% of the 
southern flounder, and 51% of the spotted seatrout from the states 
surveyed by the Marine Recreational Fishery Statistical Survey. Over 
13% of the total marine recreational harvest in the nation is landed in 
Louisiana. We have a large Charter Fishing industry and tourist make up 
a large portion of their clientele. Annually 660 charter fishing guides 
provide their services to recreational fishermen. On average 4.5 
million saltwater recreational fishing trips start and end out of 
Louisiana fishing sights.

Species of Special Interest
    There are 21 species of marine mammals and 5 species of sea turtles 
that occur in the area of the spill.

Jobs, Income and Tax Revenues
    Louisiana's commercial and recreational fisheries resources provide 
the state and national economy with an important source of jobs, 
income, and tax revenues. A recent study of the economic benefits of 
fisheries, wildlife and boating in Louisiana prepared by Southwick 
Associates indicates that marine commercial and recreational fishing 
supported $2.2 billion in retail sales, 34,078 jobs, $588 million in 
salaries and wages, generated $198 million in federal income tax 
revenue and had a total economic impact $3.1 billion. Louisiana's 
commercial fishery is a major driver of the restaurant industry and the 
recreational fishery is a major driver of the tourism industry in the 
entire Gulf region.

[GRAPHIC] [TIFF OMITTED] T6977.002

.epsCoastal Habitat
    Forty percent of the coastal wetlands within the lower 48 states 
are in Louisiana. Louisiana is also home to the delta of the largest 
river on the continent and unlike the coastal habitat of much of the 
country Louisiana's coast is composed of thousands of miles of 
shoreline dominated by highly fragmented vegetated wetlands. These 
coastal wetlands are laced with large and small bays, lakes, bayous, 
canals, shallow ponds and remnant barrier islands. These wetlands 
support our highly productive fisheries but also perform an important 
function in protecting our coastal communities and oil and gas 
infrastructure from storm surge.

State Response
    The immediate reaction to the Deepwater Horizon explosion was 
concern for the loss of life and the recovery and safety of the 
survivors. Initially there was no confirmed oil leakage but once the 
rig sank, oil leakage was confirmed and became an issue of concern.
    It became apparent early on that dealing with the consequences of 
this incident would not be a sprint but rather a marathon the length of 
which is yet to be determined.
    I, along with Governor Jindal and other state officials met with 
the Coast Guard and BP officials early on to get an understanding of 
their response capabilities and response plans and we immediately began 
preparations for the potential damage resulting from movement of leaked 
oil to our coast. Department field staff began daily reconnaissance of 
our entire coast looking for presence of oil or oiled wildlife and that 
effort continues indefinitely. Key state officials, parish presidents, 
emergency operations professionals, levee district officials and others 
continuously met to discuss strategies to fill the voids we identified 
in the response efforts by BP and the Coast Guard.
    Using all information available regarding the location and 
trajectory of the surface oil, the Department worked with both federal 
and state partners to identify the most highly sensitive shoreline 
areas that would most likely be impacted and developed boom deployment 
plans to protect these areas. The initial boom deployments to protect 
highly sensitive areas took place well before any oil made landfall but 
these deployments proved to be very unstable due to wave, wind and 
current action.
    Using information on the likely movement of oil into an area I 
along with the Secretary of our State Department of Health and 
Hospitals coordinated the implementation of precautionary closures to 
fishing in designated areas and initiated sampling and testing of fish 
to modify and adjust area openings and closures.
    Simultaneous with the implementation of the initial boom 
deployments and when it became apparent that neither BP nor the Coast 
Guard had a detailed ``boom plan'' we worked with our state partners 
and local government officials to develop a boom plan for the entire 
coast, identifying primary closure points focused on attempting to keep 
oil from the most interior reaches of our wetlands.
    The state also fully utilized all available freshwater diversions 
to flow freshwater into our coastal areas in an attempt to minimize 
intrusion of oil into our wetlands.
    As a result of the limited effectiveness of the initial boom 
deployments the state, again working with local government officials, 
the state developed a dredging plan to build ``sand booms'' along the 
alignment of the historic barrier islands and filed for an emergency 
permit from the Army Corps of Engineers.
    Louisiana has from the start ``leaned forward'' with actions, 
proposed response plans and advice to both BP and the Coast Guard.

What We Know
    The characteristics which make Louisiana's coast highly productive 
from a fisheries standpoint also make them exceptionally vulnerable to 
oil impacts. The topography of coastal Louisiana presents unique 
challenges with respect to oil movement and infiltration into these 
areas as well as unique clean-up challenges. Simply put, our coast is 
not composed of beaches which can be reasonably cleaned.
    In the short term we know that there has been and continues to be a 
tremendous loss of earnings for a large and diverse group of people 
dependent on our coast. Payrolls have already been cut. Commercial 
fishermen have been deprived of the opportunity to fish. The 
availability of seafood products to seafood docks and processors has 
been severely limited if not eliminated. Restaurants and seafood 
consumers in the region and throughout the nation have been deprived of 
highly prized food products. Charter Captains have been deprived of the 
opportunity to take clients on fishing trips and have had many future 
booked trips cancelled. Sports fishermen have not been able to fish. 
All of the industries and businesses that rely on commercial and 
recreational fishing have been negatively impacted by the lack of 
expenditures by fishermen, dealers and processors.
    Most of our large commercial fisheries are based on estuarine 
dependent species many of which spawn offshore in the Gulf, the eggs 
and larvae are carried inshore on currents where they grow into 
juveniles and sub-adults and then move back to the Gulf as adults. 
Other species primarily occupy near shore and inshore areas throughout 
their life cycle while some spend their entire life out in the open 
Gulf.
    A tremendous volume of oil has spread throughout a large area of 
the Gulf. Oil has also reached Louisiana's shores in many areas and has 
infiltrated into some of our interior coastal waters. It is likely that 
virtually all species of aquatic life at some stage of their life cycle 
have been or will be exposed to some form or concentration of oil 
leaked from the Deepwater Horizon.
    Coastal shorelines, sea turtles, marine mammals and numerous 
wildlife species have already been oiled.
    In addition to the massive amount of oil, there is also a large 
volume of oil dispersants that have been applied to our coastal waters, 
and it is likely that virtually all species of aquatic life at some 
stage of their life cycle have been or will be exposed to some 
concentration of dispersants.
    We know that the oil leaked has ``weathered' into various water/oil 
emulsions and other forms, and in general that the more ``weathered'' 
forms of oil are more stable and persistent in the environment.
    Unfortunately, national media reports have led to negative consumer 
ideas about the quality and safety of harvested seafood products 
despite the fact that we have implemented a continuing testing program 
and have issued precautionary fishing closures so that those Louisiana 
seafood products that are making it to the wholesale and retail market 
remain safe and wholesome.
    Consumer confidence questions combined with reductions in product 
availabilities have influenced the market share of our seafood products 
and recent experiences with disruption of our seafood supply by 
Hurricanes Katrina, Rita, Ike and Gustav have demonstrated the extreme 
difficulty recapturing that market share. Negative consumer confidence 
also threatens our Charter, restaurant and tourism industries.
    In addition to the economic impacts, fishing is a way of life and 
an integral part of the culture of coastal Louisiana. Many of the 
fishing businesses that are threatened have been in families for 
generations. Coastal residents are experiencing extreme anxiety because 
of the ``unknowns'' both of their short term future and long term 
future. In a nutshell, coastal Louisiana has been turned on it head.

What we don't know
    Unfortunately there are many things we don't know.
    At this point we do not know the total volume of oil which has 
leaked from the Deepwater Horizon into the Gulf nor do we have 
consensus as to what volume continues to leak daily.
    We have some knowledge of the extent and distribution of oil at the 
surface but the distribution changes with time as the volume grows and 
natural forces relocate and spread oil from the source site. The 
movement of oil is not in a straight line but rather omnidirectional.
    Large volumes of dispersants have been and are continuing to be 
used both on the surface and injected into the plume below surface. 
This has been a serious concern of mine and on May 18th I wrote to BP 
officials expressing my concern and requesting additional data and 
information on the dispersants being used. In addition to concerns 
regarding the direct effects of dispersants on aquatic life it has 
become increasingly evident that there is a significant volume of oil 
below the surface of the water and it is difficult if not impossible to 
track movement of oil into new areas.
    As the oil ``weathers'' it is transformed into various types of 
water/oil emulsions or other forms, is ``scattered'' in response to 
dispersants, and the movement dynamics of each of these react uniquely 
to the naturally occurring transport mechanisms in the Gulf and inshore 
waters. We do not have a complete understanding of the transport 
mechanisms but these same transport mechanisms transport fish eggs and 
larvae to areas critical to their survival into juveniles and adults.
    The marine/estuarine ecosystem is highly complex and natural 
fluctuations in species composition, abundance and distribution are a 
basic feature of its normal function. We have limited understanding of 
these natural fluctuations.
    Impacts from large volume surface spills have been documented (i.e. 
Exxon Valdez) however there is little documented information on large 
volume deepwater leaks. Surface spills likely have differing impacts 
than deepwater leaks.
    We have limited knowledge of the concentrations of oil and 
dispersants at various levels of the water column. Eggs and larvae of 
various species are transported at the surface or at various levels of 
the water column.
    We do not have a complete understanding of the toxicity of various 
concentrations of oil and dispersants to all of the life stages of all 
species of aquatic life.
    Eggs and larvae are passively transported by currents and would not 
be expected to exhibit any oil avoidance behavior however we have 
limited if any knowledge of avoidance behavior by those life stages in 
which they are active swimmers.
    We have little knowledge of deepwater transport mechanisms.
    We have little knowledge of deepwater ecology.
    Although we have some experience with relatively small scale 
releases of oil in our inshore areas, the immediate and residual 
effects of large quantities of oil over large shallow areas or large 
areas of vegetative wetlands are largely unknown.
    The list can go on. There are many questions which will require 
answers if we are to truly understand the ecological impacts.
Closing
    As I mentioned earlier this is not a sprint and it is difficult to 
envision where we will be when and if this marathon comes to an end.
    The economy and culture of coastal Louisiana is a unique blend of 
many things similar to the unique blends prepared by our great chef's 
in New Orleans when they prepare that succulent dish of gumbo. In the 
case of coastal Louisiana our coastal ecology and fishing is and always 
has been the main ingredient. At this point the main ingredient is 
threatened and the future is anything but certain.
                                 ______
                                 

  Response to questions submitted for the record by Robert J. Barham, 
        Secretary, Louisiana Department of Wildlife & Fisheries

July 6, 2010

Madeline Z. Bordallo, Chairwoman
Subcommittee on Insular Affairs, Oceans and Wildlife
U.S. House of Representatives
Washington, DC 20515

Dear Congresswoman Bordallo:

    This is in response to your request for additional information 
relating to my testimony on June 10, 2010 before your committee 
concerning ``Our Natural Resources at Risk: The Short and Long Term 
Impacts of the Deepwater Horizon Oil Spill.''
 ``As you stated in your testimony, there are many things we do not 
        know about the potential ecological impacts of this oil spill. 
        Given this uncertainty, what is your confidence level that 
        seafood products are safe? Would Louisiana certify its seafood 
        as such and assume liability?''
    Ensuring seafood safety has been and continues to be one of 
Louisiana's main goals and responsibilities. Soon after the event 
Louisiana's trustee agencies responsible for the safety of seafood, the 
Departments of Wildlife & Fisheries, Health & Hospitals, Agriculture & 
Forestry and Environmental Quality, convened to develop an action plan 
to ensure seafood safety. The plan was presented to BP for funding and 
to date has not been approved. However, we aren't waiting for BP to 
fulfill our mission. The Departments of Wildlife & Fisheries and Health 
& Hospitals has been collecting tissue samples weekly from shrimp, 
fish, crabs and oysters throughout coastal Louisiana since the spill to 
test for contamination from oil. To date all seafood sampled has been 
found to be within normal levels. Besides seafood testing, we conduct 
daily oil spill reconnaissance missions throughout coastal Louisiana. 
When oil is found and projected to impact coastal areas, I immediately 
issue a precautionary closure of the potentially impacted area. It's 
not until the oil is no longer present in an area and laboratory test 
indicate that tissue samples are within normal limits that I will 
consider reopening an area to fishing. Enforcement of fishing closures 
plays a major role in ensuring seafood safety and our enforcement 
agents take that responsibility very seriously. They are on the water 
at all times verifying that fishing is not taking place in closed 
areas. If a fisherman is found fishing in a closed area, they are made 
to discard their entire catch on the spot. These are some of the 
immediate actions we are taking to ensure seafood safety. Further 
actions currently in development include a Louisiana Quality Control 
and Assurance Program that provides traceability of seafood from the 
water to the plate, seafood testing and a professionalism program 
designed to instruct fishermen and seafood processors seafood safety 
practices. Be assured that we are committed to providing safe seafood 
to consumers and certify as much as any state fishery management agency 
can that the seafood coming out of Louisiana waters is as safe to eat 
no as it was prior to the oil spill. As to the question of liability, 
until BP fully provides the resources needed by the state to insure 
seafood safety, the issue of liability is on their heads.
 ``In your testimony, you stated that Louisiana has fully utilized all 
        available freshwater diversions to minimize intrusion of oil 
        into coastal areas. Has Louisiana implemented a monitoring 
        program to observe the changes in salinity which could produce 
        lethal and sub-lethal effects on wildlife, and in particular 
        oysters?''
    Absolutely! It's important to recognize that oysters are unable to 
move and always susceptible to environmental conditions. However, being 
an estuarine species requires they have a tolerance for fluctuations in 
their habitat such as salinity. In fact, freshwater is essential to 
oyster survival by reducing predation and providing needed nutrients. 
Louisiana has and continues to maintain an extensive estuarine resource 
monitoring program. I have submitted a proposal to BP to intensify 
resource monitoring efforts throughout Louisiana's valuable estuaries. 
Approval to proceed is hopefully forthcoming. Again, we are not waiting 
for BP to act. We've begun intensive sampling of Louisiana's oyster 
resource on our state seed grounds and have developed a plan to monitor 
oyster mortality. The decision to maintain maximum freshwater diversion 
flow was not taken lightly or without much scientific debate. I felt it 
more important to keep oil from inundating estuarine areas and protect 
our oyster growing area from possibly decades of oil related impacts 
and accept short term possible loss of oyster resource from freshwater.
 ``It is my understanding that States participate in the development of 
        and sign-off on all Area Contingency Plans, which identify 
        sensitive areas where boom is deployed in the event of an oil 
        spill. Was this the case for Louisiana?''
    We believe this question would be best answered by the Louisiana 
Office of Coastal Affairs.

Sincerely,

Robert J. Barham, Secretary
Louisiana Department of Wildlife & Fisheries
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Barham, for helping 
us better understand the implications of the Deepwater Horizon 
oil spill on Louisiana's coastal and marine ecosystems.
    And next, our final witness on this first panel will be Dr. 
Ragen. You may begin.

             STATEMENT OF TIMOTHY J. RAGEN, Ph.D., 
          EXECUTIVE DIRECTOR, MARINE MAMMAL COMMISSION

    Dr. Ragen. Thank you, Madam Chair and Members of the 
Committee, for inviting the Marine Mammal Commission to testify 
on this event. The Commission also wishes to express its 
condolences to the families of those who lost their lives and 
all those whose lives and livelihoods have been so disrupted.
    Our current understanding of the effects of oil on marine 
mammals is rudimentary, based largely on anecdotal information, 
and the information we have often pertains to seals and sea 
otters, which are not marine mammals that occur in the Gulf of 
Mexico. The marine mammals in the Gulf are whales, dolphins and 
porpoises with one exception, the Florida manatee.
    The first contact between oil and marine mammals will 
involve contact with the skin, the eyes, respiratory tissues 
and so on. Contact with the skin may lead to anything from 
irritation to necrosis of the skin, but there is some evidence 
that at least on a short-term basis cetaceans can tolerate that 
kind of contact. We don't know about the effects on a long-term 
basis.
    Inhalation may cause a problem inasmuch as we have seen 
pulmonary emphysema in sea otters that have been breathing 
fumes from oil. Contact with eyes may cause ailments such as 
conjunctivitis. Ingestion may be the more significant 
consequence or factor. Animals may be able to tolerate a small 
amount of oil, but in larger amounts or over prolonged periods 
ingestion may lead to impairment of kidneys, liver and the 
brain. It may also impair the digestive, immune and 
reproductive systems, leading to general illness or death.
    The actual response in all of these cases depends very much 
on the nature of the oil that is involved, i.e. its composition 
and its toxicity, and it depends on the animals that are also 
involved, what species they are, whether or not they are in 
good health or poor condition, et cetera.
    Response activities also may have effects. We don't know 
much about the effects of these dispersants on marine mammals, 
but that is an area where we have similar kinds of concerns. In 
addition, all the activity in the Gulf with vessels and 
aircraft may lead to disturbance of marine mammals, introduce 
noise into the environment, and those effects may cause animals 
to abandon prime habitat or perhaps disrupt social structures, 
such as pods or mother/calf pairs.
    The long-term effects are primarily ecological, and those 
remain to be seen. We could see declines in abundance of 
populations due to increased mortality or decreased 
reproduction. Prey availability may decline, which will also 
affect the marine mammal populations. Animals that are 
particularly sensitive to the stress of the spill may be more 
subject to the effects of disease or parasites.
    We should expect to see some surprises in this instance. We 
know that the Gulf has hypoxic zones and harmful algal blooms. 
We do not know how the oil will interact with the factors that 
create those conditions. We also should be aware that highly 
perturbed marine ecosystems my take decades or more to recover, 
and they may not recover to the same state that they were in 
before the spill.
    You asked about our ability to assess the effects on marine 
mammals. As we speak, NOAA, Fish and Wildlife Service, the 
Department of the Interior, the Gulf States and a number of 
other cooperating agencies are flying surveys. They are 
sampling animals. They are coordinating stranding efforts and 
trying to make the best out of examinations of dead animals to 
see what killed them.
    All that being said, we will have a very difficult time 
determining what the effects are on marine mammals. Our primary 
difficulties are that it is tough to study marine mammals in 
the wild generally. It is much tougher under circumstances like 
these.
    In addition, we do not have adequate baseline information 
for most of the marine mammals in the Gulf. NOAA's stock 
assessment reports include 21 species and 58 stocks of marine 
mammals in the Gulf. Of those, we have adequate baseline 
information on abundance for six stocks.
    With regard to the likely impacts of oil and gas activities 
in the Gulf and elsewhere, i.e. generally, I tend to produce or 
to break down oil and gas activities into different categories. 
Construction and decommissioning, general operations and 
support activities are all activities that can be managed with 
appropriate mitigation measures.
    The Commission has more concern about the effects of 
seismic studies because they introduce a large amount of sound 
into the marine environment, which may cause behavioral changes 
in the marine mammals or affect them physiologically; for 
example, lessening their ability to hear.
    We are also concerned about oil and gas transportation. 
Tankers have long been known to be a source of oil spills. In 
the Gulf, oil is generally transported by pipelines, which are 
safe; but we also know that pipelines are subject to problems 
as well--as we saw in 2005 with Katrina and Rita.
    Our scientists are not necessarily able to evaluate all of 
these potential problems as well as we would like them to be 
able to do it. The Marine Mammal Commission has a concern that 
very often we initiate some of these activities without 
collecting adequate baseline information so that we can conduct 
before and after statements or evaluations of the effects.
    We also are concerned that monitoring and mitigation 
measures may be used for certain aspects of oil and gas 
activities like seismic studies, but that those monitoring and 
mitigation measures aren't always effective. They need to be 
evaluated more closely. We need more research in order to 
understand how well those measures actually work. As a 
consequence of the uncertainty in these, sometimes regulators 
are faced to make choices based on insufficient information.
    Last, I will say that you asked me to talk about minimizing 
the effects or the impacts of oil and gas operations, and I 
will give you just three brief suggestions.
    One is that we need to consider where we get resources and 
who should take the burden of proof for doing the kinds of 
research we need to understand these. I would recommend that 
the government consider leveraging resources from the industry 
in order to understand the resources that they put at risk with 
their activities.
    Second, I would recommend that we need a much more 
systematic approach to how we manage oil and gas management. 
Many of the problems that we are talking about here I think 
could be detected and dealt with if we were more rigorous and 
systematic in our approach.
    And, finally, I would say that I believe we need to 
consider a change in culture. We all want to know what went 
wrong and how to fix it, but we also should be asking what 
conditions led to things going so horribly wrong. Multiple 
agencies are involved, and all of us agencies should be asking 
is there something we could do better.
    And last, society I think also must take a hard look. We 
need to examine the roots of the problem that caused us to make 
risky decisions related to industries like this. Doing so is 
essential to achieve a sustainable future with acceptable 
environmental risk for marine mammals and for a marine 
ecosystem.
    Thank you again, Madam Chair, for inviting me to testify, 
and I will be glad to answer any questions that I can.
    [The prepared statement of Dr. Ragen follows:]

          Statement of Timothy J. Ragen, Executive Director, 
                     U.S. Marine Mammal Commission

    Madam Chairwoman and members of the Subcommittee, thank you for 
inviting the Marine Mammal Commission to testify on the effects of the 
Deepwater Horizon oil spill on marine mammals. I am Tim Ragen, 
Executive Director of the Commission. Your questions to the Commission 
pertain to the effects of this spill and how to prevent such effects in 
the future.
    I begin my testimony by noting that our current understanding of 
the effects of oil on marine mammals is in many respects rudimentary 
because of the difficulty and costs of studying the health of marine 
mammals at sea, particularly during an oil spill. Our understanding is 
based primarily on anecdotal information from other spills such as the 
Santa Barbara spill in 1969 and the Exxon Valdez spill in 1989, as well 
as a small number of focused studies involving captive animals. In 
addition, much of the existing information pertains to pinnipeds (i.e., 
seals, sea lions) and sea otters, which do not occur in the Gulf of 
Mexico. Unfortunately, the scientific foundation for evaluating the 
potential effects of the Deepwater Horizon spill on many marine mammals 
inhabiting the Gulf is weak. Almost all of those are cetaceans (whales, 
dolphins and porpoises), the exception being the manatee. However, 
there is considerable information on the effects of oil on other 
mammals, such as laboratory rodents and humans, so that information can 
be used to help anticipate how oil might affect the Gulf's marine 
mammals.

Short and Long-Term Effects
    Your first question to the Commission asked about the short- and 
long-term effects of the Deepwater Horizon spill on marine mammals. The 
potential short-term effects include those that result from direct 
contact with or ingestion of oil or inhalation of oil fumes. Direct 
contact of a marine mammal with oil may cause skin irritation, 
inflammation, and eventually necrosis. However, the limited information 
available from field observations and studies with captive dolphins 
suggests that the epidermis of at least some cetaceans may be highly 
resistant to such effects. The Commission knows of no studies of 
cetaceans exposed to oil for extended periods (i.e., days or weeks), so 
the long-term consequences of skin contact with oil are not clear at 
this point. Oil contact with eyes, mucous membranes, and respiratory 
tissues may cause more important effects. For example, harbor seals 
oiled by the Exxon Valdez spill developed conjunctivitis, and similar 
responses can reasonably be expected in cetaceans. Contact with 
respiratory tissues coupled with inhalation of fumes appears to have 
caused airway inflammation and pulmonary emphysema in sea otters, and, 
here too, a similar response can reasonably be expected in cetaceans. 
Cetaceans also may ingest oil either indirectly as they consume prey or 
the prey itself may be contaminated. Manatees may ingest oil if it 
reaches the shallow waters of their range and coats the vegetation that 
they depend on for food. And if Bryde's whales or other baleen whales 
(although uncommon in the Gulf of Mexico) encounter oil, their feeding 
may be affected by fouling of their baleen (the comb-like array of 
keratinous plates they use to filter food from sea water). Some amount 
of ingestion may be tolerable but, depending on the amount and nature 
of the oil ingested (e.g., its composition, toxicity) and the animal 
involved (e.g., species, animal health and condition), ingestion may 
cause significant effects on vital systems (e.g., immune, reproduction, 
digestive) and organs (e.g., liver, kidneys, brain) ranging from 
generalized illness to death. Studies using captive polar bears showed 
that ingestion of even relatively small amounts led to kidney failure 
and death. Even when the immediate effects appear to be or are 
sublethal, they may affect the health and condition of animals and 
their ability to reproduce, with consequences for population status. 
Similarly, apparently sublethal effects may lead to long-term problems 
if, for example, the contaminants from the oil or dispersant are 
carcinogenic.
    To date, the existing evidence suggests that at least some 
cetaceans are able to detect the oil, but they do not necessarily move 
away from it to avoid contact, inhalation, or ingestion. In previous 
small spills in the Gulf of Mexico, bottlenose dolphins have been 
observed moving under booms and surfacing and feeding in the oil. In 
fact, given the vast area affected by the spill, marine mammals that 
typically inhabit the central and eastern portions of the northern Gulf 
may not be able to avoid contact at the surface or in the water column. 
Their tolerance to oil, weathered oil, or dispersed oil likely depends 
on numerous factors such as its composition and toxicity, amount 
encountered, duration of contact, foraging patterns and physiology of 
the species involved, and health and condition of the affected 
individuals. In general, the more toxic components of spilled oil also 
are the more volatile and they tend to evaporate more quickly. After a 
short-lived spill, the period of exposure to those volatile components 
may be relatively brief. However, in a prolonged, continuous spill like 
the Deepwater Horizon, marine life in the spill area, including marine 
mammals and their prey, may be exposed to the more volatile components 
of the oil for days, weeks, or longer. Individuals in poor health or 
condition, or that are otherwise stressed may be more vulnerable to 
such effects (e.g., pregnant females that already are taxed 
physiologically may be less able to complete a pregnancy successfully). 
At this time of year, bottlenose dolphins are calving in coastal areas, 
which may add to their risk.
    Cetaceans in the Gulf also may be affected by response activities. 
Large amounts of dispersants have been used, some of which have been 
applied in relatively new ways (i.e., at the ruptured wellhead), and 
EPA and the Coast Guard have directed British Petroleum (BP) to reduce 
the volume of dispersants used due to toxicity concerns. Scientists 
will gather evidence where they can, but may never be able to describe 
just how these dispersants affected the regional marine ecosystem, 
including marine mammals.
    Response activities also have included and likely will continue to 
include a large number of vessels and aircraft in addition to the 
relatively high levels of activity characteristic of this region for 
decades. All of these vessels and aircraft may disturb animals by their 
presence and noise. Here, the primary concern involves behavioral 
effects, although ship strikes (i.e., collisions of ships and whales) 
also are possible when vessels are moving at relatively high speeds, 
and animals may be entangled in response-related debris left in the 
water. Behavioral effects may include abandonment of important habitat, 
changes in foraging distribution or patterns, changes in movement 
patterns or migration, and disruption of social structures (e.g., pods, 
mother-calf pairs).
    Short-term ecological effects may occur if the spill reduces the 
availability of prey species (e.g., fishes, various invertebrates) 
either by killing them or altering their productivity or distribution. 
In addition, cetaceans whose health or condition is compromised by the 
spill may be more susceptible to disease or parasites.
    Long-term effects may include lower abundance of animals in any 
given population due to increased mortality or failure of reproduction 
(including congenital defects in the next generation that were exposed 
in utero), shifts or constriction in distribution, and negative impacts 
to the health and condition of individual animals and populations. Such 
changes will reflect the sum total of the immediate impacts of the 
spill and spill response, and the impacts that persist because the 
ecosystem has been altered through long-term contamination by oil and 
dispersants, loss of prey, and physical alteration of inshore 
ecosystems during response efforts (e.g., building of sand berms to 
keep oil out of wetlands). The persistence of such effects will depend 
on (1) the extent to which the oil released to the environment can be 
removed or is weathered and degraded to non-toxic forms, (2) the 
toxicity, persistence, and ecological effects of the dispersants, and 
(3) the nature and rate of recovery of other components of the Gulf 
ecosystems (e.g., prey populations). The complexity of the Gulf 
ecosystem and the large amount of oil spilled over a prolonged period 
may lead to an unprecedented variety, severity, and longevity of 
effects in the Gulf. For example, it remains to be seen how the oil, 
dispersants, and the products of their degradation interact with the 
factors that create hypoxic zones and harmful algal blooms, which have 
become important features of the northern Gulf ecosystem. At least 
harmful algal blooms are known to have potentially severe effects on 
marine mammals and other marine life. And, as marine scientists are 
learning from long-term monitoring elsewhere, in at least some cases 
highly perturbed marine ecosystems may take decades to fully recover, 
or may recover to alternative states (e.g., Prince William Sound).
    Finally, all the above short- and long-term changes may be 
particularly significant for species or stocks listed as endangered or 
threatened (e.g., Florida manatee, sperm whale) or stocks with low 
abundance (e.g., inshore coastal bottlenose dolphins, Bryde's whales).

Assessment of Effects
    The second question you asked the Commission to address is whether 
the effects of the spill and response activities can be fully assessed. 
The Commission begins its response by noting that the National Oceanic 
and Atmospheric Administration (NOAA), the Fish and Wildlife Service, 
the Gulf states, and a range of cooperating agencies are working 
diligently to assess effects to the extent possible. They are 
coordinating stranding teams to search for and respond to stranded 
marine mammals. They also are flying surveys to document the observed 
number of animals by species, their distribution, and their 
interactions with oil. They are attempting to biopsy animals in the 
field to assess important biological information (e.g., contaminant 
levels). In addition, they have prepared to receive marine mammals in 
need of rehabilitation and to conduct necropsies and other analyses of 
animals found dead to determine cause of death. Thirty-three marine 
mammal carcasses had been found at the time this testimony was 
prepared.
    All that being said, it will still be extremely difficult to assess 
the full effects of this spill because the needed information is 
difficult to collect on marine mammals in the wild, and because 
sufficient baseline information is lacking for most stocks. According 
to stock assessment reports prepared by NOAA (and described in the 
Marine Mammal Commission's 2008 annual report), the Gulf of Mexico is 
habitat for 21 marine mammal species comprising 58 stocks. NOAA has 
``adequate'' abundance estimates, that is, abundance estimates that 
meet the agency's own standards, for only 6 of those stocks, largely 
because the resources needed to conduct such assessments have been 
directed toward other priorities. Simply put, in all but a few cases, 
the lack of adequate pre-spill information will hamper a detailed 
assessment of changes in stock status, including the most basic 
information on changes in abundance. The agencies will need to find 
alternative means for assessing the effects, but the utility of those 
alternative measures remains to be seen. This is particularly 
unfortunate because the changes that occur in marine mammal populations 
might otherwise have served as useful indicators of the health and 
recovery of the northern Gulf ecosystem over time. There are exceptions 
to this rule because the Minerals Management Service and NOAA have 
conducted extensive studies on one species (e.g., the sperm whale; see 
Jochens et al. 2008 \1\) and also have supported some surveys for the 
cetaceans in the region. Similarly, the Fish and Wildlife Service and 
the state of Florida have conducted extensive studies on the Florida 
manatee. However, on balance, the information needed to characterize 
baseline conditions for the remaining stocks is limited. For that 
reason, it may be the most informative to focus comparisons on those 
few stocks for which scientists have the best information (e.g., sperm 
whale, manatee, several bottlenose dolphin stocks). However, there is 
no basis for assuming that those few well-studied stocks are 
representative of the others, as Gulf marine mammals exhibit a variety 
of life history and natural history traits (e.g., preferred prey, 
foraging depths), occupy different ranges and ecological niches, and 
will have been affected in varying ways and to varying degrees by the 
spill.
---------------------------------------------------------------------------
    \1\ Jochens, A., D. Biggs, K. Benoit-Bird, D. Engelhaupt, J. 
Gordon, C. Hu, N. Jaquet, M. Johnson, R. Leben, B. Mate, P. Miller, J. 
Ortega-Ortiz, A. Thode, P. Tyack, and B. Wursig. 2008. Sperm Whale 
Seismic Study in the Gulf of Mexico: Synthesis Report. U.S. Department 
of the Interior, Minerals Management Service, Gulf of Mexico OCS 
Region, New Orleans, LA. OCS Study MMS 2008-006. 348 pp.
---------------------------------------------------------------------------
    In the absence of better information, those responsible for 
assessment of effects may err in at least two basic ways. First, they 
may find dead animals and mistakenly attribute their deaths to the 
spill when, in fact, that is not the case. Scientists were on the verge 
of making this mistake with gray whales after the Santa Barbara spill 
in 1969 and the Exxon Valdez spill in 1989, when they initially assumed 
all stranded whales had stranded as a result of contact with oil. 
Second, observers will undoubtedly fail to encounter all of the 
affected marine mammals, as some are likely to die and sink--their loss 
being neither detected nor documented. This second type of error may 
well explain the loss of killer whales in the Prince William Sound area 
after the Exxon Valdez spill. Thus, any counts of dead animals may well 
underestimate the total number lost. The counts may be adjusted by 
applying a correction factor, but the basis for choosing such a factor 
is not clear. Here, again, it is worth noting that scientists were able 
to detect the loss of killer whales after the Exxon Valdez spill 
because they had gathered sufficient baseline information prior to the 
spill; in that case, the photo-documentation of individual whales. It 
is also worth noting that after virtually all such events, scientists 
have decried the general lack of baseline information but much of that 
information has not been collected before another event is upon us.

Likely Impacts of Oil and Gas Activities in the Gulf and Elsewhere
    Your third question pertained to the likely impacts of oil and gas 
activities on marine mammals in the Gulf and elsewhere. The impacts of 
oil and gas activities can be considered in six main categories, as 
follows.
        <bullet>  Construction and decommissioning of infrastructure 
        (e.g., platforms, pipelines) may disturb marine mammals by the 
        presence, activities, and noise of multiple vessels and 
        aircraft, and by the removal of some structures using 
        explosives. These activities are relatively short-lived and the 
        effects of their disturbance reasonably can be considered 
        transient and can be held to insignificant levels if 
        appropriate mitigation measures are taken to avoid adverse 
        effects on marine mammals and other marine life.
        <bullet>  Seismic studies are vital to oil and gas operations 
        in the marine environment and pose a number of potentially 
        significant risks to marine mammals. They are required to 
        locate and evaluate oil and gas reservoirs, study the 
        surrounding seafloor, site offshore infrastructure (e.g., 
        production platforms, wind turbines), guide drilling 
        operations, and assess changes in reservoirs over time as 
        production proceeds. The primary risk they pose to marine 
        mammals is from the introduction of high intensity, pulsed 
        noise (airguns) into the marine environment. The noise from 
        seismic survey sound sources has been shown in some 
        circumstances to cause significant behavioral effects (e.g., 
        changes in bowhead migratory paths) and has the potential to 
        cause physiological effects (e.g., hearing impairment and, at 
        least hypothetically, development of gas emboli due to changes 
        in dive behavior). On average, a dozen or more seismic surveys 
        are conducted in the Gulf each month. The above-cited study by 
        Jochens et al. (2008) suggests seismic studies have only 
        limited effects on sperm whales (i.e., what appear to be 
        relatively minor changes in foraging behavior). However, the 
        existing evidence is not sufficient to conclude that seismic 
        studies have no significant effects on other species. This 
        topic is a matter of considerable scientific discussion at 
        present.
        <bullet>  General operations (drilling and oil/gas extraction) 
        are usually less disruptive once they have begun if they are 
        carried out without major incidents. Sightings of marine 
        mammals near production platforms suggest that at least some 
        marine mammal species tolerate or habituate to the presence of 
        oil and gas infrastructure and activities and, in fact, may be 
        attracted to them because they often provide habitat for other 
        marine life.
        <bullet>  Support activities involve vessel trips or helicopter 
        flights to and from platforms to change crews, provide 
        supplies, and remove wastes. These activities also pose risks 
        of disturbance because of the amount of activity involved and 
        the noise created. Vessel traffic also poses a risk of vessel 
        strikes that may injure or kill marine mammals. Here, too, the 
        existing scientific information is not sufficient to 
        characterize the effects of support activities on marine mammal 
        stocks with confidence.
        <bullet>  Oil and gas transportation requires the use of 
        vessels and/or pipelines to move crude oil and gas from the 
        drill site to refineries. Tanker accidents have been a leading 
        cause of oil spills in the marine environment. Pipelines appear 
        to be considerably safer, but are not without risks themselves, 
        as observed in 2005 when hurricanes Katrina and Rita destroyed 
        a large number of pipeline segments in the Gulf.
        <bullet>  Habitat degradation and contamination may occur as a 
        result of multiple activities or events. Drilling generates 
        muds and cuttings that often, but not always, are injected back 
        into the ground. These muds may introduce heavy metals and 
        other toxic materials into the marine ecosystem. Vessels that 
        visit or are stationed at platforms may cause spillage of fuels 
        or other petroleum-based products that, unless completely 
        recovered, may add to nearby contamination. As all of us have 
        just been soundly reminded, drilling operations do fail on 
        occasion, leading to severe consequences. As described earlier 
        in my testimony, the release of large amounts of oil in the 
        marine environment poses a number of risks to marine mammals.
    At present, scientists are not fully capable of measuring all of 
the above effects. In many instances, the Commission believes that oil 
and gas operations are initiated before adequate study to characterize 
the potentially affected environment, its biological community, and its 
natural variation over time and space. Monitoring and mitigation 
measures may be employed, but almost always those measures are of 
limited utility and their shortcomings are not adequately described. 
Developing better measures is technically challenging, and progress has 
been slowed by lack of resources. The result is that regulators often 
are faced with uncertainty and must make assumptions and judgments that 
should be better informed.

Minimizing the Impacts of Oil and Gas Operations
    Your final question sought advice on how the impacts of oil and gas 
operations on marine mammals and marine ecosystems might be minimized. 
I consider this question to be the most important. I will focus on 
three considerations: resources and the burden of proof; a more 
systematic approach to oil and gas management; and the need for a 
change in culture.
    Resources and the Burden of Proof--The lack of information on 
marine mammals in the Gulf of Mexico is an impediment to management 
and, in this case, assessment of the effects of the spill. Even basic 
abundance estimates for most marine mammal stocks in the Gulf are out 
of date, unacceptably imprecise, or simply don't exist. The federal 
government should explore opportunities to leverage resources of the 
private sector for the purpose of assessing the elements of those 
ecosystems that they are placing at risk. That exploration should 
include a hard look at the fundamental question of what responsibility 
those exploiting marine energy resources have to support studies of the 
ecosystems that they are placing at risk rather than waiting until an 
accident occurs to then attempt such analyses retrospectively. In the 
Commission's view, these companies not only bear the fiscal burden of 
demonstrating that their technologies are safe for use in the marine 
environment, but should support environmental research.
    A More Systematic Approach to Oil and Gas Management--It appears 
that some of the lessons from previous spills have not been heeded and 
that a more systematic and rigorous evaluation of such projects is 
needed. The following problems exemplify the lack of rigor in our 
management process.
        <bullet>  Baseline information: As noted earlier, agencies have 
        not collected the baseline information needed to (1) evaluate 
        the resources at risk from oil and gas development and (2) 
        assess the effects of a significant problem such as this spill. 
        This was one of the major lessons derived from the Exxon Valdez 
        spill in 1989.
        <bullet>  Monitoring and mitigation: Monitoring and mitigation 
        measures are inadequate for many aspects of oil and gas 
        production related to marine mammal protection. Federal 
        agencies need to implement a systematic, well-considered 
        strategy for evaluating and improving such measures over time.
        <bullet>  Response measures: The nature of response efforts to 
        stop the Deepwater Horizon spill suggests the need for improved 
        preparation for a serious accident at depth. Agencies must 
        improve planning and capability for responding swiftly and 
        effectively to a failure at such depth.
        <bullet>  Worst-case scenarios: Risk management requires 
        accounting not only for the probability of a major spill, but 
        also for the consequences if one occurs. Potentially 
        catastrophic consequences must be considered even if the 
        probability that they will occur is low. Proper assessment of 
        risks requires recognition that they are a function both of 
        probability and consequences.
    These are just a few of the key areas for improvement related to 
oil and gas operations revealed by this tragic event. Clearly, a much 
more systematic and rigorous review is needed to improve oversight of 
the activities of the oil and gas industry in the marine environment 
and to minimize the probability and effects of such events in the 
future.
    A Change in Culture--Finally, the Commission believes that all 
involved agencies and parties need to ask what went wrong in this 
particular case. Clearly, everyone is awaiting more specific 
information so that the immediate problems can be corrected. But 
responsible parties also must ask what conditions allowed things to go 
awry in so many ways. For example, multiple agencies are involved in 
reviewing matters related to offshore oil and gas exploration, 
development, and production, including the Marine Mammal Commission. 
The Commission believes that all agencies need to take a hard look to 
determine if and where our efforts might have fallen short.
    Furthermore, society needs to consider how to respond to this 
tragedy. Our society has known for decades that fossil fuels are a 
diminishing resource, and our current dependence on them is not 
sustainable. But because of our dependence on fossil fuels, society, or 
its agencies, may be driven to take risks that otherwise would not be 
acceptable. To create management systems that truly minimize the risks 
of events like this oil spill, society also needs to examine and 
address the roots of the problem--that is, the underlying factors that 
drive us to make risky decisions. Doing so is essential to achieve a 
sustainable future with acceptable environmental risks and a 
correspondingly secure future for marine mammals and marine ecosystems.
    Thank you again for the opportunity to testify, and I will do my 
best to answer any questions you may have.
                                 ______
                                 

  Response to questions submitted for the record by Timothy J. Ragen, 
              Executive Director, Marine Mammal Commission

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)

1.  Do NOAA and the Fish and Wildlife Service have access to data on 
        marine mammal incidental take during oil and gas activities or 
        is it solely managed by MMS? When will it be published or 
        publicly available?
    The answer to this question varies by geographic region. With one 
exception, oil and gas operators in the Gulf of Mexico generally opt 
not to apply for or obtain incidental take authorizations under the 
Marine Mammal Protection Act. In the Gulf, oil and gas operations may 
result in the taking of cetaceans from 21 species (i.e., sperm whale, 
dwarf sperm whale, pygmy sperm whale, Bryde's whale, killer whale, 
false killer whale, pygmy killer whale, Cuvier's beaked whale, 
Blainville's beaked whale, Gervais' beaked whale, Atlantic spotted 
dolphin, pantropical spotted dolphin, striped dolphin, spinner dolphin, 
rough-toothed dolphin, bottlenose dolphin, Clymene dolphin, Frasier's 
dolphin, Risso's dolphin, melon-headed whale, short-finned pilot whale) 
comprising 58 stocks. They may also take the single sirenian species in 
the Gulf, the Florida manatee. The reasons that operators do not 
routinely apply for and obtain incidental taking authorizations to 
include at least the species most likely to be encountered are unclear 
to the Commission. The exception to this pattern is that oil and gas 
operators have obtained authorizations to take marine mammals 
incidental to explosive removal of platforms and related structures. 
The applicable regulations are codified at 50 C.F.R. Sec. 216.221 et 
seq. Section 216.217 sets forth several monitoring and reporting 
requirements that provide NOAA with data on the taking of marine 
mammals incidental to removal activities. In 2009 a total of 120 
reports were submitted to the Galveston Laboratory (National Marine 
Fisheries Service) for removal activities. These reports are not 
published but are available to the public.
    NOAA and the Bureau of Ocean Energy Management, Regulation, and 
Enforcement (formerly Minerals Management Service) are working toward 
implementing the incidental take provisions of the Marine Mammal 
Protection Act (section 101(a)(5)) for other oil and gas operations in 
the Gulf of Mexico \1\. It is not yet clear when authorizations will be 
sought or issued, but it is expected such authorizations will include 
monitoring and reporting requirements sufficient to provide useful data 
on the types and levels of incidental taking that occur. Once 
authorizations are issued and reports submitted, that information would 
be available for public review.
---------------------------------------------------------------------------
    \1\ The Bureau also may initiate section 7 consultation under the 
Endangered Species Act for listed species (e.g., sperm whale), which 
might result in the issuance of an incidental take authorization under 
that Act and the establishment of other reporting requirements.
---------------------------------------------------------------------------
    Although oil and gas operators in the Gulf of Mexico do not 
generally obtain authorizations under the Marine Mammal Protection Act, 
the Bureau of Ocean Energy Management, Regulation, and Enforcement 
consults with the NOAA and the Fish and Wildlife Service \2\ to develop 
``Notices to Lessees.'' Those notices establish the requirements for 
various aspects of oil and gas operations designed to protect marine 
resources, including marine mammals. The four notices most pertinent to 
protecting marine mammals establish requirements for oil and gas spill 
response plans, management and disposal of debris, mitigation measures 
and observer programs applicable to seismic studies, and avoidance of 
vessel strikes. The latter two require operators to report marine 
mammal sightings and observed behavior to the Bureau, which enters them 
into a database and sends the information to NOAA's National Marine 
Fisheries Service. However, the information sent to NOAA is in summary 
form and applies only to species listed under the Endangered Species 
Act (i.e., the sperm whale). Therefore, it does not provide a 
sufficient basis for determining the number of takes for most marine 
mammal species. That information is not published but is available to 
the public.
---------------------------------------------------------------------------
    \2\ In the Gulf of Mexico, the Fish and Wildlife Service has 
authority only for manatees and, for most operations, the likelihood of 
taking a manatee is exceedingly small.
---------------------------------------------------------------------------
    In Alaskan waters, the Bureau also uses Notices to Lessees to 
establish requirements for oil and gas operations. However, oil and gas 
operators conducting activities offshore of Alaska generally apply to 
NOAA and/or the Fish and Wildlife Service for incidental take 
authorizations associated with various operations (e.g., seismic 
surveys, exploratory drilling). In Alaskan waters, oil and gas 
operations may result in the taking of several marine mammal species, 
including bowhead whales, beluga whales, narwhals, polar bears, 
walruses, ringed seals, bearded seals, spotted seals, ribbon seals, 
harbor seals, sea otters, killer whales, harbor porpoises, gray whales, 
humpback whales, fin whales, and minke whales. As part of the 
authorization process, operators are required first to estimate in 
advance the anticipated take levels and then to assess the impact of 
such taking on the affected species and stocks (i.e., as part of their 
application) by monitoring their activities and reporting the actual 
takes that occur. These reports are provided to NOAA and the Fish and 
Wildlife Service and are available to the public upon request.
2.  How has this data informed the Marine Mammal Protection Act 
        incidental take rulemaking process?
    United States citizens (i.e., individuals, organizations, 
corporations, or agencies) whose actions may take marine mammals 
incidentally may apply for an authorization for such taking under 
section 101(a)(5)(A) of the Marine Mammal Protection Act. That 
provision requires rulemaking for each category of authorization, \3\ 
under which letters of authorization are issued to individual 
operators. The intent of this provision is to ensure that the human 
activities (e.g., oil and gas operations) do not (1) affect more than 
small numbers of any marine mammal species or stock, (2) have more than 
a negligible impact on that species or stock, and (3) have an 
unmitigable adverse impact on the availability of those species or 
stocks that are taken for subsistence uses in Alaska. In addition, the 
process requires that NOAA or the Fish and Wildlife Service set forth 
permissible methods of taking and other means of achieving the least 
practicable adverse impact on the marine mammal species or stocks and 
their habitat.
---------------------------------------------------------------------------
    \3\ A streamlined, notice and comment process is available under 
section 101(a)(5)(D) for issuing incidental harassment authorizations 
for activities that will take marine mammals by harassment only.
---------------------------------------------------------------------------
    The ability of managers and scientists to make the above 
determinations may be confounded by uncertainty in the data collected 
to estimate and characterize the level and significance of takes. That 
is, the two key questions are how many marine mammals are taken in the 
course of an activity and what is the biological significance of those 
takes. The same two questions can confound management of other human 
activities in the marine environment (e.g., use of Navy sonar, 
commercial shipping, seismic surveys for geophysical study).
    To address those questions, NOAA and the Fish and Wildlife Service, 
working with other interested agencies, including agencies whose 
actions may take or authorize others to engage in activities that take 
marine mammals, are seeking means to reduce or avoid effects on marine 
mammals and to better estimate their significance, a process essential 
to informed management. Although this is an ongoing process, the 
information currently being collected from oil and gas activities in 
the Gulf of Mexico is not adequate for that purpose. First, although 
the reports required under the Notices to Lessees secure information 
for all marine mammals sighted, the information transmitted to NOAA is 
only for listed species (i.e., the sperm whale). Second, lessees only 
report what they observe. There is no attempt to account for animals 
that may have been in the area or may have been taken but were not 
observed. Third, the reports do not discuss the potential significance 
of observed interactions on the species or their habitat (i.e., they do 
not necessarily meet the Marine Mammal Protection Act standard that 
takes have no more than a negligible impact and be mitigated so that 
they have the least practicable impact). In view of these shortcomings, 
the Commission does not believe that the data currently being collected 
from oil and gas activities in the Gulf of Mexico are sufficient for 
informing and improving the incidental take authorization process. 
Given the large number of operations in the Gulf, the most effective 
means for addressing these shortcomings and for assessing the 
cumulative impacts of these multiple activities may be through a 
coordinated mitigation, monitoring, and reporting program established 
under a programmatic authorization process. In contrast, the data 
collected in the course of oil and gas activities in Alaskan waters are 
more comprehensive and are analyzed more fully. Those data provide some 
basis for informing and improving the incidental take authorization 
process, which is currently lacking in the Gulf of Mexico.
    To provide similar improvements for activities in the Gulf of 
Mexico, the joint efforts by NOAA and the Bureau to implement the 
incidental take provisions of the Marine Mammal Protection Act should 
be expedited to the extent possible. That process should provide 
substantially better information on the marine mammal species taken, 
the approximate number of takes, and the biological significance of 
those takes.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Ragen, for all of 
your recommendations and to all of the witnesses this morning. 
You have given us a better insight in this catastrophe, and the 
Members here of the Committee will be asking questions.
    I will begin with myself. I have a few questions. There is 
a time limit again for all of us, so we are going to have to 
get through this. But my first is for Mr. Westerholm.
    It is my understanding that some autonomous underwater 
vehicles are being used currently to collect data on oxygen 
levels, salinity changes and oil presence in the Gulf. Have you 
found this data helpful, and do you have a long-term plan to 
continue to use these gliders to monitor the impacts of the 
spill?
    Mr. Westerholm. Yes. We will be using a number of tools, 
and gliders are one of those tools. Some of them have the 
capability to actually collect samples and bring those samples 
up.
    Those gliders will help us determine a number of things. We 
are able to look at many of the subsurface elements that you 
spoke of, and we will continue to do those, but also continue 
to use other measurement techniques to get as much information 
as we can.
    Ms. Bordallo. I have a few more questions, and in the 
interest of time if you could just give me a yes or a no?
    Mr. Westerholm. Absolutely.
    Ms. Bordallo. All right. As you know, NOAA's Office of 
Response and Restoration has been severely underfunded for the 
past several years and, as a result, had to initiate a 
stringent workforce structuring plan to downsize your 
operations. Did this downsizing impair NOAA's ability to 
respond to the Deepwater Horizon spill?
    Mr. Westerholm. Yes.
    Ms. Bordallo. Have you had to hire an additional technical 
staff to restore its capabilities?
    Mr. Westerholm. We have. We have actually brought some 
people back from retirement and gone to other areas the best we 
could for the spill.
    Ms. Bordallo. All right. Considering the fact that NOAA 
responds to roughly 200 spill events a year, does NOAA 
presently have the capability to respond to another spill if it 
happened say tomorrow?
    Mr. Westerholm. We would do the best we can, but all of my 
resources are down at the spill right now.
    Ms. Bordallo. All right. In order to be better prepared and 
prepositioned to respond, should NOAA also receive an annual 
appropriation from the Oil Spill Liability Trust Fund just like 
other Federal agencies, including the Coast Guard and the EPA? 
And I am sure you will say yes to that.
    Mr. Westerholm. I would certainly say that that would be a 
consideration of the Administration, but obviously if we did we 
would use that money to enhance the staff.
    Ms. Bordallo. Very good. All right. And I have one for Ms. 
Lyder. BP was granted a categorical exclusion last year, 
allowing the rig to be approved without environmental analysis 
that would usually be required under the National Environmental 
Policy Act.
    What is the status of the review by CEQ and the Department 
of the Interior to strengthen the guidance given to agencies 
about when or when they should not use exclusions?
    Ms. Lyder. That review is very much ongoing now. It is not 
complete yet. They are looking at that particular categorical 
exclusion. They are also looking at it in the context of the 
overall investigation that they are doing in Louisiana on the 
spill.
    Ms. Bordallo. All right.
    Ms. Lyder. So all I can tell you is it is ongoing.
    Ms. Bordallo. All right. And MMS issued hundreds of 
drilling permits for projects in the Gulf of Mexico, without 
obtaining Federal permits detailing how energy exploration 
could affect endangered species or marine mammals.
    How can we ensure that the scientific advice of other 
Federal agencies is given appropriate consideration before the 
Interior Department approves permits? For example, should we 
require formal consultation? Should other Federal agencies be 
required to certify a permit?
    Ms. Lyder. I can assure you that that process is being 
reviewed and possibly changed right now.
    Part of what happened was that because a catastrophic oil 
spill was viewed as very unlikely because we hadn't seen a 
catastrophic oil spill from a rig since the late 1960s, that 
was part of the analysis, but now we have seen a catastrophic 
oil spill and so the consultation process will change.
    Ms. Bordallo. All right. Also, Ms. Lyder, should the 
Environmental Contaminants Program in the Fish and Wildlife 
Service also receive an annual appropriation from the Oil Spill 
Liability Trust Fund to be better prepared to respond to 
spills?
    Ms. Lyder. Well, I will ditto the answer of my friend from 
NOAA. It is certainly something that should be considered and, 
if it was, we would use it much the way NOAA would use theirs; 
but that is a decision for the Administration.
    Ms. Bordallo. Ms. Westerholm, I have one more question 
before my time is running here. Baseline information for whales 
and dolphins in the Gulf of Mexico are sorely limited.
    According to the Marine Mammal Commission, abundance 
estimates for only three of the 24 stocks listed in the 
National Marine Fisheries Services stock assessment reports 
meet the Service's own standards for acceptable precision. How 
then will NMFS determine what changes occur as a result of the 
oil spill in population, size, distribution and habitat use?
    Mr. Westerholm. Obviously, based on just your explanation, 
it is going to be very challenging and difficult to do that. I 
am not sure we will be able to get an exact answer to that. We 
will obviously do the best we can.
    Ms. Bordallo. If you could get back if you have an answer?
    Mr. Westerholm. I will.
    Ms. Bordallo. All right. Thank you very much. I will now 
defer to the Ranking Member, Mr. Cassidy, for any questions he 
may have.
    Mr. Cassidy. Thank you, Madam Chair. Mr. Westerholm, was 
any work done, to your knowledge, prior to this incident, 
looking at the effect of dispersants when used in ultra-deep or 
deep drilling?
    Mr. Westerholm. To my knowledge, that has not been done. 
This was a technique that had been spoken about, but had not 
been done in the United States.
    Mr. Cassidy. Now, has anybody done, to your knowledge or 
anyone else's knowledge, any study of the effects of the 
ecosystem of the deepwater? For example, we have oil coming out 
5,000 feet below sea level. Has anybody done any work on that 
effect prior to this incident?
    Mr. Westerholm. Again, I would say that you would break 
that into two categories. One, how to respond to deep well 
release. Certainly some of that was speculative. We don't have 
a lot of experience in this country, but other parts of the 
world that has happened.
    The second is what impact that might have on the biological 
and ecosystem and, again, that research has been very limited 
because of the limited number of spills that have happened.
    Mr. Cassidy. Now, I guess one of my concerns is as I 
prepared for this or as I have kind of worked this, this is 
something from the National Research Council of the National 
Academies Oil in the Sea III, and in 2003 they published this 
calling upon NOAA, MMS and Coast Guard to study these issues.
    I guess I am wondering now, in 2010, why in the heck did 
those agencies, and obviously you can't answer. You are not the 
head of the show, but can you postulate why recommendations 
were made and totally apparently ignored, which would have been 
tremendous to have now?
    Mr. Westerholm. You know, I can say that there are several 
recommendations, having some familiarity with that book and 
some past experience in the Coast Guard, that some actually 
were not ignored and obviously some action was taken, but again 
limited research funding, as well as the ability to run 
specific tests on dispersants and other activities was 
challenging.
    Mr. Cassidy. Now, don't I know that in Norway they have 
actually done deepwater releases of oil and they have looked at 
the effects of that oil in the water column and presumably how 
to deal with that? Why can the Norwegians do it and we cannot?
    Mr. Westerholm. Well, I would defer to my colleagues at EPA 
and others, and a lot of that goes back to the regulations in 
place to allow us to actually release oil and do studies on 
release.
    We can do it in certain test tanks. There is one in New 
Jersey. But I will say that we have sent people over to Norway 
to observe their test and work with them over the years.
    Mr. Cassidy. OK. I will just tell you as a person from 
Louisiana who is terribly upset over this, I am also terribly 
upset that recommendations made in 2003 in advance of deepwater 
drilling have been totally ignored. Not totally, but apparently 
substantially ignored because we are trying to figure out now 
what dispersants do with the deepwater.
    Dr. Ragen, you mentioned the effects of oil upon marine 
mammals, but you are speaking specifically of oil I gather, and 
that is really not the issue here. What we are speaking of is 
highly dispersed hydrocarbons, which in the so-called plume are 
still measured in parts per million is my understanding, but it 
otherwise looks like oil.
    Any thoughts about that? How would you apply your 
testimony, if you will, to this very dispersed hydrocarbon and, 
by the way, also low sulphur, relatively light crude, relative 
to, I gather, what was spilled in Alaska, which was heavy 
crude?
    Dr. Ragen. I would say that we have virtually no 
information on how these plumes and oil in the midwater column 
affect marine mammals. It remains to be seen what the actual 
composition of that is, and how long it persists, and how long 
it would affect the marine mammals that are there.
    Probably our main concern would be its effect on the 
ecosystem, which may change the availability of prey for marine 
mammals, et cetera. If these kinds of plumes have significant 
effects on production in the ecosystem or the transfer of 
energy through the trophic food web then I would expect that 
the marine mammals would suffer the consequences of that, but I 
am speculating right now because we just don't have that kind 
of information.
    Mr. Cassidy. So your testimony was more on the direct 
effects of oil, as opposed to highly dispersed hydrocarbons?
    Dr. Ragen. Correct. We don't know how----
    Mr. Cassidy. I am almost out of time. Let me grab the 
Secretary for just a second. Secretary Barham, man. If there is 
anybody who has been an effective point person in protecting 
the fish and wildlife of Louisiana, it has been you. You and 
the Governor and Billy Nungesser have done a standout job.
    Now, clearly you are heart and soul. You can introduce 
yourself to each other. You grew up in Houma, despite that 
north Louisiana accent so he says. I don't know if it is true. 
What would be your opinion about the six-month moratorium that 
is being suggested by the Administration?
    What would be the impact of that? Knowing that you 
represent the fisheries, what is your opinion on that and its 
potential impact upon coastal Louisiana?
    Mr. Barham. Well, the entire culture of south Louisiana is 
dependent on both oil and fisheries. We have worked hand in 
hand for generations, and it is part of the complex that make 
up our culture along the coast.
    We want to provide the energy that America desperately 
needs, well managed. It is a part of a good system in 
Louisiana. But we also have to do the things it takes to be 
sure that we never have an occurrence like this again.
    Mr. Cassidy. OK. I yield back.
    Ms. Bordallo. I thank the gentleman from Louisiana, the 
Ranking Member, and will now go to Members for questions. I 
would ask the witnesses if they could make their answers as 
concise as possible, since we do have two more panels to hear.
    Next I would like to recognize the gentleman from New 
Mexico, Mr. Lujan, for any questions.
    Mr. Lujan. Thank you very much, Madam Chair. And again as 
we begin, our prayers are with the families that have been 
impacted and those that had their lives tragically taken as 
well.
    My first question is for Ms. Lyder. It is my understanding 
that MMS has categorically excluded exploration and drilling 
plans from environmental review. Picking up with some of the 
questions asked by our Ranking Member about the impact of oil 
on ecosystems, does MMS still consult with other Federal 
agencies on these drilling plans such as the one BP was 
operating under when the spill happened? If not, how do the 
drilling plan evade such consultation?
    Ms. Lyder. Well, first, I want to point out that I am not 
in the part of the Department that manages MMS so I don't know 
that I can give you a direct answer on those, but I do know 
that that process is being reviewed.
    I do know that when a company presents an exploration plan, 
there is a process of review that involves other agencies. I 
don't know about the specific actions under that exploration 
plan.
    Mr. Lujan. Is Fish and Wildlife consulted in these areas?
    Ms. Lyder. Yes, Fish and Wildlife Service is consulted.
    Mr. Lujan. So in that area has there been activity through 
Fish and Wildlife to understand the impacts?
    Ms. Lyder. Well, as I said earlier, the plan that was 
presented to the Fish and Wildlife Service presented a 
catastrophic oil spill as a very, very unlikely scenario and so 
it was evaluated in that capacity, and we now know that that 
isn't true and that is part of the problem.
    Mr. Lujan. Mr. Westerholm, a 2003 report by the National 
Research Council predicted that the oil in a deepwater blowout 
could break into fine droplets, forming plumes of oil mixed 
with water, that would not quickly rise to the surface.
    Why, then, are we apparently unprepared to manage the 
current situation, and why did NOAA's Office of Response and 
Restoration appear to be unprepared for this type of spill 
event?
    Mr. Westerholm. I will break that answer into two parts. 
One would be what we would expect, and I think you are 
absolutely right. Some of the oil will strip off as it comes up 
from the bottom, in this case over a mile. Some of the smaller 
particles will stay in residence in that water column for some 
period of time.
    Our initial evaluation of that, we have sent out a number 
of ships and we are looking for more information, but our 
initial evaluation obviously is showing it in the parts per 
million and parts per trillion in a couple samples. We will 
certainly have more. That is not to say that even at that level 
there isn't a concern, but there is no ability to pick it up at 
that level. It is not like the oil you can pick up off the 
surface.
    The second would be the ability to be prepared for that. 
Part of the answer I spoke of earlier is some of the things 
that we obviously would be doing if we were funded at a 
different level, and that would be three-dimensional modeling 
and the ability to do some of this.
    Mr. Lujan. Is NOAA in a position today to release their 
validated results of the damage assessment data to the public?
    Mr. Westerholm. I may not have explained it very well, but 
the damage assessment is a public process; and there will be a 
time when, after the data is collected and quality control and 
assured, that it will be released in a public forum. The public 
is actually part of that restoration process.
    Mr. Lujan. Are there any other trustees that are reluctant 
to release this data, or is it NOAA's position that, once it 
goes through this process that you describe, it will be 
released?
    Mr. Westerholm. It actually is a trustee council that makes 
that decision of all the state and Federal trustees, as well as 
any tribal representation, and they will make that decision.
    Mr. Lujan. There was a comment by Sharon Gibson, who is a 
Commerce Department spokeswoman, on an article on June 8 that 
said that this information would be made available to the 
public as soon as possible. However, we can't make the decision 
unilaterally since the states are co-trustees of the Natural 
Resource Damage Assessment process, and we are currently 
working with the state partners.
    So has there been any reluctance by states at this time 
that you are aware of to furnish that information?
    Mr. Westerholm. You know, not that I know of sitting here, 
but certainly I can check on that.
    Mr. Lujan. Mr. Secretary, is this the some information that 
you stated you want to get out to the public as soon as 
possible?
    Mr. Barham. Obviously we would like to have information of 
that type as rapidly as we could get it.
    Mr. Lujan. Very good. I certainly hope that as soon as 
possible and as early as possible, Mr. Westerholm, that we can 
get this information.
    It seems that as we are trying to assess what has happened 
out there and to get an accurate account of the oil spill, and 
especially with the plumes, that we need to get this damage 
assessment--not only for underwater, but also with the impact 
to our fisheries--with the people that have been displaced.
    And with that, one of the responsibilities outlined and 
mandated to NOAA is to make sure that they are getting a true 
account of the impact of the recreation with fishing, with what 
has happened to the economy, as well as the impacted people. Is 
NOAA in any way working with the locally impacted people to 
make sure that they are getting treated fairly by BP with 
response to getting the money coming to them?
    Mr. Westerholm. As far as the individuals, and let me break 
that down real quickly. We are working. We are working with the 
states. We are working with local citizens to get out 
information certainly on the commercial fishing side and the 
fisheries closures. Absolutely. We are working with those 
communities.
    There are people who have been injured--private citizens--
by BP, and their compensation would be going directly through 
BP in the existing process.
    We are also working with the fisheries councils and 
fisheries management of all the states and the border where we 
share our Federal waters with their state waters to make sure 
that there is some consistency in determining fisheries 
closures and reopenings and impacts.
    In addition, the Department of Commerce is looking at small 
business and the economic impact of the spill.
    Mr. Lujan. The reason that I ask the question about the 
damage assessment data, Madam Chair, is I seem to believe that 
getting an accurate account of this information will help the 
locally impacted people be able to make a stronger case for 
reimbursement from BP, and that is why this information is so 
critical.
    Ms. Bordallo. Absolutely.
    Mr. Lujan. Thank you very much, Madam Chair.
    Ms. Bordallo. I agree. If the Members so desire, we can 
have a second round of questions if you request it.
    And now I would like to recognize the gentleman from 
Virginia, Mr. Wittman.
    Mr. Wittman. Thank you, Madam Chairwoman. Thank you, 
members of the panel, for joining us. I want to expand on some 
of the questions.
    I am really concerned about the impact of this spill on 
individuals. I spent 18 years in the area of seafood safety, 
marine resource and water quality. I have lived it. I know many 
folks in the Gulf that deal with seafood. I know the effect on 
people's lives down there. I represent an area in the 
Chesapeake Bay who is intimately tied to the water, to the 
seafood resources there and to water quality, so I have a deep 
affinity to what the folks in the Gulf are going through.
    And I want to begin by this, asking Secretary Barham. I 
know that Secretary Locke has declared a fishery disaster for 
the region. Can you tell me your experience with fishery 
disaster designations? How are they implemented? How effective 
are they in getting dollars directly to fishermen, communities, 
processors that are affected by this spill in the Gulf?
    Mr. Barham. Congressman, our experience is that it is a 
very slow process. It is not a response that adequately 
addresses the need, the immediate need that is in the industry.
    And it is not just you tend to think of just the fishermen 
that are on the water, but, as you know, it is a whole ripple 
effect up and down a chain from the processors to the ice 
houses to the bait dealers, even to the restaurants that cater 
to the recreational or commercial fishermen, even up to the 
high end restaurants that serve the seafood.
    So there will be a tremendous ripple effect through the 
entire economy along the coastal areas of Louisiana, and it is 
hard to find businesses that don't have some direct connection 
to this industry. So it is such a long, slow, and laborious 
process that oftentimes these people go broke before they get 
relief.
    Mr. Wittman. Mr. Secretary, I would agree with you. In 
fact, I would say this; that there are a lot of relationships 
between the Louisiana seafood industry and the seafood industry 
up and down the East Coast. I can tell you Virginia seafood 
dealers rely on Louisiana seafood dealers, so there will be a 
ripple effect even outside the Gulf area.
    Mr. Barham. I completely agree. Very similar to the 
Chesapeake area and other areas up and down the eastern 
seacoast.
    Mr. Wittman. Absolutely. Mr. Westerholm, the Oil Pollution 
Act of 1990 does have a mechanism there to hold the responsible 
parties in line, to make sure that they get resources to help 
those folks out that have been affected by these oil spills. I 
am going to go back right to those coastal communities that are 
going to be affected by this on a day-in and day-out basis and, 
again, I have a deep affinity to coastal communities, 
representing one.
    Can you tell me where things are currently with that, what 
the efforts are to get resources in a timely manner? These 
people are not fishing right now, which means every day they 
are not is a day of lost resources. And it is not as though 
they can make that up in the future because fishing happens in 
seasons, so this is lost income that they never get back.
    Can you tell me where the process is to make sure that 
those folks are being supported and being made whole through 
this process?
    Mr. Westerholm. I can certainly try to give you a quick 
answer, but really that information lies with BP as the 
responsible party and the National Incident Command and Admiral 
Allen, who is monitoring the claims process.
    But the claims that have been made, BP is providing all 
that information to the Incident Command and the Coast Guard 
for determining what claims have been requested, what claims 
are processed, who has been injured. If indeed a claim has been 
denied, that individual has the right to claim directly against 
the fund, and the National Pollution Fund Center and the Coast 
Guard would take care of that claim.
    In addition, one of the things that you just spoke of, the 
disaster declaration. In the event that it wasn't a claim that 
was paid under the Fund, a supplemental request from the 
Administration to that disaster declaration would assist those 
fishermen and those communities.
    Mr. Wittman. All right. Secretary Barham made a comment 
earlier I want to expand upon. He was talking about how the 
publicity from the spill is affecting the seafood market in 
Louisiana that is not affected by the spill. I know exactly how 
that works. If you hear something about the Gulf, even the 
seafood that is coming out of there, sales go down because of 
that.
    Can you tell me what NOAA is doing through the National 
Marine Fisheries Service to help with that, to get information 
out about the seafood resource, to talk about the safety of the 
seafood resource so that the commerce that is going on there 
can continue? Because we know the potential for this whole 
thing to shut down even those elements of the seafood industry 
that are able to process seafood, that can do it safely and 
provide a safe product.
    Mr. Westerholm. Absolutely. That is a great question, and 
the answer is twofold. One, we have closed those areas that 
have been impacted by oil so that the areas that are considered 
open, where fishing and seafood harvesting is still done, are 
safe. Seafood coming from there would be safe, so someone would 
be in violation of, obviously, going into a closed area.
    The second is our seafood safety testing program, which is 
designed to enhance the ability not only to reopen fisheries 
but, during this time, to test fisheries to ensure the safety 
of the seafood products going to market.
    Mr. Wittman. Are you finding good coordination with the 
Food and Drug Administration that also oversees seafood safety 
and their ability to get the word out and to make sure that 
people are aware of seafood safety there?
    Mr. Westerholm. I know we are working closely with them and 
the same entities within each of the various states in terms of 
closing their fisheries and working with their health 
officials. Beyond that, I can't speak to how that relationship 
is working, but I know we are working on those issues.
    Mr. Wittman. OK. Well, I would just urge you to make sure 
that there is a coordinated effort between states and all the 
Federal agencies that coordinate the issues with seafood 
safety.
    Madam Chairman, thank you so much. I yield back.
    Ms. Bordallo. I thank the gentleman. And now I would like 
to recognize the gentlelady from California, Ms. Capps.
    Mrs. Capps. Thank you, Madam Chair. This topic today is 
very critical, as you know.
    As many of my colleagues know, I lived through the 1969 oil 
spill in Santa Barbara, which is in the heart of my 
congressional district. This was a major spill in terms of 
ecological damage. The direct costs of that spill were enormous 
and lasted a very long time, but it pales in comparison to what 
we are seeing now in the waters and the wetlands in the Gulf.
    I want to move quickly through a series of questions, if I 
could, starting with you, Mr. Westerholm. Scientists are 
scrambling to study the BP oil spill now, knowing that it is in 
many ways a unique event. Never before has a leak from such 
depths vented so much oil for so long. Scientists have many 
questions.
    Mr. Westerholm, in your testimony you say that one purpose 
of the national contingency plan is to ensure access to science 
related resources data and expertise to the NOAA response 
teams. Some scientists that have received National Science 
Foundation Quick Response grants to gauge the spill's 
ecological effects say they are not getting full access to this 
data.
    My question is, how is NOAA ensuring that these response 
teams, including scientists collecting data now in the Gulf, 
have full access to all available NOAA data?
    Mr. Westerholm. Well, certainly I would be very interested 
in hearing from those scientists because we are committed to 
getting them and the public the information as soon as 
possible.
    Mrs. Capps. So you are committed to getting that data out 
to them as soon as possible?
    Mr. Westerholm. Yes.
    Mrs. Capps. That is good because scientists have been on 
the front line of this disaster, and we all need their help, 
their research in terms of how to move forward.
    Now a question for both you and Ms. Lyder from the Interior 
Department. Do NOAA and the Interior Department have the 
current biological capacity and the biological manpower in the 
Gulf to meet this escalating need?
    Mr. Westerholm. I will speak first, and obviously this is a 
continuing spill----
    Mrs. Capps. Yes.
    Mr. Westerholm [continuing]. And we have not stopped the 
leak and it is ongoing.
    Mrs. Capps. Yes.
    Mr. Westerholm. So, as we stand right now, we have enough 
labs and we are collecting enough specimens to begin to do 
that, but obviously the system could be taxed if things 
continue the way they are.
    Ms. Lyder. My answer would be yes. The full Fish and 
Wildlife Service is involved in this. We have scientists in the 
Park Service. We have scientists at the U.S. Geological Survey. 
We are using every bit of that resource, so yes.
    Mrs. Capps. OK. Could you give the Subcommittee some early 
thoughts on the kinds of future efforts that will be needed to 
mitigate for the loss of wildlife and habitat, and what kind of 
measures will be needed--this is a projection, but I think it 
is important for us to hear from you--to build resiliency and 
redundancy back into the ecosystems to compensate for all of 
this damage?
    Ms. Lyder. Well, I think one thing we all know is that this 
was already an ecosystem that was in trouble. We have talked 
about Gulf Coast restoration for a long time, and I think we 
need to look at ways to strengthen the ecosystem to get it 
beyond where it was before the spill and to use this money, use 
this opportunity, to be part of a long-term restoration plan.
    In the immediacy we are looking at habitat that could 
replace oil, habitat for the fall migration, ways to attract 
migratory birds to areas that are oil free. We are looking at a 
lot of immediate responses, but we are also looking at ways, as 
we go through the NRDA process, to use this process for 
replacement of oil habitat for restoration of----
    Mrs. Capps. Do you have anything to add, Mr. Westerholm?
    Mr. Westerholm. And I would just echo that and say a key 
part of that is to develop a system that is resilient in the 
future to be able to survive----
    Mrs. Capps. All right.
    Mr. Westerholm [continuing]. Through these types of 
conditions.
    Mrs. Capps. Back to you, Ms. Lyder. Can you describe for 
the Subcommittee the importance of the Fish and Wildlife 
Service Environmental Contaminants Program, and what its 
function is in response to this spill?
    Ms. Lyder. The Environment Contaminants Program is the 
program that responds to oil spills and to other degradation in 
habitat. What is of most concern to the Fish and Wildlife 
Service when there is a spill or a catastrophe is, first of 
all, destruction of habitat. We care about species populations, 
we care about individual animals, but destruction of habitat is 
what we are most concerned about.
    Our Environmental Contaminants Office is the office that 
looks at the impact of chemicals, oil and whatever in the 
environment and how best to clean it up, so----
    Mrs. Capps. Just a real quick followup. Is this 
contaminants program able to meet its obligation then, since it 
has such a critical role, to respond to the catastrophe, as 
well as all of the existing programs and needs around the 
country?
    Ms. Lyder. Right now we are using much of that capacity in 
the Gulf, and we will have to assess after this spill whether 
we need to increase that capacity.
    Mrs. Capps. And that leads to what about the future? Any 
thoughts?
    Ms. Lyder. Right. We are looking at possibilities of 
putting together response teams by state so that when there is 
an emergency like this, we have a lot of backup.
    We have the luxury of bringing backup in to Houma and in to 
the incident commands from all our regions around the country, 
and we are doing that. We are rotating people in and out and in 
and out in the Gulf.
    Mrs. Capps. Thank you. Thank you. Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentlelady from California. And 
now I would like to recognize the gentleman from Louisiana, Mr. 
Fleming.
    Mr. Fleming. Thank you, Madam Chairman. Let me address Mr. 
Barham first of all.
    I am the Congressman from the 4th District of Louisiana, 
among several Congressmen from Louisiana here this morning, and 
first of all I want to say thank you and I want to commend you 
and our Governor, Billy Nungesser, and many others who are 
doing an outstanding job very vigorously standing point trying 
to protect our state, its marshes, its wildlife. Certainly call 
upon us if there is anything we can do to help you beyond what 
we are trying to attempt to do now.
    I am disappointed that we are almost two months and you 
haven't gotten answers yet about the dispersants. I am advised 
that the EPA has the information and hopefully will turn it 
over soon, but I think that is a slowness of response.
    I am also very disappointed that despite the tough 
rhetoric, our Administration, it took almost two months to get 
approval for the berm creation to create a barrier for the oil 
spill coming up on our shores. There are other issues too, and 
I am just going to clip them off real quick and get a response 
from you on those.
    I understand you have made several requests on May 24 to 
Secretary Salazar that the Louisiana annual apportionment for 
the Sport Fish Restoration Program used to manage our coastal 
fisheries be apportioned at an annual rate equal to an average 
of the last three years of funding. Have you received a 
response to that, sir?
    Mr. Barham. No, sir, I have not.
    Mr. Fleming. OK. There was a request to BP on May 24 for 
about $30 million in funds to implement a multi-year fishery 
resource monitoring program that you indicated was designed to 
provide the information needed to manage the fishery resources 
of Louisiana as a result of the spill. Have you received a 
response on that, sir?
    Mr. Barham. No, sir, I have not.
    Mr. Fleming. On May 28, together with the Louisiana 
Workforce Commission, Louisiana Recovery Authority Office of 
Community Development, Louisiana Economic Development, 
Louisiana Department of Social Services and Louisiana 
Department of Health and Hospitals, to BP for an initial $300 
million in funding to provide swift and ameliorative response 
for the individuals and businesses greatly impacted by this 
disaster, as well as to address the long-term impacts. Have you 
receive a response yet, sir?
    Mr. Barham. No, sir, I have not.
    Mr. Fleming. Now, I understand that there are a lot of 
boats being docked, a lot of workers in the fisheries industry 
who are being impacted and can no longer go out and fish and to 
make a living.
    Can you give me an idea or give us an idea here today how 
quickly BP is responding to their claims for reimbursement for 
money and time lost?
    Mr. Barham. Congressman, I would be less than honest if I 
didn't tell you that it has been frustratingly slow in 
response. These people, as you say, are ready to work and do 
what is needed to provide for their families and to pay the 
bills that are needed, and they are caught in a terrible 
situation. It has been slow.
    Mr. Fleming. OK, sir. So what you are saying is that the 
Administration, with its very tough rhetoric about boots on the 
neck and kicking body parts, and the fact that our President 
has never spoken to the CEO of BP, despite all of these things, 
we are yet getting too much down the road, and we are getting 
essentially no response to these many important elements?
    Mr. Barham. Well, I think the Administration has shown that 
they clearly care about what is going on in Louisiana. The 
President has been down several times, and I sense a 
frustration on lots of fronts about the response by BP 
primarily.
    They have said lots of things, and either did not follow 
through or evaded giving responses at all. It has been 
disappointing in that sense. It is easier to make a flashy ad 
on television than it is to actually respond to needs.
    Mr. Fleming. Yes, sir. One final thing as my time runs out. 
It is my understanding that numbers of lawyers are descending 
on Louisiana, making the claim that in order to make a claim to 
BP you must have a lawyer. Is that true?
    Mr. Barham. Well, I can't answer for the individual. We 
have made some claims on BP and we have some pretty good 
lawyers in Louisiana, but I haven't gotten responses even with 
them.
    Mr. Fleming. OK. So you are saying even with lawyers we are 
not getting responses?
    Mr. Barham. We haven't yet.
    Mr. Fleming. OK. All right. Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentleman. And I would like now 
to recognize the gentleman from Wisconsin, Mr. Kind.
    Mr. Kind. Thank you, Madam Chair. Thank you so much for 
holding this very important hearing, and I want to thank the 
witnesses for your testimony today and everything that you are 
doing to try to mitigate and limit the damage of this obvious 
ecological and wildlife disaster. It is a national nightmare 
that is slowly unfolding before our very eyes. Our concern and 
sympathy are obviously with the families that lost loved ones, 
but also with the entire region.
    I represent a district in western Wisconsin. My backyard is 
North America's largest waterfowl migratory route, and the 
spread of this wildlife and ecological damage is immeasurable 
at this point. Obviously it is going to affect each and every 
one of us in the Norther Hemisphere at least.
    It just seems to me like it is all hands on deck right now. 
Put politics aside. We have to work together and figure out the 
best solution to cap this thing, and then limit the damage that 
is being done, and learn the lessons so that they are never 
repeated again in the future.
    I understand the State of Louisiana made the decision to 
open up the Mississippi River flowage into the delta area. I 
don't know if anyone has been monitoring that to see, or could 
testify as far as the effectiveness of that and how helpful 
that might be, but that might be a good place to start. I would 
be curious to hear from anyone who might.
    Mr. Westerholm or Secretary Lyder, do you have any opinion 
in regard to the effectiveness of opening up the river down 
there?
    Ms. Lyder. I can tell you that it has been very effective 
in protecting the Delta National Wildlife Refuge. The flows are 
high. The current is pushing the oil away from that eastern 
side of the river, and we just hope that the flows can remain 
high.
    Mr. Kind. Are there any potential negative consequences to 
doing that as far as the toxicity level and the impact that 
might have on wildlife?
    Mr. Barham. I will respond to that. Yes, there are 
negatives. When you flush freshwater over the richly productive 
oyster seed grounds--you have Mr. Voisin coming up on a later 
panel today that will explain that, but you are going to kill 
those oysters if they are inundated with freshwater over an 
extended period of time.
    So it is a tradeoff. You are keeping that oil out for some 
of the marine creatures, but you are also potentially killing 
off very productive oyster seed grounds underneath those 
diversions.
    Mr. Kind. Let me ask you. Mr. Westerholm, Secretary Lyder, 
are you or is USGS doing any computer modeling in regard to the 
spread of this damage, and what we might ultimately be facing 
here?
    Mr. Westerholm. I can take that one. Every day we do 
trajectory analysis of where the oil is going and where it is 
spreading to, including a loop current analysis to see if it 
would be going south and through the Florida Straits and out 
that way.
    So the short answer to your question is yes, we are doing 
the trajectory analysis on it. There are some hydrant dynamics 
and other things that we don't have all the answers to. This 
freshwater push is one.
    Mr. Kind. Right.
    Mr. Westerholm. We know physically what will happen, but 
being able to measure it and put it in there. We marry up. 
Every day we marry up what is predicted by the models with what 
actual observation is to improve it, so on a daily basis it is 
a continually improving process.
    Mr. Kind. Well, I guess how confident are you in the 
accuracy of that analysis that is being done, or is it new 
terrain that we are just hoping----
    Mr. Westerholm. Well, I would not say it is new terrain. I 
think many of the trajectory models that we have have 
accurately predicted the shoreline impacts and where the oil is 
migrating.
    You know, it is a large Gulf out there, but we seem to have 
a pretty good handle on where the oil is from our satellite 
imagery, visual imagery and putting that into our models.
    Mr. Kind. Assistant Secretary Lyder, as an active member of 
the Congressional Sportsmen's Caucus I know there is a 
tremendous outdoor sporting alliance out there with a 
tremendous amount of technical expertise that might be helpful.
    Has there been any outreach with that coalition at all as 
far as things that they might be able to assist with technical 
assistance in the field or any resources they might be able to 
bring?
    Ms. Lyder. I don't know about the coalition in particular. 
I know there has been outreach with the sport fishing community 
on the delta, and I know they have been involved certainly in 
taking experts out, taking scientists out.
    The marinas are unfortunately instead of taking 
recreational fishermen out, they are now taking people out 
looking for oil, looking for birds, and they have a wealth of 
information. They know that area better than anybody else. It 
is their zone, and we are----
    Mr. Kind. What about organizations like DU or Pheasants 
Forever? Has there been any----
    Ms. Lyder. We have been in contact with those 
organizations, and certainly their local branches have been 
involved in the response.
    Mr. Kind. Because there is a huge migratory bird community 
out there as well.
    Ms. Lyder. Yes, there is.
    Mr. Kind. They have been actively involved?
    Ms. Lyder. Yes.
    Mr. Kind. OK. Well, thank you again for your testimony and 
all the work that you are doing. Madam Chair, that is all I 
have. I yield back.
    Ms. Bordallo. I thank the gentleman. And now I would like 
to recognize the gentlelady from the Virgin Islands, Ms. 
Christensen.
    Mrs. Christensen. Thank you, Madam Chair. Thank you for 
having this hearing. I had the opportunity to travel with 
another subcommittee earlier this week to Louisiana and to 
participate in a hearing there that included two young women 
who had lost their husbands, and one of the shrimpers was there 
to testify as well. We did a fly over of the spill area.
    The hearing and the time we spent there really highlighted 
many of the concerns, like the lack of attention to problems 
that existed on Deepwater Horizon before the explosion. The 
inadequate response from BP was very strongly documented in 
that hearing, the impact on the health of people working on the 
cleanup, as well as the marine life there.
    It was very disheartening to me that with what I understand 
are over 3,000 oil and gas platforms in such a sensitive and 
important area that our Federal agencies were so lax in their 
permitting, and also it seems that we were unprepared for this 
worst case scenario. As disheartening as it is for me, it is 
devastating to the people who live there, as we are hearing 
today.
    So let me get to my questions. Some of them have been asked 
already. Director Westerholm, this is a devastating spill at 
any time, but it comes at the beginning of hurricane season. So 
what plans does NOAA have in place to address this spill, 
should we have a hurricane in the Gulf?
    Mr. Westerholm. Yes, ma'am. Let me take that three ways. 
One, as you know, the predictions for hurricane season just 
came out, and we expect it to be an extremely active season 
this year----
    Mrs. Christensen. Yes.
    Mr. Westerholm [continuing]. So that is very concerning. 
Second, we looked at what might the impact of oil be on the 
hurricane? What might the impact of the hurricane be on the 
oil?
    And then, last, we looked at the logistics capability of 
saying, with all this activity going on in the Gulf and we have 
to have an evacuation, how long and how much forecast can we 
give so we can adequately evacuate the area during the time 
when a lot of response operations are going on?
    But let me take that second piece of that question because 
I think that is the one you are driving at. A hurricane, 
depending on where it goes and how it goes--obviously we can 
envision a lot of different scenarios, but it does have the 
capability of taking at least some of that surface oil and 
pushing it up into areas that wouldn't otherwise be oiled by 
normal activity.
    Mrs. Christensen. OK. Well, I guess we have an idea of 
where it is going, but there is nothing that we are going to be 
able to do about it except respond.
    Mr. Westerholm. Well, do you mean after the fact?
    Mrs. Christensen. Yes.
    Mr. Westerholm. Certainly during the hurricane, if of any 
intensity, you would not be able to conduct operations during 
that period of time, and we would have to react in the 
aftermath of the storm.
    Mrs. Christensen. As of today, what percentage of the Gulf 
fisheries closed, and what do we anticipate----
    Mr. Westerholm. It is approximately a third. I don't think 
there was a closure today, so it just around 32 percent. That 
is of course the Federal waters. Each of the states have their 
fisheries closures also.
    Mrs. Christensen. Yes. Deputy Assistant Secretary Lyder, 
under the Park System Resources Protection Act of 1990, 
responsible parties who damage national park resources, living 
or nonliving, are fully liable for the cost of the damages, as 
well as for response cost.
    When you add up the damages prefatory to billing BP and its 
subcontractors, will your damages include the expenses that you 
have incurred in sending extra staff to the Gulf region and for 
conducting baseline studies and otherwise preparing for damage 
to park resources?
    Ms. Lyder. Yes.
    Mrs. Christensen. And do you have good baseline data on the 
fish and wildlife in the Gulf, or are you collecting them as we 
speak? I ask that because my fishermen and many who have 
testified here have talked about the lack of good data.
    Ms. Lyder. We have collected baseline data for our refuges 
and for our parks. Our park baseline data was collected and 
completed before any oil touched any park resources.
    Fish and Wildlife Service, we have 35 refuges we think may 
be affected. We have not completed all the surveying, but we 
are pretty far along. One thing about this oil spill, it did 
give us some lead time before it started hitting land, and so 
we are pretty far along on our baseline assessments for the 
refuge system.
    Mrs. Christensen. Thank you. Mr. Barham, in your testimony 
you talked about the voids in the response efforts by BP and 
the Coast Guard. You probably have shared some of those maybe 
and I missed them, but could you just go over for me what some 
of those voids were and if they existed earlier? Have some of 
them been addressed?
    Mr. Barham. Well, one of the glaring ones is that we could 
not get the information on Corexit as far as the components and 
the percentages of those components so we could develop a 
profile, a chemical profile to run testing on tissue samples.
    Mrs. Christensen. And we heard that on Monday in Louisiana 
as well.
    Mr. Barham. Yes. And we still don't have that information.
    Mrs. Christensen. Do you have the two compounds?
    Mr. Barham. We know the compounds that are used in Corexit. 
We just don't have the percentages and, without the percentages 
of the composition, you can't develop the chemical profiles to 
do the testing in the tissue.
    It makes a whole lot of difference how much of what is 
used, not just that you know what is in the compounds.
    Mrs. Christensen. Right.
    Mr. Barham. And the other thing is we did have delays in 
regard to our proposal for berms. We did not have alternatives, 
and we clearly understood that if you can catch oil on a hard 
surface, it is much easier to clean.
    You essentially can't clean the marsh. When it intrudes 
into the cane and the marshes, you are going to lose that 
marsh. That is what holds our coast together. That is the long-
term challenge, as the Assistant Secretary has been talking 
about.
    And we were very slow on that. Now, we have had approval of 
six of the berms, but those berms are not only valuable in the 
continuing intrusion of the oil that we expect for a long time, 
but it also is important from a hurricane perspective to 
mitigate the damage in the tidal surge that is going to come 
into these wetlands and potentially carry this oil into marsh 
habitat.
    Mrs. Christensen. Thank you.
    Ms. Bordallo. Your time is expired. Just to remind the 
Members that we will have a second round if you so desire.
    Now to recognize the gentlelady from New Hampshire, Ms. 
Shea-Porter.
    Ms. Shea-Porter. Thank you. Mr. Westerholm, how long have 
you been in your job, please?
    Mr. Westerholm. It is about two and a half years.
    Ms. Shea-Porter. Two and a half years. OK. Thank you. Well, 
I was reading from your testimony, and you said that NOAA is a 
natural resource trustee, and your job is protection and 
assessing, and so I just wanted to read something that Mr. 
Barham said when he was talking about the oil in his testimony.
    He said, ``We do not have a complete understanding of the 
toxicity of the various concentrations of oil and dispersants 
to all the life stages of all species of aquatic life.''
    He goes on to say, ``We have little knowledge of deepwater 
transport mechanisms. We have little knowledge of deepwater 
ecology. Although we have some experience with relatively small 
releases of oil in our onshore areas, the immediate residual 
effects of large quantities of oil over large, shallow areas we 
don't know. Largely unknown.'' And he said the list can go on. 
So, when you said to protect and assess, how did you do that? 
How were you engaged in trying to protect the coast?
    And before I go any further, because I think all of us have 
a responsibility for this. In 2008, back and forth, Congress 
has fought over whether oil is safe, whether we should be 
changing this. I have listened to my colleagues who are now 
upset with the government for not responding fast enough, and 
they were the ones who said don't worry. This can't happen.
    There is a kind of arrogance on the part of human nature to 
assume that there won't ever be an accident, and therefore we 
don't have to know this. So what was NOAA's role to protect and 
assess? What exactly were you assessing? Because when I listen 
to the other gentleman's assessment, he said we don't know.
    Mr. Westerholm. So I will address it. There were several 
questions there, and I will do the best I can do address them.
    Ms. Shea-Porter. Thank you.
    Mr. Westerholm. Part of that in the protection is what we 
are required to do under law and by regulation, and that is 
early on in the planning stages and the preparedness stages 
exercises.
    During the response, actually providing scientific support 
and assessment of what is going on and making recommendations 
so that we try to minimize it, not eliminate, because it is 
impossible to eliminate, but minimize the environmental damage. 
So in many cases, as my colleagues have pointed out, it is a 
tradeoff. And then last in the restoration phase, restore the 
environment to the pre-spill conditions.
    Ms. Shea-Porter. Yes.
    Mr. Westerholm. So part of the----
    Ms. Shea-Porter. Excuse me for interrupting, but did you 
think or ever have a conversation with anybody? Wow, what would 
happen if we had a big spill----
    Mr. Westerholm. Yes.
    Ms. Shea-Porter [continuing]. Off the coast of Louisiana?
    Mr. Westerholm. Well, part of that is the structure, and if 
you are looking at me personally----
    Ms. Shea-Porter. No. Your agency. I just want to know did 
you----
    Mr. Westerholm. Absolutely.
    Ms. Shea-Porter [continuing]. Fear this?
    Mr. Westerholm. Part of the process is there is an area 
committee for each of the Coast Guard sectors down there--it 
involves the state, local citizens, industry and others--to 
develop plans to respond to spills, including some offshore 
spills, including working with MMS.
    The second piece of that is the regional response teams, 
which approve dispersants and others and----
    Ms. Shea-Porter. Right. But let me get back because I want 
to go back to before the accident because this won't be our 
last one.
    Mr. Westerholm. Right.
    Ms. Shea-Porter. I want to do what we can right now to make 
sure we prevent it. Did you ever express any concern that there 
didn't seem to be enough regulation? Did you work with other 
agencies?
    You know, we had a very, very, very friendly 
Administration, very friendly to the oil industry, and now we 
know that there were a lot of things that were very, very 
wrong. Did you have any awareness, any concern that we weren't 
properly overseeing drilling?
    Mr. Westerholm. I think that goes back to two questions. 
Again, one is did we do everything to work with our partners to 
help prepare for the eventuality of oil spills in advance, and 
we did. Now, obviously this was an unprecedented event. Part of 
the offshore----
    Ms. Shea-Porter. Wait. Wait. I am sorry to keep 
interrupting you, but you said we did everything we could. 
Well, what did you do?
    Mr. Westerholm. OK.
    Ms. Shea-Porter. Because we are watching this, and there 
seems to be very, very little that is working, and it has taken 
time to get this together. I am not just trying to go after 
you. I am concerned that what happened was everybody could see 
the possibility. I believe that we could see the possibility.
    Indeed, I am going to quote Dr. Barham at the end, who 
asked. He said, ``But because of our dependence on foreign 
fuels, society or its agencies may be driven to take risks that 
otherwise would not be acceptable.'' In my mind, this was never 
an acceptable risk. We have fought about this in Congress. They 
wanted to drill even closer. They wanted to drill right off the 
coastline.
    In your role and NOAA's role, did anybody say this is a 
really bad idea because, actually, we don't really know what we 
are doing yet? Because your job, your agency's job again, and I 
will read it: Protect, assess, natural resource trustee.
    Mr. Westerholm. Correct. So if you will let me go back, 
part of that process in the beginning is the assessment of 
whatever activity is going on and our participation in that.
    In addition, our participation in developing spill response 
plans to mitigate environmental damage when it occurs. We were 
involved with that, and that has continued. I think the 
response group that stood up and the activities that are going 
on now is a representation of that.
    Ms. Shea-Porter. I am grateful for the effort.
    Mr. Westerholm. The second part of your question is----
    Ms. Shea-Porter. I am very grateful for the effort, but we 
know we are not getting too far. Did you do a tabletop exercise 
before the accident?
    Mr. Westerholm. Several, but I don't believe we have done 
one for deepwater drilling off the coast. We may have, but I am 
not aware of one, and that gets to the second part of your 
question, which is permitting of deep well drills and what 
activities should we have expected, or did we expect, which is 
different.
    Ms. Shea-Porter. Did you ever protest it?
    Mr. Westerholm. Did I personally?
    Ms. Shea-Porter. Protest, right. The agency.
    Mr. Westerholm. I am not sure that we have. I know we 
provided comments. I don't know about a protest.
    Ms. Shea-Porter. Thank you.
    Ms. Bordallo. Your time has expired. I would like now to 
recognize the gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Thank you, Madam Chair. I am assuming, to Ms. 
Lyder, that the Fish and Wildlife Service will need to make 
adjustments in its Migratory Bird Conservation Grant Program, 
such as grants funded under the North American Wetland 
Conservation Act.
    Will certain areas affected by the spill be ineligible in 
the short term, and will it be the responsibility of BP to 
cover the cost to restore any recently completed conservation 
project that is damaged by the oil spill?
    Ms. Lyder. It will be the responsibility of BP to restore 
any project that has been completed and that has been damaged, 
and we are working with our partners.
    In fact, I have a note that said we had a meeting today 
with Ducks Unlimited and with the National Fish and Wildlife 
Foundation, and we are looking at where we now need to focus 
our efforts, focus our NAWCA grant money in response to the 
spill.
    Mr. Kildee. Mr. Westerholm, you had contingency plans for 
something like this, but nothing on this magnitude. What 
changes would you make in your plans, had you been able to 
anticipate the sheer magnitude of this oil spill?
    You had some contingency plans. What changes would you make 
now for the future, or what changes do you think would have 
been more effective had they been in place when this took 
place?
    Mr. Westerholm. Yes. And I think that that is a great 
question because I think some of the premises that the original 
plans for worst case scenario that were built on certainly have 
changed.
    The expectation that the systems would work and the blowout 
preventers would work and you would be dealing with a spill of 
a certain magnitude over a certain period of time. We are 
obviously getting to the point where we are exceeding that, so 
one of the changes would be to look at those conditions where 
we would have a spill for a long period of time.
    The second thing that I would do is put more emphasis on 
the oil coming up from subsea. Especially in this case we have 
mile deep, but we have other drilling units out there that are 
pumping oil from that depth and greater, so I think certainly 
part of the planning and exercises and contingencies would 
incorporate that.
    And then more investigation and research on what happens to 
that oil at depth, what happens if you disperse that oil at 
depth. And I think those are some of the initial lessons we are 
learning now that we are going to try to build on for better 
planning in the future.
    Mr. Kildee. And as tragic as this whole thing has been, we 
have to try to learn as much as possible from this. I am sure 
your agency is going back through the learning process and 
seeing how much you can anticipate and what measures you might 
take.
    Mr. Westerholm. Absolutely. I think we all are going back 
through that process, and we will continue. You know, as many 
have said at this table already, the spill is not over even 
when the oil stops. There will be years of learning and 
additional research that will be needed.
    Mr. Kildee. Thank you. Thank you very much, Madam Chair.
    Ms. Bordallo. I thank the gentleman from Michigan, Mr. 
Kildee. And now I would like to recognize the gentlelady from 
Colorado, Ms. DeGette.
    Ms. DeGette. Thank you very much, Madam Chair. I have a 
question for the entire panel.
    I know you have talked a little bit about dispersants so 
far. I am wondering. The use of dispersants in this spill has 
been widespread and extensive, and what we are hearing now is 
dispersants are causing oil to remain in the water column, 
rather than collect on the surface so, as a result, plumes of 
oil are dispersing into the Gulf. A lot of people are saying 
that we are just trading the devil we know for the devil that 
we don't know.
    So my question is, do any of you think that we know enough 
now to conclude that dispersed oil will be less harmful to the 
ecosystem than nondispersed oil? Whoever wants to start can.
    Mr. Westerholm. I will start.
    Ms. DeGette. OK.
    Mr. Westerholm. OK. You know, I don't think we do know 
enough. I think that is one of the reasons we are trying to do 
as many measurements and testing as we can.
    One of the expectations and maybe some of the answers we 
don't know is how fast that will biodegrade. Will the impact on 
the ecological system and resources be greater than if black 
oil were to get up into the marshland?
    Obviously you would want to be able to not have the oil 
come out at all or collect it all, but in those environmental 
tradeoffs those decisions are made and we are trying to measure 
those and get the most----
    Ms. DeGette. What kind of timeframe are you looking at to 
figure that out? Because I will tell you. Some of us from the 
Energy and Commerce Committee--Dr. Christensen was there with 
me and others and Mr. Burgess. I don't see him, but we were 
down in New Orleans on Monday of this week, and we saw the 
black oil already in the marshlands.
    We were told by the Louisiana Fish and Wildlife Service and 
others that once that gets back up in there to the marsh, it is 
going to kill everything, including the plants. So what is your 
timeframe? What is your timeframe for figuring this out so we 
know what to do?
    Mr. Westerholm. And I apologize for maybe not quite 
understanding the question. Obviously there are two different 
things. The black oil getting into the marshes is part of that. 
What the application dispersants was doing is to minimize that.
    Ms. DeGette. Minimize that.
    Mr. Westerholm. Obviously it would have been a lot worse 
had they not dispersed the oil. However, the dispersed oil does 
have an impact, and that is why we are trying to get as many 
measurements----
    Ms. DeGette. And what is your timeframe for figuring that 
out?
    Mr. Westerholm. Well, we have ships out there now 
collecting samples to determine at what level the oil is in 
parts per million, parts per trillion, and try to figure out 
where that oil is, and then we know from some ecological 
studies what that impact might be.
    Ms. DeGette. So they are still putting the dispersants out, 
though, correct?
    Mr. Westerholm. They are, although, as you may recall, 
there have been limitations put on in the----
    Ms. DeGette. Right.
    Mr. Westerholm [continuing]. Intervening weeks and the 
amount if dispersants and where they can use them.
    Ms. DeGette. Right. So again my question. Do you have any 
sense how long it is going to take you to make that 
determination?
    Mr. Westerholm. Well, I think every day they make the 
determination as to the use of dispersants or in situ burning 
or----
    Ms. DeGette. For that particular situation.
    Mr. Westerholm. Correct.
    Ms. DeGette. But what I am saying is----
    Mr. Westerholm. The long-term impact is something that we 
are continuing to study.
    Ms. DeGette. Yes. So do you have some sense when you are 
going to have a view? Because this is going to be a problem. 
This leak is going to continue for some time.
    And my question is, rather than making a day-by-day 
decision, do we put the dispersants today or not, when are we 
going to know what kind of policy we are going to have on this?
    Mr. Westerholm. Well, part of that, as you know from the 
subsea one, is continuous daily tests to determine the dissolve 
oxygen level and the toxicity test on rotifers that EPA and 
ourselves and others are looking at, and so if it exceeds 
certain toxicity levels, they shut off the subsea dispersants 
at that moment.
    The other part of it is one we are trying to get a better 
picture of of the three-dimensional impact of the oil and the 
water column.
    Ms. DeGette. So you don't foresee a cohesive policy 
dispersants/no dispersants? What you are saying is that 
decision is being made on a daily basis based on the 
conditions?
    Mr. Westerholm. It is at the regional response team and 
the----
    Ms. DeGette. OK. One last question. BP originally stated 
there aren't any plumes and has continued to insist that there 
are no underwater oil plumes in large concentrations from the 
spill. Mr. Westerholm, are BP's statements consistent with the 
findings of NOAA and other researchers?
    Mr. Westerholm. And as you know, we have only begun to get 
those first pieces of information back, but I think it is 
important to define the definition of plume and how people 
envision it.
    It is much like smoke coming out of a fire. You certainly 
see black smoke, and as it rises up in the air it gets lighter 
gray and lighter gray and then you can't see it. Even those 
areas where you can't see, our detection ability to measure in 
the parts per million/parts per trillion in what may not be 
visible is still there.
    The water column is very much the same thing. As it rises 
from depth, it disperses and the water column gets moved by the 
currents, but continually expands in a plume-like feature. But 
we know that even in small parts that there can be impacts to 
the environment, so that is what we are trying to measure.
    Ms. DeGette. Thank you.
    Ms. Bordallo. Thank you very much. And now I would like to 
recognize the gentleman from Louisiana, Mr. Boustany.
    Mr. Boustany. Thank you, Madam Chairwoman. I represent 
Louisiana's 7th Congressional District. I have roughly half the 
coast of Louisiana from the central to the western part of 
Louisiana, the Texas border.
    And let there be no mistake. This is a real tragedy, a 
human tragedy. We lost 11 lives in this. Others were injured. 
It is an environmental and ecological challenge and tragedy, 
and it is an economic tragedy.
    And as I look at the title of the hearing, I see the title 
is Our Natural Resources at Risk: The Short and Long Term 
Impacts of the Deepwater Horizon Spill. I can't help but think 
of a sentiment I share with my fellow Louisianans--Secretary 
Barham referenced this--and that is our unique Louisiana 
perspective on this.
    We have always had a sense of balance about how our 
environmental, our economic and our energy policy can go hand 
in hand together. We value all three and know that all three 
are critically important as we look at our natural resources. 
We value our wetlands, which we consider to be America's 
wetlands. These are working wetlands where we strike that 
balance.
    For over 50 years, Louisiana delegations have fought to get 
revenue sharing from the oil produced so that we could protect 
our coastline. We had minimal success with that just recently a 
few years ago. And as we look at this, I urge everybody to step 
back and think about that balance and what is going to be 
necessary for the economic health of our country, as well as 
our energy security.
    I have deep, deep concerns about the moratorium imposed by 
the President that is going to affect 33 exploratory wells in 
the deepwater of the Gulf of Mexico. I want to lay out a few 
facts. Roughly 33 percent of the nation's domestically produced 
oil comes from the Gulf of Mexico and 10 percent of the 
nation's natural gas. Eighty percent of the Gulf's oil and 45 
percent of its natural gas comes from operations in more than 
1,000 feet of water, the deepwater.
    Suspension of these operations means that roughly 33 of 
these floating drill rigs, which are typically leased for 
hundreds of thousands of dollars per day, could be idled for 
six months or longer, given the current moratorium. The 
economics behind this amount to somewhere around $250,000 to 
$500,000 per day per rig, roughly resulting in somewhere 
between $8.2 and $16.5 million per day in costs for idle rigs.
    Secondary impacts of all this include the supply boats, 
roughly two boats per rig, with day rates of around $15,000 to 
$30,000 a day for each of the 33 rigs. This is roughly a $1 
million impact per day.
    But also consider the impacts to the suppliers and related 
services to this valuable industry that supports our nation's 
energy supply--the welders, the divers, the caterers, the 
transportation, the mechanics, the electricians, those who 
fabricate the tools, the drilling fluids and so forth. We are 
talking about a huge economic impact.
    Let us look at the direct cost. If you take these rigs, 90 
to 140 employees at any one time. Double that because you have 
two shifts per day. You have two week shifts, so you can 
multiply that. We are talking about 800 to 1,400 jobs per idle 
rig platform that are at risk. Those are the direct jobs. And 
for every one of those jobs, there are roughly four to six 
additional jobs that provide support.
    These are good paying jobs. We are talking about the 
potential for lost wages, just with the rigs, of over $5 to $10 
million per month per drilling platform. That could be over 
$165 to $330 million per month if you take all 33 of these 
rigs. These workers, many of them work in Louisiana. Our state 
is going to see a decline in income tax revenue and sales tax 
revenue. Many of our small communities depend almost solely on 
the revenue generated by this industry.
    Now I want to reference something that Secretary Salazar 
has said in reference to this. The 33 Gulf wells where 
operations have been suspended are ones that were inspected 
immediately after the Deepwater Horizon blowout, and according 
to Secretary Salazar, I quote, ``only minor problems were found 
on a couple of rigs.''
    He goes on to say, I quote, ``Additional safety measures 
can be taken, including dealing with cementing, encasing of 
wells and significant enhancements and redundancies of blowout 
prevention mechanisms. Although these rigs passed the 
inspections, we will look at standards that are in place.''
    This deepwater moratorium is arbitrary, and it is 
irresponsible. It is going to cause a severe economic hardship 
to the State of Louisiana, unlike anything we have ever seen, 
and that is part of our overall environmental concern. It is 
the human environment that is going to be affected here.
    And so I am urging that we take a step back and have some 
balance as we look at this and be thoughtful about how we 
approach this. It is unreasonable to impose a six-month or more 
deepwater moratorium. It is unnecessary. There have already 
been delays in putting together this Presidential commission, 
undue delays.
    I have a letter here that I am sending out to Secretary 
Salazar and the President today urging the President to move 
forward so we can get the necessary information together. Much 
of it is there. But to continue to delay this is unreasonable 
and wrong.
    And finally on the shallow water moratorium, the Department 
of the Interior has been extremely irresponsible by misleading 
many of us in Louisiana with equivocal information about 
whether there is a moratorium or not. I have sent two letters 
now--one of them was a bipartisan letter--urging the immediate 
lifting of the moratorium on shallow water drilling. We are 
talking about very mature technology, very different 
technology, and this is critical to jobs and the economy of 
Louisiana and the energy security of our country.
    So I am urging this Committee and the Congress to work with 
the Administration. Let us be reasonable about how we approach 
this. I see that my time has expired, Madam Chair. Thank you.
    Ms. Bordallo. I thank the gentleman from Louisiana for his 
comments and certainly will take that under advisement. I would 
like now to recognize the gentleman from Florida, Mr. 
Bilirakis.
    Mr. Bilirakis. Thank you, Madam Chairwoman. I appreciate it 
very much. And thank you for allowing me to sit in on the panel 
today.
    Mr. Westerholm, in your testimony you indicated that, 
amongst other things, NOAA's mission is to conserve and manage 
coastal and marine resources to meet our nation's economic, 
social and environmental needs. It is with that in mind that I 
relate to you the concerns of several fishermen in my district.
    The immediate and overwhelming fear is insolvency. They 
wonder how they are going to support their families if their 
livelihoods are decimated. Many have offered suggestions from 
relaxing catch quotas to waiving permitting fees. These are 
proud, robust workers, who cringe at the thought of standing in 
line to get a paltry check from BP. They want to work.
    While I realize that the primary focus remains on capping 
the well, and it should be, have there been discussions within 
NOAA about short-term relief for those in the fishing industry, 
and what are the prospects for long-term relief?
    Mr. Westerholm. And thank you for the question. Apart from 
the disaster declaration that we spoke of earlier, you did 
mention catch quotas and permit fees.
    And while I can't speak to any specifics on that right now, 
it is under discussion, and I believe that in the advent of 
stopping the leak and when the spill is cleaned up, NOAA has to 
look at their whole fisheries management cycle over this year 
and next year, based on the impact that this has had to the 
fishing community, and is committed to do so.
    Mr. Bilirakis. Great. Thank you. I would also like to 
follow up with Ms. DeGette's question on dispersants. I know 
that representatives from the Southern Shrimp Alliance have 
expressed a deep and abiding fear that the use of the 
dispersants poses an exponential threat to certain species in 
the Gulf of Mexico.
    As I understand it, John Williams, the Executive Director 
of the Alliance, wrote NOAA and EPA weeks ago, but has yet to 
receive a response. I hope I can get an answer right here and 
now. Why are dispersants still being used when EPA called upon 
BP weeks ago to find a less toxic means of breaking up the oil 
slicks at the surface?
    It is unprecedented that tens of thousands of gallons a day 
of dispersant are being used subsurface. We have no clue what 
type of long-term ecological destructions these toxins will 
cause. Would you agree with me that while the spread of oil is 
destructive enough, oil compounded with the dispersant is 
exponentially more devastating? If so, why are dispersants 
still being used?
    I would like to hear I guess first from Mr. Westerholm and 
anyone else who would like to address that issue as well on the 
panel. Thank you.
    Mr. Westerholm. I will take the question first. And the 
short answer is that dispersants are still being used as a 
tradeoff with respect to the total environmental risk.
    And I would say that one of your statements, which was the 
toxicity of dispersed oil in that localized area is probably 
greater based on testing. However, the construct of using 
dispersants is that it will more quickly biodegrade and so 
being that far out offshore the oil that is already dispersed 
will disperse and biodegrade before it reaches shore.
    And that balances the tradeoff. Obviously one of the things 
we are concerned about is what is that impact of that dispersed 
oil in the ecosystem that is being dispersed.
    Mr. Barham. If I could join? The problem with the 
dispersants is it is subsea. There is no scientific data that 
it will degrade quicker at subsea conditions under pressure and 
in those temperatures. Absolutely no scientific confirmation of 
that.
    The problem we have is that it is now there unseen and 
unknown as to where it is going. We are constantly on patrol. 
We will have places where we will see absolutely no evidence of 
oil being present. The next day you will have heavy oil. It 
obviously came in under the booms that are out there. It 
traveled in a subsea transport system.
    We have no idea the impact on the entire food chain that is 
going to be there. You asked a question earlier. The lady from 
California, I believe, asked a question how--Colorado. I am 
sorry. Asked a question how long we will be assessing this. It 
will probably be decades because you will have to do constant 
analysis, and what we fear is that there is some link in the 
food chain that will be destroyed by these subsea dispersants.
    These are little microscopic particles that can be consumed 
all the way by the plankton, the phytoplankton, the copepods, 
the shrimp, the larvae, the sea creatures that are out there 
and then consumed farther and farther up the food chain, and 
until we have had the time to assess that that is the fear we 
have. This is an experiment that has been conducted which we 
objected to from the very beginning.
    Mr. Bilirakis. Anyone else on the panel? Yes, please. Thank 
you.
    Dr. Ragen. I would just comment that dispersants are 
controversial in virtually every oil and gas situation. I would 
agree with this comment. Dispersants are a tool. We just need 
to know how to use them well.
    And in order to do that I think we need the background 
research at periods when we are not in the middle of an 
emergency or a crisis in order to understand the nature of the 
dispersants, how they work with specific types of oil, whether 
they work better in offshore areas or near shore areas, et 
cetera.
    There is a lot of background work that really needs to be 
done that I think tends not to happen as it should when we are 
not in the middle of a crisis and so now we are faced with 
making ill-informed decisions sometimes.
    Mr. Bilirakis. Thank you very much. Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentleman. I would like to now 
recognize the gentleman from Louisiana, Mr. Cao.
    Mr. Cao. Thank you very much, Madam Chair. I just want to 
ask the panel a very specific question regarding the subsurface 
oil plumes that we have been hearing through the news.
    It seems to me that it goes against all logic. If oil is 
lighter than water it should float up to the surface. So why 
are we having the problem of subsurfaces? Is that part of the 
dispersants that are being used that somehow make this oil 
heavier than water?
    Mr. Westerholm. I can take the first part of that question 
and look at it from both a surface and subsurface. If you are 
looking at the injection of subsurface dispersants, I think it 
was rightly brought up that we don't know all we need to know 
at depth.
    However, oil will rise. Even dispersed oil will rise. It 
will rise at a slower rate the smaller the micronic size, so if 
you have a very small particle it may take a very long time to 
get to the surface. If you don't treat it at all, the majority 
of that oil comes up in about three hours.
    So even if you never disperse the oil, small particles of 
oil break off, and it is our estimate that maybe somewhere 
between 30 and 50 percent of the oil that is emanating from the 
bottom already disperses in the water column before it gets to 
the surface whether you added any chemicals or not to it.
    So when you add the addition of subsurface dispersants you 
are accentuating that issue in putting it in there, but 
ultimately those oil particles will start to rise to the 
surface. However, if they are small enough, they may be carried 
by subsea currents in a particular way.
    What we are trying to do is map that three-dimensional 
picture out the best we can to determine at what level they 
are. Even if they are not visible, is there a detection? How 
far away from the wellhead source is that detection?
    Mr. Cao. Now, my next question is to you again, Mr. 
Westerholm, and to Ms. Lyder. I would like to know what are 
your respective agencies' plans, the long-term plans with 
respect to the recovery of the Gulf Coast? I guess what would 
be your role in the long-term recovery plan?
    Mr. Westerholm. I guess I will speak first on it. And I 
would divide that into a couple sections. One is the natural 
resource damage assessment process that we talked about, and 
Ms. Lyder will also talk about that issue and how that damage 
assessment will be used to restore the environment to the pre-
spill conditions.
    The other part, though, and part of our long-term plans is 
looking at the economic impact from the Department of Commerce 
and the fisheries, which I spoke of earlier, so there is a 
fisheries/seafood safety impact that has to be considered, 
independent of the natural resource damage assessment process.
    Ms. Lyder. Yes. I want to point out that BP as the 
responsible party is responsible not just for long-term 
restoration costs, but also for immediate response, and part of 
the immediate response that we are looking at right now is what 
are we going to do about the birds, the migratory birds that 
are coming back in the fall.
    How are we going to divert them from heavily oiled areas? 
What are we going to do about the fish and the wildlife that 
are suffering right now, and how are we going to prevent 
further damage? And that is part of removal response under the 
Oil Pollution Act. That is a covered expense that BP should be 
responsible for.
    Mr. Cao. I understand, but can the government participate 
to expedite this recovery process----
    Ms. Lyder. Oh, yes.
    Mr. Cao [continuing]. And then just hand them the bill and 
ask them to reimburse you all for it?
    Ms. Lyder. Oh, yes. The government can come up with what 
the removal action should be, can go to the Coast Guard and say 
this is what we want to do, this is what we need to do and we 
want the funds to pay for it, in which case the Coast Guard 
then decides if it is an appropriate response cost, gives us 
the money and bills BP for the cost.
    So that is separate from the natural resource damage 
assessment process. We are a trustee in that process, the State 
of Louisiana is a trustee in that process, and BP will also be 
responsible for the long-term restoration of what has been 
damaged.
    Mr. Cao. My next question is to Secretary Barham. I know 
that the Governor and the parish presidents are pushing for a 
system of 24 berms being built. Right now the Coast Guard has 
approved the construction of six of them. Is that correct?
    Mr. Barham. That is correct.
    Mr. Cao. And based on your assessment of the success with 
respect to the berms, should we go ahead and push for the 
construction of the remaining berms that right now have not yet 
been approved?
    Mr. Barham. Absolutely we should. It is the first line of 
defense for oil that is coming ashore. It is much easier to 
clean. You can clean oil from a hard surface much easier than 
you can from a marsh environment. It is almost impossible in a 
marsh environment to clean.
    Beyond that, it also will mitigate the damage of a tropical 
storm or hurricane as far as storm surge and carrying this oil 
into the marshes and the habitat that these migratory waterfowl 
use and other creatures along the coast. So absolutely we are 
pushing for the continuation of this, the construction of these 
berms.
    Mr. Cao. Thank you very much, Madam Chair. Those are all of 
the questions I have. Thank you for allowing me to participate 
in this hearing.
    Ms. Bordallo. I thank the gentleman, Mr. Cao from 
Louisiana. We are going now into the second round, and I just 
have a couple of quick questions here, but I would like to 
remind the Members that we still have two full panels to hear.
    This has to do with, Ms. Lyder, migratory birds, wading 
birds and colonial nesting birds are all expected to be 
significantly impacted by this spill. What is the 
Administration doing to pursue civil, if not criminal, 
penalties under the Migratory Bird Treaty Act against BP?
    Ms. Lyder. Well, my understanding is the Department of 
Justice is looking at all aspects of civil and criminal 
liability for the spill. The Migratory Bird Treaty Act--excuse 
me. I have the Houma cold that is circulating through the BP 
facility, a facility that is supposed to house 300 people, but 
has 1,000 right now.
    The Migratory Bird Treaty Act is a strict liability 
statute. It works with prosecutorial discretion. We decide when 
we are going to bring a criminal action against somebody who 
has caused the death of migratory birds.
    We are not right now--at least I am not aware of us--
actively looking at criminal sanctions under the Migratory Bird 
Treaty Act, but I do know that Eric Holder is looking at all 
levels of liability for the spill, and I imagine the Justice 
Department has probably considered that. Our Solicitor's Office 
will be working with the Justice Department as they decide 
which elements of law to hold the responsible party liable for.
    Ms. Bordallo. Good. My second part of that question. Are 
present wildlife rehabilitation facilities adequate to address 
the volume of birds impacted by the spill, or are additional 
facilities needed?
    Ms. Lyder. The rehab centers are fairly nimble. The 
planning for the rehab centers was to stand up a few of them 
with the idea that there would be backup centers, so I think at 
this point the rehab centers are in a good position.
    Ms. Bordallo. Very good. Dr. Ragen, just for the record I 
would like to ask you a couple questions. You have testified 
that, at the appropriate time, the Commission likely will 
sponsor a review of the spill responses to learn as much as 
possible from it and use that information to help the 
regulatory agencies improve their ability to respond to such 
events in the future.
    When will this take place? When would be an appropriate 
time, and what will be the scope and the content of the 
Commission's review?
    Dr. Ragen. I think we would probably prefer to wait until 
this situation is under better control. Right now we are 
focusing on trying to provide as much support for NOAA and the 
other agencies and the work that they are doing.
    When things seem to come under control and while things are 
still fresh in our minds, I think that would be the appropriate 
time to sit down and say what went wrong, what worked well in 
your response, and how do we prevent that in the future. So I 
am anticipating and I am hoping that that might be sometime 
perhaps late summer, early fall.
    Ms. Bordallo. Good. OK. All right. And to your knowledge, 
has either NOAA or the Fish and Wildlife Service ever 
authorized the incidental take of a marine mammal during oil 
and gas activities in the Gulf of Mexico? And if not, can you 
please explain why?
    Dr. Ragen. To my knowledge, they have not. Virtually all of 
our oil and gas activities in the incidental take 
authorizations pertain to marine mammals in arctic waters, 
Alaskan waters and so on.
    I cannot explain to you why that does not happen in the 
Gulf, and that is something that I think needs to be rectified.
    Ms. Bordallo. All right. Well, we need these answers for 
the record. How does this process work different for the Gulf 
of Mexico than other regions--well, you just answered that I 
guess--such as Alaska where authorizations are secured prior to 
offshore drilling?
    Dr. Ragen. That is correct.
    Ms. Bordallo. Yes. All right. In the past year and a half, 
how many takes of endangered species and marine mammals have 
been reported from OCS activities in the Gulf?
    Dr. Ragen. I cannot give you an exact number. I can look 
that up, but the takes would include from seismic studies, from 
vessels and from support activities, et cetera, so I would 
guess that the takes would number in the hundreds or thousands.
    Ms. Bordallo. All right. And do NOAA and the Fish and 
Wildlife Service have access to this data or is it solely 
managed by MMS, and when will it be published if there is any 
data?
    Dr. Ragen. I believe that NOAA, in particular, and also the 
Fish and Wildlife Service should have access to the data 
because they are the ones that issue the incidental take or 
harassment authorizations.
    Ms. Bordallo. And last, how has it informed the Marine 
Mammal Protection Act incidental take rulemaking process?
    Dr. Ragen. I think our primary problem is that when we look 
at applications for incidental take authorization, there are 
areas there is considerable uncertainty about what the impact 
will be.
    We have tried to identify those areas and lay out 
strategies for reducing that uncertainty through research over 
time, but that is a painstaking and slow process, slower than 
frankly I think it should be, and so our direction right now is 
to try to keep drawing attention to these things to anticipate 
the kind of effects that we have described here today and 
figure out strategies for both monitoring and preventing them 
in the future.
    Ms. Bordallo. Well, certainly the Committee is interested 
and we will be following and monitoring this process.
    I would now like to recognize the Ranking Member, Mr. 
Cassidy, for any questions on the second round.
    Mr. Cassidy. Dr. Ragen, the Ixtoc blowout in Mexico 
released probably about six million barrels, give or take a 
million. Clearly we must have data on, I am told, the 
fisheries. Now, granted that was not marshland affected. That 
was open water, but your testimony and Dr. Lyder's testimony 
pertains more to open water.
    Those fisheries apparently recovered. Do we have data and 
can we use that data to predict the effects on the open water 
species, shrimp, et cetera, of this blowout, which so far has 
not achieved the volume of the Ixtoc?
    Dr. Ragen. I can't actually tell you the data that we have 
on the shrimp and fisheries in those areas. Most of the 
information that I would have access to would be pertaining to 
marine mammals.
    Mr. Cassidy. OK. In the marine mammals. Was there an effect 
from the Ixtoc on the marine mammals?
    Dr. Ragen. I do not believe that we have good information 
on the effect on marine mammals. One of the problems that we 
have with these things is that we expect that the effects occur 
at sea, many of the effects. They probably are not observed and 
so it is very hard to put any hard and fast numbers on how many 
animals might have been affected.
    Mr. Cassidy. Dr. Lyder, again the Ixtoc. What was that 
effect, which we are talking about the ecosystems? Presumably 
there was some analysis of the effects on the ecosystem in the 
Gulf from that blowout.
    Ms. Lyder. Well, my understanding is that there was a 
thought by the MMS and others involved in the U.S. industry 
that what occurred in the Ixtoc blowout could not occur in U.S. 
waters and on our OCS.
    Mr. Cassidy. No. I am just concerned, though, as it regards 
its effect upon plankton, shrimp, et cetera.
    Ms. Lyder. I would defer to NOAA on plankton and shrimp. I 
know that the oil eventually did wash up in Texas, and it had 
impacts on beaches, but in terms of what we focus on, the 
species we focus on, there is not a lot of similarity between 
the Ixtoc.
    Mr. Cassidy. Then let me go to you, sir.
    Mr. Westerholm. And I probably don't have a great answer 
for you but, as I recall, there were certain studies that were 
done on the beaches of Texas when the oil reached up there, but 
very limited studies on----
    Mr. Cassidy. No. But I am speaking about the oil plumes. 
Was there no work done on the oil plumes back then?
    Mr. Westerholm. Back then? No.
    Mr. Cassidy. OK. Now, Lake Barre had a----
    Mr. Westerholm. But you were looking at a different type of 
release from Ixtoc, so----
    Mr. Cassidy. I accept that.
    Mr. Westerholm. OK.
    Mr. Cassidy. Lake Barre had a big effect upon the lagoon in 
Louisiana. It is Terrebonne Parish. Secretary Barham, you can 
correct my geography, but I think Lake Barre had a huge 
pipeline contamination, oil into the bayous there. And I gather 
that those marshlands recovered reasonably well.
    Any comment on that vis-a-vis that experience and how it 
instructs us for this experience, either you, Mr. Westerholm, 
or you, Secretary Barham?
    Mr. Barham. I don't think there is a lot of comparison 
between that. I am not as familiar with that event, but of 
course I believe that would have been processed oil for one 
thing, and it was in a very enclosed environment, although 
terribly impactful for that.
    This is spread across a whole system, and you are talking 
about a whole food chain potentially endangered by the events 
offshore, so I don't think we will gain a lot of information 
specific to this event from comparing it to that one.
    Mr. Cassidy. Mr. Westerholm?
    Mr. Westerholm. Yes. I think that is a great analogy, and I 
think that each spill has its own unique capabilities. You 
know, one of the things that was mentioned before is this is 
such a biologically diverse area that it is often hit hard and 
one of our more sensitive areas, but because it also is one of 
the most thriving areas, the recovery rate oftentimes in this 
area is great.
    So I think there are a couple issues to worry about. One is 
marshland; if we lose the marsh grass, what impact that might 
have on the sedimentology and others. What about the habitat? 
What about the seasonal spawning in particular species? So 
there are a lot of issues that will come up because of this 
spill.
    Mr. Cassidy. But do we have data from Lake Barre to know 
how Lake Barre recovered?
    Mr. Westerholm. I don't know if we have data on that.
    Mr. Cassidy. OK. Next, let me ask one more thing. Now, 
clearly the marshlands are where we know that there is the 
potential havoc. Now asking NOAA, how are you allocating your 
resources vis-a-vis deepwater research versus marshland?
    Frankly, it seems like the marshland is what we know will 
be most impacted, whereas the deepwater is more theoretical. 
Can you give me a sense of the allocation of your resources one 
versus the other?
    Mr. Westerholm. I can tell you that, in the past, most all 
of it was in the marsh area and the impact of oil on marshes 
and the ability to clean it up. I think after this spill, some 
of the priorities will change to deepwater release of oil and 
what the impact----
    Mr. Cassidy. But currently in terms of your current 
research effort.
    Mr. Westerholm. Right now it is a sampling effort to 
collect as much information as possible.
    Mr. Cassidy. And that is deepwater and marshland?
    Mr. Westerholm. It is both.
    Mr. Cassidy. OK. And my last question, if I may, since I 
have the Secretary from Louisiana and the Federal officials. Is 
there any problem with the interface between the Federal 
Government and the state government since our waters only go 
out three miles, and clearly this is impacting state waters 
more so than other Gulf states?
    Mr. Barham. No. We will absolutely depend on cooperation 
from all our Federal partners and the other people associated 
with this event, and we will just overcome any problems that 
develop. We can't afford to have problems.
    Mr. Cassidy. OK. Thank you. I yield back.
    Ms. Bordallo. I thank the gentleman. And now I would like 
to recognize the gentlelady from Colorado.
    Ms. DeGette. Thank you very much, Madam Chairwoman. I just 
want to follow up a little bit on Mr. Cassidy's last line of 
questioning abut the marshlands, and I wanted to ask you, Mr. 
Barham, about that.
    Because as you heard me say with my previous questions, I 
was down there with the Energy and Commerce Committee, and we 
went out in boats and we saw the miles and miles of marshlands, 
and what we were told I think by some folks from your agency is 
that where the water is moving then that will have a natural 
ameliorative effect. The oil might come in, but it will go back 
out again.
    And what they are really worried about is when the oil gets 
into those marshes, and it doesn't move out. Not only does that 
have a bad effect on the grasses and the other vegetation, but 
also on the wide variety of fish and birds and mammals and 
others that use those marshlands for the breeding grounds.
    So my followup question to you is, what impact do you think 
that the oil is having on that marsh ecosystem, and do we have 
any sense of good methods to remove that oil from those vast 
miles and miles of marshlands?
    Mr. Barham. I will answer you the second part of your 
question first. No, we do not have a good method to remove 
them. That is why we believed from the start that these berms 
are so important to keep them from intruding into the marsh.
    If you went with me on a day-to-day basis out to those cane 
areas and the marsh area, what would strike you is how deathly 
silent it is.
    Ms. DeGette. Yes.
    Mr. Barham. If you went on a normal day, first the 
mosquitos would carry you away and the gnats and the flies and 
all the creatures that the birds are feeding on and the little 
fish are feeding on. It is deathly silent, and nothing would 
bite you.
    Ms. DeGette. Yes. Well, we did get a few bites, but not as 
many as we probably would on the other days.
    Mr. Barham. That is right. It is a whole system, and once 
that oil intrudes into that cane and into that marsh, you 
cannot get it out.
    Ms. DeGette. Let me ask you a question about those berms. 
Because I hear what you are saying about the berms, but I don't 
think, having observed it with my own eyes, that there would be 
any way we could build enough berms to protect all of that 
marshland. Maybe I am wrong, but it----
    Mr. Barham. Well, you can create berms that will protect 
the most critical parts or the most fragile parts.
    Ms. DeGette. But you have to do it really in a targeted 
way.
    Mr. Barham. We do, and we have a target plan. The berms 
that we have proposed, we believe, are very targeted and in 
good locations, in the prime locations to do that protection 
that we desperately need.
    Ms. DeGette. But you are still going to have vast damage in 
those other areas.
    Mr. Barham. We are. We already will have it because of the 
intrusion of the oil into those areas now, which we can't get 
out.
    Ms. DeGette. Secretary Lyder, I am wondering if you know, 
or if someone else on the panel knows, what is the holdup to 
construction of those berms that Mr. Barham is talking about 
that we have seen so much in the media?
    Ms. Lyder. Well, the state filed its application with the 
Corps of Engineers on May 11, and we met on May 12. All the 
Federal agencies met with the Corps to discuss it, and then the 
state came to Houma and met with the Fish and Wildlife Service 
and the U.S. Geological Survey on the 13th, and on the 14th 
they amended their proposal.
    On the 27th, the Corps of Engineers gave them a permit for 
six, about 45 miles worth of berm. Then there was a question as 
to how much of that would be an appropriate response expense 
for BP to pick up, and that was the Coast Guard's decision, not 
the Corps of Engineers and not any of ours.
    Initially the Coast Guard said just one part would be an 
appropriate response, and then after the Governor spoke with 
the President, the President asked Thad Allen if he would 
please reconsider, and he came back and said yes, the whole 45 
mile area is appropriate response.
    And my understanding is they have begun. The dredges are 
moving. I don't know that the berms are actually there. The 
state had asked for 128 miles of berm, and they have been given 
a permit for 45 miles of berm.
    Ms. DeGette. And what is the reason they haven't been given 
the rest of those?
    Ms. Lyder. Well, originally when the state came in they 
said it would take six to nine months to build the system of 
berm they were interested in, so I think there was some concern 
on the part of the Corps and the Coast Guard that it wouldn't 
be a timely response in terms of the oil involved.
    There are other issues that the Corps and the Coast Guard 
had that were not Interior Department issues. We were a little 
concerned about where the dredged sand would come from and its 
impact on the Barrier Islands out there, but within days that 
was resolved. We met with the state.
    As I say to everyone, Houma is open 24 hours a day and 
people are working 24 hours a day, so things actually can be 
done quickly if people get together and talk and try to work 
them out. At least at the Interior Department we work very 
closely with both the fisheries and wildlife people and 
Louisiana's coastal protection agency.
    Ms. DeGette. I am sure the Chair and the Ranking Member 
would join me in saying anything we can do to facilitate those 
conversations because if those berms are going to work for even 
some of those marshlands, then we should make that happen. It 
shouldn't be a matter of resources or miscommunication or 
something like that. If they are going to work, they should 
happen. This Committee, I am sure, will work with you to make 
those connections.
    Ms. Bordallo. I thank the gentlelady from Colorado. I would 
like to thank the witnesses on the first panel--you have been 
here all morning--for their testimony and for being here today 
and now call up the second panel of witnesses. Thank you very 
much.
    [Pause.]
    Ms. Bordallo. All right. Ladies and gentlemen, if the 
second panel would please be seated as soon as possible? We do 
have votes midafternoon, so we would like to get through the 
next two panels.
    The witnesses on the second panel, please be seated. Ms. 
Brenda Dardar Robichaux, Principal Chief, United Houma Nation; 
Mr. Aaron Viles, Campaign Director, Gulf Restoration Network; 
Dr. Michael Fry, Director for Conservation Advocacy, American 
Bird Conservancy; Dr. Carys Mitchelmore, Associate Professor, 
University of Maryland Center for Environmental Science; and 
our final witness on the second panel is Mr. Mike Voisin, CEO, 
Motivatit Seafoods.
    I would like to welcome our second panel of witnesses and 
again note that the red timing light on the table will indicate 
when your five minutes have passed, and your time is concluded. 
We would appreciate your cooperation in complying with these 
limits, but also be assured that your full written statement 
will be included in our record.
    Principal Chief Robichaux, thank you for being here today. 
You may begin.

 STATEMENT OF BRENDA DARDAR ROBICHAUX, PRINCIPAL CHIEF, UNITED 
             HOUMA NATION, GOLDEN MEADOW, LOUISIANA

    Ms. Robichaux. Good morning, Madam Chair.
    Ms. Bordallo. Would you get closer to the microphone, 
please?
    Ms. Robichaux. Good morning, Madam Chair and to you all. My 
name is Brenda Dardar Robichaux, and I am Principal Chief of 
the United Houma Nation. Thank you for giving us a voice in 
this process.
    We have several tribal citizens here today, Vice Principal 
Chief Michael Dardar; Incoming Principal Chief Thomas Dardar; 
my father, Whitney Dardar, a lifelong commercial fisherman; and 
my sons.
    The United Houma Nation is an indigenous nation of 
approximately 17,000 citizens who reside along coastal 
southeast Louisiana. We have existed in the bayous and rivers 
of Louisiana for centuries. The relationship between the Houma 
people are our land is fundamental to our existence as an 
Indian Nation.
    The medicines we use to prevent illness and heal our sick, 
the places our ancestors are laid to rest, the fish, shrimp, 
crabs and oysters our people harvest, our traditional stories 
and the language we speak are all tied to these lands 
inextricably. Without these lands, our culture and way of life 
that has been passed down generation to generation disappear.
    Since 2005, we have dealt with four major hurricanes and, 
through our own efforts, have made significant progress in 
recovering and getting our lives back. Today, the BP Deepwater 
Horizon disaster presents us with perhaps the greatest 
challenge in our history. For the Houma, this oil spill looms 
as a death threat to our culture as we know it.
    There is plenty of evidence of how these estuaries, bayous, 
plants and wildlife will be devastated. Not only will it change 
the environment we live in, but our land loss will be 
critically accelerated, dwarfing the impacts of Katrina. 
Providing our families with meals based on fresh seafood and 
game may no longer be an option, which means putting food on 
the table will be difficult for some of our people.
    But the seafood industry is also a major source of 
employment. During the shrimp season, my father says it is like 
Christmas every morning. I fear he may never have another 
Christmas. The tribe is also concerned about those making a 
living in related professions, such as net makers, tour guides, 
marinas and restaurant owners. None of them have been 
compensated adequately.
    We are concerned because many of the stories that we see in 
the media about BP cleaning up don't match what our own eyes 
have seen. Tribal members in surrounding communities have all 
reported there are many contaminated areas where there is no 
sign of cleanup work. Only a fraction of the workers and boats 
that are certified for the cleanup are being utilized.
    People working for cleanup aren't being properly advised on 
how they need to protect their long-term health from the 
poisons that they are handling. We are concerned that waste 
produced by the spill cleanup will find its way into disposal 
sites and our tribal area, such as the oil fill waste disposal 
site next to our Grand Bois community.
    Federal law defines any waste generated during the 
production of petroleum as nonhazardous, no matter how 
poisonous they actually are. Because of this absurd definition, 
these materials can be land farmed in community as nonhazardous 
all fill waste. We do not want these materials dumped in our 
communities again, and we would respectfully request that this 
law be changed to protect all U.S. citizens and all communities 
from this kind of waste.
    Most worrisome is the fact that we are now in hurricane 
season. A tropical storm or hurricane coming ashore can flood 
these communities with an oily-waste storm surge, similar to 
the Murphy Oil incident in St. Bernard Parish during Hurricane 
Katrina. These homes and properties were declared hazardous 
sites and are toxic and uninhabitable to this day.
    When a disaster hits, Federal resources are filtered to 
Federally recognized tribes. We have been recognized by the 
State of Louisiana, but have been stuck in the Federal 
acknowledgement process since 1979. As a result, we do not 
receive services from the BIA or any other agency that requires 
Federal recognition status.
    We would ask that we be included in the Federal dialogue 
about how this spill will affect tribal communities, whether we 
are recognized or not. Our tribe will also require independent 
sources to credibly collect data on air, water, and soil 
quality to provide the special outreach efforts our tribal 
citizens will need to respond effectively to changing 
conditions.
    The Houma are strong, independent and resilient people. We 
have watched hundreds of acres of wetlands wash away. We have 
seen freshwater bayous turn into saltwater. We have seen our 
traditional medicines disappear. We have seen our lands taken 
from us because our people were not taught to read and write. 
We have spent 30 years in the Federal acknowledgement process 
without a final determination.
    Through it all we have done what is necessary to survive, 
but this oil spill presents a major challenge to our existence 
as a tribe. I ask that you please support our efforts to bring 
resources to the United Houma Nation to preserve our way of 
life for current and future generations. Thank you.
    [The prepared statement of Ms. Robichaux follows:]

        Statement of Brenda Dardar Robichaux, Principal Chief, 
                          United Houma Nation

    Good morning Chairwoman Bordallo, Ranking Member Brown and members 
of the Subcommittee. My name is Brenda Dardar Robichaux and I am 
Principal Chief of the United Houma Nation of Southeastern Louisiana. 
Thank you for the opportunity to testify at today's hearing -``Our 
Natural Resources at Risk: The Short and Long Term Impacts of the 
Deepwater Horizon Oil Spill.'' We have several tribal citizens here 
today - Vice Principal Chief Michael Dardar, incoming Principal Chief 
Thomas Dardar and my father, Whitney Dardar a life-long commercial 
fisherman.
    The United Houma Nation is an indigenous nation of approximately 
17,000 citizens who currently reside along coastal, southeast 
Louisiana. The Houma, first encountered by LaSalle in 1682, have 
existed in the bayous and rivers of South central Louisiana long before 
Louisiana became a state and New Orleans became a French colony. Today, 
nearly 90% of our citizens reside in coastal Terrebonne, Lafourche, 
Jefferson, St. Mary, St. Bernard and Plaquemines Parishes. The majority 
live in communities which are at or below sea level.
    The relationship between the Houma People and these lands is 
fundamental to our existence as an Indian nation. The medicines we use 
to prevent illnesses and heal our sick, the places our ancestors are 
laid to rest, the fish, shrimp, crabs and oysters our people harvest, 
our traditional stories and the language we speak are all tied to these 
lands inextricably. Without these lands, our culture and way of life 
that has been passed down generation to generation will be gone.
    Tribal citizens have been living, hunting, fishing, shrimping, 
crabbing, trapping and harvesting oysters in the coastal marshes and 
wetlands of our communities for centuries. Our people follow the 
seasons. In the summer we catch shrimp, crabs and garfish. In the 
winter we harvest oysters and trap nutria, muskrat, and otters. This is 
how my father and countless other tribal citizens make their living. 
This lifestyle is now in jeopardy.
    Houma fishermen are intimately familiar with the lakes and bayous 
of our region. They know the stories of how these places got their 
names. They know how the tides flow and the winds blow. They can 
predict the weather without the help of technical gadgets.
    Not only are many tribal citizens both directly and indirectly 
dependent on the commercial fishing industry, but Houma citizens 
harvest palmetto in the coastal marshes for basket weaving, Spanish 
moss for traditional doll making and many herbs and plants for 
traditional medicinal remedies used by tribal traiteurs or traditional 
healers. All of these traditions are in danger of disappearing once the 
continuing flow of oil infiltrates the inner coastal marshes and 
wetlands of our communities. These plants are irreplaceable and many 
only grow in our rich marshes.
    The United Houma Nation is no stranger to dealing with adversity. 
In the early 1900's Houma children were not allowed into public schools 
because they were Indian. Christian missionaries came into our 
communities in the 1930's and established schools for Houma children. 
Those schools only went up to the seventh or eighth grade, the teachers 
were often unqualified and children were punished for speaking their 
language. It was not until the passage of the Civil Rights Act that the 
Houma children were allowed into public schools. The lack of 
educational opportunities resulted in many Houma People continuing the 
traditional ways of making a living off the land.
    Another obstacle for the Houma has been obtaining recognition from 
the federal government. We have been recognized by the State of 
Louisiana but have been mired in the Federal Acknowledgment Process 
since 1979, a year after the system for recognition was established.. 
In 1985, we filed our petition; we received a negative proposed finding 
in 1994. The proposed finding stated that we met four of the seven 
criteria for acknowledgment. Subsequently, we filed our rebuttal in 
1996 to demonstrate that we do meet the remaining three criteria. 
Nearly fifteen years after we submitted our rebuttal and over thirty 
years after we began the process, we still do not have a final 
determination. We have one of the largest petitions on file and are the 
largest tribe to go through the federal acknowledgment process. Despite 
our lack of federal recognition, the United Houma Nation continues to 
function as a government and provides services to tribal citizens.
    Located in coastal Louisiana, our communities face special 
challenges. We have long lived with hurricanes, and over the years, we 
have become efficient in preparing for and recovering from them. Within 
the last five years, we have dealt with four major hurricanes - Katrina 
and Rita in 2005 and Ike and Gustav in 2008 - and, though these storms 
presented incredible challenges, we have made significant progress in 
recovering and getting our lives back. The Tribe established a 
hurricane relief center where tribal citizens can receive cleaning 
supplies, food, clothing and other essential items. We coordinated 
hundreds of volunteers to help clean and rebuild homes. Through our own 
efforts, we have been able to get tribal citizens back on their feet 
and some back into their homes.
    While it takes time to recover from hurricanes, even after these 
huge storms, our people were able to resume their lives and our 
fishermen have gone back to work. Because most of the Houma communities 
exist outside of hurricane protection levees, they are at constant risk 
from normal tidal flooding and from tropical storm and hurricane 
surges. With each hurricane, some tribal members move outside the 
tribal communities to areas less prone to flooding. Many cannot afford 
the insurance to rebuild.
    Now, the BP Deepwater Horizon disaster presents us with perhaps the 
greatest challenge in our history as we are at risk of losing the heart 
of our culture - our homelands. It is without question that the oil 
spill will affect the estuaries within which the Houma tribal fishermen 
make their living. As the oil enters our coastal marshes the wetland 
vegetation will be killed. This prevents fish, shrimp, crabs and 
oysters from reproducing because these marshes are where these species 
spawn and receive protection from natural predators. In addition, these 
marshes are home to already diminishing wetland mammals such as mink, 
otter and muskrat.
    Once the vegetation is dead, mud plains poisoned with oil will 
become open water, thereby eliminating critical habitat. Not only will 
this spill change the environment we live in, but our land loss will be 
critically accelerated, dwarfing the impacts of Katrina and the other 
recent hurricanes. This spill will have far-reaching effects that will 
compromise the economic, environmental and mental health of all of 
southeast Louisiana. For the Houmas, it also looms as a death threat to 
our culture as we know it.
    Our tribal citizens are deeply concerned about the short and long 
term impacts of this oil spill. Growing up I never knew we were 
considered poor by government standards because we had a rich culture, 
were surrounded by abundant natural resources, and always had fresh 
food on the table. I grew up eating fish, shrimp, crabs, oysters, ducks 
and rabbits. Providing our families with meals based on fresh seafood 
and game may no longer be an option, which means putting food on the 
table will be difficult for some of our people.
    But seafood is more than just a major source of food for our tribal 
citizens. Working in the seafood industry is also a major source of 
employment. During shrimp season, my father says it is like Christmas 
every morning. I fear that he may not have another Christmas. While 
some tribal fishermen have received checks from BP, these do not 
replace what they have temporarily and maybe even permanently lost. The 
Tribe is also concerned about those making a living in related 
professions such as net makers, seafood distributors, restaurant owners 
and others. With a limited education through no fault of their own, 
many tribal citizens do not have options for alternative employment. 
How will they support themselves and their families once the checks 
stop.? The answer we do not know.
    We are concerned that waste produced by the spill clean up (used 
booms, pads, etc.) will find its way into disposal sites in our tribal 
areas, in particular our Grand Bois community. Grand Bois is located 
adjacent to an open pit oilfield waste disposal site in Lafourche 
parish. The 1980 Resource Conservation and Recovery Act (RCRA) defined 
any wastes that are generated during the exploration and production of 
petroleum, which will include any wastes generated in the clean up of 
this spill, as non-hazardous. Neither the crude oil nor any dispersants 
used in responding to this disaster are regulated as hazardous waste. 
Although these materials are hazardous by nature, they can be 
``landfarmed'' in Grand Bois and other communities as ``Non-Hazardous 
Oilfield Waste'' or NOW. We do not want these materials disposed of in 
our communities, and we would respectfully request that this law be 
changed to protect all US citizens from exposure to these harmful 
chemicals. The citizens of Grand Bois as well as the thousands of 
citizens who live near oilfield waste disposal sites can testify to the 
toxic effects of these supposedly non-hazardous materials.
    Most worrisome is the fact that we are now in hurricane season. The 
National Oceanic and Atmospheric Administration (NOAA) predicts between 
14 and 23 named storms this year and between 3 and 7 major hurricanes. 
The entire United Houma Nation along the Louisiana coast is completely 
vulnerable to widespread inundation by oil-contaminated waters. Some of 
our communities have been totally excluded in parish and Army Corps of 
Engineers levee protection systems, and many communities have very 
little and/or compromised protection.
    A tropical storm or hurricane coming ashore west of Louisiana 
before the oil flow is capped and existing surface and subsurface oil 
cleaned up will flood these communities with an oily waste storm surge, 
similar to the Murphy Oil incident in St. Bernard Parish during 
Hurricane Katrina. Residents' homesteads had to be purchased by Murphy 
Oil. These properties and homes are uninhabitable to this day. A 
minimal tropical storm or even a simple strong summer storm during high 
tide will be disastrous to our communities. Our citizens are now very 
concerned that if they are required to evacuate, they may never be able 
to return to their homes. Such a very possible scenario will equate to 
thousands of Houmas being permanently displaced.
    We have a special concern for the effects of this disaster on our 
youth. In early May, the tribe held a tribal youth leadership 
conference. Participants were asked about their concerns for the future 
and nearly all of them mentioned the oil spill. They are concerned that 
they will not be able to carry on the traditions of our people.
    As a result of our lack of federal acknowledgment, we do not 
receive services from the Bureau of Indian Affairs or any other agency 
that require federal recognition status. When a disaster hits, federal 
resources are filtered to federally recognized tribes. Although 
sympathetic to our needs, their hands are tied in providing financial 
assistance to the United Houma Nation that suffers the greatest impacts 
of these disasters. A final determination on our petition was due over 
10 years ago. We have dealt with countless hurricanes during that time 
and now this massive oil spill. We most certainly could have used 
additional resources that would be available to federally recognized 
tribes and need them now more than ever. In this case of the oil spill, 
we have been contacted by the U.S. Department of Interior, the U.S. 
Department of Commerce, the U.S. Environmental Protection Agency and 
the U.S. Department of Health and Human Services. We plan to continue 
discussions with these departments and are hopeful that sufficient 
resources will be made available to the United Houma Nation.
    Because of the enormous scope of this disaster, our tribal 
leadership must make tremendous efforts to ensure that our members 
receive timely and accurate information about its ongoing environmental 
and health impacts. Due to limited educational opportunities in the 
past, many of our tribal elders lack the skills needed to read and 
understand written notices or effectively use the Internet to gather 
information. Many of our communities are isolated, and there is limited 
if any monitoring of environmental conditions in them. Our tribe will 
require resources to collect data on air, water, and soil quality and 
to provide the special outreach efforts our tribal citizens will need 
to respond effectively to changing conditions.
    The Houma are a strong, very independent, and resilient people. We 
have seen small canals turn into large bayous; we have watched hundreds 
of acres of wetlands wash away; we have seen freshwater bayous turn 
into saltwater; we have seen our traditional medicines disappear; we 
have seen tribal members move out of our communities due to constant 
flooding; we have seen our lands taken from us because our people were 
not taught to read and write and we have spent 30 years in the federal 
acknowledgment process without a final determination. Throughout it 
all, we have done what was necessary to survive.
    This oil spill presents a major challenge to our existence as a 
tribe. Therefore, I ask that you please support our efforts to bring 
resources to the United Houma Nation to preserve our way of life for 
current and future generations.
                                 ______
                                 

 [NOTE: Ms. Robichaux's responses to questions were not received by the 
        time this hearing went to print.]

    Ms. Bordallo. I thank you very much, Principal Chief 
Robichaux, for your very thoughtful input on this, and we will 
have some questions for you later.
    Mr. Viles, I look forward to your testimony, and you may 
proceed.

         STATEMENT OF AARON VILES, CAMPAIGN DIRECTOR, 
        GULF RESTORATION NETWORK, NEW ORLEANS, LOUISIANA

    Mr. Viles. Chairwoman Bordallo, Subcommittee Members, thank 
you for the opportunity to testify in front of you today. My 
name is Aaron Viles. I am the Campaign Director with the Gulf 
Restoration Network. We are a 15-year-old nonprofit 
environmental advocacy organization, with an exclusive focus on 
the health of the Gulf of Mexico. We have staff in New Orleans, 
in Texas, in Florida, and we have board members representing 
all five Gulf states.
    So as you might anticipate, this crisis has been a game 
changer for us and has absolutely forced us to drop what we 
were doing to respond to this, which a lot of people are 
calling it a spill. I don't really think that captures this 
issue adequately. This is a deepwater drilling disaster that 
has opened up a fissure in the earth that is spewing forth 
incredible amounts of oil, unprecedented amounts of oil.
    And I think we should be mindful of how we reference it 
because we are almost minimizing it when we call it a spill or 
a leak. A spill is what happens when my daughter knocks over 
her glass of milk. This is far more significant. We have seen 
multiple Exxon Valdez's worth of oil emptied into the Gulf of 
Mexico, and we know the environmental impacts will be 
significant and long lasting. We will be responding to this for 
years, if not decades.
    I have issued robust comments for my testimony. Please look 
at those. If you want the facts and the figures, they are 
there. What I would like to tell you is more of what we are 
seeing on the ground with our efforts to monitor this disaster.
    We were one of the first nonprofits in the air to take a 
look at the source of this, to go 45 miles off the bird's foot 
delta in a private plane and look at it. It was Sunday, April 
25, and it was mind blowing to see how large it had already 
grown.
    I think at that point--I am not sure what the timeline is, 
but I think BP might have been saying that it actually wasn't 
issuing any oil, but clearly that was not accurate, which is 
what we have seen from BP since day one is inaccurate 
statements being made about the impacts. They have minimized. 
They have denied. They have delayed their response, which I 
think is inexcusable and quite possibly criminal.
    I know that we have been restricted in what we are able to 
do to monitor and respond to this disaster. The flight that we 
went on took quite a lot of work to try to get out there. My 
pilot, my volunteer pilot with South Wings, another nonprofit 
organization, spent his entire Saturday on the phone trying to 
get clearance to fly into the area.
    There is a temporary--``temporary''--flight restriction. 
You know, 42 days in we still have that flight restriction, 
which does not let pilots drop below 3,000 feet in a vast and 
growing expanse of the Gulf of Mexico. That I think is 
unnecessary. It is an overreach.
    When he spent his Saturday to try to get into that flight 
restricted area, first he talked to the FAA, who quickly put 
him in touch with duty agents of the Coast Guard. He bounced 
between those folks for quite awhile, until late Saturday night 
he got a phone call from somebody at the Deepwater Horizon 
Response Center, actually an employee of BP, telling him that 
we could not get a discrete code to fly into that area. We did 
it anyway.
    We were lucky because the conditions were clear, and we got 
images that showed what BP was doing at the source, which was 
not consistent with what they were telling the public. We saw 
three boats out there. This was Sunday, the first Sunday of 
this disaster. They had talked about dozens of boats being 
mobilized and thousands and workers, and we saw three boats. 
One of them was a skimmer that was not in fact skimming. 
Apparently the conditions were too rough. It was a very 
moderate day for the Gulf of Mexico with probably under three 
foot seas.
    Since that, we have been continuously underwhelmed by the 
response. I know that we had a great panel, the first panel. We 
had two veteran representatives talking about the expansive 
efforts. I will say that what we continue to see, although it 
is more significant than it was, is still not up to the 
challenge.
    We have called for a really Federalized response to this 
effort and not using BP and not letting them control the 
efforts or direct the efforts with a thumbs up from the Federal 
Government, but in fact bringing in the military to make this 
happen.
    Four and a half years ago, almost five years ago, we went 
through a horrific scenario that I didn't think I would ever 
seen anything close to again. Unfortunately, what we are seeing 
right now is likely ultimately going to be worse when it comes 
to the impacts on our ecosystem. And unfortunately we had a sea 
of Federal response at that time, and I would hope that a 
general honorary type could be found to marshal the Federal 
resources to combat this crisis.
    So as I wrap up, I would like to urge this Subcommittee to 
help the region. Specifically, we are very interested in seeing 
the appointment and creation of regional citizen advisory 
councils. There is an opportunity to create them under the OPA, 
and I think they have been very effective in Alaska. They need 
to be created in the Gulf of Mexico, and we need your help to 
make that happen.
    Also, we need to make sure this does not happen again. As 
we clean up this ecosystem that is incredibly threatened right 
now and vulnerable because, in part, of a 50-year legacy of oil 
and gas exploration and abuse in Louisiana's coastal wetlands, 
we need to make sure this ecosystem is restored and we need 
Federal resources to do that.
    We know that this Administration has been very engaged. 
They actually created a road map for restoration that we 
thought showed great promise, was very ambitious. It of course 
has been a little bit deprioritized right now understandably, 
but as we move forward with the NRDA process, we need to look 
at that restoration road map as a way to actually restore this 
ecosystem.
    And then finally I think what we need to see is a far more 
aggressive response as to getting our transportation sector off 
of oil so this doesn't have to happen again. We have heard a 
lot of people defending the oil industry. We have heard a lot 
of pushback against, in my mind, a sensible six-month 
moratorium to assess what happened and make sure it doesn't 
happen again, but clearly the best way to make sure this 
doesn't happen again is to keep us from having to get into the 
deep and ultra-deep waters, by reducing our dependence on oil.
    So I would like to just wrap up by saying thank you again 
for the opportunity to come here and share our views with you, 
and I look forward to any questions.
    [The prepared statement of Mr. Viles follows:]

 Statement of Aaron Viles, Campaign Director, Gulf Restoration Network

    The Gulf Restoration Network is a fifteen year old environmental 
advocacy organization exclusively focused on the health of the Gulf of 
Mexico. Our mission is to unite and empower people to protect and 
restore the natural resources of the Gulf for future generations. Our 
primary efforts have focused on ensuring healthy waters, protecting and 
restoring coastal wetlands, and defending marine fisheries and 
ecosystems. We have staff in Texas, Florida and in our home office of 
New Orleans, with board members representing all five Gulf states.
    Since April 22, 2010 when the Deepwater Horizon sank into the Gulf, 
we have re-assigned staff and organizational resources and sought to 
independently monitor and respond to this growing, slow-motion, 
environmental catastrophe, which is likely to be judged as the worst 
our nation has experienced.
    We have monitored BP's deepwater drilling disaster from the water 
and the air, with an average of two flights and one boat trip per week. 
Our first flight over the surface of the disaster occurred on Sunday, 
April 25th, and we were shocked. Despite claims made by BP at the time, 
that dozens of boats had been mobilized, we saw three boats on site, 
neither of which were skimmers. Three boats. Just three days after the 
rig sank, an enormous amount of sheen and emulsified oil had already 
accumulated at the surface of the disaster.
    An amount of oil equivalent to multiple Exxon Valdez tankers has 
flowed into the Gulf of Mexico, and clean up and containment efforts 
have been horribly ineffective. Despite a regime of skimming, booming, 
and burning, only a small percentage of BP's crude has been physically 
removed from the Gulf so far. In addition to the insult of the oil, is 
the exceptionally risky science experiment being conducted with the 
dispersants. An unprecedented amount, currently over 1 million gallons 
of dispersant has been applied both to the surface, and injected 
undersea. The long-term impacts of the dispersants to the benthic 
community and up the food chain is unknown.
    As reported by NOAA and the U.S. Fish and Wildlife Service, the 
numbers of dead and stranded wildlife are beginning to tell the tale of 
the magnitude of this disaster. As of June 8th, 315 sea turtles have 
been collected in BP's drilling disaster impact area, 265 were dead, 
and 50 were collected alive, most at sea and visibly oiled. Of the five 
species of sea turtles that live in the Gulf, 3 are classified as 
endangered, and 2 are threatened. The most endangered seaturtle, Kemp's 
ridley seems to be hit the hardest, as juveniles of this species have 
been the most dominant species found. If beaches are oiled at the time 
of turtle nesting, it is likely that emergent hatchling mortality will 
increase, both due to the impacts of the oil on the turtles, as well as 
contact associated with the process of physically removing oil. August 
is the important nesting time for the endangered loggerhead turtles 
which are already experiencing a reduction in observed nests in the 
Alabama/Florida panhandle area at risk of BP's crude.
    So far, 1007 birds have been collected, 594 of which were dead, 413 
of which were alive and oiled. The images of oiled brown pelicans seen 
by the world, are haunting, and troubling, as the Louisiana state bird 
was only removed from the endangered species list just last November. 
This is the time of the year that pelicans nest. Much nesting occurs on 
barrier islands, several of which are currently surrounded by oil. 
Sadly, even if the birds can maintain their nests until fledglings 
hatch, it is likely this spill will have significant impacts on those 
fledglings. First flight for the brown pelican doesn't happen for 75 
days, a time during which the blind and featherless hatchling is 
entirely dependent upon their parents, as both the mother and father 
play a role in caring for the hatchlings. Plunge feeders which 
apparently are unable to differentiate between oiled and non-oiled 
waters, the brown pelican is highly susceptible to oiling, and studies 
have shown that even cleaned and rehabilitated birds do not return to 
optimal health.
    Two stranded dolphins have been collected, and 30 dead dolphins 
have been found. Marine mammals are susceptible to the oil and 
dispersants through ingestion or inhalation. As marine mammals surface 
to breathe, the highly volatile nature of this oil can have significant 
impacts on these animals, including respiratory inflammation, pneumonia 
and death. Further, the inhaled vapors can confuse the animals causing 
them to become stranded.
    The Mississippi Canyon area is the primary feeding area of the Gulf 
of Mexico sperm whale sub-population, currently estimated at 1665 
individuals. Sperm whales are endangered and the subject of a recovery 
plan. These whales spend their time in the area year-round. Sperm 
whales dive even deeper than the 5,000 feet depth of the well-head, and 
spend \3/4\ of their time hunting. When they surface, they often sit in 
a vertical, rest dive, as they recover their energy. In this state, 
they have been known to be hit by boats, suggesting that in this state 
the whales have decreased acuity, a situation which may lead them to be 
further exposed to and affected by oil pollution. Impacts to sperm 
whales can come from ingestion of oil, respiratory distress from 
hydrocarbon vapors, contaminated food sources, and displacement from 
primary feeding areas. Current research suggests that if human-caused 
mortality exceeds 3 whales annually, then recovery of the Gulf sperm 
whale pod will be negatively impacted. The total impact of the oil on 
sperm whales may be difficult to determine, as sperm whale carcasses 
are unlikely to be found due to their off-shore habitat.
    Other offshore species are threatened as well. The globe trotting 
Western Atlantic bluefin tuna is an amazing fish, larger than Shaquile 
O'Neal and can swim faster than a greyhound can run. But their 
populations have been cut by 80% since 1970 due to overfishing, and 
they only spawn in the Gulf of Mexico. April and May are the peak 
spawning time for this species, and researchers have found significant 
amounts of larvae in what is now BP's impact area. This is troubling as 
fish eggs and larvae are highly sensitive to oil and dispersants. As a 
result, this year's age-class of bluefin tuna, as well as many of the 
42 federally managed species in the Gulf of Mexico may suffer 
significant decreases to population size, which will in turn effect the 
commercial and recreational fisheries of the Gulf. For example, we may 
see impacts to commercially and recreationally important species that 
are already overfished, such as red snapper, greater amberjack, gag 
grouper, and gray triggerfish.
    Dispersants, like BP's preferred product, Corexit 9500/9527, are a 
mixture of solvents, surfactants and other secret ingredients that are 
designed to make oil more soluble in water. Most of what is known about 
the toxicity of dispersants and dispersed oil is based on acute 
toxicity tests. The scientific literature suggests that acute (short-
term) toxicity tests with death as the primary endpoint may not 
adequately assess the long-term impacts of chemically-dispersed oil. 
Long-term studies are needed to adequately determine delayed effects 
due to metabolism of chemically-dispersed oil, bioaccumulation, or 
photo-enhanced toxicity. The scientific literature is inconclusive on 
the impact of dispersants to the marine environment. One long-term 
study did show that dispersants reduced the persistence of oil in 
subtidal and intertidal sediments compared to untreated oil. However, 
in toxicity studies, it has been shown that Corexit 9500A combined with 
fuel oil #2 is more lethal than either fuel oil #2 or the dispersant 
alone. Additionally, when the chemically-dispersed oil is exposed to 
sunlight it undergoes photomodification, transforming it into a more 
toxic chemical. Chemically dispersed oil is significantly more toxic 
than oil alone when exposed to sunlight.
    Photosensitization could be another long-term problem. 
Photosensitization can occur when polycyclic aromatic hydrocrabons 
bioaccumulate in the tissues of aquatic organisms and form free-
radicals when these organisms are exposed to sunlight. If, as feared, 
Gulf species accumulate toxic dispersed oil in their tissue, then 
exposure to the sun could increase the toxicity For example, Corals 
would be at risk for photosensitization since they are known to 
bioaccumulate spilled oil quickly and are not adept at filtering the 
toxins out.
    The general consensus of the scientific community is that the use 
of dispersants requires a trade-off. The choice to use dispersants 
means accepting 1) greater concentrations of chemically-dispersed oil 
in the water column, 2) a potential reduction in persistent stranded 
oil, and 3) increased unknowns in terms of long-term toxicity on 
sediments and marine life. So far, BP has applied over 1 million 
gallons of dispersant to the surface and subsea in response to their 
drilling disaster. The initial decision to use dispersants was based on 
a stated desire by the company and the federal agencies to keep the oil 
out of sensitive marsh areas at the expense of deep water marine life 
in the hope that marine bacteria would metabolize the oil. However, the 
current situation makes clear that the application of dispersants are 
not preventing oil from reaching shore, and that no amount of 
dispersants will be sufficient to prevent landfall in light of the 
magnitude of the amount of BP's oil that continues to flow into the 
Gulf. A growing concern is that the bacteria that eat oil also 
metabolize oxygen in the process. This has the potential to create an 
enormous area in the Gulf with depleted dissolved oxygen, which in turn 
may result in fish kills and other environmental damage. In short, BP's 
continued application of dispersants is tantamount to the largest 
chemical experiment ever attempted in the Gulf of Mexico or elsewhere 
and the magnitude of the negative impacts of this experiment on the 
marine resources of the Gulf may not be known for decades.
    As experienced on our first flyover, and seen on every flight and 
boat trip taken since that first week of the disaster, the efforts by 
BP to contain and clean up their oil are underwhelming and insufficient 
to the enormous challenge they have created for themselves. Boom is 
inadequately deployed to protect coastal resources, and insufficient 
for the task, in part due to dispersants moving the oil below the 
surface of the Gulf. Whether by choice or by neglect, not enough 
physical removal of the oil is occurring, and the oil is making it into 
Louisiana's marsh.
    One take-away lesson of this disaster is that the Gulf coast is 
environmentally rich, yet also an exceptionally fragile ecosystem. As 
we hold BP accountable we must ensure that there is sufficient funding 
to ensure that a thorough assessment of the damages, both short and 
long-term, to this ecosystem are fully documented and that, where 
possible, restoration of those resources be required. We have a 
responsibility to ensure protection and restoration of the marine 
resources of the Gulf states.
    We also cannot forget the coastal resources that are being 
impacted. For example, the wetlands of the Mississippi River Delta, now 
threatened by BP's oil, make up 41 percent of the nation's total 
coastal wetlands. As an economic resource they are invaluable, 
providing support to 40 percent of the national oil refining capacity, 
28 percent of the national fishing harvest, the largest concentration 
of migrating waterfowl in the United States, and a variety of other 
wildlife. Coastal Louisiana also boasts productive agriculture and 
tourism industries, including a now-limited and hamstrung multi-billion 
dollar commercial and recreational fishing industry and support 
services. In addition to the many economic benefits wetlands provide, 
the value of the storm protection they have historically offered for 
the residents of the Mississippi River Delta is a priceless commodity.
    Louisiana's coastal wetlands were already in trouble before BP's 
drilling disaster, with 25 square miles of those wetlands disappearing 
each year. The oil now entering those wetlands will only increase 
coastal wetlands loss. Louisiana officials estimate that the cost to 
restore the state's coastal wetlands is at least $50 billion and will 
take over three decades to complete. Coastal scientists are in 
agreement that wetland loss is an overwhelmingly complex issue and 
includes a myriad of direct and indirect sources. Two of the primary 
forces at work in Louisiana's coastal zone - oil development and 
navigation--have clearly benefitted the nation, and as such, argue for 
a national commitment to the region's recovery.
    Although the most commonly cited cause of Louisiana's wetland loss 
is the blockage of sediment input from the Mississippi River, oil and 
gas-related activities are the second most significant cause of this 
loss. Studies have empirically demonstrated that the direct and 
indirect effects of oil and gas exploration, recovery, and development 
are together responsible for 40 to 60 percent of documented wetland 
loss. And, even Shell Oil's own scientists predict that if nothing is 
done to restore and protect coastal wetlands, Louisiana could lose 
another 500 square miles over the next 50 years.
    The spider-web of canals, which support the 500-plus oil and gas 
drilling sites throughout the coastal zone, have led to a significantly 
increased rate of land loss due to the hydrologic isolation of the 
local marsh from neighboring water bodies caused by the spill banks 
surrounding each waterway. Today, over 10,000 miles of canals dredged 
by the oil and gas industry remain open, forging a canal-spill bank 
network that represents seven percent of the current total wetland 
area. Despite developments and improvements in the drilling process, 
historic practices such as the abandonment of oil and gas canals, has 
prevented the natural re-growth of the surrounding wetlands.
    In hindsight, it is no surprise that 80 percent of national wetland 
losses--the most dramatic coastal wetland losses in the US--are in the 
states of the Gulf Coast. Since 1930, Louisiana has lost about one 
million acres of coastal wetlands.
    There is still hope for Louisiana. Projects implemented locally and 
regionally have demonstrated that wetland environments are incredibly 
regenerative. As dead-end canals are filled in and spoil banks are 
demolished, vegetative re-growth flourishes and subsidence reversal 
shows promise. It is also clear that reintroduction of Mississippi 
River fresh water and sediment through large-scale river diversions 
will play a role, in addition to pipeline sediment delivery of dredged 
spoil.
    In our efforts to ensure that BP addresses the environmental 
consequences of its actions, we must ensure that Louisiana's wetlands 
are restored. State and federal agencies should focus restoration 
funding received from BP on healing the old scars of existing canals 
and spoil banks at least as much as with the steady-handed and clear-
minded distribution of future dredging permits.
    As state and federal trustees move forward with a Natural Resource 
Damage Assessment, and ultimately use the NRDA to hold BP to account 
for this crisis, GRN urges the trustees to utilize existing yet under 
resourced coastal restoration efforts and initiatives as the vehicles 
for the natural resource restoration that BP must pay for.
    In summation, the Gulf Restoration Network is highly concerned that 
BP's deep water drilling disaster will have significant, long-term 
impacts to the marine ecosystem of the Gulf of Mexico. Sea turtles, 
seabirds, marine mammals and coastal habitats are all being affected 
now, and will continue to experience harm as BP's oil and dispersant 
mix pollutes the Gulf. We are calling for an end to the use of 
dispersants unless and until the EPA and independent scientists can 
show that the risk is outweighed by the rewards. We are calling on a 
full federalization of the cleanup efforts, leaving BP to bring their 
expertise to bear one mile below the seafloor, but calling in the Navy 
to bring the full resources and organization of the U.S. military to 
the war against BP's crude. BP must ensure the natural resources of the 
Gulf harmed by their oil are restored, or if impossible, that their 
investment in the resources of the Gulf match the destruction they have 
caused. In addition, we must ensure our coastal communities, which have 
not recovered from the hurricane seasons of 2005 and 2008 are defended 
and given the resources necessary to ensure their future.
    We are calling for the creation of a Gulf of Mexico regional 
citizen's advisory council, consisting of commercial and recreational 
fishing interests, tourism, conservation and local government 
representatives spanning all five Gulf states. The advisory council 
should be created in order to provide an effective counterweight to the 
energy industry in the Gulf of Mexico, which has for far too long, 
allowed unchecked exploration and development in the sensitive habitats 
of the North Central Gulf of Mexico. A well-resourced, staffed and 
deployed advisory council should be created while we seek answers as to 
the causes and consequences of BP's deepwater drilling disaster, and 
should be funded by those who profit off the exploitation of our Gulf.
    Ultimately, Congress must make the changes necessary that a 
disaster such as this never happens again, either in the Gulf of 
Mexico, or any U.S. coast. Regulations must be effective and enforced, 
deep water drilling must develop a safety net able to prevent this 
scenario, and it is time to get serious about moving our transportation 
sector away from oil. If these lessons are not learned, and our leaders 
do not sound the call for a clean future for the Gulf and all our 
coasts, than this tragedy will have been in vain.
    Thank you for the opportunity to share our views.
                                 ______
                                 

 [NOTE: Mr. Viles' responses to questions were not received by the time 
        this hearing went to print.]

    Ms. Bordallo. Thank you very much, Mr. Viles, for your 
valuable input here for the Committee.
    And welcome back to the Subcommittee, Dr. Fry, and please 
begin your testimony.

  STATEMENT OF MICHAEL FRY, PH.D., DIRECTOR FOR CONSERVATION 
     ADVOCACY, AMERICAN BIRD CONSERVANCY, WASHINGTON, D.C.

    Dr. Fry. Thank you for inviting me to testify. My name is 
Dr. Michael Fry. I am Director of Conservation Advocacy at 
American Bird Conservancy. I work on issues of pesticides, oil 
spill and other toxics.
    I also serve as chair of the Minerals Management Service 
Scientific Advisory Committee for Environmental Studies 
Program. I served on this committee from 1988 to 1996 and as 
chair for two years and was reappointed to the committee in 
2006. The Scientific Committee reviews the Environmental 
Studies Program and makes recommendations on studies and 
program direction to the Secretary of the Interior.
    I am an avian toxicologist with expertise on the effects of 
oil spills and dispersants on seabirds. I have described the 
effects of oil on birds in my written testimony.
    There are many parallels between the Exxon Valdez spill and 
the Deepwater Horizon spill. The Exxon spill was a catastrophic 
event that occurred over a period of only a few days, but the 
oil spread across southern Alaska for months. More than 1,300 
miles of shoreline were oiled and, even after cleaning, it took 
years for the habitats to recover. Some sensitive habitats 
still have oil.
    The oil probably killed hundreds of thousands of birds, 
although only 35,000 birds were recovered. Many bald eagles 
were oiled and killed, but the population recovered quickly, 
while other species still have not fully recovered 21 years 
after the spill. I expect the Deepwater Horizon spill will have 
equally far reaching and long-term effects, and the wetlands 
and mangroves will not recover for decades.
    The persistent oil in wetlands will have long-term negative 
effects on nesting seabirds. This year it will be impossible to 
prevent nesting birds from trying to find food outside of 
boomed areas. There will be near total breeding failure in 
oiled areas this year.
    A major difference between the Exxon Valdez spill and the 
Deepwater Horizon is the continuing release of huge quantities 
of oil into the ecosystem. The explosive discharges of oil at 
depth result in naturally dispersed oil under the surface, as 
well as floating oil on the surface. All of this oil will 
continue with movements and will likely oil more than a 
thousand miles of coastline during the coming storm season.
    In addition to birds, endangered sperm whales in the Gulf 
of Mexico are at high risk of death, just as killer whales were 
killed in the Exxon Valdez spill. Sperm whales are territorial 
and live in the oiled areas. They have been observed surfacing 
in oil slicks, and they will inhale the oil, suffocate and die. 
These animals need special attention.
    I need now to change subjects and discuss the Minerals 
Management Service Environmental Studies Program that my 
Federal advisory committee is charged with reviewing and 
evaluating. This program began in the 1970s with a good budget 
to develop baseline data on the sea bottom, seabirds, marine 
mammals, fish and their habitats. I was an expert for the U.S. 
after the Exxon Valdez oil spill.
    Without detailed studies funded by the MMS during their 
program, identification of injury would not have been possible. 
If I could show that first graph? Thank you. Today, however, 
the budget of the Environmental Studies Program at MMS is about 
one-third of the $55 million figure that it was in 1975, and if 
corrected for inflation it is now about 10 percent of what it 
was in 1975.
    This graph shows only a token increase in studies 
immediately after the Exxon Valdez, the little blip there 
halfway down the graph, but then a substantial cut almost 
immediately after that. It is not appropriate for Congress to 
continually cut the budgets of mission-oriented studies and 
expect that there will be no future consequences.
    This is a time of significant expansion in the mandated 
Minerals Management Service to evaluate new areas off the 
Atlantic coast, Florida, the Pacific Northwest, as well as 
expanding existing programs in southern California and Alaska.
    It is the opinion of the Advisory Committee that the 
current MMS program is severely underfunded, and that the 
Scientific Committee in 2008 recommended to the Secretary of 
the Interior that the Environmental Studies budget be at least 
doubled. A fivefold increase would bring it back to earlier 
levels.
    We repeated this recommendation in 2009, and I urge the 
Subcommittee and your congressional colleagues to substantially 
increase the budget for these studies. The U.S. collects $23 
billion annually in royalties and bonus bids from the MMS 
leases. None of these dollars go back into the MMS program.
    The consequences of inadequate congressional appropriations 
have now come home to roost with the Deepwater Horizon 
disaster, which was partly a result of extending leasing beyond 
the understanding of the risks. MMS critically needs augmented 
funding to catch up to the demands of the domestic oil 
production.
    In 2009, they made a plea--if we could show the second 
picture--for the studies in the North Aleutian Basin, also 
known as Bristol Bay, Alaska, because of the highly productive 
crab and red salmon fisheries and extremely large number of 
migratory birds and critically endangered Pacific right whales. 
This picture shows a small portion of the birds and a whale 
surfacing in the middle. You can see it is an incredibly 
productive area and really at risk from the oil spills.
    I personally recommend that no leasing be conducted in 
Bristol Bay or the Arctic Ocean until adequate studies are 
funded to understand the risks in these highly sensitive 
habitats. The risks of floating ice in the Arctic, as are shown 
by iceberg scars on the ocean floor, point to the dangers of 
icebergs and huge sheets of ice damaging oil facilities with 
catastrophic consequences.
    If spills cannot be prevented in these critical habitats, 
no leasing should go forward. It will be impossible to clean up 
oil under ice cover. It is irresponsible to continue leasing 
and exploration in icy waters without developing and testing 
the safety and response systems that will be needed when the 
inevitable Arctic Ocean spill happens.
    It has been announced that the MMS will be split into three 
separate bureaus to separate royalty collection from leasing 
and regulatory parts of the agency. I strongly believe that the 
mission targeted Studies Program remain within the Leasing 
Branch so that the mission targeted studies can best be 
designed in support of future leasing. Without that remaining 
there, if the Studies Program is changed to another agency it 
will lose that mission target orientation.
    I thank the Committee for letting me present my views and 
the views of the Federal Advisory Committee. I will be glad to 
respond to questions.
    [The prepared statement of Dr. Fry follows:]

            Statement of Donald Michael Fry, PhD, Director, 
            Conservation Advocacy, American Bird Conservancy

    Chairman Bordallo, Ranking Member Brown, and distinguished members 
of the Insular Affairs, Oceans and Wildlife Subcommittee, I would like 
to thank you for inviting me to testify on behalf of the American Bird 
Conservancy (ABC) and the Federal Advisory Committee for Minerals 
Management Service Outer Continental Shelf Environmental Studies 
Program.
    My name is Dr. Michael Fry, and I am the Director the Conservation 
Advocacy Program at American Bird Conservancy. In addition to being 
responsible for interpreting the science and federal policy issues 
concerning pesticides and other toxics, my job includes a issues 
related to the effects of wind projects on habitat impacts and 
mortality to birds.
    My qualifications include a PhD in Animal Physiology from the 
University of California, Davis, and 35 years experience in avian 
ecology and toxicology at the University of California and at American 
Bird Conservancy. I serve as Chair of the Minerals Management Service, 
Outer Continental Shelf Environmental Studies Program, Science Advisory 
Committee.
    American Bird Conservancy (ABC) is a 501(c)3 not-for-profit 
organization, whose mission is to conserve wild birds and their 
habitats throughout the Americas. It is the only U.S.-based, group 
dedicated solely to overcoming the greatest threats facing birds in the 
Western Hemisphere. In brief, ABC has been an active participant in 
national symposia on seabirds and has an active program for 
conservation of seabirds throughout the Americas and Pacific.
    My second role today is that of Chairman of the Federal Advisory 
Scientific Committee for the Outer Continental Shelf Environmental 
Studies Program. I served on this committee from 1989 to 1996, as 
Chairman for two years, and I was reappointed to the Committee in 2006 
and am the current Chairman. The Scientific Committee reviews the 
environmental studies program studies plan each year and makes 
recommendations on proposed studies and suggestions for program 
direction to the Secretary of Interior.
    I am an avian toxicologist with experience in studying the effects 
of oil spills on populations of seabirds, including the pathology of 
oil and the effects on behavior and reproduction of birds exposed to 
oil. I conducted research on seabirds experimentally exposed to oil in 
the 1980s, and worked with the oil spill responders in Alaska following 
the Exxon Valdez spill. After the Exxon Valdez spill I participated in 
the Natural Recourses Damage Assessment with the Trustees, and helped 
evaluate the long-term effects of the spill on the many bird species 
present in Coastal Alaska.
    Oil exposure to seabirds causes a cascade of injuries. The initial 
injury is fouling, and everyone has seen photos of pelicans and other 
birds coated with oil so that they are unable to fly or forage for 
food. Oil, either fresh, weathered or chemically dispersed, destroys 
the insulation properties of feathers, and allows water to penetrate to 
the skin of birds. When this happens, the birds become cold, and must 
metabolize stored nutrients in order to maintain body temperature. This 
causes loss of stored fat followed by muscle wasting, so that the birds 
are severely weakened, cannot fly, cannot feed, and rapidly 
deteriorate. If not recovered by rescue teams within a few days, they 
will starve to death. If oiled birds are far out to sea, many will 
drown and sink without ever being detected. This is particularly true 
for diving juvenile Northern Gannets, which are highly pelagic and 
remain out at sea throughout the year. Gannets were the first birds 
recovered at sea in the Deepwater Horizon spill, and I fear that many 
will be oiled and never be detected or recovered.
    The cascade of injury continues with internal oil exposure. Birds 
that attempt to clean themselves by preening oil from their feathers 
will ingest quantities of oil, which causes injury to the digestive 
tract, liver and kidneys, resulting in greatly elevated stress, and 
especially impaired kidney function. Exposure to fresh oil containing 
the gasoline components results in respiratory injury from inhalation 
of toxic fumes. Without adequate veterinary care, most moderately and 
heavily oiled birds will die.
    The consequences of even light exposure to oil can be severe and 
long-term. We did studies in the 1980s in which we lightly oiled 
different species of seabirds with less than 1/3 of a teaspoon of oil. 
Most exposed birds abandoned their nests and failed to breed, or failed 
to hatch the few eggs that were laid, and shearwaters oiled in one year 
had impaired reproduction in the year following exposure as well. I 
expect that even lightly oiled pelicans, gulls, herons, and other birds 
exposed in this spill will have breeding failure this year, and the 
great disturbance in the colonies will carry forward at least into the 
breeding season of 2011. I sincerely hope that the oil spill responders 
and Natural Resource Damage Assessment teams will be able to continue 
their studies into future years to be able to adequately assess the 
injury to the ecosystem caused by this spill.
    I would like to discuss the similarities and differences between 
the Exxon Valdez Oil Spill and the Deepwater Horizon (AKA Mississippi 
Canyon 252) oil spill.
    The Exxon spill was a catastrophic event that occurred over a 
period of only a few days, but which spread across Southern Alaska for 
months. More than 1300 miles of shoreline were oiled, and even after 
cleaning it took years for the habitats to recover. Some sensitive 
habitats, such as shellfish beds of mussels in rocky intertidal areas 
still have oil present. The spill caused injury to many species of 
birds and marine mammals, and probably killed hundreds of thousands of 
birds, although only about 35,000 oiled birds were recovered. Some of 
the species, such as Bald Eagles, recovered quickly, with no detectable 
population effects after only a couple of years, while others, such as 
Marbled and Kittlitz's Murrelets, Harlequin Ducks, Black 
Oystercatchers, and Common Murres exhibited population level decreases 
that could be detected for several years. A few of the species may 
still not have recovered to pre-spill numbers, and it is now 21 years 
after the spill. Exxon was prosecuted and convicted for violations of 
the Migratory Bird treaty Act, and for violations of the Clean Water 
Act. I believe violations of both laws have also occurred with the 
Deepwater Horizon oil spill and warrant prosecution.
    I expect that the Deepwater Horizon spill will have equally far 
reaching and long-term effects on bird species in the Gulf of Mexico, 
and that the wetlands and mangroves of the Gulf Coast will not recover 
for decades. Although I am not an expert on mangroves, I believe that 
if sensitive mangroves are killed, it is likely that some barrier 
islands will be weakened and may erode more quickly, increasing the 
risks of storm damage, especially during hurricane season. The presence 
of persistent oil in wetlands will have long-term negative effects on 
the colonial waterbirds that use these islands as nesting areas. Brown 
Pelicans, Laughing Gulls, herons, egrets, spoonbills, ibises and 
gallinules have already been affected, with responders having recovered 
more than 1000 birds alive and dead so far. I expect the number of 
injured wildlife to continue to increase, as it is impossible to 
prevent birds that are caring for chicks from trying to forage for food 
outside boomed areas, even if their breeding islands remain 
successfully protected by oil booms. Diving species such as pelicans 
and terns will continue to hunt for fish in oiled waters, and will 
become victims of the spill. The un-hatched eggs of these birds may 
become contaminated with oil, which will cause failure, and it is 
probable that entire colonies of wetland birds will fail this year, and 
perhaps experience lowered breeding success in future years.
    A major difference between the Exxon Valdez spill and the Deepwater 
Horizon spill is the continuing release of huge quantities of oil and 
the constant release of fresh oil into the ecosystem. The depth of 
water is also a major difference, as the explosive discharges of oil at 
depth results in immediate natural dispersion of small droplets into 
the water column, in addition to the dispersion of oil using chemical 
dispersants. Dr. Ed Overton of LSU has eloquently described these 
phenomena, and has described the mix of very sticky weathered and un-
weathered oil, which complicates the skimming and cleanup operations. 
Like the Exxon Valdez oil, this oil will continue to move with currents 
and along shorelines and may oil a similar amount of shoreline, 
especially if blown toward shore during the anticipated storm season.
    The endangered marine mammals of the Gulf of Mexico, especially 
Sperm Whales, I believe are at high risk of injury and death from this 
spill. Sperm Whales have been observed surfacing in the oil slicks, and 
could easily inhale oil which would cause injury or death. This 
occurred with Killer Whales (Orcas) during the Exxon Valdez, and 
although no Orca carcasses were observed or recovered in 1989, 
observers were able to identify missing members of whale pods (groups) 
in years following the spill and were able to document the injury to 
the Alaska whale population. A great deal of work has been done with 
the Gulf of Mexico population of Sperm Whales, and an emergency team of 
observers should be deployed to document whale behavior and potential 
injury from this continuing spill, which is occurring within known 
territories of Sperm Whales.
    There are excellent teams of wildlife rehabilitators caring for 
oiled birds at several sites along the Gulf Coast. These are well 
trained people some if which I worked with in Alaska in 1989, and have 
been well organized with funds generated by the Oil Pollution Act of 
1990, passed by Congress following the Exxon Valdez spill. These teams 
had equipment and supplies pre-deployed in the Mississippi Delta prior 
to the spill and staff were immediately sent to set up their facilities 
within days after the explosion and fire on the Deepwater Horizon rig. 
I believe this wildlife rescue effort will be successful in cleaning 
birds, as responders continue to clean oil from the beaches and coastal 
waters. However, if the spill continues, which is likely, the cleaned 
birds will have no safe place to return to, and it may be impossible to 
successfully return them to the wild. Even if birds are taken far 
outside the spill area, it is probable that they will try to return 
even hundreds of miles back to their breeding colonies, which may still 
be oiled, and this will prove disastrous for all the birds nesting 
along the Gulf Coast. There has been some press and media discussion of 
the futility of cleaning oiled birds, and some have even recommended 
that all oiled birds be euthanized humanely without attempting to clean 
or rehabilitate them. I strongly disagree. The knowledge of cleaning 
and rehabilitation of birds gained by bird rescuers during the past 40 
years has been impressive. Every spill has been a training ground for 
increasing knowledge, which is shared and communicated at national 
meetings, in journal articles, and in training sessions every year. The 
success at cleaning and rehabilitation has improved over the years, and 
will continue in the future, as no one has been able to prevent oil 
spills from occurring. The Fish and Wildlife Service and private 
organizations have conducted radio telemetry studies to evaluate 
survival of oiled birds, and in many cases the cleaning and 
rehabilitation efforts have successfully returned many, or in some 
cases, most of the oiled birds back to the wild to successfully breed 
in subsequent years. This has not been true for some species and some 
oil spills, and the success has been highly variable from spill to 
spill, but I believe that continued wildlife response is very important 
and warranted. Just as human medicine and surgery have advanced over 
the past hundred years, the art and science of wildlife rehabilitation 
are advancing, and should continue, and should continue to be well 
funded.
    I would like to briefly change subjects and discuss the Minerals 
Management Environmental Studies Program that my Federal Advisory 
Committee is charged with reviewing and evaluating. MMS contracts 
studies which are necessary targeted research on environmental issues 
related to offshore energy production, including risks to the 
environment and the technological advances to reduce risk and avoid 
environmental injury arising from energy production.
    The MMS studies program began with a good record for comprehensive 
evaluation of the offshore environment and seabed and has continued 
during the period I have been a reviewer of the program. MMS began this 
program in the mid-1970s with a significant budget to contract, oversee 
and evaluate environmental studies, and developed an excellent baseline 
of studies during the 1970s and 1980s.
    One of the primary charges of the studies program was, and 
continues to be, developing baseline information on the natural 
resources of areas with potential for energy production. MMS conducted 
a continent wide Outer Continental Shelf Environmental Studies Program 
(OCSESP) to inventory the resources offshore in the Gulf of Mexico, 
Eastern seaboard, Pacific Coast and Alaska. Without the MMS studies 
data, the US would not have had the scientific background to be able to 
assess the oil spill injury from the Exxon Valdez, nor would the US 
have been able to identify the significance of the injury to many 
species of seabirds, marine mammals, fish and their habitats.
    I was a technical expert for the US and the Oil Spill Trustees on 
the injury and recovery of wildlife from the Exxon Valdez spill, and 
was a technical expert for the US in the ensuing litigation to recover 
funds from Exxon to restore the environment and compensate injured 
parties. Without the detailed studies funded by the MMS during their 
OCSESP program, identification of injury would not have been possible.
    Today, however, the budget for the Environmental Studies Program at 
MMS is about 1/3 the $55 million figure that it was in 1975, and if 
corrected for inflation, the current budget of approximately $20 
million is only about 10% of what it was in 1975.

[GRAPHIC] [TIFF OMITTED] T6977.001

    .epsThis is at a time of significant expansion of the mandate of 
MMS, not only evaluating vast new areas of the outer continental shelf 
off the East Coast of the US, the Eastern Gulf of Mexico, the Pacific 
Northwest, and the Arctic Ocean, but also for expanding the existing 
programs in the Western Gulf of Mexico, Southern California, and 
Alaska.
    The new proposed leases in the Beaufort and Chukchi Seas in the 
Arctic Ocean will pose unprecedented challenges, and without adequate 
funding I foresee disasters in this uncompromising environment.
    In addition, MMS is faced with new challenges of evaluating the 
environmental concerns of offshore wind technologies, which present 
very different challenges than that of assessing risks and technology 
development of offshore and deepwater oil and gas production. It has 
been the opinion of the MMS Science Advisory Committee that the current 
MMS Environmental Studies Program is severely underfunded, and the 
Scientific Committee in 2008 recommended to the Secretary of the 
Interior that the environmental studies budget should be at least 
doubled to adequately fund the necessary environmental studies that 
must be done to assess the offshore resources and protect the offshore 
environment, including the seabed. We repeated this recommendation at 
our 2009 meeting in Anchorage as well.
    In the past, MMS has developed and carried out a comprehensive 
program to evaluate oil and gas exploration technologies, oil spill 
prevention, regulation of spills and discharge of oil drilling fluids 
and wastes. In addition, the Environmental Studies Program has 
conducted a program to identify and protect sensitive and unique sea 
bottom ecosystems, especially ``hard bottom'' communities, as well as 
marine mammals, seabirds and fish. They have conducted studies of the 
potential disturbance of seismic exploration noise on marine mammals, 
toxicity of oil to seabirds and other marine life, and disturbance of 
sensitive animals from placement of platforms and drilling operations. 
In my opinion, the MMS has successfully conducted a broad range of 
studies, and has reduced risks in the offshore environment with an 
excellent record up to this Spring.
    I know that these are difficult economic times, but I urge the 
Subcommittee and your colleagues in Congress to adequately fund the 
environmental studies program so that with continued and expanded 
offshore development, both for oil and gas, and for alternative energy, 
the MMS will be able to continue their excellent record of 
environmental evaluation.
    At the 2009 Anchorage meeting I made a personal plea for expanded 
environmental studies in the North Aleutian Basin, also known as 
Bristol Bay, because of the highly productive crab and red salmon 
fisheries, an extremely large number of migratory and resident 
seabirds, and critically endangered Pacific Right Whales found in the 
region.
    The Environmental Studies Program was unable to fund many valuable 
studies with their ever decreasing budgets (in constant dollars), and I 
personally recommended that no leasing be conducted in Bristol Bay or 
the Arctic Ocean until adequate studies could be undertaken to 
understand and minimize the risks to these highly sensitive habitats. 
Today I more strongly believe this, and I continue to recommend that 
leasing of Alaskan waters be deferred until adequate studies are 
undertaken to assess and minimize risks. It is especially important to 
better understand the risks posed by floating ice in the Arctic, as 
iceberg scars present on the ocean floor belie the dangers of icebergs 
or huge sheets of ice damaging oil production facilities with 
catastrophic consequences, as it will be even more difficult to clean 
up a spill in arctic waters than it is in the Gulf of Mexico, which is 
proving to be almost impossible. I believe it is highly irresponsible 
to continue leasing and exploration in icy waters without first 
studying and refining the safety and response techniques that will 
almost certainly be needed when the inevitable Arctic Ocean oil spill 
occurs.
    In 2008, the U.S. collected almost $23 billion in revenues from 
federal oil and gas production and leases: $13 billion in royalties and 
$10 billion in bonus bids. None of these dollars went back into the MMS 
program to fund the critical mission-related studies that MMS needs to 
be able to support their leasing activities. I personally think it has 
been a very dangerous situation for the Agency to try and continue to 
lease in uncharted waters without adequate studies, and I believe the 
consequences of inadequate funding by Congress, and the unknowns in 
attempting to cope with infrequent but highly injurious accidents such 
as the blowout of the well during operations aboard the Deepwater 
Horizon have been exacerbated by extending leasing beyond the 
understanding of the risks. MMS critically needs augmented funding to 
catch up to the demands of our domestic energy production.
    I believe it is a very significant part of the budget graph that 
Congress augmented the studies Budget immediately after the Exxon 
Valdez oil Spill, but then just a few years later again substantially 
lowered the appropriations for this program. I believe it is not 
appropriate for Congress to continually cut budgets of mission oriented 
studies and expect that there will be no future consequences.
    Recently it has been recommended that the MMS be split into three 
separate Bureaus to separate the royalty collection from the leasing 
and regulatory parts of the Agency. I have no opinion as to the 
appropriateness of this action, nor of the effect on the functioning of 
the Agency, but I would strongly plea that the mission-targeted studies 
program remain within the leasing branch, so that mission-oriented 
studies can best be designed and conducted in support of future 
leasing. I think it would be damaging to the Agency to transfer the 
Studies program into a another Agency, such as USGS, because the 
mission and focus of another Agency would be quite different, and the 
mission-targeted nature of the studies program would likely be lost, 
with consequential further loss of critical information needed to 
understand the interactions between energy development and the 
environment and to reduce the risks of venturing into uncharted waters.
    I thank the Committee for inviting me to present my views and the 
views of the Federal Advisory Committee at this hearing. If you have 
any questions I will attempt to respond now or later in writing.
    Thank you very much for giving me this opportunity to testify,
                                 ______
                                 

 [NOTE: Mr. Fry's responses to questions were not received by the time 
        this hearing went to print.]

    Ms. Bordallo. Thank you. Thank you very much, Dr. Fry.
    Dr. Mitchelmore, it is your turn to testify. Please begin.

  STATEMENT OF CARYS MITCHELMORE, PH.D., ASSOCIATE PROFESSOR, 
   UNIVERSITY OF MARYLAND CENTER FOR ENVIRONMENTAL SCIENCE, 
         CHESAPEAKE BIOLOGICAL LABORATORY, SOLOMONS, MD

    Dr. Mitchelmore. Thank you. Good afternoon, Madam Chair and 
Members of the Subcommittee. Thank you for inviting me to 
discuss scientific issues concerning dispersant use. I am Carys 
Mitchelmore. I am an aquatic toxicologist and have been 
researching the impacts of pollutants, including oil and 
dispersants, on organisms for over 15 years.
    Unfortunate recent events in the Gulf have brought to the 
forefront issues pertaining to the impacts of oil. My testimony 
today will focus on some effects and uncertainties regarding 
dispersant use.
    Related to this I would like to stress two major points. 
First, significant data gaps in understanding the fate and 
effects of dispersants and chemically dispersed oil exist, 
particularly with subsea applications. Second, there are 
numerous reasons why the impact of chemically dispersed oil in 
the environment may be underestimated.
    Dispersants are used to redirect an oil slick by breaking 
it up into small droplets that move down into the water, 
spreading in three dimensions. They do not remove oil. They 
simply alter its chemical and physical properties, changing 
where it goes, where it ends up and its potential effects. 
Subsurface dispersant application is used to keep the oil in 
the water column, preventing it from coming to the surface.
    With the Deepwater Horizon leak, dispersants are used to 
protect organisms from contacting the surface slick and to 
protect sensitive shorelines and wetlands from the slick coming 
ashore. This protection is an environmental tradeoff and is at 
the expense of organisms living in the water column and 
potentially those on the sea floor.
    Toxicological data feeds into these tradeoff decisions. 
However, limited toxicological information exists to fully 
assess its risk to organisms, particularly in the long term. 
Toxicity data, based on short duration exposures and the risk 
of death to organisms, are those most often used to assess how 
toxic a chemical is, and which species are those most at risk. 
Indeed, the National Contingency Plan Product Schedule uses 
such tests.
    Toxicity depends on the specific dispersant under study, 
the species and the life stage of that particular species. 
However, even using these simple acute toxicity tests, there is 
conflicting scientific evidence on whether chemically dispersed 
oil is more, equally or less toxic than oil.
    Acute toxicity tests are limited as organisms can also be 
affected in other ways other than death. Dispersants and 
chemically dispersed oil can cause many sublethal impacts, 
including reduced growth and reproduction, cardiac and 
metabolic problems, immune system suppression, developmental 
deformities, cancer and changes in behavior.
    These subtle endpoints can have huge consequences for 
populations, and delayed effects may occur long after brief 
exposures. Some species, like corals, are more sensitive than 
others. Tradeoff decisions between species are difficult if 
toxicity data is not available for these or closely related 
species.
    Data may also not be available for the vulnerable early 
life stages of organisms. This is of concern as larval life 
stages often inhabit near surface waters during reproductive 
seasons where dispersed pollutants are at their highest 
concentrations. Furthermore, traditionally laboratory tests can 
underestimate toxicity to fish, larvae and other translucent 
organisms like corals.
    In surface waters, natural sunlight can interact with the 
oil taken up by organisms, thereby increasing toxicity up to 
50,000 times. This photo enhanced toxicity mechanism will 
increase the footprint of dispersed oil effects.
    Dispersants change how organisms are exposed to oil and may 
facilitate the uptake and bioaccumulation of oil. It is what 
dispersants do to oil that often drives toxicity rather than 
the inherent toxicity of the dispersant itself. Small oil 
droplets are taken up by suspension feeders such as oysters. 
Zoo plankton can mistake oil droplets for food. Current models 
that predict oil spill effects do not take into account droplet 
exposure pathways.
    Phytoplankton and zooplankton reside in surface waters. 
This is where the plume is most concentrated. These are 
essential components at the base of the food web. If these 
organisms are lost, then higher trophic level organisms, 
including the coastal and shoreline organisms that dispersants 
are used to protect, will simply not have enough food and will 
suffer reduced growth, reproductive output and eventually 
death. These organisms may also accumulate oil and so 
contaminate the seafood that feeds upon them.
    With the Deepwater Horizon leak, many further unknowns 
exist, given the sheer volume of dispersants used and novel 
subsurface application. A recent meeting conducted concluded to 
date that dispersant use has been less environmentally harmful 
than allowing the oil to reach sensitive wetlands. However, 
increased monitoring should be carried out, and tradeoff 
decisions should be constantly reevaluated and will become more 
complex with an increasing amount of oiled shorelines.
    In summary, Madam Chair and fellow representatives, we face 
huge challenges to protect the health of our coastal and 
oceanic systems. With oil spills, this involves making 
difficult tradeoff decisions and what species to protect at the 
expense of others.
    By using dispersants, we change how organisms are exposed 
to oil, yet we do not fully understand the implications of 
this. Where and how and even what organisms are exposed? How do 
we identify sensitive species? And what are the sublethal and 
long-term effects, and what is the impact to the food web?
    The recent spill in the Gulf has brought us into 
unchartered territories, given the volume and duration of 
dispersant use, its novel application at the seabed, limited 
baseline monitoring data to evaluate the species at risk. With 
more information, we can be better prepared to deal with such 
disasters. Increased knowledge translates to better solutions, 
and we need that knowledge now. Thank you.
    [The prepared statement of Dr. Mitchelmore follows:]

    Statement of Carys L. Mitchelmore, Ph.D., Associate Professor, 
  University of Maryland Center for Environmental Science, Chesapeake 
               Biological Laboratory, Solomons, Maryland

    Chairman Bordallo and members of the Subcommittee. I am Dr. Carys 
Mitchelmore and I would like to take this opportunity to thank you for 
inviting me today to highlight some of the issues concerning the 
effects of oil spill dispersants and dispersed oil.
    By way of background: I am faculty at the University of Maryland 
Center for Environmental Science, Chesapeake Biological laboratory. I 
have been conducting research and publishing books and articles for 
over 15 years concerning the impacts of pollutants, including oil and 
oil spill dispersants on many aquatic species. Today I am representing 
my views as a researcher in the field of environmental health. I began 
investigating the impacts of oil on marine organisms following the 
Aegean Sea Oil spill in 1992. Since then, as opportunities have arisen, 
I have carried out research investigating the effects of oil and it's 
constituent compounds on bivalves, corals, fish and reptiles. 
Specifically, in the last few years my focus has been on investigating 
the routes of exposure to and the toxicity of the dispersant Corexit 
9500 and dispersed oil on sensitive species, such as corals (REFS 1-9). 
I was also co-author on the recent 2005 NRC publication on ``Oil Spill 
Dispersants: Efficacy and Effects'' (REF 10).
    Unfortunate recent events in the Gulf have once again brought to 
the forefront issues pertaining to the impacts of oil, oil spill 
dispersants and dispersed oil in our marine and coastal ecosystems. My 
testimony today will focus on issues relating to the potential impacts 
and the uncertainties (data gaps) regarding oil spill dispersants and 
dispersed oil. The three key points I would like to raise today are the 
following:
    1.  Limited data is available concerning the toxicity of 
dispersants and dispersed oil.
         <bullet>  There are significant data gaps relating to 
        understanding sublethal, delayed and long-term effects, 
        particularly to sensitive species (e.g. corals).
    2.  Ecosystem-based approaches.
         <bullet>  Is bioaccumulation of oil in the food web enhanced 
        or decreased with dispersants?
         <bullet>  Indirect toxicity issues can influence higher 
        trophic level organisms.
    3.  What and where are the data gaps?
         <bullet>  What would help reduce the uncertainties in 
        dispersant application decisions?
         <bullet>  Specifically what are some of the unknowns with the 
        recent oil spill in the Gulf of Mexico.
             <all>  Issues relating to the two drivers of toxicity; 
            concentration and time.
             <all>  New application methods (subsurface rather than 
            surface).
             <all>  Limited toxicity data regarding the less toxic 
            dispersant alternatives.
Overview and Introduction: What are dispersants and why are they used?
    When oil is spilled response decisions are quickly made based upon 
the best available science and on numerous and often continually 
changing variables. The use of dispersants is an environmental trade-
off; the protection of one habitat at the cost of another. In the 
current Gulf of Mexico oil spill (Deepwater horizon (DWH) leak) 
dispersants are used to protect the shoreline (and surface) species at 
the expense of organisms residing in the water column and potentially 
those in the benthic (seabed) environment.
    Dispersants are chemical mixtures containing solvents, surfactants 
and other additives, (including proprietary chemicals) that are used to 
facilitate and enhance the break-up with wave energy of the surface oil 
slick into small oil droplets that disperse into the waters below. They 
do not remove oil from the environment, they simply change the inherent 
chemical and physical properties of the oil and in doing so alter the 
oil's transport, fate and potential effects. The small droplets stay 
suspended in the water column and spread in three dimensions instead of 
two. The premise behind dispersant use is that this oil movement 
results in a plume of dispersed oil and dispersants that is quickly 
reduced to low levels with depth in the Ocean. In addition, this 
dispersal effectively increases the surface area to volume ratio of oil 
so that microorganisms that naturally degrade oil can be more effective 
in doing so.
    The Gulf of Mexico contains sensitive coastal habitats, such as 
wetlands, that serve as nursery grounds to numerous species, including 
those that migrate long distances to these breeding areas. Oil coated 
shorelines not only decimate intertidal food reserves for ourselves 
(e.g. oysters, crabs, shrimp, fish) and other organisms but will also 
cripple recreational activities and local economies. Oil, if allowed to 
come to shore, can remain in those habitats (e.g. in the sediment) for 
long periods of time continually exposing and impacting local resources 
for years or decades following the oil spill.
    Recently a scientific meeting (May 26-27th) of over 50 experts from 
government agencies, academia and industry was convened specifically to 
provide input for the Gulf of Mexico's regional response teams (4 & 6) 
on the use and effects of dispersant and dispersed oil in going forward 
with future incident decisions. It was the consensus of the group that 
``up to this point. . .dispersing oil into the water has generally been 
less environmentally harmful'' (see REF 18). However, concerns were 
made over the unknowns especially regarding the fate and potential 
long-term effects (discussed in later sections herein) of dispersants 
and dispersed oil and their continued long-term use. Therefore, some 
strong caveats were mentioned; that increased monitoring efforts and 
continued re-assessments should be made to ascertain that these trade-
off decisions are still scientifically sound. I highlight these latter 
points.
    With increased time these trade-off decisions could change given 1) 
the volume of dispersants used and the footprint (in space and time) of 
the impacted area in the water-column, 2) sensitive species movement 
into and out of different habitats (e.g. bluefin tuna and other species 
spawning in the open Ocean waters), 3) continued and increasing impact 
of oil onto sensitive shorelines, therefore, reducing the percentage of 
habitat saved by using dispersants. Of concern is that we do not (and 
probably never will) know the extent of the harm and loss of organisms 
in the water column and on the seabed. Mapping of who, what, and where 
species are in these habitats is limited or in the case of the seabed 
down at 5000ft, non-existent.
Summary of what is known about the short and long-term effects of 
        dispersants and dispersed oil.
1. Limited data is available concerning the toxicity of dispersants and 
        dispersed oil.
    As concluded in both of the NRC dispersant reports (REFS 10, 11) 
limited toxicological information exists to fully assess the risks to 
organisms to dispersants and dispersed oil. Although this lack of 
toxicological data is not unique to oil spill dispersants. It is 
mirrored by the tens of thousands of chemical contaminants (again often 
proprietary mixtures) that are also being released into the 
environment. The majority of toxicity data regarding dispersants and 
dispersed oil address acute and short-term effects derived from 
laboratory toxicity tests. There is much more limited data available 
detailing the potential sublethal or delayed effects of exposure, which 
could be much more detrimental to a population in the long term. 
Examples of the major questions that arise are detailed in the 
following sections:
a) How toxic are the dispersants alone?
    Although dispersants themselves would not be released into the 
environment alone, toxicity tests are required (for human and 
environmental safety) so that they can be approved for use (i.e. listed 
on the EPA's National Contingency Plan Product Schedule (NCPPS) table; 
see REF 12) and included on the products material data safety sheets 
(MSDS). However, many of the dispersants are proprietary and do not 
list their chemical components in detail on the MSDS sheets. In 
addition, toxicity studies are often limited in scope (i.e. they are 
acute short-term toxicity tests in two standard test organisms). Acute 
toxicity tests are used to compare toxicity between chemicals and 
between organisms to identify highly toxic chemicals and sensitive 
organisms. Results are standardized and presented as the lethal 
concentration of a chemical that causes death to 50% of the test 
organisms following a set exposure time (i.e. LC50, 24-96 hours). The 
lower the LC50 level is (i.e. the number), the more toxic the chemical.
    With respect to dispersants, toxicity depends upon the specific 
dispersant under study, the species being tested and also the life 
stage of the particular species under investigation. Some organisms are 
much more sensitive to (i.e. affected by) dispersants than others. For 
example, gulf mysids and copepods (crustaceans), diatoms (algae) and 
fish larvae are affected at low concentrations of Corexit 9500 (i.e. 
LC50, 96 hour at the low ppm level). However, other organisms are only 
affected by 3-10-fold higher concentrations of Corexit 9500. To date 
the majority of toxicity studies (those listed in the NCPPS table and 
in the scientific literature; see REF 10) have been focused on the 
Corexit formulations. Fewer toxicity studies (i.e. less species 
evaluated) have been carried out for Corexit 9500 compared with the 
earlier Corexit 9527 formulation. In comparison, to date even more 
limited and scientifically robust data exists (that is publically 
available) for any alternative formulations. Some studies have found 
dispersants to be less toxic compared with oil or dispersed oil in 
direct comparisons, although some studies report an increased 
dispersant toxicity compared with oil or dispersed oil (see REF 10).
b) How toxic is dispersed oil?
    There is conflicting scientific evidence to date regarding the 
toxicity of dispersed oil in comparison to oil. The 2005 NRC report 
addresses this at length (REF 10). For example, some studies have 
stated that dispersed oil is more toxic than oil, others have shown 
that the toxicities of dispersed oil and oil are equivalent. The NRC 
1989 report concluded that the acute lethal toxicity of chemically 
dispersed oil is primarily associated not with the dispersant but with 
the dispersed oil and it's dissolved constituents following dispersal. 
Some species and life stages are much more sensitive than others, for 
example, the LC50s for oyster and fish larvae were as low as 3mg/l 
(i.e. 3ppm) for dispersant alone (Corexit 9527) and 1mg/l (i.e. 1ppm) 
for dispersed oil (REF 13).
    It is inherently difficult to compare dispersed oil with oil and 
discrepancies can arise simply due to the experimental design of the 
toxicity tests. Therefore, in the 1990's efforts were made to 
standardize toxicity tests (i.e. CROSERF and following publications; 
see discussion in REF 10). Great advances were made at that time, 
however, there is a dire need to expand this work further to include 
new additional and complicating issues that will be discussed in the 
following sections.
    Understanding basic toxicity mechanisms and species sensitivity 
across diverse taxa in laboratory studies aid in the risk assessment of 
what organisms are potentially those most at risk. During a spill these 
data can be compared with the predicted dispersed oil concentrations 
(using computer modeling) or actual oil concentrations measured in the 
field. There is still a need to fill the serious fundamental scientific 
data gaps regarding the basic toxicology of dispersants and dispersed 
oil as highlighted in the NRC reports.
    Recently the EPA (directive dated May 10th and addendum 2 on May 
20th) requested that BP should use a less toxic dispersant. Given their 
LC50 guidelines only four of the listed products on the EPA NCPPS would 
meet these toxicity criteria. BP responded to EPA's request within 24 
hours (posted on May 22nd) and defended their use of the Corexit 
formulations stating limited toxicity data, potential long-term effects 
of some components in some alternative formulations coupled with 
limited availability in the volumes required for the Gulf spill. 
Following BP's response the EPA announced (addendum 3 on May 26th) that 
in addition to requiring that BP reduces it's use of dispersant (by 
around 75%) particularly at the surface they also stated that they will 
be carrying out toxicity tests to further evaluate these alternative 
products.
c). Sublethal, delayed toxicity and potential long-term effects.
    As summarized in the recent NRC publications oil and oil spill 
dispersants can cause many effects, including death and a variety of 
sublethal impacts including reduced growth, reproduction, cardiac 
dysfunction, immune system suppression, metabolic and bioenergetic 
effects, developmental deformities, carcinogenic, mutagenic, 
teratogenic effects and alterations in behavior (REFS 10, 11). These 
more subtle endpoints than death can none-the-less have huge 
consequences for populations. Additionally, delayed effects may occur 
which are hard to track and follow following an oil spill event unless 
monitoring programs span years after the spill event. Even then these 
monitoring programs may come too late i.e. if baseline monitoring 
before the spill was not carried out it is impossible to fully assess 
the final extent of damage. Some aquatic species are more sensitive 
than others to dispersants and/or dispersed oil. Therefore, making 
trade-off decisions between species is difficult if toxicity data is 
not available for those or closely related species. Additionally, it 
has been shown that it is the early life stages of organisms, e.g. eggs 
and larvae that are more sensitive to chemicals and are at particular 
risk. This is especially of concern given that these life stages often 
inhabit surface waters, especially as is the case for the Gulf of 
Mexico now given that this is the spawning and reproductive period for 
many species.
    i) Water column organisms: Organisms resident in the water column 
are those at risk following dispersant application. A dispersed oil 
plume contains high levels of dispersant, dissolved oil and oil 
droplets meters down into the water column. It is in these surface 
waters that many organisms are concentrated in. This includes 
phytoplankton (algae) and zooplankton (small invertebrates or larvae of 
fish and other organisms); essential components at the base of the food 
web that organisms (including shoreline species) rely upon.
    Other organisms at risk include fish, reptiles and marine mammals. 
A dispersed plume is not static. Like a surface slick it will move with 
the wind and ocean currents. In some cases the larger organisms (large 
fish, reptiles and mammals) having detected a harmful substance may be 
able to move away and avoid the plume if their sensory systems and 
behavioral mechanisms have not already been impacted by the oil plume. 
This is not the case for the smaller organisms. They will more than 
likely move with the plume increasing their duration of exposure to the 
toxicants. Dispersed oil may affect these water column organisms in a 
number (or combinations) of ways:
    1)  direct toxicity through exposure to the dissolved oil 
components and/or dispersant.
    2)  ingestion of oil particles and hence bioaccumulation of oil 
components.
    3)  coating of external surfaces (e.g. gills/skin) by oil droplets 
potentially enhancing oil uptake (dissolution) across surfaces or 
simply physical effects reducing respiration leading to eventual 
smothering and death.
    Recent studies demonstrating sublethal effects and new toxic 
pathways suggest that the full impact of exposure to dispersed oil may 
be underestimated and further studies are required to investigate this 
in detail. For example, in translucent organisms (e.g. fish larvae) the 
toxicity of accumulated oil can be 12-50,000 times underestimated 
because the traditional toxicity tests were not carried out under 
conditions of natural sunlight (REF 14, REF 10). This phenomenon called 
`photoenhanced toxicity' may be critical in determining the effects of 
dispersed oil in surface dwelling (e.g. translucent pelagic larvae) and 
shallow water translucent organisms (including corals).
    Studies have also shown that dispersants may facilitate the uptake 
and potentially the bioaccumulation of oil constituents in organisms 
from ingestion routes (e.g. see REF 15) or by oil droplets sticking to 
biological surfaces (e.g. fish gills; see REF 16) and facilitating the 
dissolution of oil components (dissolved polycyclic aromatic 
hydrocarbons (PAHs)) into tissues. However, dispersed oil has also been 
shown to be less `sticky' and does not interact with biological 
surfaces or sediment (see discussions in REF 10). These issues relating 
to the fate (i.e. where the oil ends up) are important to know for a 
full risk assessment on the impact of dispersants. As with 
photoenhanced toxicity any enhanced bioaccumulation routes would 
increase the `footprint' of the potential effects of dispersed oil and 
further studies are required to address these data gaps and 
uncertainties in predicting the fate and effects of dispersed oil.
    ii) Benthic/Intertidal organisms (e.g. oysters, mussels and crabs): 
In a deep open ocean spill benthic organisms are usually at minimal 
risk of exposure and the direct effects of surface dispersed oil. 
Although they still could be indirectly affected by the oil spill if 
their food source is impacted. However, if the dispersed plume comes 
towards shallower coastal locations then intertidal and benthic 
organisms will be exposed. Suspension (filter) feeders, such as oysters 
and mussels, will bioaccumulate oil droplets in addition to the 
dissolved oil components. Dispersed oil droplets generally range in 
size from <3 to 80mm. These sizes overlap with the preferred size range 
of food for many suspension-feeding organisms, including zooplankton 
(see later). Oysters and amphipods can select these particles, as they 
are similar in size to the phytoplankton they feed upon.
    The importance of this oil droplet (or particle bound oil PAH) 
exposure route was highlighted in studies flowing the New Carissa Oil 
spill near Coos Bay, Oregon. Mussels (suspension feeders) contained 
much higher levels of oil constituents (PAHs; 500 times more) than 
crabs (an omnivore) collected from the same area (REF 17). Chemical 
(PAH) profiles also highlighted that the mussels had accumulated the 
PAHs both from the dissolved oil constituents in the water and from oil 
droplets whereas crabs had only accumulated them from the dissolved 
phase. These data are very important as current computer models 
designed to predict the effects of an oil spill do not take into 
account exposure routes other than the dissolved components. This 
research has implications for the effects of a dispersed oil plume on 
coastal fisheries and highlights the importance in understanding the 
routes of exposure of oil to species and in determining the levels of 
oil constituents in each of these phases for a better understanding of 
risk.
    Of additional relevance for the DWH oil leak is the novel use of 
dispersants at the subsurface. This type of application has never been 
done before and the impacts are unknown.
    iii) Corals: In the last few years my research group has 
investigated the toxicity of dispersants and dispersed oil on corals. 
Laboratory experiments were conducted to investigate the acute, 
sublethal and delayed effects of dispersant and dispersed oil (Corexit 
9500 and weathered Arabian light crude oil, 1:25 ratio). In summary, 
soft corals died in environmentally relevant concentrations of 
dispersant (LC50 8 hours 30ppm; LC50 96 hours <16.5ppm). Sublethal 
behavioral effects (narcotic response resulting in the cessation of 
coral pulsing) were observed within hours at low (10ppm) exposures. In 
attempting to mimic a dispersed oil plume moving through a reef corals 
were exposed for 8 hours to dispersant alone (at 20ppm i.e. the dose 
used for the 1:25 (v/v) dispersant:oil ratio), dispersed oil (dissolved 
PAHs and oil/dispersant droplets and dispersant) and undispersed oil 
(i.e. dissolved PAHs under an oil slick) using an oil loading of 0.5g 
l<SUP>1</SUP> oil:water (1:2000 w/v). After exposure corals were placed 
in clean seawater to follow potential delayed effects and sub-lethal 
repercussions. Thirty-two days after exposure coral growth was 
significantly reduced in the chemically dispersed oil and dispersant 
exposures and delayed effects (further death in the dispersed oil 
treatments) were observed. The cnidarians accumulated oil (PAHs) in 
their tissues derived from both the dissolved oil components and the 
oil droplets. This highlights that to fully assess and understand the 
risks involved from dispersed oil consideration must be given to the 
exposure route of the oil for a particular species rather than simply 
the total amount of oil.
2. Food web effects.
    As mentioned in previous sections the upper layers of the water 
column are teeming with phytoplankton and zooplankton that are critical 
components of the food chain. All complex food webs, including those 
for shoreline/coastal species contain these organisms at their base. If 
these organisms are removed then higher trophic level organisms simply 
will not have food to eat and will ultimately suffer reduced growth, 
reproductive output and eventually death. Therefore, dispersants and 
dispersed oil do not have to directly affect an organism for them to 
have serious repercussions. This is called indirect toxicity, whereby 
the contaminant impacts organisms that another organism needs for food.
    These lower food chain organisms can also accumulate oil (either 
inside them or stuck on the outside of their bodies) so that organisms 
feeding on them become, and often to much higher levels, contaminated 
with oil. Suspension feeding organisms, like zooplankton (e.g. 
copepods), which are extremely important food sources at the lower end 
of food webs, have been found to feed on dispersed oil particles (size 
range 5-60mm). This has effects on those organisms; organisms higher up 
the trophic level that feed on them and ultimately may poses severe 
food safety issues for humans (contaminated seafood etc). Information 
related to the trophic transfer of contaminants is relevant to fully 
understand and evaluate the risks of oil exposure. Models currently 
based on dissolved oil levels can significantly underestimate oil 
exposure.
3. In summary what we still don't know (data gaps and uncertainties).
    In addition to those highlighted in the previous sections there are 
still many unanswered questions that we need to know to fully assess 
the risks involved with dispersants and dispersed oil. These were 
highlighted in the 2005 NRC report (REF 10). Although the 2005 NRC 
study was specifically tasked to address the potential risks of 
dispersant use in near-shore environments many of the conclusions of 
the report are valid in open-ocean spills, such as the DWH leak. Many 
questions and data gaps needed for improved risk analyses and 
ultimately effective oil spill responses were highlighted. Some basic 
concepts and issues regarding dispersed oil fate and effects simply 
lacked adequate research. In addition other areas of study require 
increased research efforts, as conflicting data currently exists.
    The many questions and issues that we have limited data for include 
the following;
     1.  What is the fate of dispersants and dispersed oil (i.e. where 
will they end up, in what form, how biodegradable are they and what are 
the break-down products? Are the break-down products more or less 
toxic?
     2.  What are the potential-long term effects of dispersant and 
dispersed oil, even after a brief exposure, to aquatic organisms? What 
are the sublethal effects? Will there be delayed effects?
     3.  There are limited studies on sensitive at risk organisms (e.g. 
corals).
     4.  Does dispersed oil reduce or enhance uptake/bioavailability of 
oil to organisms?
     5.  Does photoenhanced toxicity increase the `footprint' of 
effects?
     6.  Does dispersed oil reduce or enhance microbial degradation? If 
enhanced will this bacterial `bloom' result in an increased dead zone 
in the water (i.e. increased footprint in hypoxic zones or just a 
significant reduction in water oxygen levels)?
     7.  Is dispersed oil less `sticky' to biological surfaces and 
sediment?
     8.  What are the routes of exposure to organisms to dispersed oil? 
Is it dissolved PAHs or the oil droplets, or both.
     9.  How will the food web be impacted? Issues relating to trophic 
transfer and species loss.
    10.  What are the new risks with subsea application? Is the oil 
readily biodegradable? Will it cause more damage than allowing the oil 
components to disperse into the air, weather and degrade by abiotic and 
biotic surface processes?
    Unfortunately many of these questions are unanswered given the very 
limited opportunities available to carry out research in these areas. 
Some of the research recommendations made in the 1989 NRC report (REF 
11) were once again highlighted in the 2005 NRC report (REF 10) as 
these research questions had not been undertaken during those 16 years. 
Since the 2005 NRC report some limited progress has been made in 
addressing the data gaps outlined.
    As stated before oil spill responders base their decisions on the 
sound scientific data that is available to them regarding species that 
would be at higher risk than others from the impact of oil or dispersed 
oil. The NRC report (2005) highlighted that some of the very basic 
assumptions made concerning the use of dispersants have still not been 
adequately investigated, despite being highlighted in the earlier 1989 
NRC report (REF 11). For example, one main argument for using 
dispersants is that they enhance microbial degradation of the oil. 
Conflicting data exists regarding this assumption. Some studies have 
shown that dispersants are toxic to some bacteria and that 
biodegradation is reduced in chemically dispersed oil exposures. Other 
studies have shown enhanced biodegradation and increased numbers 
(blooms) of bacteria. The question is if blooms occur will this have a 
significant impact on dissolved oxygen levels in the water (i.e. 
likened to nutrient enrichment and eutrophication)?
Additional Specific issues regarding the Gulf Oil spill.
    The unfortunate recent events in the Gulf have once again raised 
many of the issues discussed above regarding the fate and effects of 
dispersants and dispersed oil in addition to adding further questions 
regarding the novel use of undersea dispersant application. As many 
have asked in the past weeks, potentially what will the environmental 
consequences be of the dispersant application, what will be affected, 
to what extent and how? This is impossible to predict for many reasons.
    As mentioned earlier open ocean spills are pre-approved for 
dispersant application given the minimal perceived risks to the ocean 
and the seafloor based upon the depth and volume of water available to 
dilute the dispersed oil. However, this spill is unique and a first for 
many reasons opening up many questions regarding the decision to use 
dispersants and what their potential effects may be. First, the sheer 
volume of dispersants applied is unprecedented; no spill in U.S. waters 
has used the amount of chemical dispersants that have currently been 
released (nearly 1 million gallons as of June 6th, 2010). Although it 
should be noted that the IXTOC spill (1979; see REF 19) in the Gulf of 
Mexico used a total of 2.5 million gallons of dispersant (not in U.S. 
waters), two-thirds of which were Corexit 9527. As in the IXTOC spill 
dispersants are usually only applied to surface slicks. In the DWH leak 
dispersants are also being applied at the leak site. The question is 
how will this dispersed oil impact the benthic (seafloor) environment?
    The surface oil slick is easily viewed via satellite but what about 
the sub-surface plume(s)? In toxicology it is the concentration of and 
the duration of exposure to a toxicant that determines its effect. 
Therefore, we need to know where the plume is, at what concentration, 
for how long and what species are present. Various agencies, oil spill 
responders and independent scientists are running models trying to 
predict the oil plumes concentration and trajectory. Additionally some 
measurements of oil concentrations/particle sizes are being taken at 
depths in the Ocean around the spill site. Only in knowing the size of 
this plume in three dimensions, the concentration of the dispersed oil 
in the plume at these locations and the duration of exposure in one 
area, will predictions be able to be made of the potential effect. 
Indeed increased monitoring of subsurface plumes was a recommendation 
from the recent dispersant meeting (REF 18). Unlike with oil impacts 
along the coast and shoreline, it is very difficult to see the actual 
effects of the dispersed oil in the Ocean. Organisms, that die will 
fall to the seafloor. Those that do not die may not show sublethal 
repercussions for a while. Declining populations of a water column 
species may occur and shoreline species may become severely limited in 
their food sources in addition to being faced with a contaminated food 
source.
    With the increasing volume of oil and dispersants entering the 
system for extended periods of time there may be, at some time, a point 
reached in which the harm to the water column organisms (and now 
potentially benthic organisms) does not outweigh the harm to the 
shoreline. This may be particularly relevant if shorelines are 
increasingly being impacted by the oil. Therefore, these original 
trade-off decisions will become less clear. These dispersants are 
approved for use in the open ocean, although there is no limitation as 
to how much and for how long they can be used. How long can the 
`solution to pollution' reasoning hold? Furthermore, with the continued 
production of dispersed oil plumes from the surface and from the ocean 
floor will the dispersed oil plume reach the shallower, coastal 
locations that the decision to use dispersants has been based on? It is 
quite possible that a dispersed oil plume may reach and impact a 
shoreline.
In summary
    Chairman Bordallo and members of the subcommittee I would like to 
thank you again for allowing me to testify today regarding the effects 
of oil spill dispersants. We face huge challenges to protect our 
coastal and oceanic ecosystems. As in the case of oil spills this 
sometimes involves making difficult trade-off decisions on what 
ecosystem to protect at the expense of another. However, pollution 
cannot simply be treated as `out of sight out of mind' or that `the 
solution to pollution is dilution'. These assumptions need careful 
analyses on a continued basis that depend upon sound scientific data. 
The proprietary components in dispersants should be made available to 
researchers and further toxicity testing of dispersants is required 
especially if considering alternate formulations. Although many 
decisions are based upon acute short-term toxicity studies we are 
constantly unraveling new and more subtle sublethal toxicological 
pathways and toxicity mechanisms. These sublethal impacts ultimately 
have dire consequences to a species survival, consequences of which 
alter the fine balance of food webs, alter ecosystem services, and the 
overall health of the environment. During an oil spill event it is hard 
to assess the effects on the organisms that you do not see and equally 
challenging to follow the potential long-term consequences of the 
spill. More respect needs to be given to efforts directed at baseline 
monitoring and mapping of our Oceans and seafloor ecosystems. We cannot 
assess impacts or follow restoration efforts unless we know what 
species were there beforehand. We need to monitor the subsurface 
plume(s) in space and time.
    There are still many unanswered questions and uncertainties 
associated with the decisions to apply dispersants. I emphasize the 
recommendations for additional studies made in the recent NRC report 
that will help fill these critical data gaps in the knowledge and 
understanding of the behavior and interaction of dispersed oil on the 
biotic components of ecosystems (see REF 10). Whatever choices are made 
this unfortunate recent event in the Gulf will impact ecosystem health, 
local economies, food sources and recreational activities, the extent 
to which is currently unknown. We need better information to close 
these uncertainty gaps that oil spill response decisions are based upon 
and we need it now. Thank you.
References Cited:
     1.  Sole M., Porte C., Biosca X., Mitchelmore C.L., Chipman J.K., 
Livingstone D.R. and Albaiges J. 1996. Effects of the Aegean Sea oil-
spill on biotransformation enzymes, oxidative stress and DNA-adducts in 
digestive gland of the mussel (Mytilus edulis L.). Comp. Biochem. 
Physiol. C-Pharmacology, Toxicology and Endocrinology, 113, 2, 257-265.
     2.  Rowe, C.L., Mitchelmore, C.L. and Baker, J.E. 2009. Lack of 
biological effects of water accommodated fractions of chemically- and 
physically-dispersed oil on molecular, physiological, and behavioral 
traits of juvenile snapping turtles following embryonic exposure. 
STOTEN, 407, 20, 5344-5355.
     3.  Mitchelmore, C.L., Teasdale, M., Yost, D. and Hatch, W. (to be 
submitted Summer 2010). Effects of the oil dispersant Corexit 9500 on 
two symbiotic cnidarian species following short-term laboratory 
exposures. (Data available now in the final report submitted to the 
funding agency if requested).
     4.  Mitchelmore, C.L., Teasdale, M., Walters, J., Beard, E. and 
Baker, J.E. (to be submitted Summer 2010). Acute and sublethal effects 
of oil, dispersant (Corexit 9500) and dispersed oil on the temperate 
sea anemone (Anthopleura elegantissima) following laboratory exposures. 
(Data available now in the final report submitted to the funding agency 
if requested).
     5.  Mitchelmore, C.L., Teasdale, M., Yost, D., McDonald, A., 
Beard, E., Baker, J.E. and Hatch, W. (to be submitted Summer 2010). 
Acute, sublethal and long-term effects of oil, dispersant (Corexit 
9500) and dispersed oil on the tropical soft coral (Xenia elongata) 
following laboratory exposures. (Data available now in the final report 
submitted to the funding agency if requested).
     6.  Mitchelmore, C.L. and Hyatt, S. 2004. Assessing DNA damage in 
cnidarians using the Comet Assay. Mar. Environ. Res., 58, 2-5, 707-711.
     7.  Mitchelmore C.L. and Chipman J.K. 1998. DNA strand breakage in 
aquatic organisms and the potential value of the comet assay in 
environmental monitoring. Mutation Res.-Fundamental and Molecular 
Mechanisms of Mutagenesis, 399, 2, 135-147.
     8.  Mitchelmore C.L. and Chipman J.K. 1998. Detection of DNA 
strand breaks in Brown Trout Salmo trutta) hepatocytes and blood cells 
using the single cell gel electrophoresis (comet) assay. Aquat. 
Toxicol., 41, 1-2, 161-182.
     9.  Mitchelmore C.L., Birmelin C., Livingstone D.R. and Chipman 
J.K. 1998. Evidence for cytochrome P450 catalysis and free radical 
involvement in the production of DNA strand breaks by benzo[a]pyrene 
and nitroaromatics in mussel (Mytilus edulis L.) digestive gland cells. 
Aquat. Toxicol., 41, 3, 193-212.
    10.  NRC, 2005. Oil Spill Dispersants; Efficacy and Effects. 
National Academies Press, Washington DC.
    11.  NRC, 1989. Using Oil Spill Dispersants on the Sea. National 
Academies Press, Washington DC.
    12.  http://www.epa.gov/oem/docs/oil/ncp/schedule.pdf
    13.  Clark, J.R., Bragin, G.E., Febbo, R.J. and Letinski, D.J. 
2001. Toxicity of physically and chemically dispersed oils under 
continuous and environmentally realistic exposure conditions: 
Applicability to dispersant use decisions in spill response planning. 
Pp. 1249-1255 in Proceedings of the 2001 International Oil spill 
Conference, Tampa, Florida. American Petroleum Institute, Washington, 
D.C.
    14.  Barron, M.G. and L. Ka'aihue. 2001. Potential for 
Photoenhanced toxicity of spilled oil in Prince William Sound and Gulf 
of Alaska waters. Marine Polution Bulletin, 43, 86-92.
    15.  Wolfe, M.F., Schwartz, G.J.B., Singaram, S.,Mielbrecht, E.E., 
Tjeerdema, R.S. and Sowby, M.L. 2001. Influence of dispersants on the 
bioavailablity and trophic transfer of petroleum hydrocarbons to larval 
topsmelt (Atherinops affinis). Aquatic Toxicology, 52, 49-60.
    16.  Ramachandran, S.D., Khan, C.W., Hodson, P.V., Lee, K. and 
King, T. 2004. Role of droplets in promoting uptake of PAHs by fish 
exposed to chemically dispersed crude oil. Pp. 765-772 in Proceedings 
of the Twenty-Seventh Arctic Marine Oillspill Program (AMOP) Technical 
Seminar, Edmonton, Alberta, Canada.
    17.  Payne, J.R. and Driskell, W.B. 2003. The importance of 
distinguishing dissolved- versus oil-droplet phases in assessing the 
fate, transport, and toxic effects of marine oil pollution. Pp. 771-778 
in Proceedings of the 2003 International Oil Spill Conference, 
Vancouver, Canada. American Petroleum Institute, Washington, D.C.
    18.  http://www.crrc.unh.edu/dwg/
dwh_dispersants_use_meeting_report.pdf
    19.  Jernelov, A. and Linden, O. 1981. Ixtoc I: A Case Study of the 
World's Largest Oil spill. Ambio, 10, 6, 299-306.
                                 ______
                                 

 [NOTE: Dr. Mitchelmore's responses to questions were not received by 
        the time this hearing went to print.]

    Ms. Bordallo. Thank you very much, Dr. Mitchelmore, for 
making these important points about the impacts of this 
situation.
    Mr. Cresson, we will hear from you next.
    Mr. Voisin. Thank you.
    Female Voice. Mr. Voisin. I am sorry.
    Mr. Voisin. Thank you. I am Mike Voisin.
    Ms. Bordallo. Oh, I am sorry.
    Mr. Voisin. That is OK, Madam Chair. Nobody can pronounce 
my name.
    Ms. Bordallo. Voisin. Voisin.
    Mr. Voisin. Voisin.
    Ms. Bordallo. Correct.
    Mr. Voisin. It means neighbor in French.

   STATEMENT OF MIKE VOISIN, CEO, MOTIVATIT SEAFOODS, HOUMA, 
                           LOUISIANA

    Mr. Voisin. Thank you for the opportunity to speak to you 
today and the Committee about the impacts of the Deepwater 
Horizon oil spill in the Gulf of Mexico. I am a seventh 
generation seafood and oyster farmer and processor in the Gulf 
of Mexico.
    Charles Darwin said a long time ago that it is not the 
strong that survive. It is not the most intelligent, but those 
that adapt to change. In south Louisiana we are used to 
adapting to change. Sometimes it comes rapidly at us. Sometimes 
it takes time.
    The spill is clearly an ecological and human challenge that 
will surely affect not only the fragile habitats where 
fisheries, including shrimp and oysters, are harvested, but the 
very core of the community that brings these iconic delicacies 
from the waters of the Gulf to the tables of America.
    The Gulf community is one built not only on the bounty of 
pure waters, but on the backs of small businessmen and women 
whose families, like mine, immigrated to the shores of 
Louisiana, called by the sea and a culture like no other in 
this country. The culture and those Americans, we now need your 
support during these challenging times.
    Fishermen, shrimpers, oystermen who harvest safe, healthy 
seafood from the Gulf are being impacted by precautionary 
closures of state and Federal waters along parts of the coast 
like no other else in the region. We support the precautionary 
closures in order to ensure consumers continue to have access 
to seafood maintained with a level of quality and safety 
expected from the Gulf, but the impact of these needed safety 
precautions falls disproportionately on the men and women who 
work the waterways.
    The short- and long-term impacts of the spill are being 
felt and will be felt for a considerable amount of time in Gulf 
Coast communities. Short-term, besides the environmental and 
resource challenges, there are lost incomes and insecurities 
about the future ability to earn an honest living.
    Longer term is difficult to prognosticate at this time, 
since the event continues and the economic and human challenges 
are not yet close to being complete and understood. In my 
written testimony I have lists of what I consider the short- 
and long-term impacts.
    There needs to be a continued long-term commitment by the 
Federal Government, the Gulf states and, most importantly, the 
responsible party to mitigate the damages and return our 
communities to what they were prior to these challenging times.
    In 2008, our 17,000 commercial fishermen in Louisiana alone 
harvested 1.27 billion pounds of seafood, creating a total 
economic impact of over $2.4 billion. Meanwhile, 3.2 million 
recreational fishermen along our shores took to the waters, 
completing a total of 24 million fishing trips.
    The reality of the potential economic impact of the oil 
spill on species like oysters may be extensive. The Gulf of 
Mexico states lead the Nation in the production of oysters. My 
home, Louisiana, is the second largest seafood producing state 
in the country, and the impact of the spill on our fisheries 
and our businesses are sure to range from immediate to long 
term, as I have previously discussed.
    But just how much of an impact it will have can't be 
determined yet. We are not just talking about multiple habitats 
and multiple species like crabs, shrimp and oysters and 
finfish. We are talking about multiple communities--St. 
Bernard, Plaquemines, Terrebonne, Jefferson, Vermillion, St. 
Mary, Iberia and Lafourche Parishes--as well as all the Gulf 
states.
    One of the challenges we are also faced with is this 
moratorium on oil and gas exploration in the offshore. That is 
the second, a greater tragedy in my mind that what is happening 
almost with the oil spill. The oil spill is a tragedy and it is 
an economic challenge, but the moratorium being put on will be 
the potential death knell to these communities. We must have 
that moratorium lifted so that these communities can viably 
move forward and continue to have an economic base.
    In leaving I will share with you a quote from Raul Armesto, 
and it says, ``The world isn't interested in the storms you 
encountered, but whether or not you brought in the ship.'' I 
will share with you that we will bring that ship in. We have 
had many storms in the last five years, and we will work 
through this challenge and we will bring the ship in.
    I must apologize. I have to leave to catch a plane. We have 
to meet with some Cabinet Members in New Orleans tonight, 
having dinner and some meetings, so I would be glad for a 
couple minutes if you have any questions of me. I will be glad 
to answer them. If not, I really have to leave to catch that 
plane. Thank you.
    [The prepared statement of Mr. Voisin follows:]

       Statement of Michael C. Voisin, Motivatit Seafood's LLC, 
             Gulf Oyster Industry Council, Houma, Louisiana

    Good morning, Thank You for the opportunity to speak to the 
Committee today about the impact of the Deepwater Horizon oil spill in 
the Gulf of Mexico.
    The spill is clearly an ecological and human challenge that will 
surely effect not only the fragile habitats where fisheries, including 
shrimp and oysters are harvested but the very core of the community 
that brings these iconic delicacies from the waters of the Gulf to the 
tables of America. The Gulf community is one built not only on the 
bounty of pure waters but on the backs of small business men and women 
whose families, like mine, emigrated to the shores of Louisiana; called 
by the sea and a culture like no other in this country.
    That culture and those Americans need your support during these 
challenging times. Fishermen, shrimpers and oystermen who harvest safe 
healthy seafood from the Gulf are being impacted by precautionary 
closures of State and Federal waters along parts of the coast like no 
one else in the region. We support the precautionary closures in order 
to ensure consumers continue to have access to seafood maintained with 
the level of quality and safety expected from the Gulf but the impact 
of these needed safety precautions fall disproportionately on the men 
and women who work the water.
    The short and long-term impacts of this spill are being felt and 
will be felt for a considerable amount of time in Gulf Coast 
Communities. Short term, besides the environmental and resource 
challenges there are lost incomes and insecurities about the future 
ability to earn an honest living. Longer term is difficult to 
prognosticate at this time since the event continues and the economic 
and human challenges are not yet close to being complete and 
understood. I have listed below a number of thoughts relating to both 
short and long term challenges.
    There needs to be a continued long term commitment by the Federal 
government, the Gulf Coast States and most importantly the responsible 
party to mitigate the damages and return our communities to what they 
were prior to these challenging events.
    In 2008, our 17,000 commercial fishermen in Louisiana alone 
harvested 1.27 billion pounds of seafood, creating a total economic 
impact of over $2.4 billion. Meanwhile, 3.2 million recreational 
fishermen along our shores took to the water completing a total of 24 
million fishing trips.
    The reality of the potential economic impact of the oil spill on 
species like oysters could be extensive. The Gulf of Mexico States lead 
the nation in the production of oysters; nearly 70% of all the oysters 
harvested in this country or some 500 million pounds of in-shell 
oysters are produced annually with an annual total economic impact of 
over $600 million. That's more than 250 million pounds of in-shell 
oysters from Louisiana alone.
    My home, Louisiana, is the second largest seafood producing state 
in the country and the impact of the spill on our fisheries and our 
business are sure to range from immediate to long term as I have 
previously discussed. But just how much of an impact it will have can't 
be determined at this point because there's never been an oil spill of 
this magnitude in the Gulf and unfortunately, at last check, the oil 
continues to flow.
    We're not just talking about multiple habitats, multiple species--
crabs, shrimp, oysters, fin fish--we're talking about multiple 
communities and multiple livelihoods St. Bernard, Plaquemines, 
Terrebonne, Jefferson, Vermillion, St. Mary, Iberia and Lafourche 
Parishes as well as all of the Gulf States.
    Thank you for doing your part to focus on the impact this disaster 
is having on another irreplaceable resource we pride our selves on in 
the Gulf. . .the Seafood Community.
    I will be glad to answer any questions you may have.
Potential Short and Long Term Impacts;
        1)  The short and long-term impacts of this oil spill on the 
        local community--Workers are starting to lose their jobs, 
        they'll stop spending as freely in the community, homes sales 
        are going to suffer (as well as sales tax revenue). . .this is 
        going to ripple through the entire community as the fishing 
        community idles, layoffs continue (they're already starting). 
        Government services budgets will tighten, potentially long 
        term, we may be looking at a loss of population as people look 
        for work in other areas or move in with family members in other 
        communities and states
        <bullet>  Short term
                <all>  Extreme stress of the presence of liquid hydro 
                carbons introduced to the fisheries and wild life 
                habitat areas causing potential casualties in some 
                species
                <all>  Greater demands placed on community services 
                that include but are not limited to rental assistance, 
                utility assistance, food stamps, and unemployment 
                benefits.
                <all>  Loss of wetlands--direct damage and further 
                destruction of the wetlands increases flooding risks 
                from hurricanes
                <all>  Loss of Jobs
                        <bullet>  Fisheries--not able to fish because 
                        of closure of fishing areas, oyster leases and 
                        shortened season. Erratic seasonal openings and 
                        closings driving up fuel and provision costs. 
                        Support business closing because of a lack of 
                        inventory (processors), lack of customers 
                        (docks and ice houses)--and lack of market 
                        (concern about contamination). The traditional 
                        transition industry that those working in the 
                        fisheries depend up to survive difficult time 
                        is the oil field service industry
                        <bullet>  Oilfield service--Current Moratorium 
                        on drilling will force drilling operation to 
                        other countries causing significant layoffs 
                        starting immediately and lasting for 
                        potentially up to 5 years
                        <bullet>  Commercial retail--Small grocery 
                        stores, marine mechanics and dock service 
                        companies in the lower areas of the States that 
                        service the fishing community will be hard hit. 
                        Local restaurants that depend on an abundance 
                        of local, available seafood will be challenged.
                        <bullet>  Recreation and leisure--Multiple 
                        bookings have been canceled by those seeking 
                        recreational fishing among the charter 
                        companies. Bird watching, swamp tours and 
                        recreational boating will be negatively 
                        impacted.
                        <bullet>  Banking--Many of the local and 
                        regional banks may be at risk because of 
                        limited portfolios to the region.
                <all>  Loss of cultural livelihoods
                        <bullet>  subsistence fishermen and hunters no 
                        longer able to live off of the land--many 
                        Native American and/or some Vietnamese
        <bullet>  Long term
                <all>  Review and reevaluation of Census data--our 
                census data has been mostly collected but will not 
                reflect the short or long term damages to the community 
                that will include the sudden loss of income and rise of 
                unemployment. Ineligibility relating to federal 
                assistance and support funds will further hamper and 
                impede community outreach, infrastructure rebuilding 
                and economic development programs availability.
                <all>  Loss of large capital equipment to other 
                countries with the oilfield service companies
                <all>  Loss of tax revenue
                <all>  Loss of population seeking work
                <all>  Loss of business infrastructure
                <all>  Loss of local lending capacity
    2) The need for prolonged commitment by the Federal government, the 
States, and the responsible party to mitigate damages. The Responsible 
Party needs to be responsive to the individuals, communities and 
businesses its actions are impacting and in a timely manner. Allowing 
for an extended reviews process (two to three weeks for some) for 
claims to be processed is unreasonable when it means the business may 
close. The States must be nimble in their response and support of 
business' needs--we cannot wait 18 months (or longer) to implement 
programs to assist in this disaster.
    British Petroleum role and responsibility--Fund the cleanup and 
restoration of our environment. Take the initiative in the areas that 
their expertise is unique or proprietary.
        <bullet>  Federal role and responsibility--Oversee and insure 
        delivery of goods, services, technical assistance, enforcement 
        of law, restitution and replacement to extent the damages 
        warrant. Insure the delivery system for a plan of recovery.
        <bullet>  State role and responsibility--Insure continuity and 
        relevance of requests for reimbursement of damages made. 
        Estimate the total potential loss and develop a plan in 
        conjunction with local officials to insure as rapid a recovery 
        as possible
        <bullet>  Local role and responsibility--make relevant claims. 
        Work with the States to develop a broader strategy to recovery. 
        Inform the Federal Agencies of issues not being resolved. Make 
        known to all three the impacts of their actions and any 
        unintended consequences thereof.
    3) The sufficiency of community outreach to disseminate information 
to and receive information from the public about the environmental 
impacts of this oil spill
        <bullet>  Environment impact
                <all>  Assess and monitor fisheries to reassure the 
                safety of domestic product
                <all>  Resonation of the wetlands to insure the 
                stability of the marsh, for all species rebound, 
                protect the citizenry from hurricane
                <all>  Transparence is critical to regain the trust of 
                the citizenry
        <bullet>  Economic development
                <all>  Local economic development organizations and 
                planning and development districts need to be 
                coordinated
                <all>  Unintended consequences developing because of 
                lack of coordination and inclusion are further damaging 
                the economic environment of the community
        <bullet>  Workforce development
                <all>  Work with local economic development, community 
                colleges and workforce investment boards to develop 
                strategies to bridge the unemployment gaps.
                                 ______
                                 

 [NOTE: Mr. Voisin's responses to questions were not received by the 
        time this hearing went to print.]

    Ms. Bordallo. Thank you, Mr. Voisin. Voisin. Is that 
correct?
    Mr. Voisin. Voisin.
    Ms. Bordallo. Voisin.
    Mr. Voisin. Voisin.
    Ms. Bordallo. All right. Thank you for sharing your 
concerns, and if you do leave, we understand.
    I have one more person I would like to call upon for this 
second panel. I am doing this to accommodate our Ranking 
Member, Mr. Cassidy, since he is one of his constituents.
    So I would like to call on Mr. Cresson, Executive Director 
and CEO of the Coastal Conservation Association Louisiana. 
Could you please come up and take a seat at the table with the 
second panel? All right. And please proceed with your 
testimony.

STATEMENT OF DAVID CRESSON, EXECUTIVE DIRECTOR AND CEO, COASTAL 
   CONSERVATION ASSOCIATION LOUISIANA; BATON ROUGE, LOUISIANA

    Mr. Cresson. Yes, ma'am. Thank you. Madam Chairman, thank 
you for calling on me to testify today. My name is David 
Cresson. I am the Executive Director of the Coastal 
Conservation Association of Louisiana.
    Our Louisiana chapter of CCA has more than 15,000 members 
and volunteers. Our national organization has about 100,000 in 
17 coastal states. We are involved in a number of conservation 
projects, including building artificial reefs across our coast 
that contribute to restoration efforts and create fish habitats 
for species that are targeted by anglers.
    Serving as executive director of CCA Louisiana is my job, 
but it is much more than that to me. I am a Louisiana native 
who was brought up fishing, hunting and enjoying the Louisiana 
outdoors. Many of my fondest memories growing up in New Orleans 
are the times spent on the water with my dad, trying to catch 
trout and redfish.
    I grew up dreaming of the day that I could own my own boat 
and fishing camp, so that I could treat my own children to 
those same wonderful times. A few years ago I was able to 
purchase a fishing boat and later a modest camp in Plaquemines 
Parish near the mouth of the river. Until the oil spill, my 
family and I spent many of our weekends at our little camp, 
fishing and enjoying the time together.
    In an instant, that has been taken from us. Now the area 
around our camp is saturated by oil and closed to fishing so 
that what we have now is a boat we can't use and a camp we 
can't use. An important part of our family activities have been 
taken from us. Now, if my situation were an isolated one, there 
wouldn't be much to discuss. The problem is that my situation 
is one of thousands like it across our state.
    Recreational fishing is much more than an occasional trip 
to the coast. You will see in my written testimony that an 
extended Gulf-wide recreational closure will cost us billions 
of dollars and thousands of jobs. These are friends and 
families who have built lives over decades that are being 
destroyed as the oil overtakes our coast. We simply don't know 
if the many small businesses that rely on recreational 
fishermen using their services will survive.
    Studies will be required to learn the harm that the oil has 
inflicted on marine life. Programs will be needed to reverse 
that damage. CCA will be a partner in conducting these studies, 
and we will be involved in the rebuilding effort.
    Moving forward, CCA believes there are two areas that must 
be addressed in the fisheries recovery--new artificial reefs 
and a large fish hatchery. Over the years, CCA has been active 
in coordinating construction of numerous artificial reefs along 
our coast. These reefs serve as habitats for all sorts of 
marine life, including the species targeted most by our 
anglers.
    Our reef projects stretch from the eastern coast to the 
western coast of Louisiana, and as part of the rebuilding 
effort, we propose that many new artificial reefs using 
recycled, safe materials be constructed across our coast to 
attract the type of marine life that is being killed or chased 
away by the oil spill. The project would cost an estimated $20 
million.
    Along with our Wildlife and Fisheries Department, we also 
propose building a state-of-the-art fish hatchery in Louisiana. 
Before the spill, Louisiana's estuaries were some of the 
richest in the world, meaning there was no need for a hatchery 
system to supplement fish populations. There is no question 
that the spill will have an effect on our current fish 
populations, but an even greater effect on the next several 
years of species recruitment.
    Very simply, oily water cannot support fish spawning. Our 
fish population and, therefore, our economy will be devastated 
without a hatchery to supplement the process. The project will 
cost between $50 and $75 million to complete, but that is a 
drop in the bucket when you consider what is at stake. We need 
our friends in the Federal Government to support this project.
    Madam Chair and Members of the Subcommittee, CCA's reason 
for existing is to conserve our marine resources. Never in our 
history have we encountered a manmade disaster such as this, a 
disaster we anticipate will wreak more damage on our fish 
resources than any hurricane ever has.
    Facing adversity is nothing new to the people of Louisiana. 
Over the years, we have been devastated by hurricanes, floods 
and other disasters. Our people have the spirit and the stamina 
to overcome, but clearly this is not a battle we can win alone. 
We will need the great resources of the Federal Government and 
that of the parties responsible for this disaster to help us.
    In closing, I have a personal friend who was killed in the 
explosion on the Deepwater Horizon, a young man whose wife was 
expecting their second child just days after the accident. I 
attended his funeral and mourned with his family, still shocked 
at the unthinkable loss.
    Over the past several weeks, I have visited the once 
vibrant marsh and picked up handfuls of thick, sludge-like oil. 
I have looked into the eyes of fishermen and small businessmen 
who have a lifetime invested in our coast. I have seen tears in 
grown men's eyes as they talk about closing their doors. I have 
seen the disappointment in my own children when I tell them I 
don't know when we can fish again.
    On behalf of CCA, my family and the hundreds of thousands 
of Louisianans who have made a life on our coast, we need you 
to help provide the resources that will make it possible for us 
to one day resume our lives as we once knew them. I thank you 
for your time.
    [The prepared statement of Mr. Cresson follows:]

            Statement of David Cresson, Executive Director, 
               Coastal Conservation Association Louisiana

    Good morning Madame Chairwoman. My name is David Cresson, and I am 
the executive director of the Coastal Conservation Association of 
Louisiana. I am a native Louisianian and a recreational fisherman. I 
would like to thank you for this opportunity to address the Committee 
as it discusses the long and short term impacts of the Deepwater 
Horizon Oil Spill.
    CCA was created 33 years ago by recreational anglers who were 
frustrated by the damage being done to marine resources in the Gulf of 
Mexico from rampant commercial overfishing. Although today CCA has 
about 100,000 members in 17 state chapters along the Gulf, Atlantic and 
Pacific coasts, it all began with just 14 men and women who saw a need 
to combat commercial fishing excesses and conserve the resources that 
they cherished. Their spirit of conservation and stewardship started 
with the ``Save the Redfish'' campaign and soon swept across the entire 
Gulf Coast. By 1985, Gulf-state chapters had formed from Texas to 
Florida. By decade's end, state chapters were founded through the mid-
Atlantic region, and by the early `90s, development of the New England 
state chapters was completed. In 2007, Washington and Oregon opened CCA 
chapters.
    CCA has been active in virtually every national marine fisheries 
debate since 1984 and has participated productively in state and 
federal fisheries management issues for longer than three decades. CCA 
continues to operate as a three-tiered organization, affecting issues 
on the local, state and national levels. We have built a very 
successful model for marine conservation, one in which our members are 
tied directly to the resources they cherish through stewardship and 
conservation programs. Our members have fully embraced their role as 
stewards of the marine environment.
    CCA Louisiana had more than 15,000 members before April 20, 2010, 
when the Deepwater Horizon rig exploded and sank 50 miles off our 
coast. Those members have played an important role in securing 
Louisiana's title as the Sportsman's Paradise. They have been engaged 
in countless programs and projects to secure the future of our 
cherished marine resources.
    Before the oil spill, CCA Louisiana was celebrating its 25th 
anniversary. Our membership was at an all-time high. We were 
celebrating things like the inauguration of a CCA scholarship in marine 
sciences and a significant increase in youth participation in our STAR 
tournament. We were celebrating the growth of our artificial reef 
program through which we have spent millions of dollars over the years 
to build and restore marine habitat. We were celebrating our highly 
successful derelict crab trap removal program, a new youth education 
program, and the growth of our scientific fish tagging program. We were 
celebrating the successful removal of indiscriminate and destructive 
fishing gear from state waters. We were celebrating the signing of a 
Presidential executive order making red drum a game fish in federal 
waters. We were celebrating the dedication of our brand new state 
headquarters in Baton Rouge.
    We were celebrating the thousands of ways sportsmen and sportswomen 
have shown their commitment to protecting and conserving the unique 
marine environment that is a way of life for us in Louisiana.
    I am here today to tell you that the celebration is over. I am here 
to tell you that many of our members believe that all that work and 
effort and sacrifice is in mortal jeopardy. Many of our members believe 
that the future they were working so hard to secure, a future in which 
their kids and grandkids would have the same opportunity to enjoy 
coastal Louisiana in the same ways that they did, is threatened. Many 
of our members believe that the danger that faces not just Louisiana, 
but all of the Gulf States is beyond their ability to control, impact 
or influence. And they are scared. Scared and angry.
    There have not been many challenges in the past 25 years that the 
members of CCA Louisiana have not met head on, with their eyes clearly 
on the horizon. What I see now is a remarkably committed group of 
people who, for the moment at least, simply don't know where to even 
begin. The challenge before us is playing out on such a scale that not 
even the men and women of CCA Louisiana, the same ones who have beaten 
the odds time and again in their efforts to protect their marsh, their 
coast, their Gulf and their fish, can find a way to answer it.
    I have no doubt that we will find a way to reverse this disaster. I 
am confident that these darkest of days will be beaten back by the 
people of Louisiana through the same types of projects that have 
defined CCA since the beginning. We will rebuild reef by reef, acre by 
acre, fish by fish. When the leak is plugged and the last camera is 
turned off, when the rest of the world is no longer focused on the Gulf 
of Mexico, we will still be here, as we always have been, ready to do 
what needs to be done to restore the heart and soul of Louisiana. And 
that will be enough. It will be enough because it HAS to be enough. 
Because many of us are convinced that when hearings like these have 
come to an end, there will still be much work to be done. Most of that 
work will be done under a hot sun, by small groups of people, 
struggling in the mud and muck, to rebuild by our hands what was 
destroyed by others. That work will be done out of the spotlight, away 
from the microphones, out of sight and out of mind of the vast majority 
of people watching now.
    And that will be OK. If I may be so bold as to speak on behalf of 
the people of Louisiana, we have been here before.
    I am glad to have this opportunity before you today not to cast 
blame or come with hand outstretched. I am glad to have this 
opportunity today to tell you about groups like CCA, groups that will 
not just go away when the going gets tough. I am glad to be here today 
to tell you of the men and women who are going to suffer from a 
terrible mistake not of their own making, and who are going to find the 
will not only to survive, but also ensure the survival of the things 
they hold dear. It is often when we have lost faith in the things of 
man that we turn to the things of nature to restore our faith in 
ourselves. I believe it will be that way in Louisiana.
    It will not be easy, though. The connection that our members feel 
to the marine life of the marsh and of the open Gulf is at a tenuous 
point. There is a very real danger that, having been cut off from the 
Gulf of Mexico, having watched the marsh die around them, some people 
may find it difficult or impossible to return. We hope that is not the 
case, but no one should underestimate the psychological and financial 
impacts a slow-motion, unstoppable disaster like this can have on a 
region. Especially one that is tied so intrinsically to the marsh.
    I have a camp in Buras, Louisiana--near the mouth of the 
Mississippi River in Plaquemines Parish--that is a refuge for me and my 
family. It is our gathering place, it is the place where I hoped to 
craft a lifetime of memories for my kids, just as my father and I 
cemented our relationship in the outdoors hunting and fishing. What 
will become of that camp if the environment around it is poisoned? What 
will become of the businesses that depend on people like me going to 
their camps, going fishing, buying fuel for their boats and trucks, 
eating out at local restaurants, visiting local bait shops and tackle 
shops? When the marsh dies, the economy that is built around it will 
inevitably die as well, and that is as great a threat to our way of 
life as the oil itself.
    The oil spill has resulted in some of the largest fishery closures 
in history of the Gulf of Mexico, closures that impact both the 
anglers, tournaments and the businesses that rely on angler 
expenditures. While much of the focus both in the media and in this 
Administration has been on the impacts to commercial fishing 
operations, the damage done to the recreational sector by this disaster 
must be addressed as well. It may very well be larger in economic 
terms.
    According to a recent economic impact study conducted by Gentner 
Consulting Group for the American Sportfishing Association, if the 
entire Gulf were closed to recreational fishing from May through 
August, the region would lose $1.1 billion in revenue, which supports 
$2.5 billion in total sales, $1.3 billion in value added, $811.1 
million in income and 18,785 jobs. These are not small numbers. That's 
$8.6 million in expenditures lost for every day of a total closure 
which generates $20.2 million in total sales, $10.5 million in value 
added, $6.6 million in income and supports 22 jobs every day. These are 
just numbers to many of the people at this hearing--statistics to be 
pored over by economists and lawyers. But these are our friends, our 
supporters, our neighbors and our families. These are lives that have 
been built over the decades that are ebbing away like the tide, as the 
oil makes its way inexorably towards our coast.
    Some may point out that the entire Gulf is not closed, nor is it 
likely to ever be all closed at once. Even though the closures 
announced to date have encompassed less than the entire Gulf, and have 
hovered around the 35 percent mark, Gentner asserts that any closure is 
likely to reduce the trips taken by more than just the area closed 
because anglers, particularly non-resident anglers, will likely avoid 
taking a saltwater fishing trip even if their local waters are not 
officially closed due to adverse feelings about encountering the oil 
spill. This will be particularly true as the spill spreads to other 
popular recreational areas on the Florida Coast. If the spill or the 
perception of adverse impacts from the spill further spreads to the 
Keys and Eastern Florida beaches, these damages will increase 
dramatically.
    While unlikely, if the closures last long enough, anglers may quit 
making expenditures on durable equipment entirely. If all durable goods 
expenditures cease in the Gulf of Mexico, $14 billion in revenue will 
be lost annually as a result of the Deepwater Horizon incident. This 
level of expenditure supports $32.8 billion in total sales, $26.3 
billion in value added, $10.7 billion in income and 261,855 jobs. 
Fifty-thousand of those jobs are in Louisiana. While it is unlikely 
that all durable equipment expenditures will cease, the longer the 
closures persist, the more likely that anglers will buy fewer lures, 
rods and reels, other equipment, etc. Others may pull their boats and 
end expenditures on boat maintenance and storage. Boaters will think 
twice about upgrading or buying a new boat this year and all these 
choices have negative economic consequences directly tied to the spill.
    Admiral Thad Allen pointed out last weekend that the crisis created 
by the oil spill will continue until the fall. As Admiral Allen put it, 
and I quote: ``This is a siege across the entire Gulf. This spill is 
holding everybody hostage, not only economically but physically. And it 
has to be attacked on all fronts.''
    Nobody really knows what long-term impact the spill will have on 
recreational fishing. We do know the immediate impact, and it is that 
recreational fishing in the closed areas is down to zero. We do know 
that we will have an enormous rebuilding job. The longer the crisis 
lasts, the longer it will take to get back to where we were. We don't 
know if the many small businesses that rely on recreational fishermen 
using their services can survive. Even CCA, a charitable organization, 
will suffer serious financial hardship due to reduced memberships and 
tournament entries.
    Studies will be required to learn the harm that massive amounts of 
crude oil have inflicted on marine life. Programs will have to be 
implemented to reverse that damage. CCA will be a partner in conducting 
these studies and we will be deeply involved in the rebuilding effort.
    There are two important areas that CCA believes must be addressed 
in the recovery--new habitat, namely artificial reefs and grass 
plantings, and a significant fish hatchery and research center.
    Over the years, CCA has been active in coordinating construction of 
numerous artificial reefs along our coast. These reefs serve has 
habitats for all sorts of marine life, including the species of fish 
targeted by most anglers. Our reef projects stretch from the eastern 
coast to the western coast of Louisiana. As part of the rebuilding 
effort, we propose that many new artificial reefs--using safe, clean 
recycled materials--be constructed across our coast to attract the type 
of marine life that is being killed or chased away by the oil spill and 
to replace reefs that will be damaged or destroyed by the oil settling 
out of the water column. This project would cost an estimated $20 
million.
    Along with our Department of Wildlife and Fisheries, we also 
propose building a state of the art fish hatchery in Louisiana. Before 
the spill, the estuaries in Louisiana were some of the richest in the 
world, meaning there was not a significant need for a hatchery system 
to supplement fish populations. There is no question that the oil spill 
will have an effect on our current fish population, and an even greater 
effect on the next several years of species recruitment. Very simply, 
oily water cannot support fish spawning. Referring to Gentner 
Consulting Group's numbers above, we cannot afford several years of 
greatly reduced or no spawn. Our fish population (and therefore our 
economy) will be devastated without a hatchery to supplement the 
process. The project will cost between $50-$75 million to complete. . 
.a drop in the bucket when you consider what is at stake. We will rely 
on our friends in the federal government to support this project.
    Madam chair and members of the subcommittee, CCA's reason for 
existing is to conserve our marine resources. It is what we were 
founded on and what drives our vision. Never in our history have we 
encountered a man-made disaster such as the BP oil spill. For that 
matter, we anticipate that the oil spill will wreak more damage to our 
fish resources than any hurricane has done.
    Facing adversity is nothing new to the people of Louisiana. Over 
the years, we've been devastated by hurricanes, floods and other 
disasters. Our people have the spirit and stamina to overcome great 
obstacles, but clearly this is not a battle we can fight and win alone. 
We will need the great resources of the federal government and that of 
the parties responsible for this disaster to help us.
    I have a personal friend who was killed in the explosion on the 
Deepwater Horizon. . .a young man whose wife was expecting their second 
child just days after the accident. I attended his funeral and mourned 
with his family, still shocked at the unthinkable loss. Over the past 
several weeks, I have visited the once vibrant marsh and picked up 
handfuls of thick, sludge-like oil. I have looked into the eyes of 
fishermen and small businessmen who have a lifetime invested in our 
coast. I have seen tears in their eyes as they talk about closing their 
doors. I have seen the disappointment in my own children when I tell 
them I don't know when we can fish again. On behalf of all of CCA, my 
family and hundreds of thousands of Louisianans who have made a life on 
our coast, we don't expect anybody to come in and rescue us; we just 
want to be provided the resources that will make it possible for us to 
one day resume our lives on the coast as we once knew them.
    Thank you.
                                 ______
                                 

 [NOTE: Mr. Cresson's responses to questions were not received by the 
        time this hearing went to print.]

    Ms. Bordallo. I thank you very much, Mr. Cresson, for your 
testimony and to all the others. Certainly the Committee 
understands your plight, and I have great feelings for all of 
you that have lost your livelihoods, and really the future is 
unpredictable.
    I have some questions, and of course the Ranking Member 
will have some questions as well for you. I would like to begin 
with Ms. Robichaux. I was truly struck by your testimony. The 
oil spill looms as a death threat to the Houma culture. What 
will it mean for members of your tribe to be separated from 
each other and from the land that has defined the United Houma 
Nation?
    Ms. Robichaux. It is hard to even discuss this without 
getting quite emotional. We have lived in our traditional lands 
for generation after generation. It is very common to have a 
grandparent living next door to grandchildren and extended 
family. We are a community.
    We have lived that way for many, many years, and the mere 
thought of having to move away from our traditional homeland 
and not live as a community, as a family, is just 
heartbreaking. I don't know how we are going to be able to 
survive that.
    Ms. Bordallo. What is the population of your tribe?
    Ms. Robichaux. We have 17,000 tribal citizens. The majority 
of them live from St. Mary Parish to Plaquemines Parish, so we 
are all along the southeastern coast of Louisiana.
    Ms. Bordallo. The other question that I have is, you 
testified that many tribal citizens do not have options for 
alternative employment. Can you expand upon that?
    Ms. Robichaux. Yes. Our Indian children were not allowed 
into regular public schools until the Civil Rights Act in the 
mid-1960s so the people of my father's generation have only a 
seventh grade education.
    They have trawled and fished and harvested oysters their 
entire lives so it would be really difficult for them, at this 
point, to be trained to do something different. This is what 
they have done for generation after generation so we are tied 
to the fishing industry, whether it is the net makers or the 
extended services that are provided through the fishing 
industry.
    Ms. Bordallo. Now, the other question really applies to 
everybody that has testified here today. I am very curious. 
Have you received any financial assistance after the spill?
    Ms. Robichaux. Some of our tribal fishermen have applied 
for financial assistance from BP.
    Ms. Bordallo. BP.
    Ms. Robichaux. And even that is a challenge because of the 
lack of educational opportunities. We have great concern that 
when they go through the application process, they may be taken 
advantage of and not understand fully what they are signing.
    So, some of them have been able to do that, but even with 
that system, there is no consistency. Our net makers might be 
compensated $1,000, where all of the nets that they have made 
and the orders have been canceled, as well as the fact that no 
more orders are being placed. So, there is really no 
consistency in the process as to how people are being 
compensated.
    Ms. Bordallo. I understand that BP put out a $5,000 
amount--is that correct?--to each of the fishermen whose 
livelihoods have come to a halt? Is that so? $5,000?
    Ms. Robichaux. That is correct. They have made an initial 
payment of $5,000, and it is unclear whether or not there will 
be forthcoming payment.
    And so we have families that are really concerned about 
being able to provide for their families, to pay their bills 
and to provide food on the table because some of them have 
received that $5,000 payment, but we don't know if there is 
going to be another one forthcoming.
    Ms. Bordallo. Well, especially if you have a small fishing 
business and you have employees. I don't know how far $5,000 is 
going. It is just inconceivable that a multi-billion-dollar 
company can issue a $5,000 check a couple of times to the 
fishermen. I don't know. This is something that really concerns 
me.
    Mr. Viles, what do you foresee as the worst case scenario 
for the Gulf of Mexico coastal and marine environment?
    Mr. Viles. Well, I try not to think about that really. I 
think what we have tried to focus on is monitoring the issue 
and responding where we can, and urging a better, more 
proactive response, cleanup, and containment efforts.
    But clearly Louisiana's coastal marsh is what drives the 
ecosystem of the Gulf of Mexico. Ninety-five percent of all the 
marine life in the Gulf of Mexico relies on estuaries, and the 
Mississippi River is by far the most significant estuary in the 
Gulf so this could be a horrific experience for the Gulf of 
Mexico and we might see the impacts from everything from the 
sperm whales that were discussed, and we are very frightened 
about the impacts on that unique pod of whales and the bluefin 
tuna.
    Bluefin tuna are a globetrotting species, and they actually 
come into the Gulf of Mexico every April and May to spawn. 
Clearly this year's spawning class, because they actually spawn 
in this exact BP impact zone, they are going to be impacted.
    But of course meanwhile we have longliners. Thirty-two 
percent of the Gulf Federal fishing waters are closed right 
now. The rest is open. The longline fleet has gone out into the 
open areas, and the longline fleet, even though they are going 
after yellowfin and swordfish, there is an awful lot of bluefin 
bycatch. So we are concerned that we aren't seeing a proactive 
enough response from the Federal fisheries management folks to 
ensure that we are keeping the impact to a minimum right now.
    But clearly it is going to affect everything from the 
shrimp and the oysters on up the food chain. Hopefully it 
won't. We have not seen as widespread an impact to our coastal 
marsh now as we could have. Clearly the oil is still coming and 
will be coming at us for months, so we don't know what the 
worst case scenario is, but we certainly hope that we avoid it.
    Ms. Bordallo. Thank you very much. My time is up, and I 
would like to turn to the Ranking Member now for any questions 
he may have.
    Mr. Cassidy. Mr. Cresson, I have the advantage. I went with 
you down to Plaquemines Parish to see and speak to the marina 
owners, and I was struck. So here we see the fishing industry, 
as Ms. Dardar speaks so well of, is devastated. Second, we see 
that the oil and gas is going to be destroyed by the moratorium 
with the people unable to make their house payments, et cetera.
    What you are saying is that there is a third leg to that 
coastal economy, which is the recreational fishing, and that 
now that third leg may be removed almost as much by perception 
perhaps, as well as by the spill. Now, that just seems the 
harder of the three to address.
    You mentioned the hatcheries, the fisheries. Any other 
specific things you would suggest for this kind of softer, yet 
incredibly significant, source of jobs?
    Mr. Cresson. Yes, sir. Thank you, Congressman. You are 
correct. The recreational fishery is a bit harder to put your 
arms around because there are so many pieces of it that come 
from the great sport that we love down in Louisiana.
    What I would hope for is that this body, and the entire 
Federal Government, consider recreational fishermen and the 
businesses that rely on them in whatever Federal relief package 
is put out there. You heard Secretary Barham earlier talk about 
wildlife.
    Mr. Cassidy. Now, you don't mean me going down to do my 
annual fish, my catching a bunch of speckled trout with my son. 
You mean the people that have the marinas----
    Mr. Cresson. Yes.
    Mr. Cassidy [continuing]. The bait shops, et cetera?
    Mr. Cresson. Absolutely. And the people that rely on you 
and your son to go fish. But the marinas, the bait shops, the 
tackle shops.
    The $5,000 check that the Chairwoman mentioned is simply 
not cutting it for these guys. They are closing their doors on 
a daily basis, and even if they get one next month they will 
close those doors. There is a perception that our recreational 
fishery is closed. That is a major problem because the majority 
of our state waters you are still able to fish.
    But to answer your question directly, Mr. Congressman, we 
need to make sure that the Federal Government and BP recognize 
the needs of recreational fishermen in this industry when the 
time comes, and we thank you for your time.
    Mr. Cassidy. Thank you very much.
    Mr. Cresson. Yes, sir.
    Mr. Cassidy. Mr. Viles, I keep on asking this but 
apparently, frankly, I keep asking because I haven't heard. I 
am not saying that in kind of a rude way. I am just very 
curious.
    The Ixtoc put a tremendous amount of oil into the Gulf. Do 
we know what the sperm whales did during that or the bluefin 
tuna, et cetera?
    Mr. Viles. We don't know. It was an incredibly understudied 
spill. It was in Mexico. Clearly some U.S. resources were put 
to help fight it and help shut it down.
    Red Adair came out, and actually I talked to somebody who 
was the ROV supervisor who watched them go through their golf 
ball exercise as well. Of course, what ultimately shut that 
down was a relief well, which we know is----
    Mr. Cassidy. Now, you imply that we have some sense of the 
bluefin tuna population. In fact, you stated that, and we know 
that it is overfished.
    So is there any sort of--I mean, if we graph it out we can 
say here was the Ixtoc, here was the oil and this is the 
protected population at that time. Was there a dip in the 
population, or did it remain a constant, sort of being 
overfished?
    Mr. Viles. Yes. I don't know. Sorry. I am sorry. That 
research, to my knowledge, has not been done.
    Mr. Cassidy. Ms. Mitchelmore? Dr. Mitchelmore. I am sorry. 
Sorry to be so rushed. I am supposed to vote, and if I don't 
vote I don't get reelected next time.
    Ms. Bordallo. You have two minutes.
    Mr. Cassidy. Two minutes. The problem with the dispersants. 
I am told by NOAA that the effect of the sunlight on the small 
globules and the evaporation of the benzines, et cetera, will 
make the oil by the time it hits the Gulf Stream going up the 
Atlantic probably inert.
    And it may coalesce and form weathered tar balls, but it is 
not going to be something which is going to poison fisheries in 
the Atlantic. And yet your testimony suggested that 
photosensitivity has a different effect than what NOAA is 
suggesting. Any comments on that?
    Dr. Mitchelmore. Yes. That is a couple part question. The 
first is yes, you do lose some of the smaller, volatile oil 
components at the surface and the weathered oil does lose those 
as it moves, but those are the more long-term oil components so 
you have to tease apart what are the acute short-term effects, 
rather than the long-term effects. So these more weathered oils 
will have effects. They are just more long term, like 
carcinogenic effects.
    Mr. Cassidy. Carcinogenic on the fish or upon the humans 
that ingest the fish?
    Dr. Mitchelmore. Both. I mean, it depends.
    Mr. Cassidy. Because the carcinogens, the oil will go to 
the liver. The liver is not typically ingested by the human, so 
I think of other research data showing that mercury affects 
people that eat the liver of the fish, which most of us don't 
eat.
    Dr. Mitchelmore. It depends on the organism you are eating. 
Some organisms can remove the oil better than others, so it 
depends on what you are eating.
    Mr. Cassidy. I have to yield back, and I have to go vote.
    Ms. Bordallo. Thank you. I thank the Ranking Member. Panel 
2, you will be excused.
    We will recess for one hour so that Panel 3 can maybe take 
their lunch, and we will come back in one hour, which would 
make it--what time is it now?
    Female Voice. It is 1:15. 2:15.
    Ms. Bordallo. 2:15. 2:15 we will reconvene.
    [Recess.]
    Ms. Bordallo. Good afternoon. The Subcommittee on Wildlife 
and Oceans will now restart, and I would like to call on the 
third panel to please be seated at the witness table.
    Thank you. I would like to introduce the members of the 
third panel who will testify this afternoon. John Williams, 
Executive Director of the Southern Shrimp Alliance; Mr. Ryan 
Lambert of the Cajun Fishing Adventures; and Ms. Joanne 
McDonough, Nature Tourism Specialist, Alabama Gulf Coast 
Convention & Visitors Bureau; and Anne Rolfes, Executive 
Director of the Louisiana Bucket Brigade.
    Is Ms. McDonough in the room?
    Ms. Rolfes. She was just outside.
    Ms. Bordallo. Oh, all right. Fine. OK. Well, we will begin 
with Mr. Williams. And again, I think you have been seated here 
all morning so you do know that we have a time limit, and the 
red light will flash on, but we will accept your full written 
statement into the record.
    So, Mr. Williams, thank you for being here today and thank 
you for the long wait you have had, but we knew this was going 
to be a long hearing. So please begin.

STATEMENT OF JOHN WILLIAMS, EXECUTIVE DIRECTOR, SOUTHERN SHRIMP 
               ALLIANCE, TARPON SPRINGS, FLORIDA

    Mr. Williams. Thank you. Madam Chairwoman and Members of 
the Subcommittee, thank you for the opportunity to address the 
Deepwater Horizon oil spill's impact on the shrimp industry. I 
am the Executive Director of the Southern Shrimp Alliance, and 
I am also a shrimper. Our organization was founded over eight 
years ago to represent the shrimp industry in the Gulf and 
south Atlantic.
    Thousands of people currently make their living shrimping 
off of our southern coast. In recent years, we have survived 
regulatory shutdowns, high fuel prices, low shrimp prices and 
massive hurricanes. I have to believe that somehow we will 
survive this disaster as well.
    But let us make no mistake about it. The impacts on the 
shrimp fishery will be cataclysmic. Every day brings a 
bewildering flood of new information. The truth is, we don't 
know what the full extent of the damage will be, and it will be 
years before we do.
    I would like to focus today on three areas for moving 
forward, where I think Congress and this Administration should 
work together. First, the oil spill compensation process for 
shrimp fishermen must be fair and efficient. As you know, the 
spill has completely shut down a significant portion of our 
industry. Fishermen face a very uncertain future and cannot 
wait for relief. When shrimpers ask what they can do, I 
honestly don't know what to tell them.
    The Oil Pollution Act says that fishermen will be made 
whole for their economic damages, but if you speak to shrimpers 
in the Gulf, rich confusion reigns. Even the President is now 
making statements recognizing that this system appears to be 
fundamentally broken. This situation is completely 
unacceptable.
    Congress and the Administration must either use existing 
authority to streamline the current process or establish a new 
one that is tailored to the magnitude of this spill. Despite 
lessons learned from the Exxon Valdez, history is about to 
repeat itself. The lawyers will get rich, and the fishermen 
will go broke. Congress can fix this problem.
    My second point is U.S. shrimp currently being sold in the 
marketplace is safe, wholesome and healthy. This message is 
absolutely crucial if we are to survive this crisis. The 
growing misconception that Gulf shrimp is not safe is untrue 
and unacceptable. We greatly appreciate the efforts of NOAA and 
FDA to test seafood and inform the public that seafood from the 
Gulf is safe.
    But obviously much more must be done to ensure that this 
message is heard and understood. It appears that the 
government's seafood testing and safety efforts are being done 
without significant industry participation. A stronger 
partnership between industry and the Federal Government is 
needed.
    A good first step would be the creation of a joint task 
force, with the fishing industry and the government charged 
with minimizing the impact of the oil spill on the Gulf seafood 
market. Funding a consumer education program regarding the 
safety and health attributes of Gulf seafood would also be 
helpful.
    My final point is that a more formal partnership between 
the fishing industry and the government should be established. 
History has taught us that fishermen bear the economic brunt of 
the damage from oil spills, and the oil companies do everything 
they can to minimize their responsibilities. This spill will be 
no different.
    Our survival depends on the responsiveness of our 
government, and I must say that fishermen are losing 
confidence. Every day fishermen ask me if our government is 
really working for us. Everything about this spill seems to be 
downplayed by one Federal official after another, and there is 
a widespread perception that the government is not being 
responsive to even the most basic environmental, economic and 
health concerns.
    On May 5, we sent a letter to EPA and NOAA, voicing strong 
concerns regarding the impact of the chemical dispersants used 
by BP on marine life, including shrimp. We have not received 
any response to these concerns. Meanwhile, credible scientists 
have echoed our concern, and yet BP has continued to apply 
another million gallons of dispersants.
    As we understand it, government officials made a decision 
that the harm caused by oil spread throughout the water column 
was preferable to allowing water to rise and remain on the 
surface. Both NOAA and EPA have described their decision as 
simply an environmental tradeoff. To date, no one in our 
government has taken the time to sit down with us to explain 
why our shrimp industry became a national tradeoff.
    The use of dispersants is symptomatic of the need for a 
much stronger and more constructive partnership between the 
Administration and the fishing industry. This spill will impact 
the shrimp industry for a long time, yet the government's 
actions will be drawn away to another important issue soon 
after the spill is capped.
    Before our fishermen are forgotten, it is vitally important 
that systems be established now that will remain in place for 
the long term to help the fishing industry recover. A 
commission should be created to advise Congress and the 
Administration of the continuing impacts of the spill as they 
are discovered and documented; formulate specific 
recommendations as to an appropriate response to adverse 
impacts; and provide regular reports on the progress of the 
efforts to provide fair compensation to fishermen for economic 
harm caused by the spill.
    In closing, I would like to say that while our fishermen 
are suffering, nothing we face can ever be measured against the 
personal tragedy of the families of the loved ones and those 
who perished on the Deepwater Horizon rig. I just want to 
recognize them and let them know that they are in our prayers. 
Thank you.
    [The prepared statement of Mr. Williams follows:]

    Statement of John Williams, Executive Director, Southern Shrimp 
                                Alliance

    Madame Chairwoman and Members of the Subcommittee, thank you for 
giving me the opportunity to address the Deepwater Horizon oil spill's 
impact on the shrimp industry. I am John Williams, the executive 
director of the Southern Shrimp Alliance. I am also a shrimper. My son 
has followed me into the commercial fishing industry and two of my 
three brothers are commercial fishermen as well. I have been 
commercially fishing for over forty years and have owned and operated 
shrimp boats that worked the Gulf of Mexico and South Atlantic since 
1973. I began working on a shrimp boat as a boy in North Carolina in 
1960 and began commercially fishing for a living in Florida in 1968. I 
also own a seafood unloading/wholesaling facility and a seafood retail 
market in Tarpon Springs, Florida.
    The Southern Shrimp Alliance was founded over eight years ago to 
represent the interests of the shrimp industry spanning from Texas to 
North Carolina along this country's southern coastal waters. We got 
together to respond to the negative effects of a flood of unfairly 
traded imports and to insure the future viability of the shrimp 
industry in this country. I participated in the creation of the 
Southern Shrimp Alliance and have since taken on the position of 
executive director because I believe that the shrimp industry is worth 
fighting for, both for the people who have been shrimping U.S. waters 
for decades and for their children, who are now taking over or will 
soon take over their parents' businesses, continuing a proud tradition. 
Since the Southern Shrimp Alliance's formation, the shrimp industry has 
battled intense efforts to regulate us out of existence, faced 
historically high fuel prices at times when prices for our shrimp were 
at historic lows, and suffered through the devastating effects of 
massive hurricanes like Katrina, Rita, and Ike. The industry survived 
all of those challenges, just like the shrimp industry will survive the 
Deepwater Horizon oil spill. But these past few years have taken an 
immense toll on us and the oil spill will likely weaken our industry 
further.
    Statistics maintained by the government tell the tale of how much 
the industry has already been weakened. In 2002, the offshore shrimp 
fleet spent over 200,000 days shrimping in the Gulf of Mexico. By 2008, 
after six successive years of decline, the fleet spent less than 63,000 
days shrimping--less than a third of the fishing effort we claimed just 
a few years before. In 2002, the states of Texas, Louisiana, 
Mississippi, Alabama, and Georgia issued nearly 22,000 commercial 
shrimp licenses. By 2008, these five states reported issuing less than 
9,000 such licenses.
    Nevertheless, despite these significant setbacks, thousands of 
people in the Gulf of Mexico and South Atlantic continue to make their 
living through shrimping. The industry continues to land product worth 
over $400 million each year, an amount that, on its own, seriously 
understates the total impact of shrimp fishermen on the economies of 
coastal communities. Because of its sheer size, the industry will 
survive this ecological nightmare, but the fact that an industry will 
continue in some shape or form is little comfort to the men and women 
who have struggled to make it through to this year and now face 
imminent bankruptcy because of the oil spill. Our prayers are said 
first and foremost to the families of those that perished in this 
tragedy. At the same time, thousands of members of our industry are 
desperately in need of help.
    In my testimony today, I am going to organize my comments to first 
address the Southern Shrimp Alliance's concerns regarding shrimpers 
that have been put out of work by the oil spill, then discuss our 
concerns relating to those shrimpers that have been able to continue to 
work in areas not yet affected by the spill, and, finally, the role 
that we believe the shrimp industry should play with respect to the 
government's efforts to respond to the continuing impacts of this 
tragedy in the future.
The Compensation Process for Shrimp Fishermen Affected by the Oil Spill 
        Must Be both Fair and Efficient
    For a significant portion of our industry, the oil spill has 
completely and totally prevented making a living on the water. 
Virtually all of these shrimpers have spent the last five years cutting 
every expense they could to survive through an extended period of 
unparalleled low prices and high costs. These shrimpers have little, if 
anything, in reserve and an inability to fish, to generate income, 
presents an immediate threat to their solvency. These fishermen cannot 
wait for relief. Either they receive assistance now that keeps them in 
business or their small businesses fail and they join the ranks of the 
unemployed. There are not many other opportunities for gainful 
employment for these fishermen. The entire industry cannot be expected 
to smoothly transition into workers at Walmart or other service 
industries and they cannot all become census workers.
    And, yet, when shrimpers ask the Southern Shrimp Alliance for 
guidance on what they can do, I do not know what to tell them. The law 
in this area is complicated and the experience of commercial fishermen 
harmed by the Exxon Valdez spill is by no means comforting for 
fishermen in the Gulf. The Oil Pollution Act of 1990 (OPA), passed by 
Congress in the wake of the Exxon Valdez spill, should give us comfort. 
On the printed page, the OPA says that businesses will be made whole 
for their economic damages caused by an oil spill. Because substantial 
amounts of shrimping grounds are closed as the result of the Deepwater 
Horizon's spill, there is no question that shrimp fishermen have been 
directly harmed by the disaster. Yet, if you speak to many shrimpers in 
the Gulf, you will hear massive confusion as to what they ought to do 
and what they might be entitled to.
    On one side, British Petroleum has done at least some of what is 
required of it under the OPA in establishing a claims process. On 
another side, lawyers of all stripes have descended on the Gulf Coast 
and told shrimpers that the OPA process is fundamentally flawed--why 
would BP do right by them of their own volition? -- and that they need 
to sign up for legal representation now, today, to get the relief they 
deserve. In response, some shrimpers have submitted claims to BP, 
others have signed contingency fee agreements that would hand over 
between one-third and forty percent of any funds received to an 
attorney, while still others have not taken any action because they do 
not know what to do or who to believe.
    One voice notably absent has been that of the federal government. 
In the wake of a disaster with unprecedented impacts on commercial 
fishermen, the government can and should play a central role in 
informing members of the industry of programs in place to assist them. 
There are many legitimate questions and concerns that must be answered 
with respect to the OPA claims process. The press has focused on the 
question of the OPA's liability limit of $75 million for BP with regard 
to economic damages. Given the number of businesses affected by the oil 
spill, economic damage claims are likely to greatly exceed $75 million. 
Press reports indicate that BP claims to have already paid out $50 
million in compensation for economic damages. Once this liability limit 
is reached, the Oil Spill Liability Trust Fund is unlikely to be able 
to make up the difference as most of the OPA's current one billion 
dollar cap per event will be accounted for by costs related to clean up 
efforts.
    Although BP has said in public statements that it will not impose a 
cap on economic damages and that it will compensate all legitimate 
claims, it is unclear, in practice, what such declarations mean and 
whether they have any legal effect. Those that cannot shrimp now are 
unlikely to be able to return to their fishing grounds anytime in the 
near future and are unable to predict with accuracy now what the 
ultimate impact of the spill will be on their businesses. Although the 
OPA contemplates partial claims and partial recovery, fishermen are 
very concerned that, when it is all said and done and television 
cameras have turned away from the oil spill to cover other events, 
funds will not be available to address continuing harm to shrimpers.
    Even if no liability cap is imposed and all legitimate claims are 
paid, the claims process established by the OPA is likely to be 
overwhelmed by those affected by the Deepwater Horizon spill. The scope 
of the impact on people in the Gulf is staggering and expands by the 
day. It would seem to be extremely unlikely that either BP or the U.S. 
Coast Guard's National Pollution Funds Center (NPFC) will be able to 
administer the OPA relief process in a timely, expeditious manner. In 
the face of significant resources constraints and short statutory 
deadlines, it is inevitable that meritorious claims will be 
inaccurately rejected and individual fishermen will struggle to 
meaningfully contest any adverse conclusions drawn by BP or NPFC as to 
the impact that the spill has had on commercial fishing industries. 
Without the ability to rely on some basic baseline data or structure of 
analysis for evaluating claims, the OPA claims process pits the 
individual shrimper initially against BP, its claims adjustors, and 
attorneys and, later, against the entirety of the NPFC if any 
disagreement arises.
    Last week, before the House Judiciary Committee, Mississippi's 
Attorney General, Jim Hood, testified as to his concerns, and the 
concerns of other Gulf states' Attorney Generals, regarding the OPA 
claims process administered by BP. Attorney General Hood noted that 
endorsement of the claims process procedure by the Gulf states' 
Attorney Generals ``would encourage greater participation in it,'' but 
explained that he and the other Attorney Generals ``cannot embrace any 
claims review process until we receive adequate assurances of its 
fairness.'' If the Attorney Generals of the Gulf states are unable to 
express support for the OPA claims process as administered by BP, how 
is a shrimper supposed to determine whether to file a claim or, indeed, 
what steps he or she ought to take?
    In the absence of any guidance from the federal government, 
attorneys seeking to sign up clients have filled the void. Some of 
these attorneys tell shrimpers that the OPA process is fatally flawed, 
that they must sue or hire an attorney to enter into settlement 
negotiations with BP to obtain fair compensation, and that they must 
sign contingency agreements that promise those attorneys significant 
portions of any funds received. Where these attorneys' efforts are 
particularly aggressive, in the absence of any federal government 
guidance, fishermen have been left to the wolves. Widespread reports of 
undue pressure placed on shrimpers to sign such contingency agreements 
are troubling and add to the confusion held by many in the industry.
    Shrimpers, and commercial fishermen generally, do not want to live 
off of BP or off of a government largesse. Fishermen want to fish. But 
without solid assurances that commercial fishermen will be made whole 
for the economic damages they are suffering now and will continue to 
suffer as fishing grounds remain closed, many more shrimpers will be 
forced to exit the business in the hope of finding something, anything, 
that will put food on the table for their families. For these reasons, 
the Southern Shrimp Alliance believes that Congress should strongly 
consider establishing a new process for addressing the injuries caused 
to commercial fishermen by the oil spill that accounts for the 
unprecedented nature of the disaster and its impact on the fisheries of 
the Gulf of Mexico. Such a process would give shrimpers comfort that 
they will receive fair compensation for what has taken place, such that 
they will be able to start shrimping again as soon as there are clean 
waters to shrimp and clean shrimp to land.
    In the interim, recent comments by the President appear to 
recognize the deficiencies of the OPA claims process for commercial 
fishing businesses and their employees. The Administration seems to be 
similarly concerned that the process be both efficient and fair. We are 
hopeful that in response to continued Congressional oversight, 
proactive efforts will be made to make the OPA claims process as 
amenable to fishermen as possible.
U.S. Shrimp Currently Being Landed and Sold in the Marketplace Is Safe, 
        Wholesome and Healthy
    It is also important to keep in mind that the oil spill has not 
impacted all of the Gulf of Mexico nor all of the waters commercially 
fished for shrimp in the United States. Every day, shrimpers continue 
to go out and work unpolluted waters and land wholesome, healthy U.S. 
shrimp. But we fear that this is not something that the majority of the 
American consuming public necessarily understands.
    The Southern Shrimp Alliance greatly appreciates the efforts of 
NOAA Fisheries to inform the public that the seafood currently 
available from the Gulf is safe because of both (1) the fishery 
closures in areas affected by the oil spill and (2) rigorous testing of 
these products. But more needs to be done to ensure that this message 
is heard and understood. For important and valid reasons, the public's 
focus has been on the harmful effects of the oil spill and the 
devastating toll the spill is taking on the environment in the Gulf. 
The first thing that the public thinks of with respect to wildlife in 
the Gulf of Mexico is contamination by oil. For shrimpers, this means 
that not only are the fishermen put out of work by the spill harmed, 
but those shrimpers that have been to date unaffected face the 
possibility of a significant decline in demand for their product 
because of pervasive fears regarding the safety of anything caught in 
the Gulf or shrimp landed anywhere in U.S. waters.
    Assuring the public of the safety of seafood landed in the Gulf is, 
therefore, essential to our industry. For the time being, this concern 
relates to those fishermen who ply waters not impacted by the spill. 
For seafood landed in unaffected waters, there is no question that 
these products are safe. But at some point in the future, waters 
currently closed to commercial fishing will be opened. Consumers will 
inevitably wonder whether the openings came too soon and whether the 
seafood landed in these waters is genuinely safe. For these reasons, a 
long-term strategy for ensuring consumers of the safety and health of 
seafood landed in the Gulf is required.
    The Southern Shrimp Alliance is grateful for the establishment of a 
federal seafood safety/testing program in Pascagoula, but would like to 
see a far greater partnership between industry and the federal 
government in developing long-term strategies to insure the public of 
the safety of Gulf seafood. A good first step would be the creation of 
a joint task force with members of the commercial fishing industry and 
the federal government charged with focusing on what steps need to be 
taken to minimize the negative effects of the oil spill on the market 
for Gulf seafood. An important next step would be the Congressional 
creation and development of a fund designed to provide consumer 
education regarding the safety and positive health attributes of Gulf 
seafood.
Formal Partnerships between the Commercial Fishing Industry and the 
        Government Should Be Established in Response to the Oil Spill
    Every significant oil spill with which I am familiar has taught 
that commercial fishermen bear the brunt of the damage caused by the 
contamination. As such, there should be no surprise that the Deepwater 
Horizon oil spill will disproportionately impact commercial fishermen 
in the Gulf. Moving forward, we hope that our government will 
appreciate the vulnerability of commercial fishermen affected by the 
oil spill. Fishermen do not need the government's assistance because 
they are helpless. Fishermen are famously and fiercely independent and 
self-sufficient, and many shrimpers fearlessly stepped into the breach 
to try and mitigate the harm caused by the Deepwater Horizon spill. But 
the circumstances of the spill now force beleaguered, battered small 
businesses to fight for fair treatment from companies and a government 
that have substantially more resources at their disposal.
    For example, shrimpers have not simply waited for a man with a 
check to come riding by when oil contamination closed down their 
fishing grounds. Scores of shrimp fishermen eagerly volunteered to 
assist BP and the government in cleanup efforts and very few have been 
taken up on their offers. For those shrimpers that have participated in 
the cleanup process, the reports of health problems related to those 
efforts are extremely disconcerting. These fishermen report that their 
concerns have either been ignored or ridiculed and fear that pressing 
their concerns further will result in loss of the only income available 
to them. This is inexcusable. Whatever myriad considerations confront 
this Administration with respect to the oil spill, a concern that 
should transcend any other is making sure that those working to 
mitigate the spill's effect are not put in harm's way. Yet, there is 
little evidence that federal officials have worked with fishermen 
working on spill remediation to ensure their safety or address their 
specific concerns.
    For our part, the Southern Shrimp Alliance has faced the lack of 
responsiveness directly in the concerns we voiced to government 
officials regarding the use of certain toxic dispersants applied by BP. 
On May 5th, we sent a letter to Lisa Jackson, the Administrator of the 
Environmental Protection Agency, and Dr. Jane Lubchenco, the 
Administrator of the National Oceanic and Atmospheric Administration, 
voicing strong concerns regarding the impact of the chemical 
dispersants used by BP on marine life. I have attached a copy of the 
letter to my testimony and ask that it be included as part of the 
hearing record. In the letter, we noted that the toxins in the 
dispersants were likely to have direct adverse impacts on both 
vertebrate and invertebrate marine life and, further, that the 
dispersal of oil throughout the water column would increase, rather 
than mitigate, the harmful environmental effects of the oil spill on 
marine life. We have not received any response, formal or informal, to 
these concerns.
    In the absence of any direct response, we are given to understand 
by the public statements of these two agencies that a decision has been 
made that the environmental harms caused by oil spread throughout the 
water column were preferable to the environmental harms caused by oil 
allowed to rise and remain on the surface. Dr. Lubchenco has publicly 
described the decision to employ dispersants as a ``trade-off 
decision.'' (Timothy B. Hurst, ``EPA, Coast Guard OK Use of Subsea 
Dispersants for Oil Spill'' (May 15, 2010) available at: http://
ecopolitology.org/2010/05/15/epa-coast-guard-ok-use-of-subsea-
dispersents-for-oil-spill/). An official within the Environmental 
Protection Agency has separately explained, with respect to the 
dispersants, ``the chemical that's being used has toxicity associated 
with it, and I think, as the agency has tried to be very clear, this is 
about an environmental trade-off.'' (Christopher Snow Hopkins, ``EPA: 
BP Cleanup Means Environmental Tradeoff'' NationalJournal.com (May 11, 
2010) (quoting Jim Jones, EPA Office of Chemical Safety and Pollution 
Prevention) available at: http://energytopic.national
journal.com/2010/05/epa-bp-cleanup-means.php).
    To date, no one in our government has taken the time to explain to 
commercial fishermen or, indeed, the general public why marine life was 
sacrificed as a trade-off for preventing oil from floating to the 
surface and creating even more of a public relations nightmare. The 
statements of government officials appear to concede that the federal 
government was acutely aware of the environmental harm that would ensue 
from approving the use of massive quantities of toxic dispersants 
underwater. To be clear: The shrimp fishery, along with the oyster, 
crab, bluefin tuna, and other important commercial fisheries in the 
Gulf, are what was ``traded-off'' in the decision to allow the 
unprecedented use of these toxic chemicals. And along with these 
fisheries, there appears to have been an intentional determination made 
that the thousands of family-owned small businesses in the Gulf related 
to commercial fishing would bear the brunt of the environmental impact 
of the spill.
    It may yet be proven that there were valid scientific reasons for 
the decision to allow the use of dispersants, but we fear that the 
decision had little to do with science and more to do with limiting the 
visual impact of the oil spill by keeping oil in the Gulf out of the 
viewfinders of television cameras. Our fears appear to be validated by 
the insistence of both BP and federal agencies that underwater oil 
plumes do not exist, despite mounting evidence to the contrary from 
independent observers and scientists. And, still, neither EPA nor NOAA 
has reached out to the commercial fishing industry to convene a formal 
meeting with those whose commercial futures were endangered by this 
``trade-off'' to explain the decision, answer questions, and address 
concerns obviously held by fishermen.
    There needs to be a much stronger partnership between the 
Administration and the commercial fishing industry to address both 
short term and long term issues arising from the spill. However, such a 
partnership will not take place unless Congress forces the issue. 
Without Congressional oversight, too much focus will continue to be 
placed on managing the public relations aspects of the spill rather 
than addressing the substantive problems generated by what might now be 
fairly considered as the largest environmental catastrophe in U.S. 
history.
    At this moment in time, the nation's eyes are affixed on the 
fishing industry in the Gulf and the public's strong sympathy has been 
voiced (and felt) regarding our plight. But we know that these 
sentiments, while very much appreciated, are fleeting. The impact of 
the Deepwater Horizon spill will be felt over a long period of time, 
well after the public's attention has been drawn away to other 
important issues confronting this country. As such, it is vitally 
important that formalized systems be established now that will remain 
in place for the long-term to help the commercial fishing industry 
recover. Precedent for such entities exists in the actions taken by 
Congress in the aftermath of the Exxon Valdez spill, when various 
bodies were created that explicitly required the inclusion of 
commercial fishermen. Here, an advisory body or Commission should be 
created to (1) advise Congress and the Administration of the continuing 
natural resource and economic impacts of the spill as they are 
discovered and documented over the coming years; (2) formulate specific 
recommendations to Congress and the Administration as to appropriate 
responses to those adverse impacts identified; and (3) provide regular 
reports on the progress and development of efforts to provide fair 
compensation to commercial fishermen for economic harm caused by the 
spill.
    Thank you again for inviting me to present the concerns of the 
domestic shrimp industry and I am happy to answer any questions that 
you might have.
                                 ______
                                 

                     Southern Shrimp Alliance, Inc

                             P.O. Box 1577

                        Tarpon Springs, FL 34688

                            Ph. 727.934.5090

                            Fx. 727.934.5362

                        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="264c494e4866554e544f4b56474a4a4f474845430845494b">[email&#160;protected]</a>

                              May 5, 2010

Lisa P. Jackson,
Administrator
Environmental Protection Agency
Aerial Ross Building
1200 Pennsylvania Ave., NW
Washington, DC 20460

Dr. Jane Lubchenco,
Administrator
National Oceanic and Atmospheric Administration
1401 Constitution Ave., NW
Washington, DC 20230

Dear Administrator Jackson and Administrator Lubchenco:

    The Southern Shrimp Alliance deeply and sincerely appreciates the 
extraordinary efforts ongoing by your agencies and others to address 
the Deepwater Horizon oil spill. Our industry stands-by to assist in 
any way it can to mitigate the adverse impacts of this terrible 
accident.
    Nevertheless, the Southern Shrimp Alliance is extremely concerned 
about the serious effects on marine life of chemical dispersants being 
used to treat this spill. Recent reports indicate that nearly 170,000 
gallons of toxic dispersants have been applied both at the surface and 
underwater in the direct vicinity of the leak. BP further reports that 
it has plans to increase its use of dispersants in the immediate 
future.
    While such dispersants may be useful in reducing but not 
eliminating a surface oil slick and the associated damage to marine 
life and shoreline habitats, their use also creates an entirely new set 
of environmental hazards that may be more pernicious and even more 
difficult to mitigate. Removing oil from the surface certainly has its 
benefits, but it may also promote an ``out-of-sight, out-of-mind'' 
perception of the spill's true ongoing and long lasting impacts.
    Our first concern is the direct toxicity to vertebrate and 
invertebrate marine life which may present itself over time throughout 
the food chain--from plankton--to some of the nation's most valuable 
fish and shellfish species--to protected marine mammals, sea birds and 
endangered species of sea turtles. Obviously, we are extremely 
concerned with the toxic effects on the shrimp resource -both directly 
and indirectly through their feed. As you know, shrimp are now at their 
most vulnerable life stages as larvae move from offshore spawning areas 
to inshore nursery areas and then return offshore. Much of this 
activity takes place in the water column as well as on the bottom.
    In addition, like many US fisheries, the Gulf shrimp fishery 
operates under a very aggressive and costly federal regulatory regime 
that protects sensitive species of marine life including those such as 
sea turtles likely to be exposed to the toxic effects of dispersants 
now being used in unprecedented amounts. Our fishery has an 
extraordinary record of sea turtle protection and restoration in the 
Gulf which could be severely undermined by the massive use of 
dispersants.
    Our second major area of concern lies with the physical effects of 
dispersants on the oil itself. We understand that the very purpose of 
dispersants is to cause the spilled oil to disperse into the water 
column rather than rise to the surface. Again, we recognize this may 
have the benefit of reducing shoreline habitat impacts and speeding-up 
the natural degradation of oil.
    However, the result that cannot be seen on television is that both 
toxic dispersants and the oil itself (which can also be toxic to marine 
life) is dispersed throughout the water column where the eggs and 
larvae of countless species of marine life as well as the plankton and 
other small organisms on which such larvae feed are present in very 
large numbers. As mentioned, this is indeed a critical time for shrimp 
larvae. It is also a critical time for bluefin tuna spawning and larvae 
in the Gulf. Along with the Mediterranean, the Gulf of Mexico is one of 
only two spawning areas in the entire Atlantic Ocean basin for a 
species now receiving very serious global conservation concern. It 
further occurs to us that injecting the dispersant at the point of the 
spill at a depth of 5000 feet will guarantee these adverse impacts are 
maximized throughout the entire water column which serves a critical 
habitat for so many species.
    We further understand that dispersants cause a certain amount of 
oil to sink and remain on or near the ocean floor presenting yet 
another invisible hazard to the benthic ecosystem that cannot be 
tracked or cleaned-up. Based on our understanding of Gulf currents, oil 
on or near the bottom may well spread to and literally smother the 
western Gulf in the opposite direction of the surface currents and 
winds now carrying the spill more to the east. This may vastly expand 
the ecological and economic impacts of the spill. Again, releasing huge 
quantities of dispersants directly at the sea floor would seem to 
exacerbate these environmental hazards.
    Given your Agencies' paramount responsibilities for protecting the 
marine environment and marine life on behalf of the American people, we 
ask you to give our concerns your most serious consideration. We can 
certainly appreciate the pressures and demands on all federal agencies 
and BP itself to respond as quickly and aggressively as possible to 
what may become an unprecedented environmental catastrophe, but we must 
ask you to ensure that those actions will not create an even greater 
and more long lasting hazard that is even more difficult to monitor or 
to clean-up.
    Thank you for your consideration. We look forward to your response.

John Williams,
Executive Director
                                 ______
                                 

   Response to questions submitted for the record by John Williams, 
              Executive Director, Southern Shrimp Alliance

Questions from Chairwoman, Congresswoman Madeline Z. Bordallo (D-GU)
1.  Given that the annual value of landed product by the shrimp 
        industry is greater than the oil spill liability limit of $75 
        million dollars, do you think the liability limit should be 
        raised?
    Indeed, the annual ex-vessel value of landings of shrimp in the 
Gulf of Mexico far exceeds the $75 million cap. Over the 10-year period 
of 1999-2008, the annual ex-vessel value shrimp landings from the Gulf 
averaged $424 million. Given the unprecedented magnitude of the ongoing 
Deepwater Horizon spill, and the catastrophic impacts on both the 
shrimp fishery and resource that may last for decades, it is clear the 
$75 million cap would preclude any possibility of achieving the goal of 
`making fishermen whole' as indicated by BP and the Administration.
    However, since the hearing, BP and the Administration have agreed 
to establish a $20 billion fund for these purposes. This may obviate 
the need for Congress to take on what might be a difficult legal 
challenge to amend the Oil Pollution Act of 1990 (OPA 90) in order to 
raise the liability cap retroactively for application to this event. 
Nevertheless, we believe that there is a very obvious need for the cap 
to be raised or eliminated for future events given the lessons learned 
from this spill about the perils of deepwater drilling. It should be 
noted, however, that even the $20 billion fund may be inadequate to 
address this spill which, as of this writing, has exceed 150 million 
gallons. Much of this oil has been dispersed throughout the water 
column and is likely to inflict very widespread economic impacts for 
decades to come.
Questions from the Ranking Republican Member, Congressman Henry Brown, 
        Jr. (R-SC)
1.  You note that lawyers are descending on Louisiana and telling 
        people that they have to have a lawyer before they submit a 
        claim to BP. What is your reaction to this and how can the 
        Administration or Congress deal with these predatory lawyers?
    As explained in my testimony, the circumstances surrounding the 
spill in the first 60 days or so created widespread fear and confusion 
among fishermen in the Gulf. Part of this was caused by uncertainty 
over whether there would be a $75 million cap on BP's liability which 
was clearly insufficient to provide adequate compensation for 
fishermen's claims. Another part was caused by the horror stories of 
the fishermen's experience with the Exxon Valdez spill. Still another 
part was caused by the reality that even though the goal of OPA 90 may 
have been to eliminate the need for fishermen to hire a lawyer, the 
system requires fishermen to present and argue their claims before BP 
and its claims adjusters and attorneys. If claims to BP remain 
unresolved after 90 days, fishermen must then argue their case before 
the Coast Guard to secure compensation through their National Pollution 
Fund Center. This process is very intimidating and perhaps beyond the 
capabilities of many fishermen, especially those who may not speak 
English as their first language.
    These fears and the specter of a confusing and protracted battle 
with BP and the Coast Guard made it easy for unscrupulous lawyers to 
prey on many fishermen. As Congress intended, in cases such as the 
Deepwater Horizon spill where there is a clear and uncontested 
responsible party and there are clear and demonstrable impacts on 
fishermen, OPA 90 must provide fishermen with a very clear, user-
friendly system to make claims and receive compensation without the 
need to hire a lawyer. Unfortunately, there was an unacceptable absence 
of clear guidance provided to fishermen by the Administration on how to 
participate in the claims process. The Administration could and should 
have substantially improved this situation by communicating much more 
quickly, clearly and effectively to the fishing community how the 
claims process works and distribute information to fishermen 
specifically refuting the irresponsible claims of predatory lawyers. 
The Administration should have served more as an advocate of fishermen 
in this difficult process.
2.  Should the Administration be taking any action to let people know 
        that they do NOT need a lawyer and that government centers are 
        being set up to help people with claims? And should the 
        Administration doing anything to stop these predatory lawyers 
        or prosecute them for making false claims?
    In a situation such as this, the US government has the fundamental 
responsibility to do what is necessary to protect its citizens from 
harm. Consistent with this responsibility, the Administration should 
serve in the role of an advocate to protect the interests of fishermen 
who have become victims of this spill through no fault of their own. 
Part of that is to provide and communicate to the fishing community a 
clear and simple roadmap for dealing with a multitude of impacts 
including how to file claims and receive compensation. In our view, 
there was and continues to be a huge void in organized, effective 
communications between the Administration and the fishing community on 
virtually all fronts including claims, seafood testing and safety, 
spill remediation, etc.
    Another part of the Administration's responsibility is, of course, 
to take whatever steps are necessary to protect fishermen from 
predatory lawyers by publicly distributing information to refute their 
false claims and aggressively prosecuting those that have broken the 
law. Instead, to many fishermen it appears that the Administration has 
been much more interested in down-playing the magnitude and effects of 
the spill, to the benefit of BP. Again, the Administration has made and 
continues to make critical decisions affecting the lives and futures of 
the fishermen in a complete vacuum.
    For these reasons, SSA has recommended to the Administration that 
it formally establish a seafood industry advisory board to develop and 
provide constructive advice to the various agencies on a range of short 
and long term response processes and issues relevant to the seafood 
industry. In addition to providing useful advice to the Administration, 
this advisory board would also provide a forum through which the 
Administration can more effectively communicate critical information 
(such as regarding the claims process and the claims of predatory 
lawyers). I have attached a copy of my June 22, 2010, letter to NOAA 
Administrator Lubchenco on this matter. (see Attachment)
    Since the hearing, the Administration and BP reached an agreement 
to establish a $20 billion fund, and the President appointed an 
independent administrator, Mr. Kenneth Feinberg, to implement the 
claims process in a fair and expedited manner without the need for 
fishermen to hire lawyers. We see this as a very encouraging step in 
the right direction and it would appear to address the problems 
regarding predatory lawyers. Frankly, however, the jury is still out on 
how well this new process will work and if the $20 billion fund will be 
adequate to fully address the economic impacts on our fisheries that 
may occur for decades into the future. To this final point, it remains 
unclear whether any statute of limitations for making claims will apply 
under this new system such as under OPA 90, and this needs to be 
clarified. Again, the impacts of this spill on the fisheries including 
fishery closures and on the market for Gulf seafood--and the consequent 
need for adequate and effective compensation system--may continue for 
decades and should not be precluded by an arbitrary statute of 
limitations.
3.  Would you support legislation that would cap the amount or 
        percentage of money a lawyer can receive from oil spill claims?
    Yes.
4.  It has been noted that after Hurricane Katrina, Gulf fishermen lost 
        market share to foreign sources of seafood. You have a lot of 
        experience with trying to regain market share from foreign 
        competitors. What should the Federal government be doing to 
        protect the U.S. seafood industry?
    I will address the two primary areas of concern we feel the Federal 
government should focus on to protect the domestic shrimp producing 
industry in the context of shrimp imports, 1) enforcement of US trade 
laws, and 2) the safety of imported shrimp.
Enforcement of Trade Laws
    The US imported more than 1.12 billion lbs of shrimp from 47 
nations in 2009, the vast majority of which was produced on farms in 
lesser-developed nations with environmental, food safety, and labor 
standards far below the US. Imports have accounted for over 90% of 
shrimp consumption in the US since 2001; 91% in 2008.
    Shrimp imports have decimated prices paid to US shrimp fishermen. 
Average dockside prices for shrimp declined approximately 40% in the 
Gulf and 30% in the South Atlantic between 2000 and 2006, while, in 
2009, dockside prices were the lowest in memory. Shrimp fishing effort 
and the number of active vessels operating in the US fleet have been 
reduced sharply.
    In 2005, in response to a petition filed by the SSA, the Dept. of 
Commerce/International Trade Commission determined that six countries 
were in violation of US law for dumping their shrimp into the US market 
and ordered that antidumping duties be applied to shrimp imports from 
those nations. (Brazil, China, Ecuador, India, Thailand and Vietnam).
    Shortly after duties were imposed, without prior consultation with 
the US shrimp industry, the USTR agreed to expedite the government of 
Ecuador's WTO challenge to the antidumping duties, leading to 
Ecuadorian shrimp being removed from the antidumping orders in 2007.
    In early 2009, in response to erroneous and overreaching WTO 
decisions, two substantial exporters of Thai shrimp were excluded from 
the antidumping orders, and the only special program implemented by 
U.S. Customs and Border Protection (CBP) to ensure the collection of 
antidumping duties owed, the enhanced continuous bonding program, was 
eliminated.
    In addition, the distribution of collected antidumping duties under 
the Continued Dumping and Subsidies Offset Act (CDSOA) has been poorly 
managed by CBP. This has resulted in a vastly disproportionate share of 
distributions going to a small number of processors and other shrimp 
purchasers at the expense of shrimp fishermen. While the CDSOA program 
has been repealed for duties collected on imports entering the United 
States after October 1, 2007, there is still a significant amount of 
money that has yet to be distributed to the industry.
    Enforcement of shrimp antidumping duties and related trade laws is 
a top priority for SSA and this is one of the key issues the US 
government should be focused on to protect the domestic shrimp 
industry. SSA works closely with CBP, Commerce, and other federal 
agencies to investigate violations and take enforcement actions 
including efforts to address the following issues.
        1)  Lax Enforcement of Trade Laws
                <bullet>  SSA worked diligently to demonstrate that the 
                industry was materially injured by reason of dumped 
                subject imports, and has continued to defend the orders 
                throughout the administrative reviews. Despite these 
                efforts, the trade relief granted to the US industry 
                was significantly weakened by administrative agencies 
                in purported response to indefensible WTO 
                determinations.
        2)  Failure of Importers To Pay Duties
                <bullet>  When importers fail to pay the antidumping 
                duties imposed on shrimp imports, it completely 
                undermines the protection Congress intended to provide 
                domestic producers. Failure to collect duties denies 
                domestic producers a level playing field and now 
                results in a substantial loss of revenue to the US 
                Treasury.
                <bullet>  CBP developed an enhanced bonding pilot 
                program to enforce the collection of duties for shrimp 
                because failure to pay duties for other commodities has 
                been rampant (>90%).
                <bullet>  Nevertheless, the WTO subsequently ruled 
                against the CBP enhanced bonding program and CBP has 
                recently decided to abandon it. Even with the enhanced 
                bonding program in place, CBP has reported that over 
                $68 million in antidumping duties on shrimp imports 
                have not been collected. Without it, SSA expects that 
                unpaid duties by shrimp importers will increase sharply 
                and, therefore, deny the US shrimp industry adequate 
                protection from dumping.
                <bullet>  Importers also avoid paying antidumping 
                duties by manipulating the new shipper review process. 
                These reviews allow a purported new shipper to 
                establish through a single sale that no antidumping 
                duty deposit need be made on the shipper's exports. 
                Because our duty system is retrospective, a single 
                importer can bring in vast quantities of dumped shrimp 
                from the new shipper before dumping duties are imposed. 
                Once duties are imposed, the importer commonly declares 
                bankruptcy, only to pop up again at a later date as a 
                different corporate entity. According to GAO, the 
                discretion to increase the volume of imports a new 
                shipper must make to qualify for a new shipper review 
                rests with Congress, not with Commerce or CBP.
        3)  Circumvention
                <bullet>  Importers avoid paying antidumping duties by 
                mislabeling shrimp as being produced in a nation not 
                subject to antidumping duties. Example: Chinese shrimp 
                transshipped through Indonesia and mislabeled as 
                Indonesian origin.
                <bullet>  Importers also avoid paying antidumping 
                duties by mislabeling shrimp as being in a product form 
                not covered by the antidumping duties. Example: Chinese 
                shrimp mislabeled as ``dusted'' shrimp.
                <bullet>  Importers also avoid FDA import restrictions 
                by transshipping through third-party countries to 
                conceal true country of origin. Example: Chinese shrimp 
                subject to FDA import restrictions due to contamination 
                with illegal antibiotics was transshipped/mislabeled as 
                Malaysian.
    SSA has recommended a number of Federal initiatives to address the 
issues outlined above including the following:
        <bullet>  Investigate and enforce US trade and food safety laws 
        to ensure the payment of antidumping duties and to prevent 
        circumvention through transshipments and mislabeling.
        <bullet>  Develop legislation to raise the amount of commercial 
        shipments that a new shipper is required to have in order to 
        precipitate a new shipper review by Commerce.
        <bullet>  Develop legislation to create basic requirements for 
        importers that would afford CBP discretion to deny importer of 
        record status to habitual violators of U.S. law.
Safety of Shrimp Imports
    FDA-banned antibiotics and pesticides harmful to human health are 
widely used in foreign shrimp farms. By treating their farms with 
veterinary drugs and pesticides foreign shrimp farmers are able to 
substantially increase the stocking density of shrimp in their ponds 
while preventing disease outbreaks that would normally occur under such 
high-density, low sanitary conditions. Artificially increased yields in 
their ponds translate to artificially-low production costs and export 
prices--and, ultimately, lower prices paid to US shrimpers at the 
docks.
    Although it inspects only about 1-2 percent of shrimp imports, FDA 
has found a variety of banned antibiotics and pesticides harmful to 
human health in shipments of farmed shrimp from all the major farmed 
shrimp producing nations including China, Thailand, Indonesia, Vietnam, 
India, etc.
    Other major shrimp import markets (EU, Canada and Japan) implement 
far more stringent imported food safety controls than the US. As those 
countries succeed at keeping their consumers safe from contaminated 
shrimp imports, their rejected shrimp is diverted to the US market.
    Because the use of illegal antibiotics and pesticides provides 
foreign shrimp farmers with a substantial competitive advantage over US 
producers of high quality wild shrimp, there is an enormous economic 
incentive for those shrimp farmers to use illegal substances and almost 
no disincentive to ship contaminated shrimp to the US under its lax 
testing regime.
    Shrimp imports exceeded 1.24 billion pounds in 2008, 1.12 billion 
pounds in 2009, of which more than 80% were raised on farms in nations 
with environmental, food safety, and labor standards far below the US.
    Consequently, it is very likely that large quantities of imported 
farm raised shrimp contaminated with harmful antibiotics and pesticides 
are being eaten by US consumers every year. Some of these contaminants 
are implicated in causing aplastic anemia and others are implicated in 
causing cancer. The long-term toxicity and bacterial resistance effects 
of sustained exposure are not fully understood but may present the most 
serious concern of all.
    The failure of the US food safety system to prevent the importation 
of large quantities of contaminated farm-raised shrimp poses a serious 
human health risk to US seafood consumers.
    The current FDA system for inspecting and preventing the 
importation of contaminated shrimp is extraordinarily lax and 
ineffective--especially relative to other major seafood consuming 
markets including Canada, the EU and Japan.
    The US has become the preferred market (dumping ground) for 
exporters of contaminated shrimp that will not be accepted into other 
markets.
    SSA's objectives for the Federal response to this problem include:
        <bullet>  Require foreign producers/nations to achieve 
        equivalence to US food safety standards
        <bullet>  Substantially increase FDA inspection rates for 
        imported seafood
        <bullet>  Raise integrity of inspection laboratories
        <bullet>  Prevent US consumption of shrimp found to be 
        contaminated--destroy
        <bullet>  Increase consequences (penalties) for violations
        <bullet>  Increase international coordination of enforcement in 
        other major import markets.
    Specifically, SSA has submitted legislative proposals to Congress 
for inclusion in the comprehensive food safety legislation currently 
under consideration. These include provisions to require and provide 
funding to FDA for an enhanced seafood testing program that will 
substantially increase the quantity of shrimp imports FDA tests each 
year for illegal antibiotics and pesticides. A requirement for FDA to 
increase its testing from less than 2% to 20% of seafood imports would 
finally put the US on par with other major importing markets such as 
the EU, Canada and Japan. SSA's legislative proposals also include 
provisions to impose monetary penalties (fines) on importers that 
import contaminated seafood, and impose licensing requirements for 
importers.
5.  Secretary Locke has declared a fisheries disaster. Have you had 
        experience with fisheries disaster declarations before and if 
        so, did much if any of the funding actually reach fishermen?
    SSA has not been directly involved with the distribution of funds 
under fishery disaster declarations. This has been a function of the 
individual affected States. It is our strong impression, however, that 
important improvements to the process for distribution of funds to 
fishermen should be made. While it may continue to be desirable for 
federal funds to be distributed by each affected State to the affected 
fishermen through their own administrative systems, additional and more 
specific Federal guidance and requirements for the handling of such 
distributions by the States appears warranted to ensure the purposes of 
the federal disaster declaration and funding to assist fishermen are 
actually achieved.
Attachment

                        Southern Shrimp Alliance

                 P.O. Box 1577 Tarpon Springs, FL 34688

            955 E. MLK Dr. Suite D Tarpon Springs, FL 34689

                     727-934-5090 Fax 727-934-5362

                             June 22, 2010

Dr. Jane Lubchenco,
Administrator
National Oceanic and Atmospheric Administration
1401 Constitution Ave., NW
Washington, DC 20230
Dr. Lubchenco:
    I understand there is to be an important meeting this week in the 
Gulf region to include NOAA/NMFS leadership, FDA and the White House 
regarding the government's fisheries reopening protocol/policy.
    This is to respectfully request you to please consider and, if 
appropriate, discuss at that meeting my recommendation that the federal 
government establish a seafood industry advisory body as an integral 
partner in the short and long term responses to the oil spill.
    This body should be comprised of top-tier industry leaders and 
charged with participating in--and providing expert input and advice 
to--the several ongoing response processes that are relevant to our 
industry including but not limited to:
        1)  fishery closure/opening protocols and decisions;
        2)  oil clean-up procedures and technologies including the 
        health and safety of clean-up personnel;
        3)  claims procedures for the $20 b escrow account;
        4)  seafood safety inspection protocols;
        5)  communications to the public concerning seafood safety; and
        6)  sustained monitoring and response to potentially very long 
        term impacts on fishery resources and economies that will 
        require compensation and remediation for many years after this 
        event has long faded from public attention.
    The Gulf seafood industry, including many thousands of family-owned 
small businesses in hundreds of fishery-dependent communities, will 
continue to sustain profound economic and social disruptions which in 
some cases may prove to be irreversible. It is highly likely to be the 
most adversely impacted stakeholder in the government's response 
efforts, yet it has no formal voice in the decision-making processes 
mentioned above, or a defined role in their implementation. This is a 
critical omission.
    I'm speaking on behalf of the Southern Shrimp Alliance, but I feel 
confident that other major components of the Gulf seafood industry 
would concur with the need and desirability for our industry to be your 
partner in making the government's response as effective as possible.
    I would also note that this industry not only holds a vast wealth 
of knowledge and expertise that would contribute substantially to the 
quality of response decisions and implementation, it also constitutes a 
vast resource of manpower that can be used to physically implement some 
aspects of the response, especially aspects of the seafood safety and 
clean-up missions.
    Finally, the ability to contribute directly to this process would 
provide a basis for a greater level of confidence in the government's 
response within these constituencies.
    Please seriously consider establishing a Gulf seafood industry 
advisory body to become the federal government's partner in responding 
to this historic event. I would be pleased to discuss this with you at 
your earliest convenience.
    My sincere thanks for your consideration--
John Williams, Executive Director
Southern Shrimp Alliance
                                 ______
                                 
    Ms. Bordallo. I thank you, Mr. Williams, for your testimony 
this afternoon, and I believe we have a heightened appreciation 
for your situation.
    Mr. Lambert, I look forward to your testimony, and you may 
now proceed.

              STATEMENT OF CAPTAIN RYAN LAMBERT, 
          CAJUN FISHING ADVENTURES, LULING, LOUISIANA

    Captain Lambert. Thank you, Madam Bordallo. My name is Ryan 
Lambert, and I am a charter fishing guide out of Buras, 
Louisiana, ground zero for the Horizon oil spill. I am a member 
of Ducks Unlimited, CCA and sit on the board of directors for 
the Charter Boat Association.
    I wrote a pretty speech, but I am not going to use it. I am 
going to go personally on ground zero, if you will, and bring 
it down to laymen's terms. When people ask me what is the 
impact you have had on the oil spill, the only thing I can tell 
them is to take everything that you know from school to 
fundraising, to being a speaker and, in one day, all of that is 
useless.
    They say experience is invaluable. Well, right now it is 
worthless because when I pull up to the dock I can look at the 
water level, I can look at the wind direction, where the tide 
is. I know right where to go to catch what kind of fish. I know 
where to go for what duck, because I am a passionate duck 
hunter and duck guide as well. And right now all that is 
worthless.
    So the first thing I thought about was the 11 families when 
it first happened. You know, I had no idea that I would be 
impacted. I said those poor guys. They are just making a 
living, and they lost their lives supporting their families.
    But a few days later when it got bigger and bigger and 
bigger, it started coming in to us and the reporters started 
showing up. They wanted us to take them to the oil. Well, we 
took them out, but no one could find the oil. This went on, and 
then all of a sudden, they found some on Pass a l'Outre where 
everybody did their photo ops. After 47 days and people were 
still having trouble--I mean, experienced people that know the 
water were having trouble finding the oil, I said I am going to 
take a trip myself.
    I threw my old black lab in the boat and I figured I would 
go to a restoration project about 90 miles away from the spill, 
because I knew it had a hard beach there and whatever was 
floating up, I would find. On the way, I saw a couple of oil 
sheens and then got a little closer. I could see a few pelicans 
that were just starting to turn a little rusty on the breast.
    Upon reaching the beach, everything looked fairly normal. I 
walked two or three miles down the beach, and I started 
noticing clams, more shells than there normally are. Upon 
looking closer, they were actually fingernail clams, which drum 
and ducks and everything, that is the start of all life. I said 
why are there so many?
    I got closer to the water, because the water is real murky 
from the water being high. It is at 13.2. It just crested last 
week. When I got down to the water there were millions and 
millions of what they call moose, these tar balls, in the surf. 
They were just going back and forth and washing back and forth. 
They had a couple on those photo ops that they see on the 
beach, but there were millions of them, and they were all 
encrusted with these shells. These are the things that people 
don't see, you know.
    So three days later I go back on Day 50, and I go to that 
beach and as far as you can see, for miles and miles, there is 
oil and millions and millions of tar balls, and all the aquatic 
grasses that are caught up in that and some various--you know, 
the pelicans were having a harder time, and they were kind of 
teetering as they flew.
    I thought, why are there no booms here? Why are there no 
people working, you know? You see 50 people standing on the 
tent in Grand Isle where the TV cameras are. You know, it is 
out of sight, out of mind, and that is why the dispersants were 
used. And the only reason I am seeing all of this is because it 
is a secluded beach that only someone like myself would go to.
    So when I look off to the east I see Chinooks and 
Blackhawks carrying sandbags back and forth, back and forth, 
trying to stop the gaps because we didn't take the time to 
build the restoration projects like the one I was standing on, 
and now we are vulnerable. Now they are spending millions and 
millions of dollars trying to fill those breaches with 
sandbags.
    You know, now we are talking about spending $350 million to 
build the berms when we should have spent it already to protect 
Louisiana because if we had a solid beach, all this would come 
on the beach. We would suck it up, and we would go about our 
business; but now farther down closer to the spill, there are 
millions of those tar balls. They are not floating. They are 
underwater because of the dispersants. People can't see them.
    The whole marsh is going to be filled with that and every 
invertebrate, every crustacean, every larvae and fish egg is 
going to be encrusted on those things, They are all going to 
die, and we will lose a few year classes because Mother Nature 
tends to heal herself.
    But on the way back, I captured a pelican. You know, I ran 
it down and I jumped out and I grabbed it and I was going to 
bring it to the rescue center. I am running short on time. I 
have a lot to say. That mess was all over its beak, and as they 
preen to clean themselves, they just spread it, spread it 
everywhere.
    What is going to happen come August, and the oil is still 
supposed to be leaking then. The migration. The waterfowl will 
come down. We are talking about 15 million ducks and geese that 
will be coming through Louisiana, and the very nature of these 
ducks, the way they act, is a lot of them are dabblers and they 
will be feeding, and as they have their beak down in that stuff 
it is going to get all over it. It is so sticky. When they 
preen, they won't be able to fly.
    Then where we are at they are wrapped up in tens of 
thousands offshore where the slicks are, where the big slicks 
are, so that is going to be detrimental as well. And then it is 
a threefold deal because probably 100,000 of them will winter 
in my area. Fifteen million will pass through and go to Central 
America, Nicaragua, Honduras. There won't be a food source 
because that oil is killing the aquatics and the invertebrates, 
so they won't be able to sustain themselves to get across the 
Gulf.
    If we lose half of the Mississippi flyway, the economic 
impact will be gross from Alaska to Canada, all through 
Wisconsin, Minnesota, all through the Mississippi delta. I 
mean, people won't be able to duck hunt for years, and it will 
be unbelievable.
    So there is very little that we can do, short of opening up 
the river, to make nature flush itself out and help with that. 
You know, I tell people, no matter what, I will fish come hell 
or high water. Well, Katrina put 24 feet of water in my lodge 
so I have already seen the high water. Now I am afraid of what 
I am going to deal with now. Thank you for letting me testify 
and share my thoughts.
    [The prepared statement of Captain Lambert follows:]

             Statement of Captain Ryan Lambert, Director, 
                   Louisiana Charter Boat Association

    I am deeply grateful to the Subcommittee for the opportunity to 
testify at this hearing, and to explain the impact that the Deepwater 
Horizon oil spill is having on my community, my business and my way of 
life.
    I am a member of Ducks Unlimited and the Coastal Conservation 
Association, and sit on the Board of Directors for the Louisiana 
Charter Boat Association, as well as being President of Cajun Fishing 
Adventures. As a professional fishing and hunting guide with 29 years 
of experience, I have built one of the most successful fishing lodges 
in the state of Louisiana. I am licensed by the Coast Guard, and I have 
been hunting, fishing, trapping and shrimping in South Louisiana all of 
my life.
    As the years have passed, our way of life has been increasingly 
threatened due to the erosion of our wetlands. These wetlands are a 
place where our unique culture has existed for generations. They are 
our home, and we value working in the rich gulf waters.
    The people of Louisiana have been stereotyped as being 
``backwards'' or ``behind times''. The truth is, we are just salt-of-
the-earth Americans. Americans that are not afraid to roll up our 
sleeves and make a living off of the land. When our shrimp season 
closes or our crabs aren't giving, we adjust to find another way to 
make our money off the land. We don't run to the unemployment line and 
we don't seek the help of agencies. Unfortunately, now that our shrimp 
boats are in dock and our crab traps are on the bank, there aren't any 
sportsmen wanting to come down to fish or hunt waterfowl with guys like 
me.
    With millions of gallons of oil entering this fragile ecosystem 
from the oil spill of the Deepwater Horizon, Never before has our 
national treasure, been in more jeopardy than it is now. It is apparent 
that it is time for us to turn to you for the help we need to save our 
precious wetlands and our way of life.
    For far too long, Louisiana's restoration projects have been held 
back due to red tape and political bureaucracies. It is time for 
someone to step to the plate and reconnect the Mississippi River to the 
marshes it sustains. This disconnect is at the root of our problem. A 
spotted owl can stop the logging industry. An endangered mouse can halt 
a housing development. But we lose the size of a football field every 
30 minutes as we sit back and let the greatest estuary in North America 
go by the way side. This estuary supports the vast majority of south 
Louisiana with its great abundance of resources such as oil, seafood, 
fishing and hunting. It is an economic engine in itself.
    The Mississippi River is one of the most highly engineered in the 
entire world and provides great benefit to the nation's economy at 
Louisiana's expense. For years the Corps of Engineers has dredged the 
river and put the sediment in hopper barges taking it offshore to dump 
it in the gulf instead of putting it to good use in our wetlands. The 
reason given was that it is not cost effective to use it in the marsh. 
How many millions of dollars do we need now because we did not spend 
the extra money to use this resource wisely?
    Twenty-five years ago, the restoration of a major portion of the 
Plaquemines Parish shoreline, the Shell Island project, was estimated 
to cost $35 million. Unfortunately, it was not completed at that time. 
That same project has again been under study by the Corps of Engineers 
for over five years. The current estimated cost is $250 million. The 
time for studies has past.
    The Corps is primarily a flood control and navigation agency, and 
has no mission or procedure to elevate the restoration of south 
Louisiana to levels of equal importance as its traditional missions. 
The precedent is no action. We need a new precedent. We need to take 
extraordinary action, which will involve risk and uncertainty. We need 
to send the Corps a new mission. A mission that is at least equal to 
the navigation of the lower Mississippi, a mission of restoration!
    As we did after Katrina, we are again watching our military 
helicopters flying sandbags trying to plug the large gaps in our 
coastlines. Had we taken control of our river and sediment years ago, 
we would not have to protect ourselves from the large plumes of oil 
lurking off the coast. We would not be in the fix we are now in. This 
is the forth time in recent years we have felt the sting of our 
failures. Without taking into account the hurricanes and this oil 
spill, we are losing countless acres of wetlands every day. The time 
has come to save our national treasure.
    Other states refuse to drill off their coast, yet they allow 
Louisiana to take the hit when something like this oil spill happens. 
Louisiana has been refused royalties due to the state for drilling in 
our fragile ecosystem. Now after all the years we have been supplying 
the country with 30% of domestic oil from the gulf, we will start 
getting well-deserved royalties in 2016. This is too little too late. 
This money should be sent to Louisiana immediately. The money should be 
sent to fund programs such as the Coastal Wetlands Planning, Protection 
and Restoration Act (CWPPRA) and used solely for the restoration of our 
abused coast.
    We don't know for sure the long term affects that the dispersants 
and the millions of gallons of oil are going to have on our marshes. We 
do fear that after the visible oil is cleared and the news media is 
gone, we will be left to wait for mother nature to heal herself. We 
will be left without a way to make a living and our wetland will just 
wash away.
    It seems that many people refuse to see the big picture of what is 
really happening. While the loss of pelicans and turtles are 
devastating scenes, the real damage is going on inside the marshes. 
These marshes serve as the nursery to twenty percent of the nation's 
commercial seafood. The eggs and larva of shrimp and crabs, the spat 
from oysters, as well as the young of many of our fish species are 
being killed by the millions. Without these young and the invertebrates 
that they feed on, Louisiana, and our way of life, will be changed 
forever. All life starts at the bottom of the food chain, this is where 
the most damage will occur when the oil and dispersants cover our 
waters.
    Also when one of the greatest natural spectacles in North America 
starts in late August, with the migration of our waterfowl and other 
wetland birds, if the oil is not cleaned up by then, this alone will be 
truly a national disaster of epic proportions. This migration will send 
some 15 million waterfowl passing through south Louisiana. A great 
percentage of them will winter in Louisiana until the spring winds call 
them back to the north to nest. The wetlands of the Gulf Coast comprise 
the most important wintering area for waterfowl and many other wetland 
dependant migratory birds in North America. Perhaps 50% of the ducks in 
the north migrate through or winter in Gulf Coast wetlands. The spill 
will devastate these birds, some of which are already threatened. 
Everyone has seen the photos of pelicans and other shore birds covered 
in oil. Imagine photos of millions of waterfowl and other beautiful 
birds, covered in black. My other fear is that the small animals and 
invertebrates as well as many aquatic grasses will not be present. 
These are the fuel sources that take many of these birds to Central 
America to winter. Plaquemines Parish where I make a living contains 
14% of America's wetlands. A major percentage of the Mississippi flyway 
waterfowl winters here. This is ground zero for the Deepwater Horizon 
oil spill. If we lose 50% of these waterfowl, the economic impact will 
be felt from Alaska and Canada and throughout the central United States 
for many years.
    I sit here preparing my written testimony, having just returned 
from a visit to one of our completed restoration projects. I think 
about how optimistic I was this morning before arriving on the beach. I 
thought maybe BP was right--that it is not coming inshore because after 
47 days, I hadn't really seen the giant oil slicks everywhere. Now I 
have lost the wind from my sails after seeing millions of tar balls 
rolling in the surf. Not only was every tar ball covered with small 
dead clams, but just under the surf are millions of these clams 
covering the beach. This is just the start of the death that we will be 
seeing in the future.
    By BP putting the dispersants on the oil, it has sunk out of sight 
of the cameras. The oil is there, millions of gallons of it. It is just 
starting to make its way to the Louisiana shores. My walk took place 
ninety miles from the Deepwater Horizon. Areas closer to the oil well 
don't have a beach to protect it from the oil balls coming into the 
marsh. They are underwater were you can't see them, but they are there. 
This is just the start of what's to come. The oil will be coming from 
the depths for years, not floating on the surface but out of sight. It 
is not to late to rebuild our coast. We need to open up the Mississippi 
to the marshes and let it do its job the way nature intended it to. 
There is a happy medium between navigation and restoration. We need to 
find that place and find it fast. Now is not the time for more studies. 
It's time to get the river flowing through the natural channels that 
still exist. Sure there will be shoaling in places, but it doesn't take 
the whole river to navigate to New Orleans.
    I thank the subcommittee for letting me share my thoughts on our 
great Mississippi delta. I would also like to take this opportunity to 
invite each and every one of you to come down and let me show you in 
person just what I am talking about.
    Thanks.
                                 ______
                                 

    Response to questions submitted for the record by Ryan Lambert, 
                        Cajun Fishing Adventures

Questions from Chairwoman Madeline Z. Bordallo (D-GU)
1.  Can you further describe the cascading impacts of the oil spill 
        from the wetlands to professional fishing and hunting 
        operations, like the one that you own?
    Chairwoman Bordallo, the impacts are just as you asked, cascading. 
At first customers started cancelling their trips due to the media 
coverage. Then the Wildlife and Fisheries started closing waters around 
us. After there was not a great deal of oil floating into the bays the 
water was partly reopened. Customers then did not rebook due to the 
opening and closing of the water happening to rapidly. I tried to keep 
my lodge opened for the sake of my employees. A few really good clients 
would come in at the last minute trying to help us out. Now my guides 
have left to work for BP in the oil spill because they are paying the 
boats $1500 per day. As I write you I have three more days for my 
brother and I to fish before I close my doors. Soon all the water will 
be closed because as you know the well is still leaking. Only time will 
how long I will be closed due to the dispersants and the oil being 
underwater. I see animals at the bottom of the food chain dying 1000 
fold since I was in Washington. No one seems to see the small changes 
because it doesn't make for good news.
Questions from the Ranking Republican Member, Congressman Henry Brown, 
        Jr. (R-SC)
1.  Captain Lambert, do you support Governor Bobby Jindal's proposal to 
        build temporary barrier islands to protect Louisiana's 
        wetlands? What are the benefits and any potential liabilities 
        of this approach?
    Congressman Brown, I do support Mr. Jindal's proposal only because 
it will protect us from the oil that is coming in from underwater due 
to the dispersants. If we have the brumes, the oil will be stopped on 
the sand to be easily cleaned just like in other states. If we don't 
have them the oil can enter the marshes where it can't be cleaned. It 
will kill the very ecosystem that sustains life in Louisiana. I only 
hope that it isn't to late already. I know that the oil will be coming 
in for years to come so in the long run the brumes will be a great 
help. On the other hand, I would rather have used the resources that 
are being used to do the job right. For years Louisiana has lost miles 
of shoreline each year. We have studied and tested all of my life. Now 
it is time to work without bureaucratic roadblocks to bring Louisiana 
back. These brumes might be a starting place to rebuild after the oil 
spill is nothing but history.
2.  Have you filed any claims against BP? What was the basis of your 
        claim and what has been BP's reaction?
    I have filed a claim with BP. They have assigned an adjuster to my 
claim and we are in the process of getting all of my tax papers 
together for him. They have paid money up front and will true up as we 
go along. I don't know on what they are going to pay as of yet but will 
find out soon.
3.  What role has the media played in building the perception that the 
        Gulf of Mexico and its beaches are covered with oil? How do we 
        correct these misconceptions?
    As you know the media makes a living on selling sensationalism. 
When they came here, they wanted to see the worst places and to hear 
the folks hating on BP. They couldn't believe that we didn't want to 
stop drilling here. At first we had to look really hard just to find 
oil for them to film. When they found a spot they all went there to use 
the same oil for their stories. This is just the way the industry works 
and I don't think that there is much we can do about that.
4.  Do you support President Obama's proposal for a six-month 
        moratorium on deepwater exploratory drilling in the Gulf of 
        Mexico?
    I do not support the moratorium. I have lived next to the oil 
industry all my life. This is one accident all be it a giant one that 
has happened. If there are 33 deepwater rigs, send 33 teams out to 
investigate these rigs to make sure that they have all the safety 
precautions in place. This should not take 6 months. Louisiana will be 
in enough trouble without putting another industry out of business. If 
these rigs leave here they won't be coming back.
5.  Please explain your proposal to open up the Mississippi River to 
        the marshes? What is the potential cost and the time to make 
        that project a reality?
    There are many of the natural bayous that still exist, these bayous 
were formed by the river overflowing its banks each spring. I feel that 
we should build spillways in places in southeast Louisiana where there 
is open land. Now we have diversions that pipe the water under roads 
and into the marshes. While these do work I think that the spillways 
would be more natural and move more water and sediments into the 
marshes. By doing these spillways mother nature will clean up the oil 
years faster than we will be able to do ourselves by flushing it out 
into the gulf again and covering it with sediments. There will be set 
backs such as Oystermen saying that it will kill their oysters because 
of the fresh water coming in to fast. What this tells me is that the 
oysters are where they don't belong. As the marshes have eroded they 
have moved the oysters closer and closer to the river. They are now 
where they don't belong and we will have to face the realism of moving 
them or losing them for the sake of keeping Louisiana. I don't know the 
cost of these spillways but there are many of them that have been 
planed and studied like everything else here. There are people at NOAA 
that can answer this part of the question much better than I. I know 
that CWPPRA has been the only program that has built restoration 
projects thus far. It works because there are five different agencies 
that work together and hold each other accountable for the completion 
of these projects. We need to give them the monies from the oil 
revenues and from the oil being captured from the Deepwater Horizon.
    If you have more question or want to talk more about this please 
give me a call at 504-559-5111 and I will be happy to talk with 
everyone interested.
    Thanks
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Lambert, for sharing 
your experience with us. We appreciate it.
    We will have questions for the panelists later. We will now 
turn to Ms. McDonough. Welcome to the Subcommittee, and please 
begin your testimony.

   STATEMENT OF JOANNE McDONOUGH, NATURE TOURISM SPECIALIST, 
ALABAMA GULF COAST CONVENTION & VISITORS BUREAU, ORANGE BEACH, 
                            ALABAMA

    Ms. McDonough. Thank you, Madam Chairman and fellow 
Committee Members, for the invitation to testify here 
concerning the importance of nature tourism in the Gulf of 
Mexico region.
    I serve as a nature tourism specialist with the Alabama 
Gulf Coast Convention & Visitors Bureau and the Mississippi-
Alabama Sea Grant Consortium. We work closely with nature tour 
operators to educate people about the importance of 
environmental ethics and stewardship of the Gulf of Mexico 
natural resources.
    Nature tourism may be simply defined as visiting natural 
landscapes to enjoy scenery and view the wildlife at home and 
around the world. This industry relies profoundly on healthy 
ecosystems and biodiversity. Tourism is the world's largest 
industry and nature tourism its fastest growing sector.
    A national survey conducted in 2006 by the U.S. Fish and 
Wildlife Service revealed that $22 billion was spent on 
hunting, fishing and wildlife viewing just in the Gulf Coast 
region. Watching wildlife generated $6 billion. Hundreds of 
thousands of jobs are sustained mainly by small businesses, 
whose profits circulate through local coastal communities 
throughout the Gulf of Mexico.
    Alabama and Mississippi include 966 miles of estuarine 
shoreline with 98 miles of Gulf front beaches. Alabama's sugar 
white beaches attracted more than four million tourists in 
2009, generating more than $3 billion into the coastal 
communities of Baldwin and Mobile Counties. Nearly $2 billion 
of that was generated just between Memorial Day and Labor Day.
    Before the Deepwater Horizon catastrophe, a fleet of 
vessels in Orange Beach, Alabama, were capable of carrying 
hundreds of thousands of tourists to the fertile breeding 
grounds of wild bottlenose dolphin. Thirty-one captains and 
crew are trained by the Dolphin Smart Program that promotes the 
sustainable viewing of dolphin in their natural habitat. Today, 
they are idle at the dock. Phones are silent.
    Before oil began coating Louisiana wetlands, in Mississippi 
kayak paddles were scheduled to dip into the Pascagoula River, 
the last remaining free-flowing river in our nation. Certified 
coastal nature guides in Alabama were booking kayak tours 
through cypress gum swamps, emerging into the Mobile-Tensaw 
Delta, one of the largest, intact wetland ecosystems in the 
United States.
    Sailing charters were ready to ply the nutrient-rich waters 
of Mobile Bay, a national estuary, and the second largest, 
intact river delta system in the Nation. Their phones are 
ringing, only with cancellations.
    The nature of our coast along the Gulf of Mexico is 
critical to our nation's economy, our natural heritage, our 
cultural integrity. Our natural assets not only afford 
destinations for leisure; our Barrier Islands are the first 
line of defense for storm resilience. Our maritime forests play 
a vital role in providing clean air. Oyster reefs and seagrass 
beds provide clean water and safe food. Just as these habitats 
suffer untold losses due to this catastrophe, so will entire 
generations of people in Gulf Coast communities.
    A toxic tide assaults our shores every day. I carry an 
urgent plea from tour operators and coastal residents. BP 
response efforts are slow, inadequate and disorganized. We need 
jobs. Out of state workers are being hired for jobs the local 
workforce could perform.
    I bring personal stories with me. Captain Chris Nelson 
echoes their concerns. These are his words. ``I have always 
been a realist, not a pessimist, but when it came to our 
beautiful natural wildlife, I was an optimist. Today, I cannot 
claim that. I have lost hope.''
    With your help, we can make sure wildlife will have clean 
homes, restore nature tourism, and bring back hope for coastal 
residents, like Captain Chris. Thank you, Madam Chairwoman, 
fellow Committee members, for your efforts in addressing this 
manmade disaster.
    Recommendations are in my written testimony, and I am happy 
to answer questions.
    [The prepared statement of Ms. McDonough follows:]

Statement of Joanne McDonough, Nature Tourism Specialist, Alabama Gulf 
  Coast Convention & Visitors Bureau and the Mississippi-Alabama Sea 
                            Grant Consortium

    I deeply appreciate your invitation to provide testimony before the 
Subcommittee concerning the economic impact of Nature Tourism in the 
Gulf of Mexico region. My name is Joanne McDonough, and let me first 
say on behalf of the Alabama and Mississippi coastal communities I 
represent: our heartfelt condolences are extended to the families of 
those 11 men who died in the Deepwater Horizon tragedy. They are 
foremost in everyone's mind, as well as those whose quality of life and 
livelihoods are affected by this unprecedented catastrophe spilling 
untold gallons of oil into the Gulf of Mexico.
    Even before this disaster, coastal natural resources have been 
under constant threat. Sixty percent of the United States river systems 
drain into the Gulf of Mexico. Gulf wetlands have been under constant 
assault by unsustainable development, violent weather and sea-level 
rise.
    I serve as a Nature Tourism Specialist with the Alabama Gulf Coast 
Convention & Visitors Bureau (AGCCVB) and the Mississippi-Alabama Sea 
Grant Consortium (MASGC). We are dedicated to promoting the sustainable 
use of our natural resources to benefit the environment, the economy 
and future generations. We work closely with nature tour operators to 
support, enhance and sustainably grow the nature tourism industry. In 
2007, I began managing a Nature Tourism Initiative that was launched in 
Baldwin and Mobile counties in 2000, and the Initiative is currently 
expanding to the coastal counties of Mississippi. I serve as the 
director of the Certified Coastal Nature Guide Program that was 
launched in February of 2010 on Alabama's Gulf Coast; my office is 
located in Gulf Shores, Alabama. Before joining the Nature Tourism 
Initiative, I was the Chief Operations Officer of Caribiana Sea Skiffs, 
our family boat building company in Orange Beach, Alabama, and a U.S. 
Coast Guard licensed Captain conducting nature tours along the bays and 
bayous of Baldwin County.
    Nature tourism, sometimes referred to as eco-tourism, may be simply 
defined as visiting natural landscapes to enjoy scenery and view 
wildlife at home and around the world. Some activities include bird 
watching, marine mammal viewing, kayaking, visiting protected areas, 
and in some cases specifically promoting conservation of nature. This 
industry relies profoundly on healthy ecosystems and biodiversity. 
Tourism is the world's largest industry and Nature Tourism its fastest 
growing sector.
    According to the 2006 National Survey of Wildlife Related-
Recreation, conducted every 5 years by the U.S. Fish & Wildlife 
Service, expenditures for fishing, hunting and wildlife viewing in the 
Gulf Region topped $22 billion. Wildlife viewing alone contributed over 
$6 billion. Hundreds of thousands of jobs are sustained mainly by small 
businesses whose profits circulate through local coastal communities 
throughout the Gulf of Mexico.
    Clearly, America's fascination with Mother Nature has moved beyond 
mere recreation to become an economic catalyst for Gulf Coast 
communities and offers enormous opportunities to engage people of all 
ages in the need for environmental ethics and stewardship of the Gulf 
of Mexico.
    In Alabama and Mississippi, Perdido Bay, Mobile Bay and the 
Mississippi Sound are important estuaries representing a total surface 
area of 5,981km\2\. Mobile Bay and the Pascagoula River drainage basin 
in the Mississippi Sound are of special concern to MASGC. The 480 
square mile Mobile Bay estuary contains a documented 337 species of 
fish, more species per area than any other region of North America. Of 
the 74 major river estuaries in North America, the Pascagoula River is 
the only one in the United States that remains unaffected by channel 
fragmentation and flow regulation along its entire length. As a result, 
the Pascagoula River is a vital center of biodiversity and essential 
fish habitats for numerous threatened and endangered species.
    Alabama and Mississippi include 966 miles of estuarine shoreline 
with 98 miles of Gulf front beaches. According to the 2009 Economic 
Impact Reports, Alabama and Mississippi coastal beaches attracted more 
than 9.5 million tourists who contributed more than $4 billion to the 
local economies. While everyone recognizes that natural resources are a 
primary reason those visitors come, effectively communicating with 
local businesses about the economic value of healthy ecosystems and 
educating them about the sustainable use of our natural resources is a 
challenging task.
    In the field, well-planned and managed nature tourism businesses 
have proven to be one of the most powerful incentives to conserve and 
protect biodiversity. The Alabama Gulf Coast Convention & Visitors 
Bureau (AGCCVB) recognized the potential of nature tourism and formed a 
partnership with the Alabama Department of Conservation and Natural 
Resources (ADCNR) and the U.S. Fish & Wildlife Service in 2000 to 
create the Alabama Coastal Birding Trail. Since then, the Convention & 
Visitors Bureau has been conducting surveys of overnight guests to 
Baldwin County to measure the growth of the nature tourism industry. 
The surveys reveal that in 2000, nearly 100,000 visitors participated 
in wildlife viewing activities. In 2009, nearly 400,000 visitors 
participated in wildlife related activities.
    When I joined the Alabama Nature Tourism Initiative in 2007, we 
began taking an inventory of nature tour operations in Baldwin and 
Mobile counties by conducting face-to-face interviews, using AGCCVB 
Industry Partner membership data and postings by company websites, at 
that time we determined at least 40 nature tour companies were 
operating in Baldwin and Mobile counties. On April 20, 2010 at least 64 
businesses were identified in both counties, these numbers do not 
include the charter fishing companies. MASGC began a Mississippi Nature 
Tourism Initiative in 2009 and preliminary data estimates at least 10 
nature tour companies are operating on the Mississippi Gulf Coast; we 
are in the process of meeting face-to-face with these existing tour 
operators.
    The Convention & Visitors Bureau economic impact report of 
overnight guests to Baldwin County revealed that in 2009, Alabama's 
coastal beaches attracted over four million visitors who spent more 
than $2 billion. $1.7 billion of that was generated between Memorial 
Day and Labor Day.
    Before the Deepwater Horizon catastrophe, a fleet of more than 32 
vessels in Orange Beach, Alabama, were capable of carrying hundreds of 
thousands of tourists to the fertile breeding grounds of wild 
bottlenose dolphin. Thirty one captains and deck hands are trained by 
the Dolphin SMART program that promotes the sustainable viewing of 
dolphin in their natural habitat. Today, many captains and their crew 
are idle at the dock, phones are silent.
    Before oil began coating Louisiana wetlands, in Mississippi paddles 
were scheduled to dip into the cypress-tupelo swamps along the 
Pascagoula River, the last remaining free flowing river in our nation. 
Certified Coastal Nature Guides in Alabama were booking kayak tours 
through cypress-gum swamps emerging into the Mobile-Tensaw Delta, one 
of the largest intact wetland ecosystems in the United States, second 
only to the Mississippi River Delta. The Delta itself covers over 
200,000 acres of swamps, marshes, and river bottomlands that are among 
the most impressive in the world, in fact Congress named the Delta a 
National Natural Landmark. Tidal freshwater marshes occur in the 
extreme lower portion of the Delta near the mouth of Mobile Bay. 
Sailing charters were ready to ply the nutrient rich waters of Mobile 
Bay, a national estuary and the second largest intact river delta 
system in the nation. Phones are ringing with cancellations.
    Marsh meadows framed a perfect picture for bird watchers 
documenting spring migrations along the Alabama Coastal Birding Trail. 
Bon Secour National Wildlife Refuge represents the best remaining 
stopover and staging habitat for Neotropical migratory songbirds during 
the spring and fall migration along the Alabama coastline. Our barrier 
islands are formed by crystal-white sand that tumbled from the 
Appalachian Mountains over eons and are a beachcomber's treasure chest, 
and the refuge of nesting sea turtles and horseshoe crabs continuing an 
ancient ritual of the cycle of life. The newly designated National 
Coastal Scenic Byway encourages new businesses to open their doors 
along a route that reveals the waters, ways and wildlife of Alabama's 
Gulf Coast.
    The nature of our coasts along the Gulf of Mexico is critical to 
our nation's economy, our natural heritage, our cultural integrity. Our 
natural assets not only afford destinations for leisure, our barrier 
islands are the first line of defense for storm resilience. Our 
maritime forests play a vital role in providing clean air. Oyster reefs 
and sea grass beds provide clean water and safe food. Just as these 
habitats suffer untold losses due to this catastrophe, so will entire 
generations of people in the Gulf of Mexico.
    I carry an urgent plea from tour operators and coastal residents. 
We need jobs. Out-of-state workers are being hired for BP oil response 
jobs the local workforce can perform. I bring the personal stories from 
nature tour operators with me, and Alabama Kayak Adventures' Captain 
Chris Nelson echoes their concerns, these are his words. ``I have 
always been a realist, not a pessimist, but when it came to our 
beautiful natural wildlife, I was an optimist. Today I cannot claim 
that. I have lost hope.''
    With your help we can make sure wildlife will have clean homes, 
restore Nature Tourism, and bring back hope for coastal residents like 
Captain Chris.
Recommendations
Jobs
    The most immediate need is jobs. Some tour operators who were hired 
for the Vessels of Opportunity Program have been deactivated, while out 
of state vessels are still on the payroll. All BP oil response jobs 
should be available first and foremost to local residents.
Claims Process
    Many coastal residents who lost their livelihoods are frustrated by 
the claims process when attempting to recover lost revenue. Please 
exert your influence to insure they are truly compensated for their 
losses.
Habitats
    Dolphin viewing tours are the largest sector of the nature tourism 
industry in Baldwin and Mobile counties. Perdido Bay and Wolf Bay are 
nursing, feeding and breeding grounds for Bottlenose Dolphin. In 2009 
more than 100 sightings were reported of West Indian manatees in 
Alabama waters, they are a federally listed endangered species. Local 
research to answer key questions about what is ``home'' to these marine 
mammals is seriously underfunded.
    Restoration and the creation of new habitats need funding.
    We must protect as much clean habitat as possible, we can't afford 
more loss. The following programs have been implemented in Alabama. 
Your support will help promote the sustainable use of our natural 
resources to benefit the environment, the economy and future 
generations.
Certified Coastal Nature Guide Program (CNGP) http://gulfshores.com/
        things-to-do/coastal-nature-guide/
    The CNGP is a partnership program developed by the AGGCVB, MASGC, 
Weeks Bay National Estuarine Research Reserve (WBNERR), and the Alabama 
Department of Conservation and Natural Resources (ADCNR). The goal of 
the program is to adopt and promote sustainable wildlife viewing 
practices that preserve healthy and resilient coasts of the Gulf of 
Mexico. The purpose for developing this program is to:
        <bullet>  Create a well-trained Nature Tourism staff to educate 
        customers using the services of these businesses.
        <bullet>  Provide local communities with information and 
        techniques to enhance waterfront related economic activities 
        and protect the health of the natural Gulf Coast environment
        <bullet>  Ensure that Gulf Coast communities and industries 
        have healthy economies that include an abundance of recreation 
        and tourism opportunities.
    All Coastal Nature Guides encourage responsible viewing of wildlife 
by following the program's code of ethics and statement of commitment, 
which are adapted from the United Nations Environment Program, Tour 
Operators Initiative. Some examples of the statement of commitment 
include:
        (1) I am committed to developing, operating and marketing 
        nature tourism in a sustainable manner that makes a positive 
        contribution to the natural and cultural environment, which 
        generate benefits for coastal communities, and which do not put 
        at risk the future livelihood of local people.
        (2) I commit to create awareness and active involvement among 
        my customers towards the natural, social and cultural 
        environment of the places we visit.
        (3) I will encourage other nature tour operators to follow the 
        code of ethics.
    Some examples of the code of ethics include:
        <bullet>  Promote conservation and wise use of valuable coastal 
        natural resources to all citizens
        <bullet>  Do not feed, pursue or harass wildlife
        <bullet>  Turn off or shield all lights that can be seen from 
        the beach during turtle nesting season
        <bullet>  Leave natural, historic, and cultural objects and 
        artifacts where you find them
        <bullet>  Practice ``catch and release'' fishing to protect and 
        conserve fisheries
Share the Beach Sea Turtle Volunteer Program
http://www.alabamaseaturtles.com/
    Every year from May through October female sea turtles swim the 
world's oceans, migrating home toward the beaches where they were born, 
continuing an ancient ritual of reproduction. Of the seven species of 
sea turtles in the world, three types may be fortunate enough to reach 
coastal waters and emerge from the Gulf of Mexico to nest on Alabama's 
Gulf Coast: Loggerhead, Kemp's Ridley and Green, all three are listed 
as endangered species by the U.S. Fish & Wildlife Service.
    For the last eight years, a dedicated force of concerned citizens 
armed with trash bags, cell phones and GPS devices has been scouting 
Alabama's sandy shores in an effort to make our local beaches sea 
turtle friendly. The Share the Beach program brings hundreds of 
volunteers together, each nesting season, to search along the shoreline 
for sea turtle nests. In 2009 sixty-four loggerhead (Caretta caretta) 
nests and two Kemp's Ridley (Lepidochelys kempii) were identified from 
Dauphin Island (Mobile County) east to Alabama Point (Baldwin County) 
near the Florida state line. An estimated 4,513 hatchling safely made 
it into the Gulf of Mexico, with the overall survival of hatchlings (# 
to water/# of eggs) estimated to be 63.6%.
    In April 2010 the Orange Beach Fishing Association reached out to 
the Nature Tourism Initiative to develop a sustainable fisheries 
certification program. We have drafted the framework for the CFISH 
program
Certified Fisher Invested in Sustainable Harvests Program (CFISH)
    The mission of the CFISH Program is to work towards healthy, 
sustainable Gulf of Mexico marine resources and insure that fishing 
will not negatively impact on marine habitats and other marine species. 
To be successful, charter fishing experiences should provide quality 
opportunities to engage the public with natural resources in ways that 
lead to greater understanding and appreciation, while protecting, 
preserving and sustaining Gulf of Mexico marine resources.
    The founding program sponsors of the program are the MASGC, Auburn 
University Marine Extension & Research Center (AUMERC), ADCNR/Marine 
Resources Division, the Orange Beach Fishing Association (OBFA) and the 
AGCCVB. This vision is shared not only by the program sponsors, but is 
supported by local partners who assist the program sponsors in the 
regional growth and implementation of the program.
    Continued support and funding for Federal partnership programs
Dolphin SMART Program http://sanctuaries.noaa.gov/dolphinsmart/
    Dolphin SMART is a partnership program developed by NOAA's Office 
of National Marine Sanctuaries and NMFS, the Whale and Dolphin 
Conservation Society, and the Dolphin Ecology project. The purpose of 
the program is to:
        <bullet>  Minimize the potential of wild dolphin harassment 
        caused by commercial viewing activities
        <bullet>  Reduce expectations of close interaction with wild 
        dolphins in a manner that may cause harassment
        <bullet>  Eliminate advertising that creates expectations of 
        engaging in activities that may cause harassment
        <bullet>  Promote stewardship of local coastal waterways
    Dolphin SMART is a unique voluntary recognition program and 
education program. Program participation is for commercial businesses 
conducting and booking wild dolphin tours, or any commercial vessel 
that may opportunistically view wild dolphins. It offers incentives for 
businesses that follow the program criteria and educate their customers 
about the importance of minimizing wild dolphin harassment. It also 
includes an important research component that provides insight about 
the daily lives of the local, wild dolphin populations. This program is 
currently being implemented in Florida and Alabama. The ADCNR, Coastal 
Section is implementing the Alabama program and partners include the 
MASGC and AGCCVB.
    Thank you Madame Chairwoman, Ranking member Brown and fellow 
committee members for your efforts in addressing this manmade disaster.
References
U.S. Fish & Wildlife Service 2006 National Survey http://
        library.fws.gov/pubs/nat_survey2006_final.pdf
The Gulf of Mexico at a Glance http://gulfofmexicoalliance.org/pdfs/
        gulf_
        glance_1008.pdf
The 2009 Alabama Travel & Tourism Economic Impact Report http://
        www.alabama.travel/media/media_room/Report/
        2009TourismReport.pdf
The 2009 Mississippi Travel & Tourism Economic Impact Report http://
        www.visitmississippi.org/resources/
        FY2009_Economic_Contribution_Report_
        and_Cover.pdf
Alabama Gulf Coast Convention & Visitors Bureau Tourism Impact Report 
        http://gulfshores.com/stats/2010%20Update%20Presentation.pdf
Alabama Gulf Coast Convention & Visitors Bureau 2009 Visitor Profile
http://gulfshores.com/stats/Klages%202009%20Annual%20Report.pdf
The Mobile-Tensaw Delta http://www.alapark.com/press/release.cfm?ID=272
State of Mobile Bay http://www.mobilebaynep.com/site/news_pubs/
        Publications/Indicator_Report-Final.pdf
Mississippi-Alabama Sea Grant Consortium ``Healthy Coastal Ecosystems'' 
        http://www.masgc.org/page.asp?id=195
                                 ______
                                 

 [NOTE: Ms. McDonough's responses to questions were not received by the 
        time this hearing went to print.]

    Ms. Bordallo. Thank you. Thank you very much, Ms. 
McDonough, for describing the very concerning state of coastal 
tourism.
    And finally on our third panel, I welcome to the 
Subcommittee Ms. Rolfes. Please begin.

STATEMENT OF ANNE ROLFES, EXECUTIVE DIRECTOR, LOUISIANA BUCKET 
                BRIGADE, NEW ORLEANS, LOUISIANA

    Ms. Rolfes. Thank you. My name is Anne Rolfes, and 10 years 
ago I founded a nonprofit organization called the Louisiana 
Bucket Brigade to work with people who live next to oil 
refineries and chemical plants.
    For the past decade I have spent a lot of time on the front 
porches of people who live right next to the oil industry, as 
close as I am to you right now. From this vantage point, I have 
seen all kinds of things, and I am not at all surprised that we 
have had such a terrible catastrophe. We are only lucky that it 
hasn't happened more often and sooner than this disaster in the 
Gulf.
    I could walk you into the file room. This is actual data, 
not opinion. I could walk you into the file room at the 
Department of Environmental Quality and the EPA and show you 
permits and variances and accident reports that would make your 
hair stand on end. It is not just the oil rigs that have a 
problem; it is the oil industry. That is refineries, its 
pipelines and other infrastructure.
    The dynamic that we are seeing playing out in the Gulf is 
one that I have seen every week for the last 10 years. The 
permit applications are not meaningful examinations of the work 
at hand, but instead they are cut-and-paste quick jobs. And 
when there is an accident like we have just seen, there is a 
very predictable series of events that happen--downplay the 
problem: blame somebody else; minimize the impact on those 
hardest hit; and resist the Federal Government's attempts at 
enforcement with every breath of the corporation's body.
    If this sounds familiar, it is exactly what is happening in 
the Gulf right now. And we know the outcome. We know, as with 
the Exxon Valdez and with many other accidents in Louisiana 
that never make the headlines, we know that what happens is 
that maybe after years and decades, a very wealthy oil company 
finally gives money to the people who it has damaged, but this 
is always much, much too late.
    My question is, since we know what is going to happen here, 
why can't this time be different? And that is why I am here 
today.
    I was at lunch, and I picked up Roll Call, your newspaper, 
and there is an ad from BP just like the ones we see in the New 
Orleans papers. It says that our focus has been on helping 
fishermen by making payments to replace their lost monthly 
income.
    I know of one payment, so this ad as far as I am concerned 
is absolutely not true, and the fact that they can put it in 
the newspaper under your very noses, I think, speaks volumes to 
the power of the oil industry and the real need for you all to 
get engaged.
    And so to that extent, as far as encouraging Federal and 
congressional involvement, the following areas are ones in 
which we desperately need Federal intervention. The first is on 
wildlife. I think other people more knowledgeable than I have 
spoken.
    The second is health. I think we all heard the stories--I 
don't know if they made the rounds in D.C.--of workers who were 
out on boats, cleaning up the oil, and then became ill from the 
odors. They were told by BP not only could they not wear 
respirators, but they would absolutely be fired if they wore 
them. How can this be? Why isn't OSHA out on those boats with 
monitors?
    I have heard subsequently that OSHA said they have been 
monitoring, and there is no problem. No. What it says is that 
OSHA is not monitoring effectively because you have scores of 
cleanup workers who have been made sick.
    Where is the Department of Labor? Where is the Department 
of Justice to step in right now and tell BP that they are not 
allowed to give directives like that? How is it that an oil 
company is more powerful than the Federal Government? I don't 
understand.
    In addition to the problems of the cleanup workers, when I 
was in the airport on the way here, I went through piles of 
messages from people who were calling my tiny organization 
asking about exposure. They are sick with respiratory illnesses 
when they have never been sick before. Again, there is 
something wrong here when a small, nonprofit agency is seen as 
more responsive than the Federal Government.
    The second or the third area where we need your 
intervention is with the economy. Our fishing guide here can 
speak volumes to that, but there has been a lot even from our 
own Congressmen about the balance that has to be struck between 
the oil industry and the fishing industry and wildlife.
    I am here to tell you that it is absolutely not balanced. 
It is so far in favor of the oil industry, and I think that 
these ads in the paper and even our own representatives' 
statements really prove that point. We agree we need balance. 
We need to have some sort of ecological and environmental 
health protections.
    Right now what is happening is that the oil companies are 
externalizing their costs on the backs of Louisiana residents. 
Certainly the fishermen and the shrimpers and all the indirect 
people who make their livings off of this industry need to be 
made whole, and BP should not be allowed to get away with false 
statements like this.
    The final area where we need government intervention is in 
the area of information control and management. BP is 
absolutely controlling media access to destroyed places, as 
well as scientist and nongovernmental organization access. How 
is it that they can prevent the documentation, which will in 
the end prevent their liability?
    There are no databases currently that can tell you how many 
accidents there have been in the Gulf. There are no databases 
run by the government that can tell you how many accidents the 
oil industry has had over the long term. This is a basic tool 
that ought to be used. I mean, why doesn't EPA, for goodness 
sakes, have a database and NOAA and MMS have a database where 
anybody can go and look at this information?
    There are absolutely things that we can do to correct this 
problem. I am not a cynical person. I want to believe that 
since we have seen all of this before, this time can be 
different. I hope that you all can make it so.
    [The prepared statement of Ms. Rolfes follows:]

 Statement of Anne Rolfes, Founding Director, Louisiana Bucket Brigade

Introduction
    My name is Anne Rolfes and I am the Founding Director of the 
Louisiana Bucket Brigade, a non profit environmental health and justice 
organization. Since 1999 I have collaborated with communities impacted 
by the petrochemical industry. Most of my experience is working with 
people who live next to Louisiana's 17 oil refineries. I spend my time 
in the neighborhoods and have a solid understanding of what these 
neighbors experience and how the oil industry conducts itself in this 
region.
    In April of 2010, 47 people were killed because of this nation's 
reliance on fossil fuels. Seven workers at Tesoro Corp`s refinery in 
Washington state <SUP>1</SUP>, 29 miners in West Virginia <SUP>2</SUP> 
and 11 people on BP's Deepwater Horizon rig in the Gulf of Mexico. 
<SUP>3</SUP> While the subject of this hearing is the BP Oil Disaster, 
it is important to recognize the human costs of this country's 
addiction to fossil fuels. The tragic events of April 2010 should be an 
inspiration to move toward a future of renewable energy.
    The following testimony is in response to the questions posed in 
the letter from Subcommittee Chair Madeleine Z. Bordallo dated May 28, 
2010. I detail a number of problems in this testimony but I believe 
that these problems can be solved and the response improved.
1) The short and long-term impacts of this oil spill on the local 
        community.
A. BP Exacerbation of Impacts
    Both the short and long term impacts of the oil disaster in the 
Gulf are being exacerbated by BP's conduct in the weeks since the 
explosion. BP is not just failing to act but is taking steps that make 
the problems worse both now and in the long term.
    All of the information detailed here has been documented since 
April 20, 2010 during time spent in the impacted coastal communities of 
Louisiana. In some cases the press has also documented the problem. I 
encourage Congressmen and women and their staff to go to the Gulf 
Coast, not as a Congressional entourage with VIP status, but as 
ordinary citizens looking for information. By being on the ground 
without fanfare, our representatives can learn the truth.
    Many of the residents of the coastal communities are afraid to 
speak out on these issues for fear of repercussions, including loss of 
employment from BP. <SUP>4</SUP> This fear has been voiced repeatedly 
to me and to my co workers since April 20.
i.  Health
    Since the disaster began on April 20th the following BP activities 
have been documented.
    a)  Clean up workers are being told by BP that they will be fired 
if they wear respirators to protect themselves from chemical exposure. 
<SUP> 5</SUP> We have heard these stories since May 14, 2010 from 
fishermen in Barataria, Lafitte, Grand Isle and Venice. Workers have 
requested respiratory gear because of the exposure happening while they 
work. Because BP is the employer, these fishermen will not speak out 
publicly for fear of losing this chance at making money.

         BP has made statements detailing the health protective gear it 
        has provided.

         ``We want to ensure workers' health and safety are protected, 
        so we give them Tyvek suits, nitrile gloves, safety glasses, 
        hard hats when working near overhead hazards, rubber boots, 
        plus hearing protection, insect repellant, sunscreen, lip balm, 
        personal floatation devices and steel-toe boots,'' Curry said. 
        <SUP>6</SUP>

         This does not mean that all workers are consistently being 
        provided with such equipment.

         While BP insists that its air samples have shown no problems, 
        this is at odds with workers' experiences of falling ill after 
        breathing in chemicals. It is also at odds with news reports 
        about hospitalized workers. <SUP>7</SUP>
    b)  On Thursday, June 2nd my co workers Anna Hrybyk and Shannon 
Dosemagan spoke to a nurse who was stationing the medical tent within 
the BP zone in Grand Isle, Louisiana. This nurse was part of the 
official parish response that was advertised as the place that workers 
and others should go to if they experience health problems from the 
spill. The nurse was incredibly frustrated. She had arrived on the 
scene to treat medical emergencies, and her equipment included IV's, 
suture stitching materials and more. She reported that all of this 
equipment was taken away from her by BP officials and that she was left 
with only aspirin and band aids. She reported that BP is running its 
own Emergency Medical Service and that the sickest people are being 
taken there and avoiding the parish emergency center. This is a concern 
for three reasons: 1/BP has a vested interest in minimizing health 
concerns; 2/People may not be getting the best care possible and 3/The 
company that has caused the problem is controlling the medical records 
and information. The health problems treated by what the nurse called 
``BP's EMS'' may not ever be part of the public record.
    c)  BP CEO Tony Hayward's remark that sick workers ate tainted food 
was not an aberrant remark but consistent with BP's response of 
minimizing health concerns. ``I'm sure they were genuinely ill, but 
whether it was anything to do with dispersants and oil, whether it was 
food poisoning or some other reason for them being ill,'' Hayward said. 
<SUP>8</SUP>.
ii.  Economy
    The problems detailed here can be discovered by spending a day in 
the impacted communities.
    There is not a consistent commitment to hire local fishermen whose 
livelihood is threatened by this spill. While some fishermen have been 
hired in the clean up efforts, workers are being brought in from New 
Orleans and elsewhere.
    Local businesses are not being used. BP is contracting with service 
providers--houseboat owners, catering services--outside of the impacted 
communities. From the beginning government spokespeople spoke of the 
need to hire locally during the response, but this is not happening.
    BP first insisted that workers sign waivers in order to get clean 
up jobs. While the first round of waivers did not hold up in court, it 
fell to non profit agencies and local lawyers to challenge this 
practice. These waivers were declared without effect in U.S. District 
Court on May 2, 2010 by Judge Berrigan. <SUP>9</SUP>
    Individuals are left on their own to negotiate with BP, including 
negotiations regarding employment and compensation. Local reports 
indicate that without a degree of individual power or negotiating 
skills, locals are likely to be ignored or undercompensated. ``If you 
are powerful or persuasive or are known as a local leader, you will be 
hired and generously compensated.'' <SUP></SUP>10 Established, written, 
transparent hiring and compensation policies must be developed.
    BP made $5,000 grants to fisherman but this amount was deducted 
from the pay of those hired by BP. <SUP>11</SUP> Some of the fishermen 
did not learn this until they received their pay checks.
    According to reports from a local non profit organization called 
the Bayou Interfaith Shared Community Organizing, some workers are not 
being paid or are being paid late.
iii.  Information Control
    A comment from a resident of Terrebone Parish on June 7, 2010:
        ``To me that's one of the most frightening things--BP's 
        control. Their brazen control of the clean up, of the disaster. 
        Putting oil on property doesn't give them the right to control 
        the property. How much power do these people have?''
    BP is restricting access to shoreline and marsh areas where there 
is oil or other apparent damage. Air traffic above the spill is also 
restricted. Among those prevented from accessing the sites are the 
media and scientists working in the public interest.
    Private security forces are hired to keep people off of public 
beaches. While the public does need to be protected, this protection 
needs to be within reason. Workers on Grand Isle report that the beach 
closures, including Elmer's Island, appear not to be about health 
protection but about preventing residents, the media and others from 
documenting the oil spill. Security forces deny access even for 
organizations and institutions with trained professionals working on 
the spill. Going through official process to get BP approval takes days 
and usually does not result in access.
    Some workers have been required to sign an agreement not to talk to 
anyone about the impacts that they have witnessed. <SUP>12</SUP> When 
this issue was raised in a town hall meeting with BP, they replied that 
this is not their fault, that the agreement is the subcontractors' 
policy. BP has the power to negotiate whatever it wants in its 
subcontracts; this clause should be removed.
    The long term impact of this short term control of information is 
that BP is preventing full documentation of the disaster's impacts. The 
response is thus inhibited as well.
B. Health Impacts
    The Oil Spill Crisis Map created by Tulane University and the 
Louisiana Bucket Brigade has received 86 reports of health complaints. 
<SUP>13</SUP> Media outlets, community organizations and other 
witnesses on this panel have documented even more community exposure, 
worker illness and hospitalization.
C. Direct Economic Impacts
    The direct impacts to fisherman, oystermen, shrimpers, crabbers and 
those who work in the seafood industry have been noted in the media. A 
story from the Oil Spill Crisis Map details the impacts.
    Oyster Shucker from New Orleans as detailed on the Oil Spill Crisis 
Map (www.oilspill.labucketbrigade.org)
        ``I'm New Orleans and I get called in by people who have 
        parties. I show up--I have my metal grated gloves and my oyster 
        knives and I get all set up for parties. At St. Patrick's Day 
        instead of going to the parade I set up and shucked oysters. I 
        made a pretty nice pay day that day. For the next 5-7 years all 
        that shellfish is compromised--it's going to be toxic with 
        dispersant. You can tell people don't eat it but people who are 
        subsisting on it are going to eat it. It's going to affect 
        those communities health wise. Suddenly everybody's going to 
        get cancer, birth defects.
        And now, I'm going to be out of work. I've got my gloves for 
        shucking, but I'm going to have to hang them up, so to speak.''
D. Indirect Economic Impacts: Taxpayers pay for BP's negligence
    While the Oil Pollution Act mandates that BP pay for the clean up, 
there are additional costs with no system for mandating BP payment. 
These costs include the burden to the public health care systems in the 
Gulf Coast as well as the long term impact of individuals' compromised 
health status. If exposure makes people sick, they may have less 
earning capacity over the long run. If these people are forced to rely 
on Supplemental Security Income or long term disability, then the U.S. 
taxpayers are paying for BP's grievous mistake.
    The section below details the Gulf Coast's lack of capacity for 
indentifying chemical exposure. There are not enough doctors in the 
region who are trained in chemical exposure and health impacts. If the 
government stationed such toxicologists along the Gulf Coast, the 
program would pay for itself in identifying people made sick and 
incapacitated because of BP. In this scenario, BP--not the U.S. 
taxpayer--would then pay for the loss of livelihood.
E. Impacts as reported on the Oil Spill Crisis Map
    The Oil Spill Crisis Map (www.oilspill.labucketbrigade.org) is a 
project of Tulane University's Disaster Resilience Leadership Academy 
and the Louisiana Bucket Brigade. This web based map facilitates 
community reporting of the disaster via text messaging, on line 
reporting or e mails. As of June 8, 2010 there are 616 reports that 
document livelihoods at risk, health problems, injured marine life and 
oil sightings by Gulf Coast residents. The members of the committee are 
urged to review this map to see firsthand what is happening on the 
ground along the Gulf Coast.
    Citizen reports as of June 8, 2010:
        Odor Complaints: 181
        Health Complaints from Exposure: 86
        Oil on Marine Wildlife: 63
        Oil on Birds: 47
        Oil on Other Wildlife: 49
        Oil on Shore: 130
        Oil on Water: 111
2) The need for prolonged commitment by the Federal government, the 
        States, and the responsible party to mitigate damages.
A. Current problems that prevent effective mitigation
    Please note that these problems are detailed as a first step to 
effective government involvement. This is not an attempt to provide 
simply a laundry list of complaints; instead, this is an analysis of 
the problems that prevent effective mitigation. If these problems are 
addressed then we have a real chance at effective disaster response.
i.  Oil Pollution Act
    BP's pattern of minimizing the problems and preventing 
documentation are noted above. According to federal government 
officials (including EPA Administrator Lisa Jackson <SUP>14</SUP>), the 
Oil Pollution Act (OPA) stipulates that if BP is to pay for the clean 
up then it has to also administer the response. This is a clear 
conflict of interest and is preventing a proper response.
    We encourage two responses to the confines of OPA: 1/Government 
intervention to the fullest extent allowable under the law. Is the 
government using all of its powers within the context of OPA? A review 
should be conducted. 2/Change the law. Special legislation should be 
enacted now, to immediately apply the lessons we are learning on the 
ground. One of the biggest lesson is that BP has too much control.
ii.  Louisiana's lack of capacity
    The Louisiana health care system does not have the capacity to 
diagnose and treat people with chemical exposure. We do not have the 
capacity to clean our shores and marshes, provide alternative 
employment for the people thrown out of work, or conduct or adequate 
water, soil and air sampling.
iii.  Ineffective federal and state agencies
    The situations detailed above demonstrate the government's 
ineffectiveness in controlling BP. Additional problems with the 
response are as follows and must be addressed before the government can 
effectively mitigate damages.
    Based on 11 years of experience with the Louisiana Department of 
Environmental Quality (LDEQ), we have no confidence that the agency is 
capable of taking any steps to protect people or the environment. This 
agency should be invested with as little responsibility as possible. 
The good news is that the EPA--not LDEQ--seems to be managing the 
situation. This should continue.
    There should be a robust federal presence on the ground preventing 
the local communities from being taken advantage of by BP. While 
various agencies like the EPA and NOAA have been visible, they have not 
been successful in stopping the worst harms of BP. Agency challenges 
are as follows.
        <bullet>  OSHA--Workers are prevented from wearing protective 
        gear and air quality information is absent.
        <bullet>  EPA--BP continued to use Corexit even after the EPA 
        asked them to change to a less toxic alternative <SUP>15</SUP> 
        Air quality is deemed safe despite community members' 
        experiences to the contrary.
        <bullet>  NOAA--BP has consistently underestimated both the 
        amount of oil leaking <SUP>16</SUP> from the well and the area 
        impacted by the spill. <SUP>17</SUP>
        <bullet>  Law enforcement/federal investigators--BP is 
        overstepping its boundaries in preventing the media and the 
        public from documenting the damages; people on the local level 
        are being cheated by BP via poor health protections and 
        employment issues as detailed above.
iv.  History of Accidents in the Oil Industry in the Gulf and in 
        Louisiana
    The oil industry in Louisiana has a terrible problem with accidents 
off shore and on shore. BP is responsible for this disaster, but 
federal and state agencies clearly failed in their oversight. Prolonged 
government commitment is needed but that commitment has got to be 
effective.
        ``Workers plunged dozens of feet through open unmarked holes. 
        Welding sparked flash fires. Overloaded cranes dropped heavy 
        loads that smashed equipment and pinned workers. Oil and 
        drilling mud fouled Gulf waters. Compressors exploded. Wells 
        blew out.'' <SUP>18</SUP>
    Despite the egregious state of oil rigs, in the five years before 
the explosion of the Deep Water Horizon, 400 investigations of rigs 
resulted in only 16 fines. <SUP></SUP>19 The problem on shore with 
refineries is just as bad.
    According to refinery reports to the state, ten of the largest 
refineries in the state averaged ten accidents a week from 2005-2008. 
<SUP>20</SUP> Despite these facts--facts reported by the refineries 
themselves--there has been no comprehensive action taken by the LDEQ or 
EPA to stop these accidents. Both agencies know about the accidents as 
the data has been communicated repeatedly to the LDEQ and all levels of 
the EPA. While we are told by the EPA to go through a process and be 
patient, the accidents continue and people's lives are at risk. We 
don't want another tragic disaster to take place.
    Many of these refinery accidents include preventable accidents that 
are violations of the Clean Air Act. Proof of the poor state of 
operations is found in the results of two citizen enforcement cases 
brought by local residents against Murphy Oil and ExxonMobil's 
Chalmette Refining. In both cases the refineries were on the losing end 
of motions for summary judgment. This excerpt from the citizens suit 
against ExxonMobil's Chalmette Refining details a troublesome dynamic 
in the industry.
        ``Plaintiffs have alleged, and the documented violations 
        indicate, that Chalmette repeatedly violates the Clean Air Act 
        and that, unless some action is taken to prevent the illegal 
        conduct, there is a real threat that such violations will 
        continue to occur.'' <SUP></SUP>21
    Citizens suits like this one happened because refinery neighbors 
had to take enforcement into our own hands; federal and state 
enforcement was and is not happening. The situation is truly desperate. 
Accidents in the industry are ongoing but the agencies are not 
enforcing the law. We have been shouting about this problem for years.
    These failures do not mean that there is no role for government. 
Instead, they point out the need for a government that is more active 
on the ground protecting citizens. Being active means being with people 
in their communities and conducting investigations. In regard to the 
oil spill, government officials should not be locked away in a command 
center or stuck in meetings.
B. Government Steps that should be Taken to Mitigate Damages
    Intervening vigorously on the ground to stop the abuses that are 
taking place is the best way to mitigate the damages, especially in the 
short term. Additional steps, as follows, should be taken to prevent 
future accidents.
    A many of these steps involve more vigorous federal oversight, the 
agencies involved--including the EPA and OSHA--should eliminate 
unproductive staff positions and ramp up its investigation and 
enforcement division. Fines collected via these activities might help 
to offset the costs of additional enforcement.
i.  Examine the entire oil industry
    The preceding section has detailed the problems within the oil 
industry as a whole. Proper mitigation includes looking at the entire 
industry.
ii.  Information management: create a database of accidents for all 
        sectors of the oil industry
    Our expertise at the Louisiana Bucket Brigade is with refinery 
accidents. Our Refinery Efficiency Initiative is our program to 
encourage accident reduction at all 17 refineries in the state. 
Refinery accidents are a serious problem; according to refineries' own 
reports, from 2005-2008, ten of Louisiana's largest refineries averaged 
ten accidents a week and released significant amounts of pollution: 
15.6 million pounds of air pollution and 21.8 million gallons of water 
pollution.
    We know these numbers because we have created a database based on 
information from the refinery reports to the Louisiana Department of 
Environmental Quality (LDEQ). The LDEQ also maintains a database, but 
this database presents reports one at a time. Absent our database, the 
state and federal agencies have no mechanism for comprehensively 
viewing refinery accidents. This is a surprising situation given that 
we are a small non profit with far fewer resources than the government.
    The situation--lack of information in one place--may be the same 
for oil rig accidents in the Gulf. Creating publicly accessible 
databases of information would allow all parties--oil companies, 
regulators and the public--to understand accident trends over the long 
term. This understanding is key to prevention.
iii.  Conduct a robust review of the oil industry plans for the worst 
        case scenario and mandate that the planning is really for the 
        worst case
    In my experience with refineries, the worst case scenario planning 
usually involves an assumption that the worst case scenario will not 
happen, and the planning is for a lower level problem. This should be 
changed.
iv.  Pass the Pallone bill to eliminate the liability cap for oil 
        spills
    As long as there is a cap there is an incentive to take risks--to 
drill and to spill.
v.  Use of best available technology in all phases of the oil industry, 
        including clean up and accident prevention
    This accident has illustrated the oil industry's emphasis on 
drilling technology at the expense of safety technology. Rules 
regarding use of best available technology need to be tightened and 
enforced throughout the industry.
3) The sufficiency of community outreach to disseminate information to 
        and receive information from the public about the environmental 
        impacts of this oil spill.
A. Community outreach has historically been poor
    During Hurricane Katrina a million gallons of oil were spilled by 
Murphy Oil into a residential neighborhood. EPA distributed fliers to 
those returning to the neighborhood, but the fliers gave no information 
about the oil; instead the fliers focused on the danger of household 
cleaning products that might have spilled and failed to mention the 
oil. This is the level of incompetence that we have historically dealt 
with.
    This EPA is much better and has taken time to meet with community 
members and NGO's. There remain problems, however, with the veracity of 
EPA's information and with a meaningful follow up to community 
suggestions. For example, the EPA air monitoring web site states that
        ``EPA's air monitoring conducted through June 6, 2010, has 
        found that air quality levels for ozone and particulates are 
        normal on the Gulf coastline for this time of year.'' 
        <SUP></SUP>22
    There are a number of problems with this statement:
        <bullet>  EPA is not conducting robust hot spot monitoring
        <bullet>  EPA is extrapolating to an entire region based on 
        limited data
        <bullet>  There is no baseline for this time of year so a 
        comparison is impossible
    We have communicated these concerns to EPA but nothing has changed. 
The air sampling that has been conducted by EPA is better than in past 
years but is still not right. Rapid Response Teams to respond to odor 
complaints by citizens should be established. Engaging citizens to 
sample should also take place. And OSHA needs to monitor vigorously; 
air monitors should be put on the boats with the clean up workers. Both 
of these agencies as well as BP are reporting that air quality is fine. 
This does nothing to convince residents who fall sick from odors. 
Instead, the gap between their experience and the sampling results 
builds distrust in the government and in BP.
B. Locally based organizations can help with outreach
    After ten years of working in communities impacted by the oil 
industry, we have learned that the best way to solve for these problems 
is to engage the local communities as equal partners. There has to be 
tracking to make sure that there is no retribution for those community 
members who dare to speak critically of the oil industry. They cannot 
be viewed as less knowledgeable than the oil industry or regulators. 
The people who live with the impacts of the industry have a special 
expertise whether they are refinery neighbors or fishermen out of work. 
They are well positioned to offer solutions.
    There are organizations working on the ground in the Gulf Coast 
that have community connections. These include Bayou Interfaith Shared 
Community Organizing, Mobile Baykeepers, the STEPS Coalition and the 
various shrimpers and fishers associations. Locally based 
organizations--those with a constituency of impacted people--should be 
the vehicles for information dissemination. If the government or needs 
these organizations to effectively communicate with the public and with 
those impacted, then these organizations should be paid for their time.
    Thank you for the opportunity to testify. I believe that as 
terrible as this crisis is, it represents an opportunity to get the 
response right and show that government is competent. Why can't this 
time, too, bring forth a Greatest Generation that responds to this 
disaster in the right way and uses it as a catalyst for a change to 
renewable energy? But time is of the essence. There is still time to 
improve on the response and change our fossil fuel future, but we must 
act quickly. I will help in any way I can.
                                endnotes
 <SUP>1</SUP> Associated Press, ``Seventh Person Dies from Wash State 
        Refinery Fire,'' April 24, 2010, http://www.kgw.com/news/
        national/92006674.html
 <SUP>2</SUP> Urbina, Ian, ``No Survivors Found after West Virginia 
        Mine Disaster,'' New York Times, April 9, 2010, http://
        www.nytimes.com/2010/04/10/us/10westvirginia.html
 <SUP>3</SUP> Times Picayune, Meet the Eleven Men Who Died on the 
        Deepwater Horizon Rig in the Gulf, May 1 2010, http://
        www.nola.com/news/gulf-oil-spill/index.ssf/2010/05/
        details_on_scene_as_deepwater.html
 <SUP>4</SUP> Cohen, Elizabeth, ``Fisherman's Wife Breaks the 
        Silence,'' CNN, June 3, 2010, http://www.cnn.com/2010/HEALTH/
        06/03/gulf.fishermans.wife/index.html?hpt=C2
 <SUP>5</SUP> Lawrence, Grant, ``Fishermen Hospitalized: BP not 
        Allowing Clean Up Workers to Use Respirators,'' Alternet.org, 
        May 27, 2010, http://blogs.alternet.org/grantlawrence/2010/05/
        27/fishermen-hospitalized-bp-not-allowing-clean-up-workers-to-
        use-respirators/
 <SUP>6</SUP> Hammer, David, ``BP clashes with critics on Gulf of 
        Mexico oil crisis response,'' Times Picayune, May 31, 2010, 
        http://www.nola.com/news/gulf-oil-spill/index.ssf/2010/05/
        post_6.html
 <SUP>7</SUP> Associated Press, ``Hospital treating 7 oil spill cleanup 
        boat crewmen,'' May 27, 2010,<P> http://www.nola.com/news/gulf-
        oil-spill/index.ssf/2010/05/hospital_treating_7_oil_spill.html
 <SUP>8</SUP> Hammer, David, http://www.nola.com/news/gulf-oil-spill/
        index.ssf/2010/05/post_6.html
 <SUP>9</SUP> Lodge, Bill, ``BP Scratches Waivers for Fishermen,'' The 
        Advocate, May 4, 2010 http://www.2theadvocate.com/news/
        92735704.html
<SUP>10</SUP> Conversation with Terrebone Parish resident, June 7, 2010
<SUP>11</SUP> Babcock, Stephen, ``Anxiety, Booms and Claims,'' NOLA 
        Defender, http://noladefender.com/content/anxiety-booms-claims
<SUP>12</SUP> Grand Isle Louisiana Town Hall Meeting, June 2, 2010
<SUP>13</SUP> www.oilspill.labucketbrigade.org, June 8, 2010
<SUP>14</SUP> Conversation with Lisa Jackson, May 24, 2010
<SUP>15</SUP> Tilove, Jonathan, ``BP is Sticking with its Dispersant 
        Choice,'' Times Picayune, May 21, 2010, http://www.nola.com/
        news/gulf-oil-spill/index.ssf/2010/05/
        bp_is_sticking_with_its_disper.html
<SUP>16</SUP> Gillis, Justin, Calculations of Gulf Spill 
        Underestimated, Scientists Say, New York Times, May 13, 2010, 
        http://www.nytimes.com/2010/05/14/us/14oil.html
<SUP></SUP>17 WDSU TV New Orleans, Plaquemines Parish: BP 
        Underestimating Oil's Effect, June 1, 2010, http://
        www.wdsu.com/news/23757362/detail.html
<SUP>18</SUP> Olsen, Lise and Eric Nalder, ``Offshore Accidents Bring 
        Few Penalties,'' Houston Chronicle, June 7, 2010, http://
        www.chron.com/disp/story.mpl/business/deepwaterhorizon/
        7039960.html
<SUP>19</SUP> Ibid.
<SUP>20</SUP> ExxonMobil, CITGO, Murphy et al reports as available at 
        http://farm.ewg.org/sites/labb/
<SUP>21</SUP> Vance, Sarah, THE UNITED STATES DISTRICT COURT, EASTERN 
        DISTRICT OF LOUISIANA, February 3, 2005, p. 18
                                 ______
                                 

 [NOTE: Ms. Rolfes' responses to questions were not received by the 
        time this hearing went to print.]

    Ms. Bordallo. Thank you very much for your testimony. I 
want to say that everything that has been said this afternoon 
on this Panel 3 has been very valuable to our Committee.
    One question I am just going to ask before I start with my 
questions, and I would like to welcome the Ranking Member, Mr. 
Cassidy, back. I know he has questions as well.
    You know, I keep thinking about the Hurricane Katrina and 
how disorganized that was following the hurricane. I remember 
watching on TV. I think some National Guard General jumped up 
on a truck and said, ``I am in charge.''
    Now, the incident commander in this case is supposed to be 
someone from the Coast Guard. Is that correct?
    Ms. Rolfes. Yes.
    Ms. McDonough. Thad Allen.
    Captain Lambert. Yes, Thad Allen.
    Ms. Bordallo. All right. Is everybody aware of that?
    Captain Lambert. Yes, ma'am.
    Ms. Bordallo. All right. Are they really indeed in charge? 
They are? They step right up to the plate? They are the ones 
you go to when you see all this? Because several of you in your 
testimonies prior to this panel have said things are 
disorganized.
    Ms. Rolfes. I think BP is in charge, and when I have spoken 
with people from the government, including the EPA 
administrator herself, I was expressing the opinion that sure, 
BP needs to pay, but why should they be administering all the 
response.
    And what I was told was that the Oil Pollution Act says 
that if BP is going to pay, then they have to run things also. 
I don't know if that is true or not, but in my estimation I 
think the response is certainly better than Katrina. I don't 
think there is any question about that, but in my opinion BP is 
absolutely running the show.
    Ms. Bordallo. Well, in any disaster, any incident, somebody 
has got to be the top gun. If they assign the Coast Guard, then 
they are the people that you have to go to and then they. in 
turn, can direct you in other directions, but someone has to be 
on the top directing. Several of you here said that things are 
disorganized, even to this day.
    Ms. Rolfes. That is true.
    Ms. Bordallo. So that is something maybe the Committee will 
have to look into that.
    Now I have questions for Mr. Williams. As a member of the 
Congressional Asian Pacific American Caucus, I am deeply 
concerned about the impacts of this oil spill on Vietnamese 
Americans, many of whom participate in the shrimp industry in 
the Gulf. Do you think outreach to these communities about the 
Vessels of Opportunity Program and the claims process has been 
adequate?
    Mr. Williams. I don't know if I would call it adequate, but 
I know that there has been some outreach to these communities 
through our organization. We have several of the Vietnamese 
American communities as members in our organization, and we 
certainly reach out to these folks as we do with everyone.
    I don't know as far as a government outreach. I couldn't 
speak to that, but I think they have been informed to a degree.
    Ms. Bordallo. One of our colleagues was here this morning, 
and he was concerned about this and so I thought I would ask 
that of you so we have it on the record.
    Now, BP has repeatedly stated that it will pay all 
legitimate claims, yet it has never expounded on what is and is 
not a legitimate claim. How does this lack of certainty impact 
those in the shrimp industry?
    Mr. Williams. It causes a lot of confusion with the Oil 
Pollution Act and the opportunity to file a lawsuit through a 
class action. It causes a lot of confusion. The members and 
members of the industry, they don't know what to do.
    But when BP is making statements that they will pay all 
legitimate acts or legitimate claims, but they don't define 
what a legitimate claim is. I think it causes a lot of 
confusion, and I think it is going to cause confusion because 
they won't go further than we will pay all legitimate claims.
    What do you consider a legitimate claim? Once again, they 
will say, ``We pay all legitimate claims.'' It is causing 
confusion right now amongst the industry.
    Ms. Bordallo. Well, the full Committee on Natural Resources 
has had a hearing where the BP executives were here, and they 
stated over and over again that they were going to pay this and 
pay that, and now I am hearing that there have only been some 
token checks issued for $5,000 to the fishery industry and they 
want to know. Have those claims been issued, I mean these 
papers to----
    Mr. Williams. I am not sure if all or any claims have been 
paid in full. I think the $5,000 is sort of a down payment on 
your claim.
    Ms. Bordallo. It is a token payment. Yes.
    Mr. Williams. Yes, until it is resolved at a later date.
    Ms. Bordallo. Well, that is not a lot of money, $5,000----
    Mr. Williams. No, it is not.
    Ms. Bordallo [continuing]. In a situation like this. Some 
of these fishery companies have several employees. Am I correct 
on that?
    Captain Lambert. Yes. Twenty-two families work out of my 
lodge alone.
    Ms. Bordallo. That is right.
    Captain Lambert. And the legitimate claim, the Oil 
Pollution Act, says that they are liable to pay net profit. So 
net profit is far from what your real expenses, fixed expenses, 
are.
    And, also, what they are waiting for and why, in my 
opinion, they are stalling is that every one of the shrimpers 
and fishermen that work in the spill, whatever they make goes 
to help mitigate the loss of BP. So if they owe me $1 million 
and I work all year long cleaning up oil and I make $900,000, 
they only owe me $100,000. Why should they be able to mitigate 
their losses and use us as free labor?
    Ms. Bordallo. That is right. Also now you don't know then 
if any claim documents have been issued to any of these people?
    Captain Lambert. What they have done, the first time you go 
in you file your claim. They give you a $5,000 check on the 
spot. Then shortly thereafter, like myself, they will put me in 
a big claims file, and they called the house this week and said 
we want a profit and loss statement every 15 days.
    Now, I don't do that for myself, and I am sure not going to 
make my CPA do it for them. I do quarterlies. All they are 
trying to do is, if the news media is staying at my lodge, they 
want to use that money to mitigate their loss.
    Ms. Bordallo. I see.
    Captain Lambert. They took and put me out of the very thing 
I do for a living, and if I go to WalMart and I am a checker 
and I make $50,000 that comes off of what they owe me. That is 
ridiculous.
    Ms. Bordallo. All right. So setting aside the $5,000 token 
payment, has there been any claims paid?
    Captain Lambert. Not so much as claims right now. There is 
another $5,000 in the mail, and it comes with----
    Ms. Bordallo. Yes. That is two. I understand there were 
two.
    Captain Lambert. Yes. It hasn't got there yet, but it is in 
the mail.
    Ms. Bordallo. I see. But no claims payments to your 
knowledge have been made?
    Captain Lambert. I think there was one offer of 60 percent 
of his gross I think they offered one guy.
    Ms. Bordallo. I see. Well, this is something we will have 
to investigate.
    I have a question then for Mr. Lambert. Yes. On Tuesday, BP 
announced that it would donate the net revenue from recovered 
oil from the well to create a new wildlife fund. For what 
restoration activities should this fund be used?
    Captain Lambert. I think all the money should go to CRPA 
and restore our coastline and open up the natural channels of 
the river and bring it back to where it was when I first 
started guiding between the levee and the Gulf of Mexico, 6.3 
miles. That was solid grasslands and solid estuary.
    Now there is not one blade of grass in that 6.3 miles. When 
I leave the dock, I could close my eyes, turn loose of the 
steering wheel and I won't hit anything. It is four foot deep. 
We need to restore Louisiana, and Mother Nature will take care 
of the wildlife herself.
    Ms. Bordallo. Ms. McDonough, has there been adequate 
training for tour operators to participate in the Vessels of 
Opportunity Program?
    Ms. McDonough. Yes, there has, and some of the tour 
operators have been in the Vessel of Opportunity Program, but 
when I left recently, they deactivated.
    Ms. Bordallo. Deactivated?
    Ms. McDonough. Deactivated. And what I am hearing from them 
is that they are now circulating vessels, but there are still 
vessels in our waters that are not local, and they are waiting 
in line and being deactivated.
    Ms. Bordallo. All right. One more question, and then we 
will turn it over to the Ranking member. How can data collected 
by your organization be better integrated to guide oil spill 
response and recovery activities? This is for Ms. Rolfes.
    Ms. Rolfes. There is no central--we have gathered oil spill 
data about refinery problems and oil spills and explosions. It 
is all from the record, from the records from refineries to the 
states and to the EPA. So certainly what we have is public 
information that is on our website.
    I think the issue is where is that amalgamation of data on 
oil spills? I mean, it wouldn't take an agency very long to 
just put together a database with all of the inspection 
information, as well as all of the spill information. It is 
just a matter of a few people sitting down and entering it into 
spreadsheets and then having a database that can be searchable.
    Without this kind of database, nobody--not a 
congressperson, not a citizen, not even the oil companies--can 
understand their comprehensive accident history. When we 
released our database, we actually had Exxon Mobil ask a local 
reporter what we found, and all we did was put their own data 
together. I mean, they just don't have a comprehensive 
understanding, and if they did it might help with prevention.
    Ms. Bordallo. Someone mentioned there was nobody from OSHA 
around.
    Ms. Rolfes. Yes. That was me. Yes, when these workers were 
sick. It is unbelievable. I mean, the workers, and I am sure 
you probably have friends who were made sick on these vessels 
when they are cleaning up. They are told they would be fired, 
and yet the answer from OSHA is that everything is normal.
    Well, they are not out on the boats monitoring where they 
ought to be. Every boat that goes out with cleanup workers 
ought to have monitoring on it. To me that is just common 
sense.
    Ms. Bordallo. All right. Thank you. And now I recognize Mr. 
Cassidy.
    Mr. Cassidy. Mr. Williams, I came in late, and I may have 
missed it as I scanned your testimony, but when we spoke 
yesterday, you had kind of a novel way of getting shrimpers 
back out in the Gulf shrimping. Do you want to explain that? Do 
you recall that?
    Mr. Williams. No. I am sorry. I didn't hear you.
    Mr. Cassidy. I don't have my glasses on, so if it looks 
like I am peering out into the distance I am.
    Mr. Williams. OK.
    Mr. Cassidy. It was about shrimpers perhaps getting a 
guarantee of a certain amount of money to return to shrimping. 
It will be a flat guarantee.
    If they go out and they don't get anything, their costs are 
met, but ideally they will go back out there and find something 
in the areas that are not closed off. Am I getting that right, 
or am I totally confused?
    Mr. Williams. Maybe I am confused. I don't recall that.
    Mr. Cassidy. No problem.
    Mr. Williams. OK.
    Mr. Cassidy. Now, ma'am, as with regard to paddle trips in 
the Pascagoula, there is not oil in the Pascagoula River, so is 
it this perception that is causing the paddling to be canceled?
    Ms. McDonough. Yes, sir. Yes. You know, coastal Mississippi 
and the whole Gulf appears awash, you know. And there are still 
some areas that tour operators could be getting their summer 
clients down, but there is a perception that it is everywhere. 
You know, unfortunately----
    Mr. Cassidy. So part of what we have to do, because Mr. 
Voisin who spoke about oysters earlier, spoke about how much of 
his oysters are still good, but there is a perception that they 
are not good.
    I suspect Mr. Lambert could take me someplace I can still 
catch my limit of speckled trout.
    Captain Lambert. Yes. Actually I have 10 boats running 
today, but that is the first trip in two weeks due to the fact 
that 99 percent of our trips are canceled.
    And the only reason this trip is they have been coming with 
me for years and they said we are coming even if you have to 
get some pigs and a band. We are coming. It was just support 
was all it was.
    Mr. Cassidy. But you are able to take them to someplace 
where they can catch fish that you can actually eat?
    Captain Lambert. I have 10 percent of my waters still open, 
and we are just utilizing what we have. I won't shut down until 
they shut me down.
    Mr. Cassidy. OK. So as much as anything, what we need to 
come out of here is an understanding that, although there is a 
terrible problem, for many people with viable businesses the 
Gulf is open and they can take their paddle trips in the 
Pascagoula and they can eat the shrimp, trusting that the FDA, 
the USDA, et cetera, are inspecting those and making sure they 
are safe.
    And so we want to avoid a manmade economic disaster on top 
of the manmade economic disaster. Does that make sense?
    Mr. Williams. Well, the problem is that when they close the 
waters, they will say at 6:00 tomorrow morning this area is 
closed, and I only have one area left. If they do that when 
people are eating dinner, I say ``Fellas, we just got closed. 
You all can't fish tomorrow.''
    You know, there are too much logistics on getting there and 
getting the people together in order to make it happen, so they 
just cancel.
    Mr. Cassidy. Yes. OK. So it is the uncertainty of it as 
much as anything.
    Ms. Rolfes, what I am told by the EPA folks is that the 
benzines, the aromatic amino acids, are quickly evaporated when 
they hit the water, that there is an air quality issue in the 
immediate area where the stuff is bubbling up, but certainly by 
the time it gets to the beach, the volatile organic chemicals 
have dissipated and what is left, for example, the weathered 
tar ball--I specifically asked about that--is basically inert, 
with nothing left that could harm you except dermatitis and 
irritation of the skin.
    They don't recommend bathing in it, but at the same time 
they say no special equipment is required to scoop up. So is 
your concern with the beach activity or is your concern with 
the folks actually going out testing near the explosion site?
    Ms. Rolfes. It is with both. Certainly the cleanup workers 
are a concern, but there are other activities that do impact 
air quality. For example, when there have been burn-offs on the 
ocean, as there were early in the spill, the impacts were felt. 
I think probably in Buras you all could probably smell things.
    And people continue to smell what they believe to be oil 
and gas. Although the hope certainly is that it would volatize 
and that it wouldn't affect people, I think that actual 
experience is proving to be quite different from that.
    The problem is that what we ought to do is just have air 
monitoring to figure this out one way or the other, right, but 
the monitoring--it is not dissimilar to the dispersant issue. 
There is a lot that we don't know. There is a lot that we don't 
know about the exposure to these chemicals low level over the 
long term.
    But more than that, the EPA is not monitoring in the right 
places. They are not doing hot spot monitoring at the moment 
when people smell it. They do have probably the most 
comprehensive air sampling program that we have ever seen in 
this part of the world, and I applaud them for that effort, but 
we need to have good monitors in Buras when people are smelling 
the bad things.
    Because what happens is people are exposed. They smell oil 
because they are burning it or for some other reason, and then 
EPA and OSHA come out and say there is no problem. What that 
does is it just breeds distrust and sadness about our 
government. It doesn't make me change my opinion that I was 
just exposed.
    And I think that there is a way to do the sampling right. 
We are trying to work with EPA to do that, but there is no 
question in my mind that people are absolutely being exposed 
onshore. I mean, again I could give you a sack of phone 
numbers.
    Mr. Cassidy. But is there any data? I presume you mentioned 
that DEQ and EPA----
    Ms. Rolfes. Yes.
    Mr. Cassidy [continuing]. Do have monitors out there. What 
do their monitors show?
    Ms. Rolfes. Some of their monitors do show fairly 
significant amounts of benzine in the air, which is a Class A 
carcinogen, so there is an amount of data that is showing that 
there is a problem.
    There is other data that is being collected absolutely in 
the wrong places, and the problem is that the EPA then uses 
this data to extrapolate to an entire region. So, for example, 
they would have an air monitor at the Washington Monument, and 
then use that data to say that the air in this room is fine. 
Well, all that monitor tell you is that the air at the 
Washington Monument is fine. You can't extrapolate it.
    Mr. Cassidy. So is the EPA incompetent?
    Ms. Rolfes. I don't think they are incompetent. I think 
they are working hard. I think that they need a new model for 
air monitoring, and doing something new is always scary.
    Mr. Cassidy. Now let me ask you, because it seems so 
apparent to you.
    Ms. Rolfes. Yes.
    Mr. Cassidy. But why is it so unapparent to them?
    Ms. Rolfes. Because I think it is a new model. You know, I 
have spent time with the administrator. I think they are not 
very comfortable, for example, giving Mr. Lambert an air 
monitor for his house, but they should be because he could be a 
partner on the ground to take a sample.
    I mean, he is a smart man. He knows how to use equipment. 
It is just a new model that they would be uncomfortable with.
    Mr. Cassidy. I yield back.
    Ms. Bordallo. I thank the gentleman from Louisiana. And now 
I would like to recognize the gentleman from Florida, Mr. 
Bilirakis. Is that close enough?
    Mr. Bilirakis. Thank you, Madam Chair. I really appreciate 
it. And thank you for allowing me to be on the panel. Thank 
you, Mr. Cassidy. I really appreciate it very much.
    I am proud to represent portions of Florida's Gulf Coast. I 
realize the economic and societal benefits of both recreational 
and commercial fishing. This industry generates $11 billion in 
Florida and $50 billion nationwide. I have grave concerns about 
the implications of the Deepwater Horizon oil spill on this 
dynamic industry.
    While our top focus must remain on stopping the flow of oil 
into the Gulf of Mexico, we must also begin looking at the 
long-term impacts that this disaster will have on the 
ecosystems and our economy and discuss solutions.
    Mr. Williams, welcome and thank you so much for your 
leadership at the Southern Shrimp Alliance. I am proud to say 
that we are both from Tarpon Springs, Florida. I know you are 
here to relay the fear, concerns, hopes and wishes of local 
shrimpers who have helped provide billions of dollars a year in 
revenue for Florida.
    You shared with me prior to today's hearing a real concern 
you have about BP's use of toxic dispersants. I know that you 
sent a letter to NOAA and the EPA and have been trying to get 
an answer from them about the implications of the long-term 
impacts that dispersants will have on the shrimping industry.
    I questioned NOAA earlier today regarding that very issue. 
However, I received an unsatisfactory response, really no 
answer. It is alarming to me that the government agencies 
tasked with protecting our natural resources in fact are 
clueless to the effects of toxins that they preapproved.
    Because one of the primary concerns is seafood safety, I am 
hoping that you might be able to offer some insight regarding 
the use of dispersants. I know you can only speculate because 
the government is not sharing information, but do you think 
fish species and seafood safety would be in less peril had 
dispersants not been used? The rest of the panel also is 
welcome to comment.
    Mr. Williams. I certainly do. Certainly I am not a 
scientist, but we sent our letter early on, May 5, and that was 
prior to their incredible amount of dispersants being used. I 
think since then they have used another million gallons of this 
dispersant.
    We sent a letter voicing our concerns that if you are going 
to use something that you have no science on, no data, you 
shouldn't try to mitigate one disaster by creating another one, 
and that is exactly what they did. They told us early on that 
oil would not reach the shores. It did. Now they are telling us 
dispersants are not that toxic. They can be used. They are not.
    We have Federal agencies reluctant to call it whatever they 
want to call it, plumes of oil down there. The fact is it is 
there. It has been proven. The data is there to prove it, but 
they are still reluctant to admit that this is a problem. It is 
a problem. It will be a problem not only for decades, but we 
feel generations.
    I don't know how you go about cleaning it up, but the 
dispersants have been used. They continue to be used, which 
they shouldn't. At one point EPA advised BP to use a less toxic 
dispersant. BP just basically refused and said no, that we are 
going to continue using this. This is the most effective. It 
was preapproved by EPA so we can use it.
    But, yes. To your question, I believe we have created a 
disaster that we will not be able to address for many, many 
years, possibly generations, by the use of these dispersants.
    Mr. Bilirakis. Anyone else like to comment?
    Captain Lambert. Why would they use the dispersants in the 
first place, if not to hide the fact that the oil is here and 
it is coming? If we could clean it off the surface, why not let 
it come to the surface?
    No one knows for sure the long-term effects because they 
haven't gave us the percentage of the compounds that are in it, 
but it is biotechnology that eats oil. There are so many high 
tech and private sector things that they can do, and no one is 
using anything. The whole thing is out of sight, out of mind, 
from the tar balls coming in under the water to the dispersants 
hiding the oil. The whole thing is a slight of hand show.
    Mr. Bilirakis. Thank you very much. As a followup, your 
previous answer suggests that you have been frustrated in 
trying to have a good dialogue with the government officials, 
whether it is NOAA, EPA, the Coast Guard or the Department of 
the Interior.
    Do you believe, and this is for the entire panel. Do you 
believe there is a deliberate effort to shut you and the entire 
fishing industry out of the conversation? I know they are not 
encouraging you.
    Captain Lambert. I don't believe, because I testified in 
Galliano when Secretary Salazar and Napolitano were in, and 
Secretary Salazar actually got up and made BP come to the 
Louisiana Charter Boat Association and negotiate.
    On the first negotiation, Senator Landrieu came to it at a 
restaurant, and she told BP. She said you know, the law states 
that you have to pay net profit, but net profit is the law. I 
am not in the mood for net profit. That is not making these 
people whole. You need to come and negotiate and find a better 
way.
    Mr. Bilirakis. Anyone else?
    Captain Lambert. So we didn't support it.
    Mr. Williams. Yes. I don't know if I would go so far to say 
it is a deliberate attempt to shut us out, but the fact is they 
have shut us out. For whatever reason I don't know, but they 
have shut our industry out. They have not responded to us.
    They are missing a great opportunity to allow industry to 
have input on all these actions and decisions, and to date they 
have not allowed us to do that.
    Mr. Bilirakis. Give me some ideas on how the Federal 
Government can partner with the local fishing industries.
    Mr. Williams. Well, as far as seafood safety and testing, 
we have basically an unlimited resource out there. The boots 
are on the ground, if you will.
    If they would just come to us, form a coalition or a task 
force, if you will, to involve the industry because these 
folks--it is pretty obvious that they cannot do this alone. We 
are probably the best environmental stewards of our resource 
that there is out there. We have to make a living off that 
resource, and we know it better than anyone.
    You just can't make the decision without involving us 
because we can do this as far as seafood testing, cleanup. We 
have thousands of boats that can be involved in the cleanup 
process. There are a few hundred now, but there can be more. 
Keep us involved.
    But when we are working on the cleanup at least provide us 
with the adequate safety gear that we need to keep these folks 
from getting sick. I have horrific stories of folks that are 
getting sick on these boats. Members, our organization members, 
directors are on these boats. They are getting sick.
    Innovative gear technology. You know, there is a move 
underway now from the industry to try to come up with a trial 
that could possibly work to clean this subsea oil out or 
subsurface oil out of the Gulf. We are working on that. That is 
what we do as an industry.
    We were involved from day one with the turtle excluder 
devices. That came from industry. You have to involve us to 
make sure that this works. Don't just sit back and have three 
agencies make decisions that impact us, when they could use us 
as a resource and these decisions will be better and a lot 
quicker.
    Mr. Bilirakis. Anyone else? Any suggestions from the rest 
of the panel?
    Captain Lambert. Yes. What we have done in Louisiana is 
equivalent to someone coming to you and saying let us levee off 
the Everglades to where no freshwater can get to it and just 
let it starve to death.
    So the biggest thing to fix this is to bring nature back to 
itself but, in the interim, while we are losing year class 
after year class until the dispersants and the oil are gone, we 
could have hatcheries like the CCA gentleman, David, had 
mentioned, to have hatcheries to put those year classes in so 
when the attrition takes the older fish and the breeders that 
we don't miss a few years where there are no fish. Oysters, 
shrimp, everything, crabs. They could do all of it.
    Ms. Rolfes. And it is a common dynamic when there is a 
problem--well, not just when there is a problem, but with the 
oil industry that it is the regulators like NOAA or EPA or 
whoever it is and industry talking. It makes sense that they 
talk because they are supposed to be regulating them.
    I think they get out of the habit of including the people 
who are the most impacted. I see it. I can tell you, I see it 
every day in the work that I do. And so from my point of view, 
you all could play a real service just every single time 
saying, ``Where are the shrimpers? Where are the fishermen?''
    Because out of habit they will not--out of habit and maybe 
something more sinister, but they will shut the people most 
affected out. I can tell you that is a pattern, and there needs 
to be a real strong movement to make sure they are included.
    Mr. Bilirakis. Very good. Thank you very much for your 
testimony, all of you. I appreciate it. I yield back.
    Ms. Bordallo. I thank the gentleman, and I think this 
pretty much brings our hearing to a close. I just have one 
quick question here before we wind up.
    We mentioned all the people that should be there, and are 
not there, and those that are there. National Guard. Have you 
seen them?
    Captain Lambert. Yes. There is a lot of Coast Guard 
personnel there, and they are working very, very hard to bring 
the sandbags in.
    When you say the helicopters are bringing them, you have 
18-wheelers bringing them in and you have guys filling them. I 
mean, they are working very hard in 96 degree weather with 100 
percent humidity. They are doing a good job.
    Ms. Bordallo. What states are these National Guards from?
    Captain Lambert. All over.
    Ms. Bordallo. All the Gulf states?
    Captain Lambert. Mostly Louisiana National Guard at this 
point, but----
    Ms. Bordallo. All right.
    Captain Lambert [continuing]. There are some of them up 
from different--some of the higher ups.
    Ms. Bordallo. Very good. Because I know they played an 
important role in Hurricane Katrina as well.
    Captain Lambert. They did indeed.
    Ms. Bordallo. Well, I thank the third panel for your long 
stay here up on the Hill all morning and most of the afternoon 
and all of the witnesses for their participation in the hearing 
today.
    Members of the Subcommittee may have some additional 
questions for you, and we will ask that you respond to these in 
writing. In addition, the hearing record will be held open for 
10 days for anyone who would like to submit additional 
information for the record.
    If there is no further business before the Subcommittee, 
the Chairwoman thanks the Members for their participation here 
this morning and also the Members of the Subcommittee who have 
participated in the hearing. The Subcommittee now stands 
adjourned.
    [Whereupon, at 3:29 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

         Email submitted for the record by Michael Broussard, 
                            Corsair Charters

From: <plus-minus>  Michael Broussard [<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e0d011c1d0f071c0d060f1c1a0b1c1d2e09030f0702400d0103">[email&#160;protected]</a>]
Sent:   Tuesday, June 01, 2010 1:41 PM
To:     Joanne McDonough
Re:     Oil spill effects

Hi Joanne,

    I hope this finds you happy and well but as you well know it is a 
bleak time we are facing now. So far my bookings are down 90% and I 
can't help thinking how terrible it must be for our animal friends, 
whom I love dearly, to die smothered in crude oil. I can't predict the 
future but I do believe my career of 46 years is over and life as we 
knew it is also. Economics ended my commercial fishing days. I thought 
I would finish my life as a charter operation but I do not at this time 
think that is going to happen. Seems as though I made a poor career 
choice but it has been one hellava ride. Probably wont be able to sell 
my boats and my property will be worth a fraction of what I paid for it 
but I'm sure we will all proceed bravely.
    Thanks for your help and I hope to see you soon,

Mike

Michael Broussard
Corsair Charters
                                 ______
                                 

      Letter submitted for the record by Captain Laurel Fleming, 
                            Daphne, Alabama

June 6, 2010

Joanne McDonough
Nature Tourism Specialist
Gulf Shores Convention & Visitors Bureau
Gulf Shores, Alabama 36542

Dear Joanne,

    In April 2005, I relocated to Gulf Shores, Alabama, to fulfill my 
dream of living on the gulf coast. By weaving both my horticulture 
background and sailing experience, I've made a niche for myself in this 
coastal community.
    Baldwin County thrives on tourism. The income I contribute to our 
household is derived 100% from the tourist trade. However, since the 
Deepwater Horizon incident, our tourism numbers have dropped 
dramatically. We have few guests to sustain our real properties, and 
few tourists to participate in our ecological tours and sailing 
charters.
    My friend and coworker, Captain Chris Nelson, and I joined forces 
and chartered Alabama Kayak Adventures. We provide guests the 
opportunity to discover and experience our lightly traveled coastal 
waterways via kayak. Many never know these estuaries, creeks, and bays 
exist. We educate them in the importance of our estuaries and explain 
how both humans and nature depend on these areas for everything from 
water filtration to seafood reproduction. They experience our wildlife 
in its natural habitat and discover flora and fauna not found on the 
beach. More often than not, what they see, hear, and experience are 
once-in-a-lifetime opportunities.
    Alabama Kayak Adventures also serves fisherman with inshore and 
near-coastal fishing tours. Most people who come here expect to fish 
for saltwater species in the bays and near the beaches, not bass in 
freshwater rivers. Now our waters are closed to fishing. Our business 
is being destroyed.
    Chris and I have poured our hearts and souls into this business 
only to have it crumble following the oil spill incident. The money and 
time we've invested into equipment, marketing, and education may never 
be recouped. We both earned our USCG Maritime Captain's licenses and 
Coastal Nature Guide certifications for the purpose of providing these 
memories to our Gulf Coast visitors.
    As a deckhand aboard Cetacean Cruises sailing charters, we have 
suffered major income losses, and I depend on gratuities. We have gone 
from daily cruises to one or two cruises a week, and the number of 
passengers has dwindled to minimal. On these cruises we view and 
educate passengers about a favorite natural resource, the wild 
bottlenose dolphin. These creatures are oftentimes the highlight of the 
evening. Also within our sights is a Bald Eagle's nest. These 
magnificent raptors are returning to our area, and our guests are able 
to view this symbol of freedom in the wild, not behind the bars of a 
cage. Today few tourists are booking these cruises. Who wants to 
vacation in a spoiled environment?
    Our livelihoods are dying along with the estuaries and sea life of 
the region. The residents of the Alabama Gulf Coast are fighters. We 
will survive, but how? If we can't use the natural resources we so 
desperately depend upon, what are we to do? For some, this community 
and way of life is all they know. God help us all.

Respectfully,

Captain Laurel Fleming
Daphne, Alabama
                                 ______
                                 

            Email submitted for the record by Lynn Irving, 
                         Dauphin Island Kayaks

From:   <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="32765347425a5b5c7b415e79534b53594172535d5e1c515d5f">[email&#160;protected]</a> [mailto:<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="501431252038393e19233c1b3129313b2310313f3c7e333f3d">[email&#160;protected]</a>]

Sent:    Friday, May 28, 2010 10:56 AM To: Joanne McDonough

Subject:  Re: I am going to Washington, DC to testify

Hi Joanne,

    Things are like a ghost town. I am down about $3000. now from this 
time last year. I have gotten $1000. so far. We had just bought another 
jeep 4 days before the spill. My mortgage went up to $1408. from $800. 
because of ins. I had made almost $6000. in Jun and July from last 
year. The monies we made in mar. and apr. we spent replacing and 
updating supplies. My house cleaning will not really help or Mike's 
cooking job 3 days a week..at a seafood rest, so the trickle effect is 
starting. My accountant was supposed to finish my '08 and '09 taxes but 
she is loosing her mind and cannot handle the stress anymore. Her 
income came from the big fish co's in Bayou. She is 63 and is in a 
state to find a job. There really aren't any in Mobile.
    I have had a few rentals, $400. since apr. 19th. They want to help 
us in our time of need and pray that it will not hit us..but we know 
better with that plume coming into mobile bay. It is killing me and I 
am sad about the animals especially that little dauphin we saw on our 
dauphin boat tour. I am soooo sick to my stomach and I feel panicky. I 
may loose my house which I only owe $44000.and my jeeps. I depend on my 
eco tourism income to get through the winter. My house is not in 
sellable condition and I guess it won't really matter. I went to my 
shrink yesterday, he is worried about me. I went through loosing my 
husband, my dad, my 21 yr old cat, my restaurant and roof to Ivan and 
fighting cancer, all from '01--'04. Been struggling since Ivan and 
Katrina to keep my biz going. '08 was finally the light at the end of 
the tunnel. I guess this proves we should not count of anything.
    There are so many people that may lose everything and the 
environment will never be the same.
    I love you Joanne and I know you are heart sick also, and thank you 
for every thing you have done for me and soooo many. Give my regards to 
Washington and tell them that BP needs to pay for our homes so we can 
move to another area where there are jobs.
    Again.. Thank You..

Lynn
                                 ______
                                 

 Memorandum submitted for the record by Melissa Johnson, Paul Nettles, 
  Cynthia Ramseur, and Leah Bray, Owners, South Coast Paddling Company

MEMORANDUM

To:     Subcommittee on Insular Affairs, Oceans and Wildlife. 
Via Joanne McDonough, Nature Tourism Specialist

From:  South Coast Paddling Company

Re:    June 10, testimony regarding BP drilling disaster in Gulf of 
Mexico and its impact on nature tourism in coastal Mississippi.

    As of last evening, 25% of the Gulf of Mexico is closed to fishing. 
Patches of oil and debris from the original blow-out of Deepwater 
Horizon have been coming onto Mississippi barrier islands and western 
shores for about two weeks. Oil has been gushing at an unknown daily 
rate, somewhere between 210,000 gallons and one million gallons per 
day, since April 20. It is a calamity, an economic and environmental 
disaster of unprecedented magnitude. No one knows what the impacts will 
be on our fragile coastal ecosystems. We are all stunned and afraid - 
and most of us had yet to recover from Hurricanes Katrina and Rita in 
2005. Now we must face an ever-growing disaster with lesser known 
negative impacts to our environment, our communities, our livelihoods, 
our homes and families.
    The fear and uncertainty have had a direct impact on South Coast 
Paddling Company's kayak touring business. Within days after the 
drilling rig blow-out, we started receiving cancellations of 
reservations. Local residents who might use our kayak touring services 
are not booking reservations. Visitors are not coming to the Gulf 
coast.
    We fear that the start-up financing spent over the last year will 
not yield the anticipated business over the summer, leaving us with 
very little optimism for the future.
    We set out with a solid plan to build a business based on a need in 
this community. In good faith and with the unqualified approval of our 
lender we took out a loan. We made all the right contacts and got more 
than adequate media coverage for events held to promote ourselves, the 
paddling community, and our city. The early spring bloomed with a 
promise of reaping the benefits and sharing our gorgeous waterways with 
others. On a day in late April a blowout at the Deepwater Horizon wiped 
out all our efforts in a matter of days.
    We do not blame ourselves: we blame our government's ineptness at 
regulating a polluting and dangerous industry and we blame BP 
executives for their greed and disregard for human life and natural 
resources.
    This month, during the season when we should have been running 
trips all week long and banking for the slower winter, we will not be 
able to pay our employees, our rent, our bank note. We have applied to 
BP's damages and claims department and while they sound helpful, and 
the amount of money they have they distributed as of May 31st is $39.4 
million to 30, 619 claimants. According to these figures put out by BP 
in the Deepwater Horizon Joint Information Center updates each claimant 
so far has averaged about $1200.
    The early anxiety over how quickly they will get this stopped is 
giving way to a deep seated dread of how the disaster on our coast will 
affect every living creature here--the very web of existence. As 
worried as I am for my business, there is a far greater tragedy 
unfolding unseen here. As a human being I have options; I may be 
bankrupted, but I can devise a fresh plan and make a new start. My 
heart aches for my fellow inhabitants: for the least terns, black 
skimmers, dolphins, and turtles. They have no choices, they have been 
created to live and feed a certain way. Whether they are oiled or 
whether their food sources slowly dwindle, they are helpless to change 
their fates.
    In closing, there are two intertwined tragedies occurring: the one 
that involves the environment and the one to the people who live here. 
None of our lives will be the same. BP and fellow companies have been 
allowed through government neglect to create a perfect storm of 
unprecedented magnitude and small companies like us, the tidal marshes, 
and the vast Gulf with its hidden beauties will pay the price.
    We are asking that all speed be made to end the current calamity 
quickly. We further ask that no efforts be spared in keeping this sort 
of disaster from happening to others. For the people of the coast 
please exert your influence to insure that we are truly compensated for 
our losses. For this place and its non human denizens: pray, and try to 
prevent even more harm from occurring.

Sincerely,

Melissa Johnson, Paul Nettles, Cynthia Ramseur, Leah Bray
Owners, South Coast Paddling Company
2335 Government Street, Ocean Springs, MS 39564
228-872-2030 www.southcoastpaddling.com
                                 ______
                                 

        Letter submitted for the record by Capt. Bill Mitchell, 
                         Orange Beach, Alabama

                    Bill--The Dolphin Cruise Captain

    I chose to live in this area 13 years ago because it was wild and 
beautiful. I bought waterfront property with the hope of starting a 
dolphin and nature cruise business and paying off the loans in 15 
years. For seven years I have worked year round many times 12-14 hours 
a day to build my dream and be in a position to retire in the beautiful 
place I love.
    Now the wildlife I take people to see is in danger and the 
customers I depend on to pay my bills aren't coming. Even the property 
I have may be worth much less or undesirable to live on. What did I do 
wrong to deserve this? How do you make me and my dream whole? How many 
years will things be worse and how long will BP work to restore what we 
have lost?
    So far I have received nothing. My boats have not been allowed to 
work in the vessels of opportunity program while boats from unaffected 
areas of the country have flooded in to work. My claim requests have 
been met with requests for volumes of financial information. I have 
given BP everything they requested to document my business and its 
losses including daily income records for years, tax documents for 
city, county, state and federal agencies, vessel information, as well 
as very detailed personal information. I have been treated like a 
criminal when they are the ones stealing my livelihood. I got my claim 
number a month ago and have not seen a penny, only promises of a $5,000 
advance? All the people who work for me are suffering but I can't get 
any help!
    How is BP making me whole as they promised? What has the government 
done to make sure we get help? I can't wait for the years of litigation 
that are coming. Does anyone hear me? I have a small business on the 
beautiful coast of Alabama, will it last?

Capt. Bill Mitchell
Orange Beach, Al
                                 ______
                                 

   Letter submitted for the record by Captain J. Christopher Nelson, 
                     Alabama Kayak Adventures, Inc.

Dear Joanne,

    I have lived here on the Gulf Coast for about seven years. I am an 
outdoors man and decided to open up a business that would allow me to 
spend more time with the salt waters that I had grown to love. I 
proceeded to acquire my USCG Captains License. After obtaining that 
license, I began to build Alabama Kayak Adventures, Inc. I had a goal 
to create a business that would provide people an opportunity to 
observe nature, enjoy beautiful scenery, and relax with a slow paced 
experience. It also would allow me the pleasure of spending time on the 
water and to make a career from the resource that I love. I have worked 
closely with you and other experts in our Convention & Visitors Bureau, 
as well as with the Mississippi-Alabama Sea Grant organization and many 
other well respected groups to learn as much as I can about our eco 
system. I even obtained my Coastal Guide Certification.
    A little over a month ago, when the Deepwater Horizon incident was 
reported, I began to slowly realize that my future on the water may 
never happen. After only a few short months in business, there will be 
no way for me to provide for my family with a tourism based business. 
Baldwin County, Alabama, has a tourism-based economy. There are no 
significant quantity of products manufactured here. We make memories in 
people's lives, we provide a place: THAT is our product. Today the 
state fishing pier was closed at 6:00 pm and a swim advisory was posted 
advising against swimming on our beach. This was a result of the recent 
oil contamination on our beach. Our community will slowly dwindle. The 
sea turtles will not make it to the beach this summer, The tarpon will 
not migrate here this July. Heaven help the 11 or 12 summer-resident 
manatee that are now migrating from south Florida. The tourists will 
not be here for the 4th of July holiday. Why come to a beach community 
that has no beach? The snow birds will not come in the winter; after 
all, the beach will not be fit for even a midday stroll.
    I am not a tree hugger, nor have I ever been opposed to drilling in 
our Gulf waters. I have complained just like the next guy about the 
price of my fuel at the pump, but never really even considered an 
alternative. I only expected that each person working with the 
petroleum industry in the Gulf of Mexico treat it as if it were their 
own back yard. Apparently that was not the case. Today my community is 
in distress. It is unlikely that we will recover from this for many 
years. I will not receive a dime from BP, yet they have taken my career 
as well as the careers of many of my friends. I have always been a 
realist, not a pessimist, but when it came to our beautiful natural 
wildlife, I was an optimist. Today I cannot claim that. I have lost 
hope. The US Government, BP, and this disaster has taken away my 
spirit.

Sincerely,

Captain J. Christopher Nelson
Alabama Kayak Adventures, Inc.
                                 ______
                                 

           Letter submitted for the record by Sherrie Reas, 
                Skipper ``J'' Dolphin and Nature Cruises

    I took the boat today from The Wharf out to Tacky Jacks. I looked 
around at the birds fishing in Mobile Bay and I realize what I was 
seeing could soon be a thing of the past. If the oil gets in our bays, 
the birds I watched today will probably die. The sad part is there is 
not much I can do to stop it. Going out and looking at booms everyday 
and reporting problems with them is the only thing I can do at this 
time. I know that this oil will effect every person in this area in one 
way or another and I am saddened at all the hurt it will cause. The 
animals can't run and they can't hide and we can't protect them from 
this. I am at a loss as is everyone who lives in this area.
    My business is suffering now and will continue to suffer until this 
mess is cleaned up and all our animals are thriving again. We can't 
take people out to see oil, they want to see nature.
    Thank you for all your help and concern in all this mess. I will be 
thinking of you on the 8th.

Sherrie Reas
Skipper ``J'' Dolphin and Nature Cruises
                                 ______
                                 

          Letter submitted for the record by Homer Singleton, 
                    Volunteer Water Quality Testing

    I don't know exactly how feasible the webcam idea is but what 
brought it to mind is that dolphins have been seen in weather or beach 
cams from time to time. With a little input from the dolphin watch 
people choosing strategic locations shouldn't be a problem and with 
minimal training a volunteer could screen the footage so that the pro's 
only have to screen useful segments. webcams tolerant of our conditions 
may be expensive but I suspect they are quite economical compared to 
putting salaried people our there to collect the information. The 
alternative is where we are now, which is we just don't have the 
information.
    The issue of adequate labs is a major issue. The specimens I 
collected two weeks ago are frozen and stored with specimens from 
earlier that week, from the week before and from the month before. I 
think a considerable number from earlier in the year or last year have 
been sent in but the current ones are sitting in the freezer until the 
budget permits.
    Part of our understanding of Wolf Bay was being improved through 
nutrient studies as part of the phytoplankton monitoring network (read 
Harmful Algae Bloom monitoring for the more familiar tag). It's ended 
for lack of funds. That's particularly disconcerting since a study 
(Auburn University) of the watershed (tributaries) is in progress. The 
correlation of data from the two projects would have been far more 
helpful that either is alone.
    Right now there's an emphasis on computerization and modeling. The 
problem is that it is useful only on large scale applications. So when 
when we come down to practical applications (Corps of Engineers 
permitting for example) the large scale ``data'' is just not useful at 
that level. Wolf Bay Watershed is 12 miles by 10 miles.
    Some of what was our more valuable assets is the salt marsh about 3 
miles long and 3/4 mile deep along the south western bank of the bay.
    It used to furnish enough shrimp to support a lively little 
recreational shrimping action daily during the season. Now we seldom 
see two boats shrimping, let alone the dozens that once did. Why? 
Nobody knows because we don't have the data. Volunteer efforts have 
tried to make inroads in the void but there just isn't enough support. 
A considerable portion of the monitors I've trained don't monitor today 
because they can't get the equipment and chemicals necessary. We have 
funding available for education, not enough but we have some. 
Unfortunately there is virtually no funding for the ``educated'' to do 
what needs to be done with the education. There's a huge deficiency in 
follow up, follow through or what ever you what to call it. We can 
babble on about science interminably, but it's meaningless without 
data.
    What that means in the face of the looming threat is that we 
probably will not be able to quantify the full nature and extent of the 
damage and loss. We just don't have the data. But the worse aspect 
comes when we try restoration. There are just too many gaps in our 
knowledge to be able to put marsh back.
    The oil may blow ashore here. If it does we will pay dearly for our 
failure to learn what we could have learned. The real crime and 
tragedy, however, would occur with the next spill if we do not learn 
from this experience so that we institute and fund the study necessary 
to know how to respond.
    There is the need for precautions and better containment and 
recovery at the drill site if we continue to drill. But there is an 
equal, if not greater, need to know our shores well enough to care for 
them. There have been many spills since drilling began in the Gulf of 
Mexico, not so bad as this, but none have been good that I have heard 
about. To hope that there won't be another bad one would be like 
playing russian roulette, not the smartest thing I ever saw.
    By the way, I hope the dolphin watch folks are keeping logs of the 
individuals and pods they are sighting. That will be important if our 
population is impacted.

Homer Singleton
Volunteer water quality testing
                                 ______
                                 

       Letter submitted for the record by Capt. Kathy Wilkinson, 
                  Eco-Tours of South Mississippi, LLC

Hi, Joanne.

    I'm glad they've asked you to testify--I'm sure you'll do a great 
job. I think my concerns are the same as everyone's as far as wildlife 
goes... There is no way to express the worry I have for the estuary 
should the oil penetrate the mouth of the river. It makes me physically 
ill to think about the possible effects of the oil.
    I began my business, Eco-Tours of South Mississippi, in the spring 
of 2006. The business was growing slowly, but steadily over the past 
four years. The economic downturn of 2008 was a bump in the road, but 
we were enjoying a slight resurgence in the past 6 months. I was 
looking at my best spring ever--March was my best March so far, and 
April was shaping up to be the best April. That is, until the oil 
spill. The first week or so, people were simply sizing up the spill. I 
was extremely frustrated by the reaction of both BP and our government. 
By the end of the first week and a half of the spill, my phone had all 
but stopped ringing. This time of year, we normally receive multiple 
phone calls each day that result in quite a few bookings. I'm still 
doing some tours, but the volume I was expecting this spring has not 
materialized.
    So... that's that... I'm worried about the future of the Gulf; the 
future of the estuary; the future of my business, and just hope the oil 
gusher in the Gulf of Mexico doesn't change life as we know it here on 
the coast.
    Good luck. Let me know how it goes.
    All the best,

Capt. Kathy Wilkinson
ECO-TOURS OF SOUTH MISSISSIPPI, LLC
228-297-8687
www.ecotoursofsouthmississippi.com

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
